<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-440]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 108-440, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                       MARCH 3, 10; APRIL 2, 2004


         Printed for the use of the Committee on Armed Services

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2005--Part 5  EMERGING THREATS AND CAPABILITIES


                                                 S. Hrg. 108-440, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                       MARCH 3, 10; APRIL 2, 2004


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
93-575 PDF                 WASHINGTON DC:  2005
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman
JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas
                    Judith A. Ansley, Staff Director
             Richard D. DeBobes, Democratic Staff Director
                                 ------                                

           Subcommittee on Emerging Threats and Capabilities

                     PAT ROBERTS, Kansas, Chairman
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              EDWARD M. KENNEDY, Massachusetts
JOHN ENSIGN, Nevada                  ROBERT C. BYRD, West Virginia
JAMES M. TALENT, Missouri            JOSEPH I. LIEBERMAN, Connecticut
SAXBY CHAMBLISS, Georgia             DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    BILL NELSON, Florida
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
    The Role of Defense Science and Technology in the Global War on 
            Terrorism and in Preparing for Emerging Threats
                             march 3, 2004

                                                                   Page
Uhler, Dr. Dale G., Acquisition Executive and Senior Procurement 
  Executive, Special Operations Acquisitions and Logistics 
  Center, United States Special Operations Command...............     7
Waldhauser, Brig. Gen. Thomas D., USMC, Commanding General, 
  Marine Corps Warfighting Laboratory; Vice Chief, Office of 
  Naval Research.................................................    12
Cartwright, Brig. Gen. Charles A., USA, Deputy Commanding General 
  for Systems of Systems Integration, United States Army 
  Research, Development, and Engineering Command.................    17
Sega, Dr. Ronald M., Director, Defense Research and Engineering..    31
Killion, Dr. Thomas H., Acting Deputy Assistant Secretary of the 
  Army for Research and Technology, Chief Scientist..............    38
Cohen, Rear Adm. Jay M., USN, Chief of Naval Research............    45
Engle, James B., Deputy Assistant Secretary of the Air Force for 
  Science, Technology, and Engineering...........................    52

 Defense Nuclear Nonproliferation Programs of the Department of Energy 
  and the Cooperative Threat Reduction Programs of the Department of 
                                Defense
                             march 10, 2004

Longsworth, Paul M., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy...........................................   119
Bronson, Lisa, Deputy Under Secretary of Defense for Technology 
  Security Policy and Counterproliferation.......................   129

                        Counternarcotics Program
                             april 2, 2004

O'Connell, Hon. Thomas W., Assistant Secretary of Defense for 
  Special Operations and Low-Intensity Conflict..................   167
Clingan, Rear Adm. Bruce W., USN, Deputy Director of Operations, 
  U.S. Central Command...........................................   172
Mixon, Brig. Gen. Benjamin R., USA, Director of Operations, J-3, 
  U.S. Southern Command..........................................   174

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                                Committee on Armed Services
                                                    Washington, DC.

    THE ROLE OF DEFENSE SCIENCE AND TECHNOLOGY IN THE GLOBAL WAR ON 
            TERRORISM AND IN PREPARING FOR EMERGING THREATS

    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
room SR-325, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Allard, 
Collins, Reed, and Clinton.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Elaine A. McCusker, 
professional staff member; and Lynn F. Rusten, professional 
staff member.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Darren M. Dick, 
assistant to Senator Roberts; Derek J. Maurer, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Graham; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Elizabeth King, assistant to Senator Reed; Richard Kossler, 
assistant to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; and Andrew Shapiro, assistant to Senator 
Clinton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The subcommittee will come to order. Good 
morning, and thank you all for joining us today. This morning, 
the Subcommittee on Emerging Threats and Capabilities meets to 
receive testimony from representatives of the Department of 
Defense (DOD) on science and technology (S&T) programs and 
their role in the global war on terrorism and also in 
confronting emerging threats.
    I'd like to thank the witnesses and I would really like to 
thank those who have provided the demonstrations in the back of 
the room for their participation.
    I would urge all members, and when they come in, I will 
urge them again, and I would urge all those in the audience to 
take a look at the demonstrations that we have in the back of 
the hearing room.
    These displays, I think, have helped us all better--I know 
they have helped me--appreciate and understand the role that 
S&T plays in equipping, training, and also protecting America's 
fighting force, i.e., the warfighter.
    Let me say from the outset that as I went around the back 
of the room, and I apologize for missing some of the 
demonstration projects, but it indicates to me how important it 
is that we somehow meet the goal of 3 percent of defense 
spending for S&T and maintain the technological lead that is 
absolutely essential if we're going to continue to be 
successful in the global war on terrorism.
    We have some stand-off equipment in regards to check 
points. We have Mr. Omni-Directional Inspection System (ODIS) 
over here on the floor, whom we could use by the Hart Building 
and probably speed the--I know speed doesn't work very well in 
the Senate, but at least to get Senators and also our visitors 
and other important people into the buildings. Why, ODIS could 
certainly do that job.
    We have some unmanned aerial vehicles (UAVs) that can do 
the same thing in regards to check points. In the back, we have 
the Omni directional system. Actually, that's displayed and 
that's ODIS. We have 20 of the ODIS in operation as of right 
now--no. We have 20 and 10 are in operation.
    Mr. Ranking Member and Senator Collins, I don't know why I 
got into all this, but at least give me a little slack here and 
I'll be all right.
    We have a new bandage back there, and I can't read my 
writing, but basically it's made up of shrimp cells and 
vinegar. We have 3,000 of these. We need probably 303,000. It 
could be applied to a shrapnel wound or any other wound that is 
experienced in combat and save lives immediately.
    We have another testing device over there right next to 
this bandage. It's C-H-I-T-O-S-A-N. I don't know how you 
pronounce that. We'll have to get a better acronym if we're 
going to work that out.
    Then we have the taser and the shock demonstration. I urge 
everybody to go back there with the little black box. Put your 
finger on the little projectile and see how that feels. I did 
that three times and my finger is numb. You can see what would 
happen if that were used on an individual in terms of crowd 
control. If you had that kind of capability set back from what 
was happening in Iraq last night and the crowd control in the 
future, or something that would happen here in the Capitol area 
or, for that matter, anywhere. You can see where we're headed.
    I was impressed with the Phraselator that deals in 53 
languages. I spoke English and it came back to me in Iraqi. 
Then we have a whole series of other demonstrations back there. 
Part of the big challenge with those projects is to have 
interchange and interoperability and a funding source that is 
constant so we can not only get these things out and have them 
tested in theater, but to have the funding so that we can 
proceed and then usually have a second development, a third 
development, so on and so forth.
    There's an outfit back there called Portable Iris 
Enrollment and Recognition (PIER) 2.3. I just read in the paper 
today, Senator Reed, that the Federal Bureau of Investigations 
(FBI) and the Border Patrol say it's going to take 4 years to 
somehow get the data on fingerprinting to match up in terms of 
the database that the Border Patrol has and the FBI has.
    Yet, we have an outfit back here that's about this big and 
this high in regards to focusing on the iris fingerprinting amd 
facial recognition.
    Basically that goes into a database. Why on Earth we could 
not get some kind of a--I don't know what to call it--you have 
to get that kind of unit in the hands of the FBI and the Border 
Patrol rather than spend 4 years trying to work on the 
fingerprinting. But you can see some of the options here.
    We have Tactical Aircraft Directable Infrared 
Countermeasures (TADIRCM). We need to have an agency in charge 
of better acronyms. That's all there is to it.
    We worry about surface-to-air missiles from terrorists 
attacking commercial and military aircraft. This is something 
that could provide us not guaranteed protection, but basically 
in flying the no-fly zones that we used to fly, much improved 
safety for our pilots.
    With all the concern about commercial aircraft, I think 
that's the kind of thing that we're talking about. I told one 
of the reporters here this has application not only for the 
warfighter but also for homeland security.
    All right. Enough of my editorials about the fine 
demonstrations. I want all of you after this is over--they're 
going to stay 15 minutes--to get in line and quick step right 
around there so you can see what these companies and 
contractors are doing.
    Our first panel today represents technology operators and 
the warfighter and will inform us about the value of S&T 
programs from the perspective of those who receive new 
capabilities and put them to use.
    Our second panel represents the S&T executives and will 
also address the design and the mission of technology and 
transition as well as priorities and budget for the S&T 
portfolio.
    As demonstrated here today, decades of investments in basic 
and applied research have led to a force that is better 
equipped and protected. Many times you have a hard time 
explaining to our colleagues the value of basic research, but 
that is one area that we must certainly protect.
    Our military possesses new standoff detection, 
surveillance, and, when needed, lethal capabilities.
    What we don't have on display, but that represents another 
key return on our investment, is people. That's the chemist or 
the material scientist or the physicist or the computer whiz or 
the graduate student who will craft innovations for our future 
fighting force.
    So today's agile and adaptive fighter will continue to face 
new battlefield challenges. We learn, they learn, and then we 
learn again.
    We require an educated, well-trained resource pipeline from 
the researcher to the trigger puller to the operator to the 
field commander and on up. A vital question we plan to explore 
today involves whether we have enough of the right people 
trained, at least in part through funding and programs that are 
provided here.
    We have seen this morning examples of the transition of 
technology from the vision stages to the lab to the prototype 
to the demonstration to testing and fielding, which really 
forms the key component of our military might and capability. 
We must continue in our determination and our ability to adapt 
to emerging challenges and improvise existing capabilities in 
new ways.
    This involves, as I said before, basic research, including 
the creation of new tools and devices even before we fully 
realize what their use might be. It is a hard sell, but it is 
very important.
    This subcommittee oversees a set of bridge programs that 
are designed to ensure that we cross the technology so-called 
``valley of death'' in both directions, avoiding the 
disappearance of research results onto the shelf, where they 
never see any transition or use, and allowing for operators' 
feedback into the research pipeline.
    Our investment in these transition programs has increased 
32 percent over the last 3 years, and we look forward to your 
comments on the effectiveness of this investment in meeting our 
Nation's needs.
    I have questions on the long-term viability of our current 
investment strategy and concern about the Department's apparent 
deviation from its projected 3 percent goal for S&T.
    I know Senator Reed and Senator Collins share my view that 
this is a goal we should meet. We have not met it, and we have 
not met that goal in this year's budget. But in terms of 
increased funding from year to year, we are headed in the right 
direction.
    Now, in thinking about any future threat and asking 
ourselves from a national security perspective what really 
keeps us up at night, we are always led to the next question, 
what have we done and what more can we do. S&T is a very key 
part of that answer.
    We look forward to hearing from each of the witnesses. 
Please know that your full written testimony will be included 
in the record. Most senators can read, all staff can read, and 
so you can summarize your comments if you so choose to allow 
time for questions and answers for both of our panels today. I 
would ask that you very briefly summarize your remarks--
something I am not doing, and I apologize.
    Again, I thank you for being with us this morning. I now 
recognize our distinguished ranking member, Senator Reed, for 
any comments he wants to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
thank the witnesses and also thank all the individuals that 
made these very interesting and informative displays possible 
this morning.
    This hearing gives us an excellent opportunity to see how 
investments in S&T can save lives and increase the 
effectiveness of our forces all over the globe. From armor 
protecting soldiers from rocket propelled grenades (RPGs) to 
UAVs, to new precision munitions, we have seen how advanced 
technologies have enabled the success of our forces in the 
global war on terrorism and in operations in Iraq. We are all 
very grateful that the organizations that are represented here 
have been so responsive to the needs of our combatant 
commanders and their specific emerging technology requirements. 
I hope that in this hearing we can examine all the important 
pieces that must be in place to ensure that the rapid 
deployment and development of technology is possible.
    For example, I hope the witnesses can describe how they 
work with their contractors, defense labs, and the industrial 
base to ensure that we can rapidly manufacture these innovative 
technologies on demand and in sufficient quantities.
    In particular, it would be interesting to learn how our 
investments in manufacturing technologies and in our technical 
workforce contribute to this capability to surge production.
    I also hope that we can examine the funding mechanisms that 
are used to support the rapid transition of these technologies. 
Most government funding processes are extremely rigid and slow. 
So it is remarkable in many cases that money can be moved fast 
enough to address any emerging requirement in a timely fashion.
    I hope the witnesses can make clear whether funding has 
been included in special technology transition accounts or 
supplemental appropriations, whether it required reprogramming 
funds from other critical needs or whether new funding 
mechanisms need to be devised. That's something that we can 
work on in this subcommittee.
    Finally, I hope we can discuss the S&T programs that 
develop these technologies in the first place and provided us 
the possibility of meeting some real needs in Iraq and 
Afghanistan.
    As I visited Iraq last July, the first thing that my 
National Guard military police (MP) men and women told me was 
they needed armored High Mobility Multipurpose Wheeled Vehicles 
(HMMWVs). The Army has been responding and the kit that's being 
developed by the depots is one response to that.
    So I commend all of you for your response to these 
individual needs of the soldiers and marines in the field.
    We should always remember that the technological advantage 
that we currently enjoy should not be taken for granted. It has 
been earned through years of stable investment in S&T and the 
hard work of scientists, engineers, universities, small 
businesses, governmental labs, and the defense industry.
    It was the research investments of the 1980s and the 1990s 
that have led to the Global Positioning System (GPS)-guided 
munitions, unmanned vehicles, and instantaneous communications 
that are making the difference for countless young people 
serving today. We must ensure that these investments are 
continued for the sake of those who will serve tomorrow.
    This hearing brings into sharp focus the role that S&T 
plays in the current operations of our military. That is why it 
is so disappointing that the President's 2005 budget request 
cuts S&T by $1.5 billion as compared to last year's 
appropriated levels.
    The request also does not meet the goal of investing 3 
percent of the DOD's budget in these innovative S&T programs. A 
concern I share with the chairman.
    The reductions in these programs may severely impact the 
work that is done by our Nation's high-tech small businesses as 
well as the university research programs that are training the 
technical workforce of the future.
    I look forward to learning how these budget decisions were 
made and how they will impact our ability to continue to 
produce the critical lifesaving technologies that we are 
highlighting today.
    Once again, welcome to our distinguished witnesses and I 
look forward to their comments. Thank you.
    Senator Roberts. I thank my colleague and friend.
    Senator Collins, would you have any opening comment?
    Senator Collins. Mr. Chairman, in the interest of time, I 
will just submit my statement for the record and look forward 
to hearing from our witnesses.
    Senator Roberts. I truly appreciate that.
    [The prepared statement of Senator Collins follows:]

             Prepared Statement by Senator Susan M. Collins

    The past 2 turbulent years have demonstrated that an investment in 
innovative research and development (R&D) will help to ensure that our 
Nation's military accomplishes its vital missions.
    The continuing source of ingenuity provided by our R&D community 
has demonstrated that it is instrumental in the war on terrorism. 
Defense R&D runs across a broad spectrum of projects from widely known 
programs to those which receive scant attention. But each program is 
necessary to our continuing efforts to provide for national defense and 
engage the enemy abroad. Our soldiers should have the best tools 
possible for their missions. Mr. Chairman, members of the subcommittee, 
and members of today's panels, our soldiers deserve nothing less.
    Our science and technology (S&T) community has produced or is 
continuing to develop technologies that only a few decades ago were 
unknown or deemed impossible to achieve in our own lifetime. From 
directed energy weapons to advanced bandages to language converters to 
microsatellite technologies, the United States is continuing to make 
investments in its own security and, consequently, our long-term 
freedom from terrorists and future adversaries.
    In my home State of Maine, several companies are rising to the 
challenge of providing effective, high-tech answers to current and 
future needs. Applied Thermal Sciences (ATS) in Sanford, for example, 
is developing technologies in advanced composites, laser welding, and 
propulsion systems. Technology Systems, Inc., in Wiscasset, is 
producing the first commercial solar-rechargeable autonomous underwater 
vehicle. The Sensor Research and Development Corporation (SRD) is 
developing novel chemical and biological sensor technologies.
    I look forward to hearing the testimony of our distinguished 
witnesses and the effort the Department of Defense (DOD) is making in 
providing critical technologies to the war on terrorism.

    Senator Roberts. Senator Allard.
    Senator Allard. Mr. Chairman, I have just a very brief 
comment. First of all, I want to thank you for holding this 
hearing and then just review briefly a couple of points.
    The Secretary of Defense told Congress that the U.S. 
Special Operations Forces (SOF) will have an expanded role 
leading the global war on terror.
    I'm pleased to hear in this morning's testimony that the 
DOD has made great strides in advancing not only the state-of-
the-art technology leading to new technical capabilities, but 
also the bureaucratic transformations necessary to speed these 
new capabilities into the field with the warfighters.
    I'm hopeful that Congress can help this year by getting the 
S&T program budget closer to the Secretary's goal of 3 percent 
of the total defense budget and providing additional 
authorities or resources through the technology transition 
initiative for rapid prototyping and fielding of emerging 
technologies that will sustain our battlefield superiority for 
decades to come.
    I'd just like to thank you, Mr. Chairman, again for this 
hearing.
    Senator Roberts. I thank my colleague and friend.
    On our first panel, we have Dr. Dale Uhler, who is the 
acquisition executive and senior procurement executive at the 
Special Operations Acquisition and Logistics Center of the 
United States Special Operations Command (SOCOM).
    We are also pleased to have General Thomas D. Waldhauser of 
the United States Marine Corps. He's the commanding general of 
the Marine Corps Warfighting Lab, something I visited what, 7, 
8 years ago, which is about half the size of this room, and 
you've done a splendid job of expanding that whole operation. 
He is also the vice chief of the Office of Naval Research.
    We are also pleased to have General Charles A. Cartwright 
of the U.S. Army. He is the deputy commanding general for 
systems of systems integration from the United States Army 
Research, Development and Engineering Command.
    Dr. Uhler.

   STATEMENT OF DR. DALE G. UHLER, ACQUISITION EXECUTIVE AND 
 SENIOR PROCUREMENT EXECUTIVE, SPECIAL OPERATIONS ACQUISITIONS 
 AND LOGISTICS CENTER, UNITED STATES SPECIAL OPERATIONS COMMAND

    Dr. Uhler. Mr. Chairman, distinguished members of the 
subcommittee, it is truly an honor and a privilege to report to 
you.
    Senator Roberts. Could you pull that microphone right up 
close to you? This room is famous for its echoing effect. So 
speak loudly and have at it.
    Dr. Uhler. Mr. Chairman, distinguished members of the 
subcommittee, it's truly an honor and a privilege to report to 
you this morning on the topic of special operations technology. 
I'll keep the opening remarks short as you requested, but would 
like to enter written testimony in the record.
    Congress, through title 10, U.S. Code, chapter 6, section 
167, empowered the commander of SOCOM to develop and acquire 
special operations' peculiar equipment, material, and services. 
This is equivalent to what the military departments do for 
their respective programs. So we consider ourselves extremely 
fortunate to have that authority and capability.
    We've implemented and streamlined cost-effective processes 
to provide the SOF soldiers, sailors, and airmen with the 
technology they need. Our fundamental acquisition philosophy in 
SOCOM is to field in an expedited manner the 80 percent 
solution while working with our actual warfighters and industry 
to address the remaining 20 percent of the requirement.
    In essence, we've really bought into the concept of spiral 
development and evolutionary acquisition.
    One of the things that really helps us is our ability to 
leverage very heavily the research and development programs 
that are occurring in the military departments, the Defense 
Advanced Research Projects Agency (DARPA), Department of Energy 
(DOE) labs, and other Government agencies.
    We also survey industry on a continuing basis and use a 
buy-and-try approach for Government and commercial off-the-
shelf items. When we get our hands on these, we have our 
warfighters perform user evaluations of these potential systems 
and then we make appropriate modifications, retest, and field 
the acceptable products.
    We have an especially close relationship with our SOF 
operational users, which really facilitates our ability to make 
all this happen.
    We also have the advantage of having our acquisition 
organization collocated with headquarters SOCOM and, thus, we 
have daily contact with our SOF warfighters.
    We have small, short decision cycles and the support we 
receive again from the Services, DOD, and Congress have been 
major contributors to our effectiveness.
    With our expanded role in the global war on terrorism, 
we've gotten increased resources from Congress and also from 
the DOD which has helped us to even more expeditiously field 
solutions that our warfighters need on a daily basis.
    People are our most important asset. That said, we have a 
parallel situation that says maintaining and improving the 
material capabilities for our people is also our most difficult 
challenge because these people are on the tip of the spear. 
They need new capabilities as quickly as we can get them and 
they need the best ones that we can field and provide.
    In conjunction with the war on terrorism and the fruition 
of some of our flagship research and development (R&D) programs 
as they move into procurement we are changing our focus in the 
S&T arena and we're focusing now on three major initiatives.
    One is the individualized platform. We firmly believe that 
the individual is the indispensable element of our SOF and we 
need to develop enhanced protection, armor, lightweight 
sustainment systems, night vision devices, and better weaponry.
    We also need to manage the SOF personnel signature in all 
environments so that he remains invisible to the enemy, yet the 
enemy becomes visible to him regardless of concealment.
    At the same time, we need to do this without increasing 
weight and complexity. Speaking of weight, power and power 
sources have been and continue to be both a major problem and a 
critical need for our SOF forces.
    At this point in time, approximately one-third of the 
weight carried into combat by our individual SOF soldier comes 
from batteries. We urgently need power sources that are small, 
lightweight, and inexpensive, while at the same time providing 
high power, long endurance, interchangeability, and multiple 
recharging features.
    These batteries and our fuel cells must give off little or 
no signature and offer our SOF users an extended operating 
capability without suffering degradation or requiring resupply.
    We also need to know what the battlefield around the 
individual SOF operator or team is comprised of. Consequently, 
we are pursuing a family of unmanned and semi-autonomous or 
autonomous systems, for air, land, sea, and possibly space 
sensors in the future which will range in size from tactical to 
micro and nano.
    This will give us the persistent intelligence and denied 
area access to meet the needs of our SOF operators as they 
determine the landscape around them and go into harm's way.
    Systems must also possess a reduced logistical footprint 
and withstand the rigors of the various climates and operating 
environments in which we work.
    In conclusion, we've worked hard to wisely use our 
resources to sustain systems when it makes sense, to integrate 
new technologies into legacy systems, and to acquire new 
technically-advanced systems. We intend to continue this focus 
in our concept of rapid prototyping and fielding and we also 
want to aggressively leverage the S&T and R&D investments of 
our military departments as well as the other Government 
agencies and industry.
    Thank you very much for the opportunity to appear before 
you this morning.
    [The prepared statement of Dr. Uhler follows:]

                Prepared Statement by Dr. Dale G. Uhler

    Mr. Chairman and distinguished members of this subcommittee, I am 
Dale Uhler, Acquisition Executive for the United States Special 
Operations Command (SOCOM). Thank you for the honor and privilege of 
providing you with a perspective on SOCOM's science and technology 
(S&T) strategy.

                              INTRODUCTION

    A real strength of SOCOM is the commander's acquisition authority, 
which is similar to that of the military departments (MILDEPs). Among 
the responsibilities assigned to the Commander, SOCOM, under title 10, 
section 167, is that of developing and acquiring ``special operations-
peculiar'' equipment. Special operations-peculiar equipment is based on 
technologies that enable our operators to become faster, stealthier, 
more precise, lethal, survivable, and sustainable. With exceptional 
support from Congress, the Secretary of Defense, MILDEPs, defense 
agencies, other government agencies (OGAs), and our industry partners, 
these authorities have been instrumental in equipping today's world-
class Special Operations Forces (SOF) team to perform a broad range of 
SOF missions.
    We enhance those authorities through aggressive application of 
acquisition policy and guidance, organizational flexibility, and 
streamlined procedures that facilitate rapid response to the needs of 
our warfighters. SOCOM is accustomed to and comfortable with change and 
has a tradition of ``out of the box'' transformational thinking.
    A guiding principal of our acquisition policy has been to embrace 
and respond to change. Our system has been built to recognize not only 
the critical need to respond quickly, but also to adequately sustain 
the combat forces that protect us and our interests throughout the 
world. Our dialogue with and planned leveraging of other DOD 
developers' efforts to integrate SOF requirements into new equipment, 
coupled with our willingness to take calculated fielding risks when 
necessary to improve our capabilities on the battlefield will continue 
to play a major role in our success. SOCOM's aim in pursuing 
technological transformation is to guarantee our forces remain relevant 
in any fight, and ensure we minimize risk to our Nation's vital 
interests while providing reliable support to the overall Defense 
Strategy.

            GLOBAL WAR ON TERRORISM/THE IMPACT OF TECHNOLOGY

    As we develop the tools to conduct our expanded mission in the 
fight against terrorism, SOCOM has transformed from the traditional 
train, organize, and equip mission to a capability to plan and execute 
the global war on terrorism. Our near term objective is to continue to 
realign our requirements and programs to better address the war on 
terrorism mission. As such, we will be eliminating those legacy systems 
that do not support the global war on terrorism and using the saved 
resources to invest in future capabilities. Our programs must be 
transformational, not merely a re-invention of what we are doing today, 
and SOCOM must continue to invest in making our SOF more capable in all 
tactical environments. To this end, our research and development (R&D) 
activities are being refocused to exploit technologies in the following 
areas:

Individual As A Platform
    The individual is the indispensable element of our force. We need 
to develop enhanced protection, armor, lightweight sustainment systems, 
night vision devices and better weaponry. The SOF warrior must be able 
to manage his signature in all environments, and see the enemy 
regardless of concealment. We need to do this without increasing weight 
and complexity.

Power
    Power sources have been, and continue to be, both a major problem 
and a critical need for SOF. One-third of the weight carried into 
combat is from batteries. SOF urgently needs power sources that are 
small, lightweight, and inexpensive while providing high power, long 
endurance, interchangeability, and multiple recharging features. These 
batteries/fuel cells must give off little or no signature and offer the 
SOF user an extended operating capability (months) without suffering 
degradation or requiring re-supply.

Sensors
    We are pursuing a family of unmanned, semi-autonomous and/or 
autonomous systems (air, sea, land, and, in the future, space) ranging 
in size from tactical to micro and nano, which will use persistent 
intelligence and denied area access technologies to meet the needs of 
SOF operators. These systems must be simple to operate, possess a small 
manning and logistical footprint, and withstand the rigors of various 
climates and operating environments.

                           SOCOM ACQUISITION
 
   The nature of the global war on terrorism forces a technology 
developer to move quickly to understand the operator's needs and to 
satisfy them with state of the art technology. To facilitate this 
process, our professional staff maintains constant liaison with our 
component commands and visits deployed forces to ensure that we 
understand the need in the context of the mission. Often, prototype 
equipment is made available for user evaluation before designs are 
finalized. The use of concept-based experimentation and demonstrations 
to ensure that the product we are providing is, in fact, the best 
solution to an identified deficiency is an integral part of our 
approach to S&T development. This includes early hands-on prototype 
assessments conducted by uniformed SOF operators. These assessments 
typically provide invaluable feedback concerning factors such as 
weight, ergonomic design considerations, military utility, and the ease 
with which the system can be employed, learned, and sustained. Such 
feedback saves considerable expenditure of scarce resources by 
identifying problem areas at the prototype stage rather than during 
production. To accomplish this, the Command has a Special Operations 
R&D Support Element (SORSE) to assist in the development of new 
equipment. SORSE includes operators who are fully qualified in a wide 
variety of combat skills. As noted above, it is their early and expert 
involvement that allows us to streamline development and to produce 
fieldable equipment in minimum time.
    We are often told that SOF items of personal equipment (helmets, 
boots, etc.) are in high demand by the other Services. In fact, we use 
Service equipment to the maximum extent possible. When mission 
requirements dictate special gear, we first seek to modify the standard 
item and, if that is not possible, we turn to commercial vendors to 
meet the requirement. In all cases, we work closely with the MILDEPs to 
ensure that whatever we field is sustainable.
    Special operations elements are deployed throughout the world as 
our first line of defense against the global war on terrorism. Much of 
the legacy equipment we use to ensure a redundant mission capability is 
wearing out and we are now faced with the choice of modernizing or 
simply sustaining the current capability. To help us with the decision 
process, we are continually seeking transformational options, those new 
equipment or equipment concepts that will truly enhance our 
capabilities and allow us to address new missions and execute existing 
tasks better.
    SOCOM is a highly professional organization in which training is a 
way of life. Maintaining the capabilities of deployed forces provides 
unique challenges, so we pursue technology to assist us with training 
sustainment. Recent advances in ruggedized language systems and 
computer-based training are being effectively used by our deployed 
forces, but more needs to be done in this area.
    The core capabilities of SOF typically require leading-edge 
technologies to meet the requirements for rapid deployment, precise and 
decisive employment, and sustainment while operating far forward of 
conventional support structures.
    The focus for SOCOM's S&T investment strategy, therefore, is how to 
effectively apply and invest available resources to achieve those SOF-
peculiar capabilities. Much of the basic and advanced research efforts 
behind our S&T program requirements are similar to those of the MILDEPs 
or OGAs. Therefore, cooperation and coordination with ongoing MILDEP, 
Defense Agency, and OGA technology development programs plays an 
important role in SOCOM's technology development strategy. We 
aggressively interact and coordinate with other S&T organizations. This 
includes participation in reviews, cooperative developments, collocated 
liaison personnel, Service advisors, and information sharing. We are 
putting in place new Memoranda of Agreement (MOAs) with the MILDEPs to 
further enable a mutual focus on key cooperative efforts and 
transitions. We are proud of the progress we have been able to make 
delivering advanced technology into the hands of the SOF operator, but 
we can and will do better. We could not have been, and will not be, 
successful without the continued support of the larger R&D community.
    As the opportunity presents itself, we suggest modifications to 
those R&D community projects of interest to encourage them to move in a 
direction that could also satisfy a SOF need. R&D efforts that are kept 
in-house are those that contribute most directly and specifically to 
SOF core tasks and that are least likely to be realized or supported by 
the MILDEPs, Defense Agencies, or OGAs. We highly value the close 
partnerships we currently enjoy with the MILDEP laboratories, Defense 
Advanced Research Project Agency (DARPA), Defense Agencies and other 
national laboratories, as well as academia and industry.
    SOCOM also strives to ensure that our materiel capability solutions 
are based on requirements identified by our SOF warfighters in the 
field. Concurrent with the development and fielding of new equipment 
will be the development of changes in SOF doctrine based on that 
equipment, the development of training programs to ensure that our 
operators know how to use and maintain their equipment, and the 
initiation of sustainment programs to keep their equipment operational.

                           EXAMPLES/SUCCESSES

    The SOCOM Acquisition and Logistics Center (SOAL) exhibited 
exceptional adaptability in response to the demands of sustaining 
forces during Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF). The SOAL has been responding to combat mission needs and 
urgent deployment acquisition requests from deployed and deploying 
units. Our efforts have resulted in the rapid fielding of numerous 
equipment items and systems to satisfy the requirements of SOF 
elements. The support of the Office of the Secretary of Defense (OSD) 
and Congress, who provided supplemental resources, was the key to our 
ability to rapidly field those requirements without having to break 
other programs that are also important to SOCOM mission accomplishment.
    The Military Operations in Urban Terrain (MOUT) Advanced Concept 
Technology Demonstration (ACTD), a joint U.S. Army/Marine Corps/SOCOM 
program, identified the Pointer unmanned aerial vehicle (UAV) system to 
satisfy a multi-Service requirement. Operator evaluations fed into an 
R&D cycle, and the developer made significant improvements to the 
Pointer system. The Pointer system continued to grow through the MOUT 
ACTD and a number of upgrades were made to the system to meet SOF 
requirements. A Combat Mission Needs Statement (CMNS) was received in 
December 2001 and initial deliveries began in March 2002. A second CMNS 
delivered 20 more systems into the hands of SOF operators in October 
2002. The ACTD program office formed a cadre to train SOF operators in 
the tactical employment of the system concurrent with operational 
testing. The training cadre deployed to Afghanistan in November 2002 to 
conduct additional training, perform intermediate level repairs, and 
implement a software upgrade to the system. SOF user feedback on the 
Pointer system was used to refine later iterations of the Pointer 
system and assist the contractor in developing its successor, the Raven 
UAV. The Raven UAV leveraged all of the lessons learned through 
developing and fielding Pointer and packaged it in a system less than 
half the size of Pointer. The first Raven was delivered in May of 2003. 
In December 2003, a third CMNS was issued by SOCOM, this time for the 
procurement of Raven systems. These systems are successful because of 
the constant user feedback that fed our R&D process over the last 3 
years. The success of these systems also illustrates the inherent 
utility of the spiral development and evolutionary acquisition 
processes available for our use.
    People are SOF's greatest asset. Rapidly applying medical 
technology to save lives is a top priority. An excellent example is our 
one-handed tourniquet. This tourniquet provides SOF with a vastly 
improved capability to self-provide immediate trauma care for combat-
induced wounds. The requirement for such a device was forwarded by SOF 
operators to SOCOM's Biomedical Initiative Steering Committee (BISC) 
which supports the Special Operations Medical Technology (MEDTECH) 
program. The BISC focused on accelerating fielding of the tourniquet. 
SOCOM, through the BISC, worked closely with the U.S. Army Institute 
for Surgical Research and SOF operators, to develop and evaluate 
multiple prototypes. We were able to field prototype tourniquets to 
deployed SOF operators in 2002.

                     TECHNOLOGY TRANSITION PROCESS

    We have learned from both the experiences of the MILDEPs and our 
own early experiences that transitioning new technologies into 
fieldable equipment is a difficult challenge that, if not solved, 
denies needed capabilities to our SOF users. Within our structure, we 
are addressing this challenge by transforming our technology transition 
process to function like ``an interstate instead of a traffic jam.'' In 
SOCOM, as throughout DOD, technology development is an integral part of 
the acquisition process. Our Advanced Technology Directorate is 
collocated with our program executive officers (PEOs) and other 
acquisition professionals. This collocation enables continuous 
collaboration, as well as the early agreements and necessary planning 
for successful technology transition. This process, coupled with our 
close cooperation with the user, enables us to adequately plan for the 
resources required to support the new capability.
    As we look to the future, we will continue to rely heavily on the 
MILDEPs, defense agencies, OGAs, academia, and industry partners to 
leverage their intellectual and development capabilities. We will use 
technology roadmaps built upon SOCOM's Technology Thrust Areas (TTAs) 
drawn from Special Operations Technology Objectives (SOTOs) reflecting 
the commander's refocus on the global war on terrorism to guide our 
research, development, test and evaluation (RDT&E) efforts. In 
addition, we will continue the judicious use of ACTDs to focus on 
system of systems approaches to reduce sensor to shooter lag time. We 
will strengthen our collaboration with the MILDEPs through efforts such 
as the Army's Future Force Warrior (FFW) program to develop and 
demonstrate revolutionary capabilities for the individual soldier and 
small team using a holistic and synergistic approach.; Navy projects to 
improve intelligence, surveillance, and reconnaissance (ISR) in denied 
littoral areas; and Air Force programs such as the Air Force Research 
Laboratory's Battlefield Air Operations kit to develop technologies to 
better locate, identify, designate, and transmit target information.

                               CONCLUSION

    In closing, S&T programs are crucial to Secretary of Defense 
Rumsfeld's goal to provide transformational capabilities to the DOD. I 
believe the successes the DOD has enjoyed in science and technology are 
significant.
    Now, and in the future, SOCOM will continue to pursue technologies 
that improve its ability to execute the global war on terrorism, while 
remaining ready to deal equally with the demands of both our 
warfighting and peacetime roles, missions, and responsibilities.
    It has truly been an honor for me to come before you today to tell 
you about our successes and the future S&T focus at SOCOM in support of 
the ``quiet professionals.'' Most of all, thank you for your continuing 
support of our SOF warfighters.

    Senator Roberts. We thank you very much, Dr. Uhler.
    We now have General Thomas D. Waldhauser.

STATEMENT OF BRIG. GEN. THOMAS D. WALDHAUSER, USMC, COMMANDING 
   GENERAL, MARINE CORPS WARFIGHTING LABORATORY; VICE CHIEF, 
                    OFFICE OF NAVAL RESEARCH

    General Waldhauser. Thank you, Senator Roberts.
    Chairman Roberts, Senator Reed, distinguished members of 
the subcommittee, it is my privilege as the Commanding General 
of the Marine Corps Warfighting Laboratory and as Vice Chief of 
Naval Research to address you today.
    Prior to September 11 and the global war on terror, naval 
S&T worked diligently and productively on delivering 
technologies to the operating forces through the well-
constructed R&D process.
    This approach certainly has merit for supporting the 
deliberate development and fielding of future warfighting 
capabilities. As we noted, however, this approach was not 
always responsive to some of the emergent needs of those tasked 
to fight in the harsh and challenging environments of locations 
such as Afghanistan and Iraq.
    Nevertheless, the ``business as usual'' mindset has 
changed. To adapt, the S&T community has had to take its 
traditional approach to technology push and requirements pull 
and make them equally capable of timely and responsive support. 
This also gave the S&T community the opportunity to be even 
more relevant.
    My experience during the early days of Operation Enduring 
Freedom (OEF) in Afghanistan clearly laid out to the S&T 
community critical needs such as updated aircraft, electronic 
countermeasures, dust palliatives that mitigate unsafe dust 
levels in austere environments, persistent intelligence, as 
well as reliable over-the-horizon and on-the-move 
communications.
    For the S&T community, OEF served as a real-world 
laboratory for what it takes to fight on an extended 
battlefield with dispersed locations in support of the global 
war on terrorism.
    During Operation Iraqi Freedom (OIF), it was my experience 
that the S&T support was making an incredible shift from the 
traditional approach of delivering capabilities to the 
warfighter through expectations and formal programs of record 
to one that also accommodates a more proactive and responsive 
methodology.
    My formal statement gives several examples of this process.
    As marines head back to Iraq, the level and commitment and 
desire from the S&T community to support those going back into 
theater remains unchanged. Moreover, standing working groups 
and cells within the Office of Naval Research and the Marine 
Corps Warfighting Laboratory now work in tandem with 
operational forces, the Marine Corps Systems Command, and the 
Marine Corps Expeditionary Force Development Center in Quantico 
under the leadership of the deputy commandant for combat 
development in defining requirements, identifying capability 
gaps, and determining potential technology solutions and 
finally delivering necessary capabilities to the warfighter.
    In summary, the more traditional approach to S&T support to 
the warfighter has been energized and has become somewhat more 
responsive. At this time, however, we must ensure we continue 
not only to satisfy emergent needs in the global war on terror, 
but also to continue to judiciously invest in higher-risk, 
long-term discovery and invention.
    Thank you for this opportunity this morning and I look 
forward to your questions.
    [The prepared statement of General Waldhauser follows:]

        Prepared Statement by Brig. Gen. Thomas Waldhauser, USMC

                              INTRODUCTION

    Chairman Roberts, Senator Reed, distinguished members of the 
subcommittee; it is my privilege to serve as the Commanding General of 
the Marine Corps Warfighting Laboratory at the Marine Corps Combat 
Development Center and as the Vice Chief of Naval Research at the 
Office of Naval Research. Thank you for the opportunity to share my 
views on the important issues associated with naval science and 
technology (S&T) as they impact the global war on terrorism and the 
Marine Corps' operational abilities to successfully wage that war. I 
would like to address the contribution of naval S&T based upon my 
experience as an operational commander and from what I have observed 
and learned since recently assuming a leadership role in naval S&T. To 
put my thoughts in context, I would like to lay out how S&T supported 
the warfighter prior to the global war on terrorism, and then discuss 
how I saw this support adapt from the period of Operation Enduring 
Freedom (OEF) in Afghanistan to Operations Iraqi Freedom (OIF), and 
since that period how I see naval S&T supporting the warfighter today 
and into the future.

                      PRE-GLOBAL WAR ON TERRORISM

    Prior to the global war on terror, naval S&T worked diligently and 
productively on delivering technologies to the operational forces 
through the well constructed research and development (R&D) process, 
gleaning technology opportunities through basic research, discovery and 
innovation, and exploitation and deployment into formal programs of 
record within the systems commands. The requirements process was 
generated through universal needs statements articulated periodically 
by the operational forces and vetted through a concept based 
requirements system. Both the Navy and Marine Corps conducted 
aggressive concept based experimentation in partnership with the 
operational forces. The identification of operational requirements and 
the servicing of these through the combat development process worked 
well, but were often protracted. The tendency was to respond to 
requirements of the operational forces using a requirements pull 
methodology. This approach was probably appropriate for supporting the 
deliberate development and fielding of future warfighting capabilities. 
As was soon seen, however, this approach was not particularly 
responsive to the emergent needs of the men and women who would be 
asked to fight the global war on terrorism.

                      POST-GLOBAL WAR ON TERRORISM

    Business as usual changed rapidly and permanently as a result of 
September 11 and the initiation of the global war on terrorism. While 
S&T clearly still needed to conduct basic research, which could 
identify cutting edge technologies for the future warfighter, it was 
also recognized that S&T needed to focus attention on today's 
warfighters engaged in current operations. To adapt, the S&T community 
has had to take its traditional approach to technology push and 
requirements pull and make them equally capable of timely and 
responsive support as well as deliberate support.
    The global war on terrorism presented the S&T community with new 
challenges; but more importantly the global war on terrorism has given 
the naval S&T community the opportunity to be even more relevant to the 
warfighter. I think it would be useful for us to briefly look at S&T 
involvement in our two most recent operations: OEF and OIF.

                       OPERATION ENDURING FREEDOM

    From my perspective, OEF was a ``come as you are'' operation. I was 
the Commanding Officer of the 15th Marine Expeditionary Unit (MEU), 
forward deployed to the Northern Arabian Sea after the attack of 
September 11. This Marine unit was the initial conventional force on 
the ground in Afghanistan. As such, there was little opportunity for us 
to identify S&T needs or for emerging S&T to be pushed. What OEF did 
provide was a tremendous number of needs that could be supported by 
emerging S&T. OEF clearly laid out to the S&T community critical needs 
such as aircraft electronic countermeasures, effective dust palliatives 
to mitigate unsafe dust levels in austere operating environments, more 
pervasive intelligence, surveillance, and reconnaissance (ISR) at the 
tactical level, as well as reliable over-the-horizon and on-the-move 
communications. For the S&T community, OEF served as a real world 
laboratory for what it takes to fight on extended and dispersed 
locations in support of the global war on terrorism and battlefields of 
the future. Additionally, OEF underscored the need for a streamlined 
processes for the S&T provider as well as the combat developer to fast 
track the needed capabilities to the warfighter.

                        OPERATION IRAQI FREEDOM

    Based upon my experiences in OIF working with the British Royal 
Marines, and as part of I Marine Expeditionary Force (I MEF), again as 
the commander of the 15th MEU, I believe there was a real sea change in 
the manner in which naval S&T was approached. What I observed in OIF, 
and what I have learned since assuming my current position, validates 
that S&T support is making a credible shift from the traditional 
approach of delivering capability to the warfighter through 
experimentation and formal programs of record to one that also 
accommodates a more proactive and responsive methodology. Operators, 
combat developers, and technologists are now working more closely in 
S&T working groups, focusing on the delivery of viable cutting edge 
technologies to the warfighter.
    To illustrate how the S&T community has responded to the challenges 
of the global war on terrorism, I have selected a few examples of 
successful efforts resulting in the rapid fielding of advanced 
capabilities provided to the operating forces as a result of 
warfighting requirements that leveraged technology.
    The Marine Corps' Dragon Eye unmanned aerial vehicle (UAV) is a 
great example of how ``technology push'' can work. Originally conceived 
of as part of an effort by Office of Naval Research and Marine Corps 
Warfighting Lab to enhance small unit organic surveillance, the Dragon 
Eye combines advanced technologies in hand held computer devices, 
batteries, electric motors, wireless data communications, and optics. 
This combination has yielded a man-portable, easy to use UAV that can 
move with combat forces and provide overhead imagery directly to a 
battalion or smaller sized unit. The success of this UAV, and the 
initial response from the operating forces lead to a plan to build and 
field these systems. The subsequent onset of OIF, caused us to re-
prioritize available funds and complete the initial fielding in time to 
support our marines during combat operations in Iraq. Twenty Dragon Eye 
aircraft deployed with elements of the 1st Marine Division during OIF. 
After action feedback from the war confirmed the value of a man-
portable small unit level UAV and the Dragon Eye UAV is now a program 
of record with initial full fielding starting in May 2004. Moreover, 
marines presently returning to Iraq are relying on this capability to 
provide them with intelligence gathering observation.
    As part of naval S&T's long-term investment in urban combat 
innovations, the critical need for squad level communications became 
apparent to enable small units to rapidly coordinate the complex 
tactics of building-to-building and room-to-room combat. Our British 
partners in this effort suggested we try a commercial off-the-shelf 
radio called the Personal Role Radio (PRR). Low-cost development of 
this commercial off-the-shelf (COTS) item enabled this to be 
interoperable with our newest small unit tactical radios and we now 
have communications systems that support units down to the lowest 
tactical level. Responding to a request by 1st Marine Division, who 
participated in the PRR experiments, radios were purchased for the 
deploying infantry units. The PRR will now be part of a Marine Corps 
wide fielding program. As I can personally attest, this simple and 
highly effective addition to the equipment of the marines in Iraq was 
an extremely relevant and timely addition.
    A third example of successful transition of an experimental system 
to combat forces in Iraq focuses on the individual rifleman. The 
Advanced Combat Optic Gun (ACOG) sight exploits what hunters and 
competitive marksmen have known for years. A quality optic on a quality 
rifle will enable an average shooter to regularly hit a target at 
greater distances. After conducting experiments with the ACOG, which 
confirmed the advantages of this sight, the S&T community provided the 
test sights along with additional sights purchased to support marines 
deploying to Iraq. The response from marines in combat confirmed that 
plans for full fielding this device are right on target.
    Another great example of how the development of experimental 
prototypes can be rapidly transitioned to operating forces to meet 
contingency requirements is seen with the Pre-First In Command and 
Control (Pre-FICCS) project. The Office of Naval Research and the 
Marine Corps Warfighting Lab had previously conducted tactical 
experiments with this system. Pre-FICCS offers the commander a highly 
mobile and fully operational level command and control suite. The 
configuration can be as a small as two Highly Mobile Multipurpose 
Wheeled Vehicles (HMMWVs). Comparable conventional command and control 
suites are many times larger and considerably cumbersome to move. When 
faced with the deployment to Iraq, the S&T community made this system 
available to I MEF. This turned out to be a crucial technology that 
enabled the MEF commander to rapidly establish forward command and 
control that could keep pace with the rapid advance during OIF.
    Although the normal interest in what the S&T community provides the 
warfighter deals with advanced equipment, the same organizations are 
also involved with non-material solutions that in some cases provide 
even broader and more significant changes to the way we fight. The 
Marine Corps Warfighting Lab has dedicated an effort to develop 
advanced tactics, techniques and procedures aimed specifically at the 
challenges of urban combat. After a strenuous series of experiments 
conducted during the late 1990s, the Marine Corps Warfighting Lab 
developed a comprehensive revision of our tactical urban doctrine as 
well as a supporting training program to compliment this effort. 
Initial units that participated in these experiments and conducted 
these revised urban tactics, used the skills extensively in the 
villages and cities of Iraq. To ensure our marines now returning to 
Iraq have the absolute best training available, the Marine Corps 
Warfighting Lab is sponsoring an intense training effort for all of the 
units returning to Iraq that will better enable them to conduct 
stability and support operations in urban terrain.
    Most recently, the Marine Corps Warfighting Lab has re-oriented our 
main experimentation program titled Sea Viking to support marines 
deploying for OIF-II. In its original form, Sea Viking aimed at the 
transformational capabilities the Marine Corps will need to operate on 
the dynamic battlefields of the future.
    Although the re-deployment to Iraq of Marine forces scheduled to 
conduct the Sea Viking experiments changed the immediate Sea Viking 
goals, this presented another opportunity for the S&T community to 
provide direct support to deploying forces while still maintaining the 
transformational momentum of the Sea Viking program. One of the central 
technology areas being pursued by Sea Viking involves on-the-move 
command and control of dispersed forces operating on an extended 
battlefield. Sea Viking experiments planned to use a surrogate command 
and control system called the Experimental Tactical Communications 
System (ETCS). ETCS is based on the commercial IRIDIUM satellite 
telephone network. S&T development has modified this commercial system 
to achieve a tactical networked architecture that supports voice and 
data communications extending to any user, worldwide. A portion of this 
architecture will provide portable unit, individual vehicle, or 
individual marine position location information that is interoperable 
with current command and control systems.
    By revising the Sea Viking program, the Marine Corps now plans to 
deploy ETCS with elements of the I MEF returning to Iraq, while still 
maintaining the integrity of the Sea Viking long-range experiment 
goals.
    The S&T efforts I have addressed are only a small representation of 
the tremendous work that a number of people and organizations 
successfully undertook to support the warfighter in OIF.
    While the context of OIF has changed, (some refer to it as OIF-II,) 
the level of commitment and desire of the S&T community to support 
those going in harms way remains unchanged. For example, standing 
working groups and cells within the Office of Naval Research and at the 
Marine Corps Warfighting Laboratory work in tandem with the operational 
forces, the Expeditionary Force Development Center and the Marine Corps 
Systems Command, under the leadership of the Deputy Commandant for 
Combat Development in defining requirements, identifying capability 
gaps, determining potential technology solutions and finally delivering 
sorely needed capabilities to the warfighter. Examples of these range 
from counter improvised explosives devices (IEDs) technology to 
explosive resistant coatings. These types of efforts are outlined in 
weekly S&T support to OIF-II situation reports that are disseminated 
widely within the Department of the Navy. Additionally, the Iraqi 
Freedom Combat Assessment Team the Marine Corps deployed to Iraq to 
leverage and act upon lessons learned includes S&T personnel. This team 
is only one way the Naval Services are insuring that there is an open 
line of communications between deployed warfighters an the S&T 
community.
    In summary, as an operator I see this as a good news story. The 
more traditional approach to S&T supporting the warfighter has evolved 
into a more proactive, responsive and supportive process, which will 
pay great dividends to today's warfighter as well as tomorrow's 
warfighter. While my comments today have principally focused on how the 
S&T community has become more responsive to the warfighter, I think it 
is important to note that these efforts would not have been possible 
had it not been for the long-term vision and commitment of those 
professionals involved in planning and executing S&T programs. We 
leverage today their past work and while we have focused on their many 
successes it must also be noted that S&T development is inherently 
risky. Every fielded success probably has a matching effort that ended 
up in the dustbin. Consequently, we must ensure that especially today 
we not only satisfy the emergent needs of the global war on terror, but 
also continue to judiciously invest in higher risk, long-term discovery 
and invention.

    Senator Roberts. We thank you, General.
    We turn now to General Charles A. Cartwright. General, you 
are recognized.

  STATEMENT OF BRIG. GEN. CHARLES A. CARTWRIGHT, USA, DEPUTY 
 COMMANDING GENERAL FOR SYSTEMS OF SYSTEMS INTEGRATION, UNITED 
   STATES ARMY RESEARCH, DEVELOPMENT, AND ENGINEERING COMMAND

    General Cartwright. Thank you, sir.
    Mr. Chairman and distinguished members of the subcommittee, 
on behalf of the soldiers and civilians of all the Army labs, 
thank you for this opportunity to appear here today. I would 
like to thank each of you for the tremendous support you 
continue to provide for our men and women in uniform wherever 
they serve.
    Scientists and engineers from all our labs are deployed 
around the world to provide the combatant commanders and their 
soldiers, sailors, airmen, and marines immediate access to labs 
and centers to rapidly bring technology solutions and equipment 
improvements to the warfighters.
    Providing the right technology to the warfighter faster is 
our primary focus in supporting operations in Iraq and 
Afghanistan and around the world.
    Our laboratories and R&D centers have rapidly responded to 
immediate warfighters' requirements. You only saw two here this 
morning.
    Other innovations include speech and language translation 
with DARPA, a ground standoff mine detection system, electronic 
countermeasure systems that provide protection for convoys and 
fixed sites, M1A1 grill rear doors, and Stryker slat armors.
    This has all been made possible by teams from our 
laboratories, centers, depots, arsenals, and industries in 
fabrication testing and installation rapidly to the field. We 
provided these and many more items that are required to fill 
the critical capability gaps for the warfighter.
    The command has increased on-the-ground visibility 
throughout the deployment of civilian and military S&T 
assistance teams to Iraq and Afghanistan to assist our S&T 
teams already assigned to the combatant commands.
    These technologists on the point for the soldier have the 
flexibility to quickly reach back to the command's laboratories 
and centers to solve requirements in nearer time.
    In supporting the development of the Future Combat System 
(FCS), we have changed how we have done business in the past to 
move quickly, spiraling new and emerging technologies into 
systems being developed and fielded to our current operating 
forces. This is having a direct impact on the current as well 
as the future force.
    Capabilities at the 50 to 70 percent level, versus the 90 
percent level, are now considered acceptable to provide an 
immediate solution to our forces. A sample of some of these 
technologies is the suite of sense-through-the-wall systems, a 
lightweight counter-mortar radar system, change-detection using 
high resolution and overhead imaging, and close-in active 
protection systems, just to mention a few.
    While this new command is changing how the Army 
accomplishes its research, development, and engineering 
activities, we have also taken significant steps in making sure 
we work in partnership with the combatant commanders, the 
combatant developers, and the testing community to determine, 
provide, and test solutions to warfighters' needs.
    We have developed ties with other Service laboratories, 
DARPA, DOE laboratories, and universities to leverage their 
resources. This joint approach is helping us ensure a clear 
path to the success in our future warfighting missions.
    Today the Army is both at war and continuing development 
along the Army's campaign plan. As we move from our current 
force to the future force that is strategically responsive and 
dominant at every point on the operational spectrum, the 
Nation's S&T assets are essential to that success.
    We must provide the technology solutions essential to the 
current and future warfighting needs across that spectrum for 
both joint and Army operations.
    Thank you, Mr. Chairman, for the opportunity to testify 
before this subcommittee. I'll be happy to answer any questions 
from you or the members of the subcommittee.
    [The prepared statement of General Cartwright follows:]

      Prepared Statement by Brig. Gen. Charles A. Cartwright, USA

    Mr. Chairman and members of the committee, on behalf of the 
soldiers and civilians of U.S. Army Research, Development, and 
Engineering Command (RDECOM), thank you for this opportunity to appear 
today. The men and women of RDECOM are deployed around the world to 
provide the combatant commanders, and their soldiers, sailors, airmen, 
and marines immediate access to labs and centers within RDECOM to 
rapidly bring technology solutions and equipment improvements to the 
warfighter.
    To see our activities in context, it is important to understand the 
operational environment we face now and in the future. The nature of 
future warfare is expected to look less like Operation Desert Storm and 
more like what has been played out in Chechnya, Afghanistan, Iraq, and 
more importantly, the attack on the United States on September 11, 
2001. In the old paradigm, we balanced the Soviet Union's superiority 
in quantity with our superiority in quality. In the new paradigm, we 
must have superiority in both quantity and quality. We can expect 
symmetry at the strategic and operational levels of warfare but 
asymmetry at the tactical level, as our enemies cannot win 
conventionally. As we are seeing currently, there will likely be a 
blurring among the strategic, operational and tactical levels. We can 
also expect increasingly sophisticated opponents exploiting all types 
of weather conditions and terrain (with urban increasingly likely) and 
employing both military and paramilitary conventional and 
unconventional forces. In both current and future warfare, we face the 
leveraging by adversaries of the global proliferation of weapons 
technology.
    To meet the technological challenges of the current and future 
operational environment, the RDECOM was established in October 2003 as 
a Major Subordinate Command of the Army Materiel Command (AMC). RDECOM 
includes the Army Research Laboratory (ARL), Army Research Office 
(ARO), Army Materiel Systems Analysis Activity (AMSAA) and seven 
Research, Development and Engineering Centers (RDECs). They are the 
Aviation and Missile RDEC (AMRDEC), Natick Soldier Center (NSC), 
Armament RDEC (ARDEC), Communications and Electronics RDEC (CERDEC), 
Tank Automotive RDEC (TARDEC), Edgewood Chemical Biological Center 
(ECBC) and Simulation Training and Technology Center (STTC). A major 
part of the RDECOM's mission is to plan and execute the majority of the 
Army's science and technology (S&T) programs. The RDECOM is structured 
to enhance synergy across technology organizations, eliminate 
redundancy, improve the capability to do program and system 
integration, and improve the prioritization of programs. The RDECOM has 
three major objectives: (1) get emerging technology to the warfighter 
faster; (2) integrate research, development, and engineering across all 
areas of the Army, other Services, universities, and all other sources; 
and (3) demonstrate the agility to rapidly take advantage of 
technological opportunities no matter where they may arise. To achieve 
these objectives requires new and innovative approaches to all aspects 
of the development of technology for the warfighters.
    RDECOM is decisively and aggressively engaged in supporting current 
operations. The command created the Agile Integration Demonstration and 
Experimentation (AIDE) organization, which functions not as a brick and 
mortar institution, but as a vital collaboration center to accelerate 
the delivery of technological solutions for warfighter requirements. 
The AIDE organization succeeds by helping the individual labs and 
centers, as well as the Program Managers (PMs), Program Executive 
Officers (PEOs), and the Rapid Equipping Force (REF).
    RDECOM's AIDE deploys Science and Technology Assistance Teams 
(STATs) into theaters of operations and charges them with the role of 
liaison between the warfighters and the labs and development centers 
across the Army. Their role is to not only keep RDECOM informed of 
warfighter emerging requirements, but to also be our forward eyes and 
ears for scientists and technologists in our working centers. 
Additionally, the AIDE's Field Assistance in Science and Technology 
(FAST) teams, which are assigned to combatant commands, keep the 
scientists and engineers in RDECOM informed and orchestrate quick 
responses to the warfighters' needs. RDECOM also has numerous 
scientists, engineers and contractor personnel deployed in the theater 
of operations who are working side by side with solders to maintain and 
operate equipment employing new technologies that are being used in 
support of Operations Iraqi Freedom (OIF) and Enduring Freedom (OEF).
    Some examples of how the command is supporting current operations 
today are: ARL/TARDEC has implemented an expedient solution in which 
Army scientists and engineers designed a novel configuration of steel 
bars and steel armor that can be added to the doors of the High 
Mobility Multipurpose Wheeled Vehicles (HMMWVs) to protect crews from 
rocket-propelled grenades (RPG) attacks as well as small arms fire; 
4,800 HMMWV application armor kits are in production by the Army's 
depots and arsenals and being deployed in theater, along with M1A1 rear 
grill door armor and Stryker ``bar armor.'' The Defense Advanced 
Research Projects Agency (DARPA) and ARL developed the Pacbots 
(portable backpack robots) deployed to Afghanistan to clear caves and 
buildings. TARDEC, with cooperation from Utah State University, 
developed omni-directional under vehicle inspection systems to foreign 
devices and contraband; and CERDEC developed and fielded an electronic 
countermeasure (ECM) system that provides force protection in convoy, 
fixed site and check point missions against booby traps and remotely 
detonated weapons. By modifying an electronic warfare (EW) technology 
that has been fielded to defeat certain weapons, the research and 
development (R&D) community has created a number of systems that can be 
used by our soldiers to prevent the enemy from being able to use their 
improvised explosive devices (IEDs) in the vicinity of our operations. 
We are getting these new devices to the field as quickly as possible 
and will continue to do so while continuing to employ advances in 
electronic technology that will allow us to defeat the changing threat 
as our adversaries rapidly adapt. NSC developed Phraselator for fixed 
phrase speech translation from English to Dari, Pashto, or Arabic for 
use by special operations, civil affairs, military police (MPs), and 
medical personnel. ECBC developed chemical detection lab in Baghdad. 
AMRDEC integrated the Hellfire missile on a Predator Unmanned Aerial 
Vehicle (UAV). CERDEC developed a Well Camera System that is an 
alternative to lowering a soldier into a well to identify hidden caches 
of weapons and munitions; CERDEC developed and fielded two prototypes 
of the Ground Standoff Mine Detection System (GSTAMIDS), which is a 
remotely controlled vehicle-mounted mine detection system using a 
commercial off-the-shelf (COTS) vehicle (Meerkat) controlled by a 
follow-on vehicle (Buffalo). ARL developed a new sniper detection 
system for use in Iraq.
    In addition to supporting current operations, RDECOM is heavily 
involved in moving future technologies into the current force. The 
RDECOM supports PM Future Combat Systems (FCS)/Lead Systems Integrator 
(LSI) by inserting advanced technology as it becomes available to 
increase FCS capabilities, using a spiral development acquisition 
approach. However, it is transitioning a number of technologies that 
are in development for PM FCS LSI, for use in current operations. Also, 
RDECOM supports the Army Chief of Staff's Focus Area effort through 
interaction with the Future to Current Task Force. The Task Force is 
working to provide future capabilities to an army that is in combat 
today: providing some of the FCS-like technologies that have been in 
development for the last 4 years. It is vital that we focus a portion 
of our S&T on deliverable, affordable products within shorter 
timeframes while the remainder continues to develop our ``next 
generation'' capabilities. The key enabler for this is to take shorter 
technology jumps and transition incremental improvements to the soldier 
rather than wait decades for revolutionary materiel and doctrinal 
changes. Sometimes a 70-percent solution that is available now can be 
better than a 99-percent solution that will be ready for fielding 3 
years from now. For example, the First Strike Ration prototypes out of 
NSC were demonstrated under a previously completed Science Technology 
Objective (STO), but deployed to OEF and consumed by elements of the 
75th Ranger Regiment. After receiving constructive comments from the 
deployed soldiers, the NSC team improved the nutrient-laden ration, 
deployed the rations again, and now receives continuous requests for 
them.
    Another example of moving technology forward is the Suite of Sense 
Through the Wall (STTW) system, which will provide mounted/dismounted 
soldiers with the capability to detect, locate and ``see'' personnel 
with concealed weapons and explosives who are hidden behind walls, 
doors and other visible obstructions. This capability has direct 
application to the operating forces requirements for military 
operations in urban terrain (MOUT), prisoner/checkpoint screening or 
hostage recovery operations.
     An additional example where RDECOM is inserting advanced 
technological equipment for the warfighter is with the Lightweight 
Counter Mortar Radar (LCMR), which provides the capability of 360 
degree detection of mortar fire out to ranges which are beyond the 
effective range of most mortar weapons and locating the firing weapon 
with accuracy sufficient to engage with combat air support. The radar 
weighs approximately 120 lbs and disassembles for transport. The radar 
reports target locations to a Personal Data Assistant (PDA) that can 
communicate with the radar wirelessly so that the radar operator need 
not remain with the radar. The PDA also provides radar control and 
receives and displays system status and fault messages.
    IED Change Detection is being developed by CERDEC to detect IEDs 
along travel routes using high resolution aerial/overhead imagery. It 
uses day and night sights and is currently mounted on manned and 
unmanned aviation systems. The data is sent to a Change Detection Work 
Station, where a warfighter views day-to-day thermal or TV imagery that 
is collected by the airborne asset. This system helps an operator to 
identify and locate ``new'' environmental changes on a route which 
could indicate the presence of IEDs or landmines.
    The Active Protective System (APS) is the hit avoidance portion of 
the manned FCS platform against anti-tank threat munitions prior to the 
threat munitions making physical contact with the platform. The 
Integrated Army Active Protective System (IAAPS) is an integrated FCS 
system that uses soft kill electronic sensors and countermeasures 
(jammers and decoys) and a hard kill active protection system (physical 
interruption) to protect a vehicle from direct fire and top attack 
threats with growth potential for kinetic energy (KE) threat defeat. 
RDECOM is developing the following two APS programs for integration 
into the current force in order to increase survivability of our 
warfighters.
    The Full Spectrum Active Protection (FSAP) Close-In Layered Shield 
(FCLAS) is a cross-technology solution integrating radar, digital 
signal processing and explosives in a small, self-contained interceptor 
ready for loading into a smoke tube or an upgraded FCLAS tube. It 
detects, tracks, and defeats RPGs.
    The Close-In Active Protection System (CIAPS) consists of a radar 
staring in all directions that can detect an incoming threat at very 
short range and launch one of an array of pre-positioned interceptors 
to intercept and destroy the threat shaped charge warhead before it 
hits the protected vehicle. It is effective against anti-tank guided 
missiles (ATGMs) as well as RPGs and can defeat threats launched from 
very short range.
    The command not only collects lessons learned from the FAST and 
STAT Teams, but each RDEC also has teams that deploy with the soldiers 
to gather on-site operational lessons learned. For example: One of the 
NSC's programs is called the Operational Force Interface Group (OFIG), 
which is in place to gather soldier feedback on equipment. The OFIG 
conducts numerous visits to operational units, after redeployment, 
where they survey hundreds of soldiers about their equipment. The OFIG 
also has teams that deploy to the area of operations to gather soldier 
feedback on problems with equipment. The NSC also has a ``Greening 
Program,'' which allows engineers, project officers and scientists the 
opportunity to participate in a field training exercise with a unit for 
a 4- to 5-day period.
    In order to ensure that the RDECOM has knowledge of and access to 
the best technologies in the world, the command has established 
International Technology Centers (ITCs) throughout the world. As 
regional representatives, the Command's ITCs understand and anticipate 
U.S. technology requirements and initiate proactive, innovative 
approaches to expanding contacts with foreign military R&D 
organizations, foreign commercial industry and foreign universities 
involved in S&T. Based on their discoveries, to include non-
developmental items (NDI), they recommend to the laboratories, RDECOM-
AIDE, PEOs, PMs and the REF, potential opportunities for cooperative 
projects, commercial contracts, university studies, etc., that will 
leverage international S&T in support of Army Campaign Plan.
    RDECOM has established a formal relationship with the TRADOC 
Futures Center (FC). This relationship insures the integration of 
technology into holistic Doctrine, Organization, Training, Material, 
Leader Development, and Personnel (DOTMLPF) solutions for the 
warfighter. The RDECOM becomes the entry point for the FC for all AMC 
S&T products through multiple channels that includes resident liaison 
officers assuring that the FC is cognizant of emerging technology 
enablers and the potential to deliver capabilities to the warfighter. 
The FC/RDECOM team provides a decisionmaking framework for Army 
leadership by analyzing S&T developments linked to operational 
capability to validate the S&T investment. The command plays an 
integral role with the FC in addressing shortfalls in future operating 
capabilities (FOCs) and providing the technologies to assure that 
warfighter capability goals are met. The command's technology 
integrated product teams (IPTs), including strong FC participation, 
insure that all pursued efforts will result in operationally relevant 
solutions to warfighter requirements and that the warfighter 
requirements are met. The focus for this new command has been in the 
power and energy, lethality, robotics, modeling and simulation, 
countermine, supportability, survivability, networking, nanotechnology, 
and biotechnology areas.
    The role of RDECOM is to provide a single integrated strategy 
toward the research, development and engineering of materiel solutions 
addressing user requirements. One major player in the strategy is that 
of experimentation. The linking of experimentation insures that RDECOM 
technology demonstrations are operationally relevant, while providing a 
venue to develop operational concepts for new technologies in FC 
experiments. By adhering to a Code of Best Practices for 
Experimentation, and institutionalizing the system engineering 
processes and disciplines throughout the RDECs, RDECOM provides a broad 
base of consistent and innovative approaches to developing the DOTMLPF 
solutions for the warfighter today and tomorrow. Using a variety of 
tools, ranging from hardware platforms, through virtual simulations, in 
either stand-alone or integrated mode, the centers perform a variety of 
experiments, from discovery, through hypothesis testing, and 
demonstration, leading to a developed and refined military capability. 
One of the tools that the command will use is the Modeling Architecture 
for Technology, Research, and Experimentation (MATREX) STO, that is 
developing a persistent, secure, distributed, and reusable environment 
where models can be ``plugged'' into an established architecture as 
needed and then ``played'' for engineering analysis, evaluations, 
supportability, and technology trade-offs in support of Army 
transformation. The MATREX will be a key enabler of Simulation and 
Modeling for Acquisition, Requirements, and Technology (SMART) 
initiatives throughout the command and the Army that will enable the 
Army to field equipment to the warfighters more speedily. Together with 
the Army Training and Doctrine Command (TRADOC) and the Army Test and 
Evaluation Command (ATEC), RDECOM plays a vital role in experimentation 
and development, from concept to fielding.
    But most importantly, we have worked closely with the Air Force and 
Navy R&D community and the national labs to ensure we are on a clear 
path to success in our warfighting missions in the 21st century.
    Today the Army is both at war and continuing its efforts towards 
transformation. As we move from our current force to the future force 
that is strategically responsive and dominant at every point on the 
operational spectrum, the Nation's S&T assets are essential to success. 
We must provide technology solutions essential to current and future 
warfighter needs across the full spectrum of Army operations. Our 
diverse S&T programs will enable the Army to support evolving and 
emerging capabilities.
    The RDECOM fields the technologies which sustain America's Army as 
the premier land force in the world.
    Thank you, Mr. Chairman for the opportunity to testify before the 
subcommittee. I would be happy to answer any questions you or the 
members of the subcommittee may have.

    Senator Roberts. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you 
gentlemen for your testimony this morning and for your presence 
here.
    A key aspect of success and rapidly transitioning these 
technologies through the current operation has been the ability 
to find the money to develop and produce the needed systems.
    I wonder if each of you might share the various mechanisms 
that you're using to find the money to move things out of R&D 
and into the field.
    Dr. Uhler.
    Dr. Uhler. Yes, sir. As I mentioned, what we tend to do is 
pay a lot of attention to what's occurring in the other 
military departments and the laboratories within government, as 
well as where industry is. We aggressively participate in their 
planning processes and we also try to look and see what's 
occurring in industry and academia.
    When we see a good idea--and this isn't just from our 
technologists that are doing this, this is also from our 
operators who are constantly exposed to interaction with their 
counterpart forces around the world--we take a quick look at 
that. We go out and buy it. We bring it in. As I mentioned, we 
test it quickly and then we get it in the hands of our 
operators for further evaluation.
    The advantage we have is that our operators are highly 
trained, mature, and skilled compared to the normal types of 
folks that are in the other Services because they spend more 
time training and they have a limited focus in their objective.
    Consequently, we can take some calculated risk in fielding 
this to them sooner than going through the full-blown 
development, testing, and evaluation process. That's where we 
tend to collapse the time needed to field capabilities.
    We can take a relatively commercial item and bring it in. 
If it looks really useful, we can field it very quickly by 
using our own in-house testing and give it to the field 
operators. We make modifications as they demand from there.
    Senator Reed. What funding sources do you use to under----
    Dr. Uhler. We use our existing R&D and S&T funding that we 
have. We've been fortunate to be well-supported in our budget 
requests by the committee. So it's done well for us.
    Senator Reed. General Waldhauser, do you have any comments?
    General Waldhauser. Sir, at the warfighting lab, one of our 
main functions is to go ahead and test and evaluate these new 
technologies for the operator. So once we determine perhaps 
that there is something there that could work and may be of use 
we coordinate with the operating forces, we also coordinate 
with those who would be involved in a transition later on, if 
required, and work through the Office of Naval Research and 
with our own program and resources in the Marine Corps to move 
money around, if necessary, to do that.
    So far in the time I've been in the job, my experience has 
been that this has gone fairly well. We have not had any major 
problems in doing that.
    Senator Reed. General Cartwright.
    General Cartwright. Sir, in the Army, there are a couple of 
means to look at answering your question. First, a combatant 
commander comes in with what's called an operational needs 
statement. He goes into our G3, who runs what in the Army we 
call the Army Strategic Programming Board.
    Those funds there, sir, are operational global war on 
terrorism funds and it looks at how to fill an immediate need 
and whether it can be applied to our rapid equipping force, 
i.e., I can turn a solution around in 90 days, or do I reach 
inside one of the labs for this 50 to 70 percent solution and 
deploy those in small numbers.
    The second thing is, through Dr. Sega's help in the Office 
of the Secretary of Defense (OSD), working with the combatant 
commanders helping us identify both money and critical 
capabilities--particularly I'll use the improvised explosive 
device (IED) change detection, which they're funding right now, 
to be able to field those needs. The testing is actually done 
by those combatant commanders, in conjunction with those 
combatant commanders, to field those things.
    The third way to look at it, sir, is the Army has put a 
huge investment into FCS. When we say ``system,'' it's really a 
unit. It's called a unit of action. That unit of action--one of 
the chief's goals for task forces when he came in, was task 
force modularity. That was to look at how to move the current 
Army more to the future Army as it stands now.
    That investment in FCS--we're seeing some of the systems I 
mentioned this morning--and the light-weight armor that you see 
to my right over there, we're pulling those technologies out of 
the FCS and applying those to current needs today. So I use 
those funds that we're doing with FCS or, as we say, you pull 
them off the bench and apply those to warfighting needs at this 
time.
    The third thing is we're learning from our brothers in 
SOCOM how to really get at how to do agile development and 
fielding with the combatant commander and turn solutions 
around.
    As I mentioned, we have S&T advisors on the combatant 
command staff. We actually have today 31 scientists--both 
military and civilian--deployed at the division, at corps 
levels in the area of responsibility (AOR) who are providing us 
both a capability and a need of how to turn those solutions 
around.
    Those solutions, sir, we either take out of the work we're 
doing for FCS or the doors and the kit that we did on HMMWVs, 
we take that out of the S&T dollars and then are repaid back 
through the global war on terrorism as that becomes available 
through the Army Strategic Programming Board that's run by our 
G3 in the Army.
    Senator Reed. Thank you very much.
    General Cartwright, one of the most obvious needs has been 
armoring of these HMMWVs both with the kits and with acquiring 
more armored HMMWVs.
    Do we yet have enough of the kits to provide for all of our 
requirements?
    General Cartwright. Sir, as the chief said before the full 
committee last week, the requirements have grown to about 
11,000. This kit to your right is only one of the solutions. 
We're pulling up-armored HMMWVs from all over the world and 
shipping them to the AOR.
    We're also using industry kits that were all tested to the 
same requirements to meet both small arms, RPG, and IED 
threats.
    The kit that you see to your right, sir, by the end of May, 
we will produce about 6,300 of these. In fact, today there are 
a little over 1,300 of these kits. It was started in December 
and we are already installed in-theater with these kits to move 
to the requirement to do that, sir.
    Senator Reed. Just focusing for a moment on this, and 
there's probably a hundred other items that we could focus on, 
what lessons have you learned from this experience about the 
industrial base, about our ability to surge the production, 
about the manufacturing technologies program and making sure 
that we can produce these things? Are there any initial 
lessons?
    General Cartwright. Sir, as you well know, starting up an 
industry is tough. The RHA that's used on this, they run the 
mills twice a year. If you don't have your orders in, you don't 
get it. They're actually running 24/7 on special runs to be 
able to do that.
    On the electronics industry, sir, as long as we can pull, 
and we're pulling a lot of commercial technologies right now, 
particularly in the surveillance arena from the commercial 
industry, I have a fairly strong industrial base out there.
    The piece we've learned is how to be agile in all of our 
processes, whether it be funding, authorities, or how do I meet 
the requirement or that capability that's coming into me today 
that says I need this now. It may be more than a couple hundred 
thousand dollars.
    The Department is learning from SOCOM, and with help from 
Congress, how to become the agile, expeditionary force that 
will go into any part of the world at any point in time and be 
able to meet that threat that we are going to meet.
    An industrial-based issue, particularly in electronics, is 
that what we use today may be a threat tomorrow. So what I'm 
using today, I now have to defeat tomorrow. In the electronics, 
it's fairly good. It's when I particularly want to get into the 
heavy industries is where they start up mills, just from the 
sheer start-up costs, sir.
    Senator Reed. Well, thank you very much indeed. I'm sure 
this subcommittee would like to hear more about the lessons and 
also anything we can do to facilitate your flexibility and your 
ability to be rapid in your response.
    Thank you, gentlemen. Thank you, Mr. Chairman.
    Senator Roberts. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. Again, welcome.
    Dr. Uhler, I am directing these questions primarily to you, 
but I would hope that General Waldhauser and maybe General 
Cartwright would also chime in and talk about this a little 
bit.
    I'm comfortable with the concept of spiral development with 
missile defense and whatnot. I appreciate General Cartwright's 
response to some questions I had that he responded to already 
with Senator Reed.
    I guess the follow-up question is, and you've talked a 
little bit about lessons learned, but are you sharing your 
successes and failures with other people in acquisition 
activities and acquisition officials throughout the DOD, 
including the space acquisition community? Are you 
communicating back and forth on your lessons, both the 
difficulties that you run into as well as successes?
    Dr. Uhler. Yes, sir. In fact, one of the first meetings I 
had when I was appointed to this position was with Mr. Wynne. 
One of the things we talked about was the fact that he 
encouraged us to keep taking advantage of the capabilities we 
have with this new look at spiral development and evolutionary 
acquisition and to continue to bring to him and the rest of the 
community the methodologies that we've used.
    One of the things he also said that he was interested in us 
doing was attending the semiannual conferences that he convenes 
to exchange those types of lessons. It's where he gets the 
whole acquisition community together down at the Defense 
Systems Management College at Fort Belvoir and we talk through 
these. He invites the acquisition executives from the three 
military departments and also from SOCOM, and that is a good 
exchange.
    I also have done speaking engagements and am committed to 
do more at the Defense Systems Management College for their new 
students in their program management course, explaining to them 
how we do these types of capabilities and changes within SOCOM.
    At the same time, I have a good relationship with my 
counterparts in both the S&T community and the acquisition 
community and other military departments. So we do, in fact, 
share our lessons learned and our experiences.
    One of the things that's so nice about the collaboration 
that we enjoy with them is that the authorities that you all 
gave us to function like a military department were for SOF-
peculiar equipment.
    What we tend to do is again look at what the Services have 
developed for their own common items of equipment in terms of 
helicopters, for example, and then we add to their basic air 
frame and capability those things that we need for our special 
operations mission.
    As a result of that, we're continually talking about what 
modifications we're making based on their common production 
line and depot facilities. That gives us another interchange 
mechanism that is very effective on showing how we can help 
each other do business.
    Senator Allard. In your statement, Dr. Uhler, you mentioned 
your command's updated acquisition priorities included the 
divestment of legacy systems that are not desired for the 
global war on terror.
    My question is, does the 2005 budget describe the legacy 
systems being terminated or are we to expect additional program 
budget information or reprogramming requests to terminate 
additional systems?
    Dr. Uhler. Actually, I'll put a slightly different twist on 
that. What we really have done is, as we laid out the fiscal 
year 2005 budget, we said certain systems are going to finish 
their development, move into production, and at the end of 
production, they will go into sustainment.
    So, as those systems which are currently being used in the 
field reach the point where we can say we now have a better 
product and no longer need to continue to field those systems, 
we will do so.
    In fact, that's what's reflected in the fiscal year 2005 
budget, and you'll see more of that in the out years as we 
bring those systems to fruition, have replacements for them, 
and use that money that's freed up to reinvest in the new 
systems.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Roberts. Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    This question is for all three of you, and it's a problem 
that we have been struggling with. This issue concerns the 
Reserve and National Guard units' training and equipment and 
access to technologies, because with this higher operations 
tempo (OPTEMPO), we have seen and heard disturbing reports 
about reservists and Guard members not receiving adequate 
equipment, or at least not the equivalent of Active-Duty 
Forces.
    What I'm wondering is, have there been any lessons learned 
about how we can better equip and train on the newest 
technologies the Guard and Reserve units that are called into 
active duty, General Cartwright?
    General Cartwright. Yes, ma'am. The Army is using a couple 
of initiatives. One is called the Rapid Fielding Initiative, 
which started about a year ago. Under the chief's direction, it 
will equip every unit with the exact same equipment, whether it 
be active or Reserve. Those units deploying on OEF-II now, 
whether they be from the Guard, Reserve, or active component, 
will have the exact same equipment, whether it be knee pads or 
rifles.
    As far as training goes, one of the lessons we have 
learned, ma'am, is we have what we call, in conjunction with 
the combatant commander, an IED task force. That IED task force 
has actually gone to every Guard brigade and done training on 
IEDs.
    Both here and before the unit crosses into Iraq, they'll 
get training on what the tactics, techniques, and procedures 
should be. They train on how to be able to do that before they 
go into theater. Those are two of the initiatives in the 
lessons learned that we're doing.
    Senator Clinton. Thank you.
    General Waldhauser.
    General Waldhauser. Ma'am, I can't speak directly on the 
equipment side of the house, but I can talk about the training 
to a certain degree.
    The Warfighting Lab, in conjunction with coalition partners 
and other agencies within the Marine Corps, has put on a 
training evolution in southern California for all battalions 
going back to Iraq. This has to do with cultural sensitivity, 
IED awareness, and how to work in the environment that the 
marines will find themselves in very shortly.
    I would say that the Reserve units, the battalions that are 
going back with the marines, have participated in that 
training. They've essentially received the same training that 
the active-duty units have.
    Senator Clinton. General, would you mind submitting to the 
subcommittee an answer with respect to equipment?
    General Waldhauser. It's now taken for the record, and I'll 
do that.
    [The information referred to follows:]

    General Waldhauser did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Clinton. Thank you.
    General Cartwright, I know that General Kern has visited 
Watervliet Arsenal. Since the War of 1812, Watervliet Arsenal 
has played a vital role in arming our military. It is our 
Nation's only manufacturing facility for large-caliber cannons 
in volume.
    At that same facility, Benet Labs performs scientific and 
engineering activities that range from basic research through 
design for production and engineering support for the 
production of its design team.
    This collocation of the arsenal and Benet Labs allows for 
complete life-cycle management from idea through research, 
engineering, prototype testing, and finally full-scale 
production. There isn't, so far as I know, any other collocated 
facility, and certainly no other arsenal, that has this kind of 
resource.
    When I visited Watervliet and Benet Labs, obviously there 
were a lot of questions about their future. I was impressed by 
what I saw there and I certainly have been impressed by the 
role that they've played in the last 2 years. I think that 
having that facility available and open and operating, no 
matter what conditions we confront, is essential to meeting our 
security needs.
    Are you familiar with Benet Labs and Watervliet Arsenal, 
General?
    General Cartwright. Yes, ma'am, I am.
    Senator Clinton. What are your thoughts on their future 
role?
    General Cartwright. Ma'am, I'll speak only to Benet since 
they are one of my labs that's actually owned up there. I'll 
give you a couple examples of the work Benet is doing right 
now.
    One of the things they're doing is looking at tank tubes, 
particular the Abrams tank tube. Over a life cycle, the tube 
will actually bend. One of the technologies they're looking at 
is going to actually use a process to re-straighten the 
barrels, which would be applicable for anything from large 
caliber to small arms, to be able to restraighten barrels.
    The second technology they're looking at in cooperation 
with Lawrence Livermore is a process called laser peening. It 
actually allows the metal to be harder. You shoot the laser at 
the metal and it allows it to be harder than it actually is and 
it lasts a lot longer. Those are two of the pieces that Benet 
Lab is doing.
    So it's not only supporting the arsenal, but it's looking 
at using them across a lot of the products--particularly laser 
peening. I can use it for tank tubes or tori tubes, but could I 
use it for fan blades on jet engines.
    Senator Clinton. So that could be part of a 
transformational recapitalization strategy with respect to a 
number of items?
    General Cartwright. Yes, ma'am. We're looking at that 
across all the labs, and it goes back to the chief's direction 
as to how do I take future technologies and put them to current 
use today, because we can't wait until 2010 to bring the 
technologies in. I need the technologies now.
    We're looking at that across all our labs, the industries, 
and the arsenals to say, how do I bring those in today? Because 
the old 90-percent solution is a day gone by when I can give 
the soldier a capability they need.
    Senator Clinton. Thank you.
    Senator Roberts. The thought occurred to me that at Fort 
Riley, Kansas, we have the best tank firing range in America. I 
guess maybe relocating all that to Kansas wouldn't be what the 
answer is then.
    Senator Clinton. I think a memorandum of understanding and 
partnership would be the--jointness is what I think it would 
represent.
    Senator Roberts. Well, everything has to be joint today, so 
I would certainly take that under consideration.
    I have two quick questions. Well, they're not quick, but 
let me make the observation that our ability to maintain what's 
called battlefield superiority obviously requires control of 
the information systems against increasingly sophisticated 
adversaries employing computer network attacks.
    You go to almost every one of these demonstrations back 
here and they're all highly computerized, and we just talked 
about a computer database with a problem at the FBI and the 
Border Patrol.
    Would any of you like to talk a little more about efforts 
underway to combat this potential weakness?
    The exercises that I've attended, some with Senator Reed, 
are very impressive. This new technology is very impressive.
    Usually one of my first questions is, what if the satellite 
goes down? What if you have an adversary who is very skilled in 
regards to combating our information technology?
    Where are we in terms of efforts underway? We are so 
reliant on these kinds of systems. If that is taken away by 
somebody wearing jeans, a Madonna T-shirt, whatever the latest 
brand of tennis shoes would be, and maybe a ball cap, where 
we're all outfitted in a high-tech way to combat that and they 
take it down, what do we do? What are we doing S&T-wise to 
offset that? Anybody?
    General Cartwright. Sir, you're correct. About the only 
thing that doesn't have software in it now is a bayonet.
    Senator Roberts. I'm sorry. I didn't hear that.
    General Cartwright. About the only thing that doesn't have 
software in it is a bayonet. If you look at the next generation 
of weapons, particularly rifles, they will have software in 
them.
    So information assurance is key, whether it be the computer 
on your desk today that you get your e-mail on in a classified 
or an unclassified method, or whether it's the soldier on the 
battlefield using reach-back systems to order those spare parts 
or to be able to destroy or neutralize an enemy's system.
    There are several ways we're doing that. There are S&T 
objectives that we're doing. There are actually 6.3-Advanced 
Technology programs in our labs now to combat that, and as you 
well know, a lot of the information assurance.
    I tell people that engineers recreated a wheel thousands of 
years ago in the engineering world. In the software world, 
we're about 50 years old in the art of learning this. I say 
learning it because every day it changes. A lot of it has to do 
with the ability I call, ``the attack and defend.'' To be able 
to defend yourself, you have to know how the attacker will 
attack you.
    Now, there are both classified and unclassified programs 
that we'll work on to take care of that, but the issue becomes 
how smart I am in protecting my own systems. That knowledge, a 
lot of times, comes from learning the attackers and the methods 
they're going to use.
    A lot of the systems we use today use commercial software 
in the reuse business because that's how you cut down the time 
needed for developing the new software. There are programs to 
ensure that the commercial software you get and that source 
code will do exactly what you want them to do, when you want 
them to do it.
    It is an area that is going to get more complex, because 
the other thing I would tell you is we've seen policies grow in 
the last couple of years in the areas of information security, 
information operations, and data fusion.
    That's my real worry. Do policies affect how we protect the 
battlefield? As I said, the only thing that's not going to have 
software in it is going to be a bayonet.
    What I may use on the tactical battlefield is also 
applicable in the civilian world, and we have to be very 
careful that we don't cross that boundary in protecting our own 
soldiers. A soldier on a battlefield now can reach back and 
touch your computer with the reach-back capabilities, 
particularly in the logistics world of being able to order that 
spare part in real time.
    Senator Roberts. Any other comments by any other of the 
witnesses?
    General Waldhauser. Sir, I have nothing significant to add 
to that, but I'd like to take that one for the record.

    General Waldhauser did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Roberts. All right. Dr. Uhler.
    Dr. Uhler. From our perspective, our situation is a bit 
less complicated than that of our sister Services. We focus on 
smaller unit operations.
    We tend to rely to a large extent on the best practices and 
the technology that's coming out of the military departments 
and also the DOD agencies.
    We spend a lot of time also worrying about low probability 
of intercept, low probability of detection for communications 
capabilities. We have a lot of alternate means to circumvent 
those types of situations if we do discover a vulnerability or 
suspect that there are problems with our situation.
    So we think we're in fairly good shape just following that 
practice right now.
    Senator Roberts. Well, some of those answers could be 
answered in a classified presentation, which we hope to have if 
we can fit it in with a very busy schedule.
    The year was 1999. I was privileged to chair the Emerging 
Threats Subcommittee when it was first formed by Senator 
Warner, Senator Lieberman, and Senator Coats. I think I made a 
statement--well, I know I made a statement that given the 
attack on the World Trade Center, that if the attacker had 
known or the terrorist had known where the grid was or had a 
copy of the grid of the towers there, that 6,000 people 
wouldn't come out suffering from smoke inhalation. They 
wouldn't have come out.
    Now, at that particular time when I said that and quoted 
Osama bin Laden and then asked people what really kept them up 
at night, that was the lead question and that's what I'm going 
to ask you.
    I had no idea that somebody would be using--I don't think 
any of us did--aircraft as missiles. I'm not saying that we 
were that prescient, except that virtually every panel we had 
before us kept warning over and over again that something like 
this could happen.
    So my question to you today is, when you look out 10 to 20 
years in the future, what is the technological challenge and 
future threat that concerns you the most? In other words, what 
keeps you up at night?
    As you look down the road, not only at what we're going 
through now, but also the rapid change and the revolutionary 
change that we have in technology and the change in threat now 
with the global war on terrorism, what's the one thing that 
really is of concern to you in this field?
    We'll start in reverse order with General Cartwright.
    General Cartwright. Sir, it's the ability to be able to 
defeat a technology that we may use in our everyday lives. It 
deals with your question of information security. We may have 
the greatest technology in the world that we use every day in 
our lives, but the next day the bad guy has figured out how to 
use that against me.
    To take that technology down, I might take that technology 
away from every one of us. How we work through that ability to 
be able to take that down may also affect how we do our 
everyday lives.
    Technology is turning so fast. You have nano and you have 
biotechnology coming on faster. In fact, I looked at a uniform 
yesterday that was built out of nano materials. I got in it. A 
guy put a hose against me. I was perfectly dry.
    Do we understand what those technologies are going to be, 
and then if we start using them and the bad guy uses it against 
us, how do I take that down and not affect our everyday lives 
that we all take for granted that we grew up with and that we 
live with?
    That's probably my greatest fear, sir. I have civilian 
scientists and military scientists and engineers that are 
coming in now that are just doing absolutely great things. They 
love it. They love it because of the support from this 
subcommittee and OSD and everybody because we're actually 
giving them real projects. The advance of this technology 
coming so fast really has them excited.
    But we're going to use that in our everyday lives and the 
bad guy is going to use it too. I don't want to take that 
technology away from anybody when he starts using it against 
me.
    Senator Roberts. Sobering thoughts.
    General, any comments?
    General Waldhauser. Sir, I would answer the question this 
way. I think presently the people we work with, the S&T 
community, the universities, the laboratories, everyone is 
extremely excited to make a contribution.
    My concern is, over the long-term, the ability to maintain 
the level of support we have right now in the community, to 
maintain the contributions that are being made, and to be able 
to harness what exactly is out there. What is the art of the 
possible? I think we have to be able to do that for the long-
term. There has to be some type of incentive to keep the ground 
swell of support that we see right now. We have to maintain 
that for the long term, 10 to 15 years from now, because the 
technologies change so rapidly, the threats change so rapidly.
    We have to have the momentum on our side so that next time 
around, wherever or whenever that may be, whatever threat 
emerges or whatever technology solution is there, we have to be 
able to rapidly harness that effort and then move forward to 
find the solution.
    Senator Roberts. So basically you're telling us that the 
goal of providing at least 3 percent of the DOD budget to S&T 
should be attained, and then you wouldn't have to worry so much 
about a particular surge requirement where you'd probably have 
to rely on a supplemental or whatever it is?
    In other words, you want a consistent and constant funding 
commitment not only during times when we are obviously involved 
in personnel tempo, OPTEMPO, and the global war on terrorism, 
and we're stretched all over the world, but also during other 
times as well?
    Am I sort of paraphrasing what you're saying?
    General Waldhauser. Yes, sir. If we have a relatively level 
commitment when something arises, the ability to find a quick 
solution would be that much easier as opposed to having to ramp 
up if we did not have a constant effort over time.
    Senator Roberts. So we'd have 11,000 of these units in 
theater right now. That's probably not the best example in the 
world, but at least it's the one I remember.
    Dr. Uhler, do you have any comment?
    Dr. Uhler. Yes, sir. When you think about the kinds of 
missions our SOF can be called upon to do, they can be sent 
anywhere in the world on an instant notice and encounter the 
full range of sensors and threat weapons that exist. So my 
biggest concern is how do we make those individuals not only 
invisible, but also invulnerable to those various types of 
environments in which they must operate?
    They don't have the support structure associated with them 
that the larger units do and so, again, these individuals are 
our most important asset. How do we protect them and how do we 
keep them from being seen and injured?
    Senator Roberts. Okay. We thank you for being here and we 
thank you for your contributions and your perseverance. We will 
go to the next panel.
    I would like to welcome our second panel. We have with us 
Dr. Ron Sega, who is the Director of Defense Research and 
Engineering; Dr. Thomas Killion, who's the acting Deputy 
Assistant Secretary of the Army for Research and Technology and 
the Chief Scientist; Rear Admiral Jay Cohen of the United 
States Navy, the Chief of Naval Research; and James B. Engle, 
the Deputy Assistant Secretary of the Air Force for Science, 
Technology, and Engineering.
    Gentlemen, if you can summarize your comments, we would 
appreciate it, and we'll begin with Dr. Sega.

STATEMENT OF DR. RONALD M. SEGA, DIRECTOR, DEFENSE RESEARCH AND 
                          ENGINEERING

    Dr. Sega. Mr. Chairman, Senator Reed, Senator Allard, thank 
you for the opportunity to appear before you today to talk 
about the S&T program for the DOD. Thank you for allowing my 
written testimony to be submitted for the record.
    S&T remains postured to support both the near-term global 
war on terrorism and the transformation of the DOD. We're 
excited about the capabilities and possibilities that continue 
to be opened by S&T throughout the Department.
    Secretary Rumsfeld stated in last month's fiscal year 2005 
budget testimony that the Department and Congress have a common 
challenge, to support the troops and to make sure they have 
what they will need to defend the Nation in the years ahead.
    The Department's S&T program is vital to support our troops 
and is simultaneously developing the capabilities for our 
future forces. While there are still many challenges, I believe 
the S&T program has been productive over the last year and the 
increasing emphasis on accelerating transition of technology is 
showing positive results.
    The president's budget request for fiscal year 2005 is up 
approximately 1.5 percent in real growth from the President's 
budget request in fiscal year 2004.
    As the Director of Defense Research and Engineering, I 
serve in the role of the Department's chief technology officer 
and have established five priorities. In the written testimony, 
there are many examples and I will forego some of those.
    Number one, to integrate the DOD S&T and focus on 
transformation, and to establish three cross-cutting 
initiatives for the Department. There are many initiatives 
within each of the Services as well.
    The National Aerospace Initiative will help us enable high-
speed and hypersonic flights and have access to space, space 
technology, and the Energy and Power Technologies Initiative 
will enable a more electrical force by creating new ways of 
power generation, energy storage and conversion and management 
of electrical power.
    The Surveillance and Knowledge Systems Initiative is 
enabling command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR). 
Senator Roberts, it gets to the question you have on 
information assurance. This is very important. For a network-
enabled, network-centric approach to the future, the network 
has to be there.
    We are also working on sensing knowledge management and 
communications in that initiative. You'll hear from the 
components, the Services, and some of their transformational 
activities in their work in the global war on terrorism.
    Number two, address the national security science and 
engineering workforce. We've begun addressing this need. It 
establishes things such as increasing the number and stipend in 
national defense graduate fellowships and also working with 
freshman initiatives and K-12 programs.
    It's just a start. We are currently examining future 
workforce needs to ensure that we have the best technical 
talent available for national security R&D.
    Number three, expand the outreach to the combatant commands 
and Intelligence Community. We've strengthened our ties with 
the combatant commands. In fact, we have a liaison officer from 
my office currently at Central Command (CENTCOM) forward in 
Doha, Qatar as we speak to continue that linkage.
    We've redone the joint warfighting S&T plan. This year for 
the first time, we've aligned with the joint functional 
concepts. The chapters are cosponsored by the joint staff or 
combatant commands and it is tying and aligning our program 
with the needs of the warfighter.
    We're testing more technical capabilities through a variety 
of mechanisms. The one you're probably most familiar with is 
the advance concept technology demonstration (ACTD).
    We're also increasing our collaboration in S&T planning 
with the Intelligence Community. I think that has been a 
positive initiative.
    Number four, to enhance technology transition. The 
relevance of research and engineering efforts hinges on the 
rapid and effective transition of technology to fielded 
military forces.
    The Department partnered with Congress to establish a quick 
reaction special projects program. It is critical that this 
program continue and expand. It allows the execution year 
flexibility to meet new needs and new technical opportunities. 
It's important for the value and as an effective mechanism in 
this near-term technology transition.
    The three components include the Quick Reaction Fund, the 
Technology Transition Initiative, and the Defense Acquisition 
Challenge Program. All, I believe, are working well and we 
appreciate your support.
    Other mechanisms, and we have a whole host to address 
different situations, include the ACTDs and Title III as two 
other examples.
    Number five is to accelerate the technical support for the 
war on terrorism. As General Cartwright had just alluded to, 
there is an integrating function that we established on 
September 19, 2001, called the DOD Combating Terrorism 
Technology Task Force.
    The leadership, technical leadership of the Services, 
agencies, and subject-matter experts, and then shortly after 
that, folks outside of the DOD, have come together to look at 
technologies, move forward quickly, and match those with the 
needs of the combatant commanders.
    We had three phases, one to address issues in Afghanistan, 
the next for preparing combat operations and potential needs in 
Iraq, and the third phase is concentrated primarily on force 
protection.
    Some of the areas included in that you see in this room. 
Others include other aspects of intelligence, surveillance, and 
reconnaissance (ISR), electronic countermeasures, language 
translation aids, and automated biometrics.
    In conclusion, the technology development results are 
largely achieved through long-term stable investments in S&T. 
Although the fiscal year 2005 President's budget request does 
focus on transformational technologies, it also maintains the 
flexibility to respond to near-term operational requirements 
and technology opportunities. The balance has been and remains 
important.
    I believe the DOD's successes in technology and 
transformation are significant, and I appreciate the 
opportunity to come before you today and tell you about them. 
We appreciate the support the Senate Armed Services Committee 
has provided the Department.
    [The prepared statement of Dr. Sega follows:]

                Prepared Statement by Dr. Ronald M. Sega

                              INTRODUCTION

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to talk about the science and 
technology (S&T) program of the Department of Defense (DOD). S&T 
remains postured to support both the near term global war on terrorism 
and the transformation of DOD. We are excited about the capabilities 
and possibilities that continue to be opened by S&T throughout the 
Department. Secretary Rumsfeld stated in last month's fiscal year 2005 
budget testimony that the Department and Congress have a common 
challenge: ``to support the troops and to make sure they have what they 
will need to defend the Nation in the years ahead.'' The Department's 
S&T program is vital to the support of our troops and is simultaneously 
developing the capabilities for our future forces. While there are 
still many challenges, I believe the S&T program has been productive 
over the past year, and the increasing emphasis on accelerating the 
transition of technology is showing positive results.
    As the Director of Defense Research and Engineering, serving in the 
role of the Department's Chief Technology Officer, I have established 
five priorities. These priorities facilitate the Secretary of Defense's 
goals. Our research and engineering goals are to:

        - Integrate DOD S&T and focus on transformation
        - Enhance technology transition
        - Address the national security science and engineering 
        workforce
        - Expand outreach to the combatant commands and Intelligence 
        Community
        - Accelerate technical support to the war on terrorism

    Taken together, these priorities provide a sound strategic roadmap 
to support the transformation of the DOD, and where technology can 
help, address the immediate challenges of the global war on terrorism. 
We have strengthened the programmatic oversight processes over the past 
year to better ensure that the goals and objectives of the Department 
are met. We have revised the Joint Warfighting Science and Technology 
Plan (JWSTP) to better integrate and align our S&T program with the 
needs of combatant commands and the joint functional concepts. We have 
instituted focused reviews of the Defense Advanced Research Projects 
Agency (DARPA) activities to ensure the best integration of the DARPA 
research and results into the Department's coordinated research and 
engineering program. We have expanded reviews with the components to 
assess technology maturity and enhance technology insertion in support 
of defense acquisition programs.

             INTEGRATE DOD S&T AND FOCUS ON TRANSFORMATION

    This goal strives for an integrated program across the DOD Services 
and agencies that is aligned with transformational goals of the 
Department. Two enabling elements for this goal--how much the DOD 
invests in S&T, and into what technologies the Department invests its 
S&T dollars.
    The fiscal year 2005 President's budget request is a solid budget 
proposal for S&T programs. The DOD request for S&T in fiscal year 2005 
is $10.553 billion, or 2.62 percent of the overall DOD request. The 
budget request achieves about 1.5 percent real growth in S&T, when 
compared to the fiscal year 2004 President's budget request. The 
Department's S&T investment has increased from $7.8 billion to $10.5 
billion in the last 3 years of the President's budget requests.
    We are mindful however, that additional funding, without focus, 
will not ensure transformation. We have focused the budget request on 
several important technology areas that should enhance transformation 
and deliver critical military capabilities, and in addition, provide 
technology solutions to support the global war on terrorism. The fiscal 
year 2005 President's budget request continues the direction of 
aligning S&T dollars to support the Department's six critical 
operational capabilities as outlined in the Quadrennial Defense Review. 
These capabilities are: protect bases of operations, deny enemy 
sanctuary, project and sustain US forces, enhance space operations, 
assure information operations, and leverage information technologies. 
Additionally, we continued with three broad, cross-cutting initiatives 
that address the development of DOD critical transformational 
technologies. These three initiatives have matured over the past year. 
They are the National Aerospace Initiative (NAI); Energy and Power 
Technologies, and Surveillance and Knowledge System (SKS). Finally, we 
continued to identify potential technologies for acceleration in 
support of initiatives for force protection of our remarkable men and 
women deployed in Afghanistan and Iraq.
    An important point to emphasize is the continuing importance of 
basic research to enable the development of future military 
capabilities. In the past 20-30 years, basic research has spawned such 
advances as the Global Positioning System (GPS), Stealth, and Night 
Vision devices. The pace of technology development is increasing so the 
generation of new ideas through basic research remains a high-payoff 
component of the S&T program. The fiscal year 2005 President's budget 
request for basic research is $1.3 billion. Although the investment 
level for basic research remains constant, the payoff continues to 
produce significant discoveries, sometimes on a critically shortened 
time-scale. For example, the success of the thermobaric weapon is 
directly linked to the basic research in DOD. The thermobaric weapon 
went from basic research through operational testing in 90 days. Basic 
research also closely links the DOD with universities that provide a 
great breadth of leading edge research, some that can be applied in the 
very near-term. For instance, the technology used to decontaminate the 
Senate offices and Federal facilities in the aftermath of the anthrax 
attack come from an ongoing university-based basic research project. 
The university linkage is also key in the education of the future 
defense workforce.

                         COMPONENT INITIATIVES

    The Army's Future Combat Systems (FCS) is a complex 
transformational initiative that networks combat and support vehicles, 
unmanned air and ground systems, and soldiers together as an integrated 
system. As this system matures, it will provide a revolutionary 
capability to move, shoot, communicate, and defend. A technology 
solution called ``ZEUS'' is a good example of enhanced technology 
transition in support of the global war on terrorism. ZEUS involves a 
high mobility multipurpose wheeled vehicle (HMMWV) mounted laser 
neutralization system for unexploded ordnance. ZEUS is currently 
fielded in Afghanistan. This technology has neutralized 10 different 
types of ordnance totaling 210 targets. The improved standoff range for 
ordnance neutralization enhances the safety of our troops.
    The Air Force's major transformational projects derive from the 
envisioned joint battlespace infosphere capabilities. Those would 
provide technology for applications ranging from decision quality 
information to demonstrations of small and micro satellites that could 
dramatically enhance our ability to conduct enduring space operations. 
This movement to the transformational aspects of space and information 
is central to the Air Force's investment profile, and will support the 
entire Department.
    The Navy's transformational programs include the electric ship 
which is an ``umbrella'' program to integrate an array of technologies 
that could provide an integrated propulsion, support, and weapons suite 
to maximize the capability of future naval operations. For the global 
war on terrorism, the Naval Research Labs developed and prototyped 
Dragon Eye, a successful project currently deployed in Iraq. Dragon Eye 
is a lightweight, person portable unmanned aerial vehicle (UAV) with a 
changeable sensor package. One such package allows for the collection 
and detection of chemical, biological, and radiological agents and 
provides a stand-off surveillance capability.
    Our investment in DARPA continues to emphasize high-risk, high 
payoff research and development in a number of strategic thrust areas, 
as outlined in the DARPA Strategic Plan. I would like to highlight a 
DARPA-Service collaborative project that is supporting transformation 
in the Department and should ultimately provide a unique surveillance 
capability. The Organic Air Vehicle (OAV) is a small, man-portable UAV 
that can fly and hover using a large horizontal fan. The UAV has been 
tested in 9-, 15-, and 29-inch diameter versions--and each can carry 
different payloads. This vehicle is being developed as a component of 
the Army's FCS. DARPA's programmatic agility, when linked with Service 
programs, accelerates technology development and transformation.

                       CROSS-CUTTING INITIATIVES

    One of the joint transformational technology initiatives is the 
NAI, which consists of research and development (R&D) in hypersonic 
flight technology, affordable and responsive space access, and an 
increased focus on space science and technology enablers.
    NAI provides an integrated technology roadmap for the DOD to 
increase our capability in several mission areas such as high speed/
hypersonic flight, access to space, and space technologies. For 
example, hypersonic capability could provide an air breathing option to 
conduct strikes from strategic distance in a short amount of time, 
reducing vulnerability of future systems, and help to deny enemy 
sanctuary. In the fiscal year 2005 budget, the Department increased 
hypersonics funding primarily in support of the Air Force-DARPA Single 
Engine Demonstrator (SED). The objective of the SED program is to 
flight test the Air Force Hypersonic Technology (HyTech) scramjet 
engine using endothermic hydrocarbon fuel accelerating a vehicle from 
boost (approximately Mach 4.5) to approximately Mach 7. The NAI also 
has the potential to capture American interest in aerospace technology, 
while providing needed technical capability for the warfighter.
    A second transformational technology thrust is Energy and Power 
Technologies. This thrust involves a coordinated investment across the 
DOD to improve power from systems such as microbatteries for soldiers 
to massive generators for ships. This initiative is investing in 
technology that could develop batteries with over five times the energy 
density, fuel cells that are reliable and safe to use in the 
battlefield, and capacitors that will decrease size needed to store 
electricity on ships by a factor of 5-10. The initiative is also 
focusing on ``electric'' weapon systems such as high power microwaves, 
lasers, and electromagnetic guns that will provide greater options for 
our forces.
    The third cross cutting initiative is SKS. SKS is a broad-umbrella 
program to develop capabilities to achieve information and decision 
dominance through integrated communications, command, control, and 
computers and intelligence, surveillance, and reconnaissance systems 
(C\4\ISR). This initiative seeks to bring about major improvement in 
sensing, communications and networks, knowledge management, and 
information security to provide superior decisions on shorter time 
scales than can be made by potential adversaries. Instead of treating 
each component separately, SKS has the goals of detecting objects in 
the area of interest (battlespace) through enriching sensors (optical, 
radar, acoustic, etc); moving the sensed information to present a 
coordinated picture of the area of interest; using advanced software to 
make sense of the information; and presenting this knowledge-based 
result to assist decisions. By using such an integrated approach, the 
goal is to allow our forces to react faster and smarter than potential 
adversaries. The initiative should continue to make the vision of 
network centric warfare a reality.

                     ENHANCE TECHNOLOGY TRANSITION

    The relevance of research and engineering efforts hinges on the 
rapid and effective transition of technology to fielded military 
forces. In partnership with Congress, we established the Quick Reaction 
Special Projects (QRSP) program, a flexible continuum of technology 
transition projects that moves products from the DOD to the warfighter 
quickly. The QRSP includes three technology transition projects: the 
Quick Reaction Fund (QRF); the Technology Transition Initiative (TTI); 
and the Defense Acquisition Challenge Program (DACP). We leverage the 
Foreign Comparative Test (FCT) and the advanced concept technology 
demonstration (ACTD) programs to get the best technologies to the joint 
warfighters in the shortest time possible.
    The QRF meets critical warfighter technology requirements that 
cannot wait for the traditional 2 year budget cycle. In fiscal year 
2003 we started six projects, three of which have already deployed to 
support the war on terrorism in Iraq. We have continued rapid 
technology insertion from the QRF in fiscal year 2004. This year, funds 
were provided for the development of a HMMWV mounted wideband microwave 
based integration system, called PING, to identify concealed weapons. 
PING has seen positive results in testing. We also used the funds to 
demonstrate and test ordnance disposal robots, a capability that has 
saved lives in Iraq.
    Last year we initiated the congressionally-directed TTI. TTI 
provides bridge funding for critical technologies that have recently 
been evaluated for procurement and enables the Services to speed 
transition to acquisition programs of record. For example, the water 
purification pen provides warfighters the ability to purify water in 
unsanitary conditions. It is now available via the General Services 
Administration (GSA) catalog for purchase from all government agencies. 
This technology transition was accomplished 18-24 months earlier than 
the normal acquisition process due to our ability to use TTI, and is 
being used today by warfighters in Iraq and Afghanistan.
    Under the direction of our new Comparative Test Office, the DACP 
and the FCT program inject the very best domestic and foreign 
technologies into existing capabilities, supporting the Department's 
spiral development strategy. Through the FCT program, we significantly 
enhanced the Army's Automatic Chemical Agent Detector Alarm (ACADA). 
The advanced power supply for this sensitive Chem/Bio detector was 
obtained from the United Kingdom. The power supply improved unit 
reliability and significantly reduced equipment weight. Over 22,000 of 
these detectors are deployed worldwide, protecting forces in 
Afghanistan, Iraq, and even those of us sitting here in the Capitol 
region.
    In the DAC program, we selected 23 proposals from nearly 300 
submittals. One example is an especially promising technology which 
provides hemoglobin substitute for blood transfusions project known as 
the Restore Effective Survival in Shock (RESUS). We believe RESUS has 
the potential to dramatically increase the survivability of our troops. 
This remarkable polymerized hemoglobin is compatible with all blood 
types, can be stored for 3 years without refrigeration, and is pathogen 
free. The support Congress has provided to the QRSP program has enabled 
execution year flexibility to support new needs of the operational 
force and new technology opportunities.
    The ACTD program is our flagship technology transition process for 
matching innovativeng technologies with joint and coalition operational 
concepts. This program earned a reputation for anticipating emergent 
threats and fielding transformational capabilities for combatant 
commands. Sometimes referred to as our ``try before you buy'' approach, 
ACTDs look for the 80-percent solution to jump start the acquisition 
process through fielded, hands-on demonstrations. For example, we 
successfully demonstrated the high-speed lift capability of the Theater 
Support Vessel ACTD in real-world operations during Operation Iraqi 
Freedom (OIF). Our Language and Speech Translator ACTD enabled us to 
quickly decipher confiscated documents which led to the location of 
several high profile Iraqi leaders. These and many other successful 
ACTDs draw the thanks of warriors engaged in Operation Enduring Freedom 
(OEF) and OIF.

    ADDRESS THE NATIONAL SECURITY SCIENCE AND ENGINEERING WORKFORCE

    The third goal is a broad national strategic issue involving the 
availability of scientists and engineers who are American citizens. 
Warfighting capabilities demonstrated on the battlefield since 
Operation Desert Storm are derived from the Department's technological 
capabilities developed within DOD R&D laboratories, industry, and 
universities. These capabilities were built on the intellectual capital 
and competitiveness of the scientists and engineers, educated years 
earlier, who conceived the scientific ideas and engineering 
applications that became our present warfighting capabilities. We 
produced stealth technology, the global positioning system, night 
vision devices, precision weapons and pioneered the development of the 
internet through the ``ARPANET'' with the U.S. technical talent 
educated primarily in the 1960s and 1970s.
    We now see warnings that America's advantage in defense-related 
scientific and engineering intellectual capital is eroding. The 
significance of this problem is outlined in the Report of the U.S. 
Commission on National Security in the 21st century (Hart-Rudman 
Report) which stated: ``Second only to a weapon of mass destruction 
(WMD) detonating in an American city, we can think of nothing more 
dangerous than a failure to manage properly science, technology, and 
education for the common good over the next quarter of a century''. The 
decreasing numbers of experienced scientists and engineers in the DOD 
draws from the available pool of high quality scientists and engineers 
who are U.S. citizens. The numbers of U.S. citizens in graduate schools 
studying defense related disciplines has decreased in the last decade 
according to National Science Foundation, National Science Board and 
National Academy of Sciences reports.
    We are responding to this issue. A science and engineering 
workforce initiative is needed to reinvigorate our national security 
R&D capability to ensure that we have the best qualified and motivated 
scientists and engineers engaged in national security R&D. To begin to 
address these issues, over the past year the Department has increased 
the individual stipend and total number of National Defense Graduate 
Fellowships. In addition, we are continuing to examine our future 
workforce needs to ensure that we will have the best technical talent 
available for national security R&D.
Expand Outreach to the Combatant Commands and Intelligence Community
    We are enhancing the connectivity between the combatant commands 
and the Intelligence Community and the DOD technology community. Over 
the past year, we have revised our S&T strategic planning approach, 
leading to a wholly revised ``Joint Warfighting Science and Technology 
Plan'' that was cooperatively developed by the combatant commands, 
Joint Staff, and S&T executives. We have also initiated several 
technology net assessments in partnership with the Intelligence 
Community to reduce the possibility of technology surprise in the 
future and better inform our S&T investment plans.

               ACCELERATE SUPPORT TO THE WAR ON TERRORISM

    Maturing and fielding technology continues to be our most important 
near term goal. Within a week of the attacks of September 11, 2001, the 
Department established the DOD Combating Terrorism Technology Task 
Force (CTTTF). This Task Force is still ongoing, and is in its third 
major phase. The first phase accelerated technologies for homeland 
defense and the initial war in Afghanistan; the second phase delivered 
technology in support of the war in Afghanistan and Iraq. The current 
third phase is identifying and accelerating technology for deployed 
force protection. The Task Force is comprised of S&T senior leaders 
from all DOD components, flag-level officers from the Joint Staff and 
selected combatant commands, the Central Intelligence Agency (CIA), the 
Department of Energy (DOE), and now the Department of Homeland Security 
(DHS). The CTTTF continues to provide a valuable forum to examine the 
technology alternatives to address immediate operational needs to 
support the global war on terrorism.
    Phase I, in the fall of 2001, resulted in such capabilities as the 
BLU-118B (thermobaric weapon) with applications to caves and tunnels, a 
backscatter gamma ray system to inspect cargo in closed containers, and 
a nuclear quadripole resonance system that can detect small quantities 
of explosives. We also sponsored a rapid study to determine radiation 
levels needed to kill anthrax spores--knowledge that supported the 
detailed response to the anthrax attacks of 2001.
    In Phase II, the CTTTF reacted to a broad set of operational issues 
that emerged leading up to and including support for OIF. Technologies 
were accelerated to fielding for several specialized, unique weapons 
which focused on specific, anticipated threats. Notable among these was 
the AGM-114N Thermobaric Hellfire which built upon previous efforts 
supported by the CTTTF in development of thermobaric weapons which were 
employed in Afghanistan in OEF. The CTTTF sponsored the Passive Attack 
Weapon to rapidly transition an Advanced Technology Development 
prototype program to production, fielding 230 weapons in 160 days. This 
effort included weapons production, development of operational tactics, 
delivery aircraft certification, field testing, certification, and 
deployment.
    In the current Phase III, the Task Force's focus has been directed 
at OIF force protection capabilities. While specific details on 
programs are classified, actions are underway to mitigate effects 
stemming from terrorist use of weapons such as Improvised Explosive 
Devices (IEDs), mortars, and rocket propelled grenades. Key focus is on 
detection and defeat of IEDs and on predictive analysis capabilities.
    The CTTTF will continue to serve as a conduit for matching the 
identification of new challenges in the global war on terrorism with 
available technologies developed both by the DOD, through commercial 
sources, and with other departments of the Federal Government. A key 
element of this effort is the need to have in place a process and 
funding to quickly identify, and then field, in militarily significant 
numbers, a series of new capabilities. The nature of the current 
operations indicates that the opponents, while often using low 
technology weapons, are very adaptive. We need the processes and 
flexibilities to anticipate, respond to, predict, and mitigate their 
adaptation cycles if we are to be successful in this long-term 
struggle.

                               CONCLUSION

    The sustained investment in S&T over the past decades has enabled 
the Department's development of needed new capabilities. To enable 
transformation, this investment should continue. Technology development 
results are largely achieved through long-term, stable investment in 
R&D. Not every technology needs to be transitioned immediately, but a 
strong R&D base is critical. Although the fiscal year 2005 President's 
budget request does focus on transformation technologies, it also 
maintains the flexibility to respond to near term operational 
requirements and technology opportunities. The balance has been, and 
remains important.
    In closing, the S&T program and the objective of Secretary Rumsfeld 
to provide transformational capabilities to the DOD are absolutely 
intertwined. I have mentioned only a few examples within the DOD S&T 
program. I believe the DOD successes in technology and transformation 
are significant, and I appreciate the opportunity to come before you 
today to tell you about them. We appreciate the support the Senate 
Armed Services Committee has provided for the Department's S&T program. 
Thank you.

    Senator Roberts. We thank you, Dr. Sega.
    Dr. Killion, please proceed.

  STATEMENT OF DR. THOMAS H. KILLION, ACTING DEPUTY ASSISTANT 
   SECRETARY OF THE ARMY FOR RESEARCH AND TECHNOLOGY, CHIEF 
                           SCIENTIST

    Dr. Killion. Thank you Mr. Chairman and members of the 
subcommittee. I appreciate this opportunity to discuss the 
fiscal year 2005 Army S&T program and the significant role of 
S&T in supporting the warfighter today and achieving the Army's 
transformation. I previously submitted a written statement and 
request it be accepted for the record.
    I want to thank the members of the subcommittee for your 
important role in supporting our soldiers who are now at war 
and for your support of the Army's S&T investments that will 
sustain the preeminence of our future forces. Your continued 
support is vital to our success.
    We are a Nation at war. Army S&T is charged to provide 
America's Army with sustained over-match in land combat. To do 
so, the Army S&T program retains a dynamic portfolio of 
technology investments that is responsive to the warfighters' 
needs both today and for the future. The Army's S&T program is 
balanced to provide high payoff capabilities for the future 
force while seeking rapid transition of critical capabilities 
into the current force. In my remarks, I will focus on four 
themes briefly. We're supporting our soldiers today. We are 
delivering on the technologies we promised for our FCS and the 
future force. We've maintained our commitment to a robust basic 
research program for our future transformational capabilities, 
and our success depends upon a workforce that has the necessary 
expertise and understanding to support the Army's needs.
    Army S&T is fully committed to providing our soldiers with 
the tools they need to survive and prevail in current 
operations. I wish to recognize the support that the Army is 
receiving from our sister Services and from OSD in rapidly 
transitioning technology to help our soldiers. I can personally 
testify to the offers the Army has received from my 
counterparts, Admiral Cohen and Mr. Engle, and to the 
leadership and resources provided by Dr. Sega. Everyone is 
committed to protecting our soldiers' lives with whatever 
technology we can bring to the fight.
    As you heard from General Cartwright in the previous 
session, there are numerous examples of technologies we have 
introduced into the global war on terror, including Interceptor 
Body Armor, the HMMWVs' Expedient Armor Kits and the Stryker 
``Bar Armor.'' Others include the Chitosan bandage, as 
demonstrated earlier from Medical Readiness and Materiel 
Command (MRMC), to rapidly staunch arterial bleeding. The Zeus 
laser system for neutralizing mines and unexploded ordnance and 
the Forward Area Language Converter (FALCon) system for 
automatically scanning and translating foreign documents for 
intelligence exploitation.
    We continue to explore gaps in current capabilities for 
which we can provide technological solutions. With regard to 
the FCS, it remains the highest priority for Army S&T. We have 
about one-third of our budget invested in technologies to make 
FCS a reality.
    In May 2003, the FCS program passed acquisition milestone 
B, transitioning from S&T into a System Development and 
Demonstration (SDD) program.
    S&T continues to play an important role in the FCS program 
by providing specific critical technology solutions for 
Increment I and beyond.
    As part of the Milestone B decision, the Program Manager 
(PM) identified 31 critical technology areas that needed to be 
addressed. The technologies that address most of these areas 
come from the Army S&T community and through our collaboration 
with DARPA. We are committed to the continued maturation and 
demonstration of these technologies for delivery to the Lead 
System Integrator (LSI) prior to the FCS preliminary design 
review in 2005. Some examples include the 120 millimeter 
lightweight cannon, Robotic Follower and Semi-Autonomous 
Robotics for the soldier ``mule,'' Active Protection Systems 
against chemical energy weapons and tactical wireless network 
assurance use algorithms.
    Instead of simply ``hurling technologies over the transom'' 
to the PM for additional development, we have entered into 
detailed Technology Transition Agreements (TTAs) with the PM 
and the LSI to ensure that S&T will deliver the products in the 
timeframe they are needed for integration into this system of 
systems. I believe that the implementation of this TTA approach 
will be a very valuable by-product of the FCS experience; it's 
a management tool that helps us bridge the gap that will often 
exist between the end of an S&T program and the actual 
transition of the technology into an acquisition program.
    The bottom line is that we are delivering on the 
technologies we promised for FCS, helping to make it a reality 
by the end of this decade.
    We've also maintained our commitment to basic research, 
which produces new knowledge to fuel revolutionary advances and 
leap-ahead technology for the future.
    Technologies in the field today, such as night vision 
devices, advanced munitions, various types of armor, and 
medical vaccines and treatments, owe their existence to 
fundamental research we conducted in the past. Research that we 
are conducting today in areas such as nanoscience, 
biotechnology, quantum computing, and immersive environments 
will enable unique and, in some cases, unforeseeable 
capabilities for the future Army. Few people would have 
anticipated that the basic research investment in atomic clocks 
in the 1950s would result in the GPS on which we all rely so 
heavily today.
    Finally, I mentioned earlier the support we are providing 
to current operations. That support certainly depends on the 
technological innovations that we are able to provide to the 
warfighter. More importantly, however, I believe it depends on 
the expertise and commitment of our scientists and engineers. 
Their understanding of the Army's needs, knowledge of the 
threat, and recognition of technological opportunities makes 
them uniquely qualified to bring relevant technical solutions 
to the battlefield. Perhaps the most important contribution the 
S&T community continues to make is sending its scientists and 
engineers into theater to see the real-life conditions, assess 
the problems, and develop rapidly deployable solutions for the 
warfighter.
    In General Cartwright's testimony, he described the design 
of Expedient Armor and Bar Armor for HMMWVs, Strykers, and the 
Abrams tanks. These innovations were developed and tested very 
rapidly due to close collaboration between the scientists and 
engineers in our Army Research Lab. They take it to the R&D 
Engineering Center, the Army Test and Evaluation Command and 
the PMs office and our industry partners. Individuals such as 
these, working with our soldiers, are what truly enables us to 
maintain and enhance our land combat advantage for today and 
tomorrow.
    The Army must maintain a diverse S&T portfolio to be 
responsive to the current and future warfighter needs. The S&T 
community seeks technological solutions that can be 
demonstrated in the near term, investigates the feasibility of 
new concepts for the mid-term, and explores the imaginable for 
the uncertain, far-term future. In closing, I would like to 
thank you, Mr. Chairman, for the opportunity to testify before 
the subcommittee. I will be happy to answer any questions you 
and the members may have.
    [The prepared statement of Dr. Killion follows:]

              Prepared Statement by Dr. Thomas H. Killion

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to describe the fiscal year 2005 Army science and 
technology (S&T) program and the significant role S&T is playing in 
support of the warfighter in our current force and in achieving the 
Army's transformation to our future force capabilities.
    We want to thank the members of this subcommittee for your 
important role in supporting our soldiers who are now at war and for 
your support of today's S&T investments that will sustain the 
preeminence of our future soldiers. Your continued support is vital to 
our success.

                      ARMY SCIENCE AND TECHNOLOGY

    We are a Nation at war. Challenged to maintain the technological 
and tactical advantage over our enemies by developing and exploiting 
both lethal, and when possible, non-lethal means. This creates a 
serious challenge for the Army. Army S&T is charged to provide 
America's Army with sustained overmatch in land combat. To do so, the 
Army S&T program retains a dynamic portfolio of technology investments 
that is responsive to the warfighters' needs of today and the future. 
The Army S&T mission is to conceptualize and develop future leap-ahead 
technologies that are necessary to maintain a superior land combat 
capability unmatched anywhere in the world while exploiting 
opportunities to accelerate the transition of proven innovative 
technologies to enhance the capabilities of the current force. The 
Army's S&T program is well balanced to provide high payoff needs of the 
future force while seeking rapid transitions for critical capabilities 
into the current force.
    The Army continues in its commitment to transform into a lighter, 
more lethal force. However, we are an Army at war and are continually 
challenged to achieve this transformation as quickly and as efficiently 
as possible. As General Schoomaker so eloquently states, transformation 
is an ongoing process that we must work at each and every day. The S&T 
investments in the fiscal year 2005 President's budget pursue 
technologies that can be matured and rapidly transitioned to system 
development and procurement to enable future force capabilities as soon 
as possible. We also fund an agile basic research program focused on 
enduring Army needs as well as opportunities to further transform the 
Army.
    We are not an Army alone; we are an integral member of the joint 
warfighting team. The S&T program is focused on developing technology 
relevant to the needs of the Army and the joint forces. It remains 
synchronized with operational concepts development and acquisition 
programs to ensure rapid transition into the field. The Army S&T 
program continues to exploit technology developments from the other 
Services, defense agencies, and commercial industry as well as 
international communities to assure that our soldiers get the very best 
technology as soon as possible. The future force Army will provide the 
Joint Force Commander with a versatile, full spectrum decisive land 
combat power while requiring significantly reduced logistics support.

            S&T CONTRIBUTIONS TO THE GLOBAL WAR ON TERRORISM

    Army S&T has supported the development of technology that has 
produced several benefits for the soldier in Iraq and Afghanistan. 
Perhaps the most important contribution that the S&T community 
continues to make is sending in-house scientists and engineers with the 
expertise and experience in critical technologies into the theater to 
see the real-life conditions, assess the problems, and develop rapidly 
deployable solutions for the warfighter. This community is committed to 
getting effective and usable technology into the hands of the 
warfighter--saving lives and enabling successful missions. While you 
have heard many examples of technology that has come out of S&T in 
support of the current operations, such as the Interceptor Body Armor, 
the High Mobility Multipurpose Wheeled Vehicle (HMMWV) Expedient Armor 
kits, and the Stryker ``Bar Armor'' in previous testimony, I want to 
take the time to highlight a few contributions that often aren't 
reported but are clearly contributing to our continued success. These 
are examples of technologies that play an important role in getting the 
job done. One example is the Chitosin bandage. It is a Food and Drug 
Administration (FDA)-approved bandage designed by the Medical Research 
and Materiel Command (MRMC) to stop severe arterial bleeding within 2-4 
minutes of application. This bandage's adhesive nature and enhanced 
clotting capability provide wound pressure and bleeding control to 
external hemorrhages. This bandage has been deployed to both Special 
Operations Forces (SOF) and conventional forces in theater and has been 
utilized successfully on a variety of injuries ranging from gunshot 
wounds to landmine injuries. Bottom-line . . . it saves lives.
    Another example is the Forward Area Language Converter (FALCon), an 
optical character recognition and machine translation system on a 
portable computer for foreign languages in theater. It was designed and 
developed by the Army Research Laboratory and provided to the 
Intelligence Community as a quick and reliable way to translate and 
analyze captured documents. FALCon can translate up to 47 languages, 
including Arabic and Asian languages, and is being used in both Iraq 
and South West Asia.
    Finally, the Army deployed a prototype directed energy system to 
Afghanistan consisting of a commercial kilowatt class laser mounted on 
a HMMWV developed by the Space and Missile Defense Command. This system 
was successfully used in neutralizing surface mines and unexploded 
ordnance.

                      FUTURE COMBAT SYSTEMS (FCS)

    Supporting the FCS remains the highest priority for Army S&T. We 
have about one-third of our budget ($600 million) invested in 
technologies that will provide our ground combat forces of this decade 
and the next with the dominant, full-spectrum combat power they will 
need to carry out their missions swiftly, efficiently, decisively and 
as safely as possible, no matter where they are asked to fight. FCS 
will be a multi-functional, multi-mission, reconfigurable system of 
systems designed to maximize joint interoperablity, strategic and 
tactical transportability, and commonality of mission roles, including 
direct and indirect fire, reconnaissance, troop transport, 
countermobility, non-lethal effects and secure, reliable 
communications. In May 2003, the FCS program passed Acquisition 
Milestone B, transitioning from S&T into System Development and 
Demonstration (SDD). The Project Manager (PM) for FCS continues to use 
the Boeing-led Lead Systems Integrator (LSI) team to identify and 
integrate technologies from the Army, the Defense Advanced Research 
Projects Agency (DARPA), and other Service and industry programs to 
develop an FCS that will satisfy the capabilities described in the 
approved Operational Requirements Document.
    FCS has adopted an Evolutionary Acquisition Strategy, which will 
allow the Army to increase the capabilities of the system of systems 
over time through spiral and incremental development processes. The 
initial instantiation of FCS (Increment 1) will be designed to provide 
certain ``threshold'' capabilities. The subsequent versions will 
deliver increased functionality to achieve ``objective'' capabilities 
as quickly as possible. Army S&T continues to play an important role in 
the FCS program by providing specific critical technology solutions for 
Increment 1. As part of the Milestone B decision, the FCS PM identified 
31 critical technology (CT) areas that needed to be addressed. The 
technology solutions to address most of these areas come from the Army 
S&T community in collaboration with DARPA. Eighteen S&T programs that 
were not quite as mature as desired by the May 2003 decision to enter 
SDD were identified in the PM FCS risk mitigation plans as being 
essential for Increment 1. Army S&T is committed to the continued 
maturation and demonstration of these technologies for delivery to the 
LSI prior to the FCS Preliminary Design Review in 2005. Some examples 
are: 120mm Line of Sight/Beyond Line of Sight Cannon, Mid-Range 
Munition, Robotic Follower and Semi-Autonomous Robotics for the Soldier 
``Mule,'' Active Protection against Kinetic Energy weapons, and 
Tactical Wireless Network Assurance algorithms.
    We continue to mature and demonstrate these critical enabling 
technologies, providing the promised products on schedule for 
integration into FCS. Instead of ``throwing technologies over the 
transom'' to the PM for extensive additional development, we are 
entering into Technology Transition Agreements (TTAs) with the PM and 
LSI to ensure that S&T will deliver these products within the timeframe 
they need for integration into the system of systems. I believe that 
the implementation of the TTA approach will be a very valuable by-
product of the FCS experience--a management tool that will help us 
bridge the gap that often exists between the end of an S&T program and 
the actual transition of the technology to an acquisition program.
    In addition to the efforts supporting Increment 1, S&T now has 
moved our main emphasis to developing capability-enhancing technologies 
for the Increment 1 spirals and for Increment 2. Dr Tether and I have 
agreed to continue the Army/DARPA FCS partnership for fiscal years 2004 
through 2007. We have identified a set of focus areas that represent 
some of the greatest challenges for the FCS and future ground combat, 
namely: Networked Battle Command On The Move, Autonomy With Intent, 
Find the Enemy, and Affordable Combat ID. We have agreed to co-fund 
about 15 high risk-high payoff programs at DARPA to find technology 
solutions that, when spiraled into FCS, will provide the next leap 
ahead in capabilities.

                          FUTURE FORCE WARRIOR

    Another major S&T investment is the Future Force Warrior (FFW). FFW 
will provide capabilities to the individual soldier that are achievable 
only at the platform-level today. Through networked connectivity to the 
FCS-equipped maneuver unit of action (UOA), FFW will enable 
revolutionary lethality, mobility, survivability, and sustainability 
for the individual soldier while reducing logistics demands. By the end 
of 2007, the FFW program will demonstrate increased individual soldier 
lethality and survivability through netted communications and fires 
while reducing the soldier's physical, fighting load from over 90 lbs 
to less than 50 lbs. The program develops a lightweight, low-
observable, enhanced-armor protective fighting ensemble that includes 
lightweight, high-efficiency power sources; embedded physiological 
monitoring and limited medical treatments; embedded training; and 
networked sensors to enable unparalleled situational understanding.

                             BASIC RESEARCH

    The Army's basic research program produces new knowledge to fuel 
revolutionary advances and leap-ahead technology that enable Army 
transformation. The program invests in world-class expertise 
(government, academic and industry) and state-of-the-art equipment. It 
balances its investment between in-house Army specific research and 
leveraging external scientific research that can be used for military 
applications. For example, few people would have anticipated that the 
basic research investment in atomic clocks in the late 50s would have 
resulted in the Global Positioning System (GPS) that is so prevalent 
today.
    Army in-house basic research focuses on military-unique problems, 
providing the underlying understanding that will enable technology 
development for the current force and future force technologies such as 
novel penetrators, lightweight durable armor, and energetic materials. 
In-house exploration research helps maintain ``smart buyer'' 
capabilities essential to the Army; utilizes Army unique facilities; 
and supports researchers in areas critical to the Army
    The Army maintains an extramural basic research program that is 
balanced between its two major components: (1) the single investigator 
program that invests in the brightest minds at our leading universities 
and is a key source of next-generation of scientists and engineers with 
an understanding of military problems; and (2) larger scale 
partnerships with universities and industry to take advantage of 
commercial investments and the cutting edge research at outstanding 
universities in areas critical to the future force. The external basic 
research program gives leverage to the power of academia and industry; 
focuses world-class research on Army challenges; allows flexibility to 
capture new discoveries; and, complements internal efforts. The Army 
continues to exploit the opportunities created by these organizations 
to accelerate development of transformational capabilities to a 
lighter, smarter, faster force.
    The Institute for Creative Technologies (ICT) at the University of 
Southern California continues to be an excellent example of how these 
centers attack Army problems with new and different views. ICT 
leverages academic and Hollywood expertise to perform fundamental 
research in simulation environments and virtual human depiction for 
training, mission planning and rehearsal. It has worked with the 
Training and Doctrine Command's (TRADOC), Infantry School at Fort 
Benning to develop cognitive leadership training aids that leverage 
both Microsoft's X-Box game console (Full Spectrum Warrior) and 
``gamer'' PCs (Full Spectrum Commander). In fact, Full Spectrum 
Commander is currently being adapted for Afghan National Army training 
in Operation Enduring Freedom (OEF).
    The Institute for Soldier Nanotechnologies (ISN) at the 
Massachusetts Institute of Technology focuses and adapts nanotechnology 
research to significantly enhance soldier survivability. Investment 
areas are nanofibers for lighter materials, active/reactive ballistic 
protection (to solve the energy dissipation problem), micro-
climatemicroclimate conditioning, signature management, biomonitoring/ 
triage and active control components.
    Last month we opened the Institute for Collaborative 
Biotechnologies (ICB) at the University of California, Santa Barbara. 
The ICB integrates biosciences with the physical and engineering 
sciences to provide an understanding of the biological construction of 
novel materials such as biologically-derived, functional electronic, 
magnetic and optical materials; integrated multi-modality sensing; 
biologically-derived network concepts; and, sense and respond actuation 
capabilities. This will influence the development of technology that 
improves military capabilities in the areas of precision strike, 
signature management, network design and implementation and 
``identification of friend or foe.''
    Collaborative technology alliances are industry-led partnerships 
between industry, major universities, historically black colleges and 
universities/minority institutions (HBCU/MI), and government. The 
strategy takes advantage of the large industry investments in areas of 
high importance to the Army such as communications and networks; 
robotics; advanced sensors and decisions architectures; and power and 
energy. This collaboration combines the practicality of industry with 
the creative research capabilities of universities and the operational 
knowledge and warfighter expertise of Army laboratories to leverage 
state of the art technology for the soldier.
    Centers of Excellence support the advancement of technologies 
directly related to the enduring needs of the Army by funding 
universities where state-of-the-art research programs are coupled with 
broad-based graduate education programs to increase the supply of 
scientists and engineers in the areas of interest. This strategy 
focuses critical mass of effort on enduring challenges.

                   MANUFACTURING TECHNOLOGY (MANTECH)

    The Army MANTECH Program is designed to improve readiness and 
reduce total ownership cost of Army systems through the implementation 
of new and enhanced manufacturing technologies. In 2002, the Army 
focused its MANTECH efforts to address high priority projects that will 
enable affordable production and sustainment of the FCS and future 
force in four major investment areas: armor; electronics/power systems; 
munitions; and sensors. The Army MANTECH Program places a strong 
emphasis on transitioning technology, directly involving the technology 
developers, acquisition program managers and industry.
    The Army's newest Center of Excellence, the Flexible Display Center 
(FDC), was established on February 10 at Arizona State University at 
Tempe (ASU). ASU will partner with industry, other universities, and 
the government to advance flexible display technology and 
manufacturing. The Army's goal is to have rugged, low-power flexible 
displays provide enhanced information and situational awareness for the 
soldier and vehicle platforms. The FDC will provide the innovative R&D 
for materials, devices, and manufacturing processes to solve critical 
challenges in the performance and fabrication of flexible displays. The 
payoff to the Army is a transformational capability for a lighter, 
smarter, faster future force.
    A good example of the return on investment that the Army MANTECH 
program has achieved is the Enhanced Manufacturing Processes for Body 
Armor Materials project that ended in May 2001. This effort helped 
reduce the cost of the composite plates that go into the Interceptor 
Body Armor vest from $850/plate to $500/plate. Through December 2003, 
500,000 plates have been produced for the Army and the Marine Corps. 
For a total shared investment in the MANTECH program of $1.5 million, 
we have realized a total of $175 million in cost avoidance. With the 
Army's plan to field Interceptor Body Armor to all of its deployed 
forces, we expect this cost savings to significantly multiply.

                               CONCLUSION

    The Army must maintain a diverse S&T portfolio to be responsive to 
current and future warfighter needs. The S&T community seeks 
technological solutions that can be demonstrated in the near-term, 
investigates the feasibility of new concepts for the mid-term, and 
explores the imaginable for the uncertain, far-term future. In closing 
I would like to thank you, Mr. Chairman, for the opportunity to testify 
before the subcommittee. I would be happy to answer any questions you 
or the members of the subcommittee may have.

    Senator Roberts. We thank you for your testimony.
    Admiral Cohen, please proceed.

   STATEMENT OF REAR ADM. JAY M. COHEN, USN, CHIEF OF NAVAL 
                            RESEARCH

    Admiral Cohen. Good morning, Chairman Roberts, Senator 
Reed, Senator Allard, it's a great honor and privilege for me 
to appear before you this morning.
    I will keep my comments very short because your questions 
are far more important than anything I might have to say.
    Senator Roberts. You're not going to show us what's behind 
that----
    Admiral Cohen. We're going to keep that the mystery of S&T.
    Senator Roberts. Is that classified or is that----
    Admiral Cohen. It is not classified.
    Senator Roberts. Not classified. All right.
    Admiral Cohen. It's just self-serving.
    Senator Roberts. What about what's sitting on that chair 
with the hole in it?
    Admiral Cohen. What's sitting in that chair, sir, is the 
result--you've already heard in the testimony this morning of 
the cooperation that is going on led in large measure by Dr. 
Sega amongst the Navy, the Marine Corps, the Army, and the Air 
Force, but also the other DOD agencies.
    After the tragedy of Khobar Towers, the Defense Threat 
Reduction Agency (DTRA) came up with a coating that they were 
able to apply to the inside of masonry structures. I know 
you've seen pictures of that being tested. That is the coating 
that you see right there. It can be applied in different 
thicknesses. It's called explosive-resistant coating.
    After the attack on the U.S.S. Cole, where 17 of our 
sailors were so tragically killed, we looked with DTRA at 
applying that to the inside of the hulls of our ships, not on 
the outside, but on the inside. We determined that if we had 
that, we could prevent penetration of the hull material that we 
currently use by an explosion about the size that occurred on 
the U.S.S. Cole. We might have grotesque deformation, but we 
would not have penetration.
    Senator Roberts. Now, does the U.S.S. Cole have that on it 
now?
    Admiral Cohen. It does not. We are looking very hard at 
using this under the existing insulation and Navy leadership, 
Naval Sea Systems Command (NAVSEA), et cetera, and the ship 
builders are looking at this.
    Senator Roberts. Have you outfitted any ship with this yet?
    Admiral Cohen. We have not outfitted any ship with it yet. 
We're looking to put it on X-Craft, which is the congressional 
experimental high-speed vessel, which is aluminum. As we're 
moving to aluminum, this technology becomes even more 
attractive. But what we have done--and I don't know if you had 
a chance to see the video. I know Senator Dole had a chance to 
see it.
    Senator Roberts. Right.
    Admiral Cohen. But what we have done, working with the Army 
at Aberdeen, in addition to their kits that they're using for 
the vertical protection from the IEDs and the shards, is we've 
looked to apply this underneath, just like undercoat, on the 
HMMWVs. I'm going to keep this unclassified so that against 
mines and other threats, we would protect the soldiers and the 
marines who are on convoy duty. As you saw from that video, the 
results are the HMMWV is destroyed. But with this on the 
bottom, the passenger compartment is maintained intact.
    Now, this also had 50 caliber bullets shot at it and you 
can see the effect it had. Those bullets are retained. Now, 
this is heavy. It's expensive. But this is the value of S&T 
being rapidly deployed.
    Senator Roberts. I apologize to my colleagues and I 
apologize to you for interrupting your prepared remarks.
    But how on earth are you going to keep that HMMWV traveling 
at 50 miles per hour through a hot zone with that kind of 
weight?
    Admiral Cohen. Well, you're looking at a complex structure 
there. I will tell you that the Army is very focused on this--
and Dr. Killion will correct me if I'm wrong here--and they 
will not go below a thousand pound load carrying capability in 
their HMMWVs.
    The kit that you see, the four doors and the side 
protection, adds between 600 and 800 pounds. We're looking to 
limit this to under 200 pounds, which would still fit in the 
window, and I'm focused more on our deploying marines right now 
who may have slightly different standards on this in the field 
than the Army does. But we are already seeing the ball joints 
and the springs failing much earlier than we had ever 
anticipated.
    So you push the balloon here, because you don't know the 
logistics problem it's going to create. But I will tell you as 
an aside, I am prepared to go to Chrysler, Ford, General 
Motors, Dean Kamon, and others and have them look at everything 
we know about nano, everything we know about structural 
integrity, all of the modeling simulation we've done, the 
appliques and the sandwich approach, and let's see if we can 
design a HMMWV-like vehicle knowing what the future holds for 
us in the global war on terrorism with suicide bombers, et 
cetera, so that we can better in the future deploy our sailors 
and marines in that environment trading the platform for the 
person.
    The South Africans have a large vehicle that's called the 
Water Buffalo, I believe. It's way too big for a HMMWV kind of 
vehicle, but it shows promise in the intelligent design against 
these asymmetric threats.
    Senator Roberts. Again, I'm sorry I interrupted, but I 
think it's very valuable that you point out the hands-on or the 
actual event occurrence and what you face with technology. As 
you improve one particular area, you have to, as you pointed 
out, fill out that other balloon.
    Please proceed with your comments.
    Admiral Cohen. Yes, sir. I was going to say that I'm just 
an old naval line officer and, in fact, I'm getting older. But 
4 years ago when I was ordered--and they were called naval 
orders--to be the Chief of Naval Research, I did not have, 
although I have a postgraduate degree, an S&T background. I'm 
just an old submariner.
    But I can tell you, Senators, that in the time I have been 
privileged to be the Chief of Naval Research, and it is unique 
in all of our Services, I have learned the value of sustained 
investment in basic research at a critical level.
    I have learned that it is only the Federal Government, with 
its great resources and the staying power year to year, that 
enables the discovery and invention that generates the 
innovation that powers our economy and empowers our fighting 
men and women in the defense of our freedoms. I thank you and 
the American taxpayer for that investment. It is absolutely 
critical.
    Now, the question is always asked, what do those science 
projects do for me today? We've talked about atomic clocks. The 
previous speakers had an opportunity. You asked very insightful 
questions.
    In late November, the Secretary of the Navy, Gordon 
England, came to me and said, ``we're going to deploy more than 
40,000 marines in March and April to Iraq.'' He said, 
``Admiral, I want you to put out a very broad net, not just 
Naval Research, not just Naval Research Lab, not just the other 
Services, I want you to go to academia. I want you to go to 
industry. I want you to go to other departments of the 
government. I want you to go international.''
    I provided what's now called ``the Sears catalogue'' by 
your staff, and they have it, and I will just hold it up. We 
have many of the logos--you're nothing without a logo--that 
show literally the hundreds of groups that we went to.
    On December 12, my birthday, we set up at the Naval 
Research Lab right here on the Potomac, the quadrangle there. 
We made it like Tikrit. It was 35 degrees. Secretary England 
came. He brought Navy and Marine Corps leadership.
    Instead of giving a quad chart and viewing graph briefs, we 
demonstrated the cutting edge S&T from industry, from other 
Services, international, et cetera. Some of it worked. Some of 
it didn't work. That's S&T. I get paid to take risk. I have the 
privilege of failing occasionally in my job.
    Based on that meeting, Secretary England has been holding 
biweekly meetings with Navy and Marine Corps leadership to 
ensure, number one, that our marines have the capability to 
provide their mission as they go to Iraq, but also to ensure 
that they have the maximum protection that our technologies can 
provide to the marines.
    You saw some of that in the demonstration at the back of 
the room. I'm so proud to be part of the Navy, Marine Corps, 
civilian, and uniform leadership that values our fighting men. 
Thank you, sir.
    [The prepared statement of Admiral Cohen follows:]

              Prepared Statement by RADM Jay M. Cohen, USN

    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
the Navy's fiscal year 2005 naval science and technology (S&T) budget 
request.
    The last year has demonstrated how new technology and new 
operations have transformed the nature of the battlefield and the speed 
of operations. I want to highlight some of the contributions from the 
naval S&T portfolio that have delivered new capabilities to our fleet 
and force. These are examples of how Congress' sustained and stable 
investment in science and technology in the past delivers the 
technological superiority for our sailors and marines today.
    Let me tell you about some of the S&T success stories from 
Operation Iraqi Freedom (OIF). You will remember that I came before 
this subcommittee a few years ago and brought a prototype for 
demonstration of the Dragon Eye, a small unmanned aerial vehicle (UAV), 
for small unit tactical reconnaissance. The Dragon Eye is small, light, 
easy to transport, and easy to fly. This UAV has transitioned into the 
Marine Corps Force and will accompany the First Marine Expeditionary 
Force (I MEF) when it deploys to Iraq later this year.
    We have long supported the development of unmanned underwater 
vehicles. The Remote Environmental Monitoring Unit (REMUS) is a low-
cost autonomous underwater vehicle. Originally designed to conduct 
coastal surveys in support of science, it was adapted for military use 
with support from the Office of Naval Research and the U.S. Special 
Operations Command (SOCOM). Capable of performing rapid environmental 
surveys, REMUS also functions as an underwater mine reconnaissance 
device for the Navy's Mine Countermeasure Program. A half dozen of the 
REMUS autonomous underwater vehicles went with the Navy Special 
Clearance team to the Arabian Gulf to help clear the ports of Umm Qasr 
and Az Zubayr. Equipped with side scan sonar, REMUS was used to 
systematically survey 2.5 million square meters of waterways. This was 
the first time that an unmanned underwater vehicle was used in 
conjunction with other mine countermeasure units in a wartime 
situation. The team had the first REMUS in the water within several 
hours of arriving in Umm Qasr.
    Another UAV used in OIF is the Silver Fox. Built as a small 
tactical UAV, Silver Fox uses off-the-shelf avionics and can fly 
autonomously using differential Global Positioning System (GPS). 
Weighing only 22 pounds, it can be launched by hand or catapult from 
various platforms. Once airborne, Silver Fox uses an infrared and high-
resolution color zoom camera to relay reconnaissance information 
instantaneously to a remote laptop computer. Powered by a 0.91 cubic 
inch engine, this fixed-winged aircraft can reach speeds close to 65 
miles per hour and operate at an altitude of 1,000 feet with a range of 
up to 150 miles. We are working to increase the flight endurance beyond 
the current 10 hours. We are using the 4 pound payload capacity for 
small state-of-the-art detection systems. Silver Fox's 5-foot fuselage, 
detachable wings, and tail fins fit into a supersized golf bag making 
storage and transportation simple and efficient. Unlike other UAV 
systems, which require a skilled radio-control operator or pilot, 
Silver Fox is easy to fly and allows the operator to program routes 
into a laptop computer.
    Those are some of our highlights for the near-term--``Today's Navy 
and Marine Corps.'' Naval S&T is a sustained journey from discovery to 
deployment in which innovation (invention) and experimentation 
(validation) transform the operating forces. This is a continuous 
cycle, so I would like to discuss the ``Next Navy and Marine Corps'' 
(roughly the forces that will emerge over the next 5 to 15 years), and 
finally the ``Navy and Marine Corps After Next''--which we will see in 
15 to 30 years.
    A great deal of our transformational effort is lodged in the Future 
Naval Capabilities (FNC). S&T enable Navy transformation by achieving 
the FNCs' goals. The key to successful transformation is the strong 
business partnership among scientists, industry, requirements, 
acquisition, and warfighters.
    We have focused a major portion of our S&T portfolio on FNC for the 
``Next Navy and Marine Corps.'' Approximately two-thirds of our 6.3 
(Advanced Technology Development) funds and about 40 percent of our 6.2 
(Exploratory Development) funds are invested in the FNC. The FNC 
process delivers maturing technology to acquisition program managers 
for timely incorporation into platforms, weapons, sensors, and process 
improvements. Each of the current 12 FNC focus areas is planned and 
reviewed by an integrated team with representation from the Office of 
Naval Research, a Program Executive Office (PEO), the Navy and Marine 
Corps requirements community, and the fleet/force user community. This 
gives us constant validation of the relevance of the technologies, and 
strong buy-in and commitment to transition plans. We have recently 
strengthened alignment of the FNC process with the naval capabilities 
development process, which establishes our program requirements and 
priorities in Sea Strike, Sea Shield, Sea Basing, and FORCEnet.
    The current FNCs, in no priority order, are:

        <bullet> Advanced Capability Electric Systems--The future of 
        naval warfare is electric. Warships will have revolutionary 
        power plants that permit new hull forms and propulsors, reduce 
        manning, streamline logistics, power advanced sensors, and 
        enable future high energy and speed-of-light weapons. We have 
        already successfully transitioned the Aircraft Electrical 
        Servicing Station, a solid state, re-programmable, reliable, 
        high quality deck edge power source for aircraft servicing, and 
        the Reconnaissance, Surveillance and Targeting Vehicle, which 
        demonstrates key hybrid electric components such as Li Ion 
        Battery Pack, power electronics, and in-hub wheel motors in an 
        integrated system demo. In fiscal year 2005 we will transition 
        work on our Ships Service Fuel Cell to the DD(X) program. Fuel 
        cell technology has the potential to significantly reduce fuel 
        consumption, and can also provide distributed power generation, 
        improving the ship's ``fight through'' ability. This FNC is 
        aligned most closely with Sea Strike, Sea Shield, and Sea 
        Basing.
        <bullet> Autonomous Operations--This program is pursuing a 
        dramatic increase in the performance and affordability of naval 
        air, surface, ground, and underwater autonomous vehicles--
        unmanned systems able to operate with a minimum of human 
        intervention and oversight. The Autonomous Operations FNC gives 
        us a great potential to operate effectively in what would 
        otherwise be denied areas. It contributes to Sea Shield and Sea 
        Strike. In fiscal year 2005, for example, we will transition 
        the Modular Mission Payload Architecture to the Fire Scout 
        Vertical Tactical UAV. The prototype system is being used to 
        control the ISR payload on the Spiral 1 Spartan USV, which is 
        currently deployed on the U.S.S. Gettysburg in the Middle East.
        <bullet> Fleet/Force Protection--We have very capable ships, 
        aircraft, and ground combat vehicles. It's our business to 
        ensure that they don't fall to the sorts of asymmetric threats 
        our enemies pose. This FNC, aligned with Sea Shield, is working 
        to develop effective organic means of protection: weapons, 
        sensors, countermeasures, stealth and damage control. It has 
        already transitioned the initial phase of the ES Detection of 
        Low Probability Intercept (LPI) Periscope Detection Radars 
        project to Office of Naval Intelligence as part of their 
        Cluster Pennant Program. In addition, this S&T program is 
        transitioning as an upgrade to Naval Sea Systems Command's 
        (NAVSEA) AN/BLQ-10 Submarine ES System.
        <bullet> Knowledge Superiority and Assurance--Information 
        technology is as crucial to naval superiority as it is to any 
        other aspect of contemporary life. This program is developing 
        our ability to distribute integrated information in a dynamic 
        network with high connectivity and interoperability. It will 
        ensure knowledge superiority, common situational understanding, 
        and increased speed of command. This FNC is a key enabler of 
        FORCEnet. It recently provided a prototype Image Processing and 
        Exploitation Architecture tool to the I MEF for deployment on 
        UAVs in Iraq and Afghanistan. This tool provides a geo-
        referenced composite picture of imagery that builds over time 
        as UAV sensors conduct searches of areas of interest. The 
        picture provides a substantial enhancement to standard imaging 
        techniques that only provide a view of what the sensor sees at 
        any particular point in time. The Knowledge Superiority 
        Assurance FNC has also provided tools that significantly 
        improve our ability to process signals intelligence and weather 
        information in-theater. In fiscal year 2005, this FNC plans 
        several transitions to significantly improve time-sensitive 
        decisionmaking, apertures, networking, interoperability, and 
        the next generation common picture.
        <bullet> Littoral Antisubmarine Warfare--This program is part 
        of our shift in emphasis to littoral, expeditionary operations. 
        The antisubmarine warfare (ASW) challenge in coastal waters is 
        a tough one so, we are focusing scientific efforts on enhancing 
        our ability to detect, track, classify, and engage enemy 
        submarines by using a layered tactical ASW approach. We do this 
        by first countering enemy submarines near shore, followed by 
        addressing threat submarines prior to their torpedo launch, and 
        then countering any threat torpedoes after launch. Each layer 
        by itself will effectively address its individual objective; 
        and when the layers are viewed in their entirety, it offers an 
        effective ``system-of-systems'' approach that we believe will 
        adequately address the ASW problem. A number of products have 
        transitioned to acquisition systems including Sonar Automation 
        Technology processing techniques that provide automated 
        detection and classification operator alerts to submarines and 
        surveillance platforms, reducing operator workload and 
        increasing performance capability. Sea Shield is benefiting 
        from the products of this FNC.
        <bullet> Littoral Combat and Power Projection--This FNC has two 
        major thrusts: Expeditionary Logistics (aligned with Sea-
        Basing) and Littoral Combat (essential to Sea Strike). This FNC 
        focuses on deploying uniquely capable combat and logistics 
        systems necessary to deploy and sustain the fleet and the force 
        without building up a large logistical infrastructure ashore. 
        This year, the Expeditionary Logistics Program successfully 
        tested a set of automated Logistics Command & Control/Decision 
        Support Tools essential to the Marine Air Ground Task Force 
        (MAGTF). They have set the stage for transition of a Ground 
        Logistics Command and Control Combat Service Support 
        ``Toolkit''. The toolkit will provide proactive rapid request 
        support for personnel, equipment, and services, logistics 
        mission planning and execution support, after-action assessment 
        tools, and situational awareness projection onto the Marine 
        Corps common operating picture. Littoral Combat FNC plans a 
        fiscal year 2005 transition of the EX-45 Stabilized Gun Mount 
        which will use advanced software to sense and compensate for 
        motion about train and elevation axes. The gun mount which 
        additionally houses an Embedded Video Tracker is compatible 
        with the MK-19 40mm, M2 .50 caliber and M240G 7.62 weapon 
        systems. The stabilized, adaptive mount coupled with an auto-
        tracking feature will significantly enhance warfighting 
        capability in both surface vessel and vehicular applications. 
        Also planned for transition in fiscal year 2005, the 
        Expeditionary Decision Support System (EDSS) software 
        application is designed to support operations ranging from 
        amphibious landings to combat operations ashore. Resident 
        within the application are scheduling engines, computational 
        models, performance algorithms, and the ability to 
        collaboratively access common databases. EDSS's high degree of 
        military utility has garnered substantial warfighter interest 
        and as a result has deployed with Marine Expeditionary Units 
        (MEUs) and Naval Expeditionary Strike Groups (ESGs) in support 
        of Operation Enduring Freedom (OEF) and OIF. The Direct 
        Reporting Program Manager Expeditionary Fighting Vehicle (DRPM 
        EFV) will transition the secure wireless local area network 
        (LAN) and related technologies to enhance the information 
        exchange between individual EFVs, between EFVs and dismounted 
        troops, as well as between EFVs and the ships and operations 
        centers with which they operate.
        <bullet> Missile Defense--This program is focused on technology 
        enabling and supporting lethal engagements of theater missiles, 
        manned and unmanned aircraft at extended ranges in defense of 
        naval forces and assets afloat and ashore. Products being 
        worked will offer ways to expand the battlespace rapidly, 
        identify contacts accurately, and engage threats effectively 
        and efficiently. This year, as part of the Composite Combat 
        Identification project, the Missile Defense FNC will transition 
        advanced algorithms to correlate real-time track files with 
        signals intelligence data and other information files resident 
        in the EP-3E ARIES II surveillance aircraft. When this 
        capability is operational, derived identification information 
        will be provided to fleet tactical users in real-time. As part 
        of the Reactive Materials Warhead project, test results and 
        warhead design parameters of a first generation reactive 
        materials warhead will be available with the goal of high 
        lethality against cruise and ballistic missile targets. In 
        September, there will be an important demonstration at the 
        Combat Systems Engineering Design facility of our Distributed 
        Weapons Coordination capability. These automated battle 
        management algorithms will provide real time priority threat 
        evaluation considering all air threats and all defended assets, 
        at sea and ashore. Recommendations of Preferred Shooter will 
        also be developed considering location, current weapons load 
        and optimal end-game geometry for both ballistic missile 
        defense and defense against ``air breathing'' threats. In early 
        fiscal year 2005, we will complete development and testing of 
        highly mobile X-band radar technology in the Affordable Ground 
        Based Radar project as a risk reduction concept demonstration 
        for the Marine Corps Multi-Role Radar System (MRRS). The 
        Missile Defense FNC is a strong contributor to the Sea Shield 
        and FORCEnet pillars of the Navy's Sea Power 21 operational 
        concept.
        <bullet> Organic Mine Countermeasures--Because they are cheap, 
        and able to seed the battle space with a menace far out of 
        proportion to their numbers, mines have been and will continue 
        to be deployed against us by terrorists and their state 
        sponsors. We're working to give our forces an organic--that is 
        to say, an inherent--and stand-off ability to detect, 
        characterize, and neutralize mines wherever they may be 
        encountered. Closely aligned with Sea Shield, this FNC has 
        transitioned several important products. One of them, the REMUS 
        autonomous underwater vehicle, in now in the hands of our 
        operating forces in Iraq where it helped clear the rivers to 
        speed supplies to troops. It was also pressed into service in 
        the weeks immediately following September 11 to help secure 
        ports on both of our coasts. I might mention that REMUS emerged 
        from a basic oceanographic research program--another piece of 
        evidence that overnight successes are long in preparation.
        <bullet> Time Critical Strike--We are substantially reducing 
        the amount of time it takes to hit critical mobile targets, 
        like theater ballistic missiles launchers, command centers, and 
        weapons of mass destruction. One of this FNC's products, the 
        Affordable Weapon System, a loitering cruise-missile-like 
        system that can carry a variety of payloads, is currently 
        transitioning to the acquisition community for development this 
        year. Time Critical Strike is aligned with Sea Strike.
        <bullet> Total Ownership Cost--This FNC uses advanced design 
        and manufacturing processes to significantly decrease the cost 
        of buying, operating, and maintaining Navy systems while 
        promoting increased system readiness. We are working to reduce 
        total lifecycle costs during design and manufacturing as well 
        as increase savings realized from reduced manning and better 
        environmental compliance. Aligned primarily with Naval 
        Enterprise, this FNC has transitioned a number of programs to 
        the user community. The Total Oil Monitoring System is designed 
        for real-time, online applications and will transition to Navy 
        surface ships to monitor critical machinery. The Rapid Cure 
        Ship Tank Coatings Program has been demonstrated in 14 ship 
        tanks and voids. Aircraft corrosion sensors, developed under 
        the Corrosion and Corrosivity Monitoring System Program have 
        been installed on an H-60 helicopter for flight testing. The 
        Turbine Engine Technology Program delivered a thermal barrier 
        coating with significantly reduced thermal conductivity that 
        was selected for inclusion in the F135 (Joint Strike Fighter) 
        engine. In fiscal year 2005, we will transition a Portable Wide 
        Area Non Destructive Inspection Imager that maps surface 
        corrosion and subsurface defects without removal of paint. 
        Payoffs include faster, more reliable aircraft inspection, 
        improved prognostics, longer aircraft life, lower repainting 
        costs and improved safety.

    The relatively mature technologies managed in FNCs do not spring up 
overnight. In many cases they are the result of long term investments 
in research and invention programs in 6.1 and early 6.2 funding 
categories. We focus our research and invention investments on areas 
where the Navy is the only significant U.S. sponsor (such as Ocean 
Acoustics and Underwater Weaponry), and on S&T Grand Challenges whose 
solution would provide significant advances in naval capability (such 
as Naval Materials by Design). A stable, long-term discovery and 
invention program is essential to keep our pipeline full of enabling 
technologies and to attract the Nation's best scientific talent to 
focus on naval problems.
    Finally, I would like to talk about the ``Navy and Marine Corps 
After Next''--the fleet and force we will see in 15 to 30 years. We are 
continuing to support our Grand Challenges and the National Naval 
Responsibilities as well as our Innovative Naval Prototypes. The Naval 
S&T Grand Challenges are large, difficult, challenges that, if met, 
could give us decisive capabilities 15 to 30 years in the future. We 
encourage the Nation's scientific community to achieve breakthroughs in 
difficult but achievable scientific challenges like Naval Battlespace 
Awareness, Advanced Electrical Power Sources for the Navy and Marine 
Corps, Naval Materials by Design, and Multifunctional Electronics for 
Intelligent Naval Sensors. The National Naval Responsibilities are 
fields in which the Department of the Navy is the only significant U.S. 
sponsor. These include fields like Naval Engineering, Ocean Acoustics, 
and Underwater Weaponry. If the Department of the Navy didn't invest in 
them, it is unlikely that anyone would. It is vital to keep such fields 
healthy, not only for the sake of our own capabilities, but to avoid 
technological surprise as well.
    I am excited about what I call Innovative Naval Prototypes. These 
are the capabilities that promise to fundamentally change how we 
prepare for and fight wars. Examples include: the Free Electron Laser, 
the Electromagnetic Railgun, hypersonic missiles, the x-craft, and 
superconducting electric drive motors. The Secretary of the Navy and 
the Chief of Naval Operations (CNO) are committed to making the 
electric ship our ship of the future and we are providing the S&T. We 
are well down the path to building the electric propulsion and weapons. 
The 36 megawatt motor effort is underway and we are using the lessons 
learned from ongoing testing of the 5 megawatt motor. The Free Electron 
Laser is progressing to its next demonstration at 10 kilowatt. In 
addition, we are working collaboratively with the other services, as 
directed by Congress, on electromagnetic rail gun technology for the 
future.
    Construction is underway on the high speed, experimental vessel 
called Littoral Surface Craft--Experimental, or ``X-Craft.'' This high 
speed aluminum catamaran will test a variety of technologies that will 
allow us to improve our capabilities in littoral, or near-shore, 
waters. The X-Craft will be used to evaluate the hydrodynamic 
performance, structural behavior, mission flexibility, and propulsion 
system efficiency of high speed vessels. X-Craft will eventually be 
fitted with an advanced lifting body component. The lifting body 
component is a streamlined underwater appendage that will dampen low-
speed ship motions, increasing the operational envelope for helicopter 
and small craft operations. Liquid polymers will be used on the surface 
of the lifting body to evaluate drag reduction.
    The X-Craft will be the first Navy purpose built ship to 
demonstrate mission flexibility. Mission flexibility will be 
demonstrated through interchangeable ``mission modules'' housed in the 
X-Craft's large Mission Bay in standard 20-foot container boxes. The 
Mission Bay will be capable of housing 12 containers, permitting the 
vessel to be quickly reconfigured to support a variety of potential 
missions, including battle force protection, mine countermeasures, 
amphibious assault support and humanitarian support. A multi-purpose 
Stern Ramp will allow X-Craft to launch and recover manned and unmanned 
surface and subsurface vehicles up to the size of an 11 m Rigid-Hull 
Inflatable Boat (RHIB). From its flight deck, X-Craft will be able to 
support 24-hour-a-day operations for up to two MH-60S helicopters.
    In conclusion, the Nation's return on investment is clear. Naval 
transformation depends on a long-term, stable and sustained investment 
in S&T. We validate through a cycle of ongoing experimentation and 
validation so we can transition new capability to the warfighter.
    Thank you for the opportunity to testify.

    Senator Roberts. Secretary Engle, you're next.

STATEMENT OF JAMES B. ENGLE, DEPUTY ASSISTANT SECRETARY OF THE 
       AIR FORCE FOR SCIENCE, TECHNOLOGY, AND ENGINEERING

    Mr. Engle. Thank you, Mr. Chairman, members of the 
subcommittee, and staff. I also very much appreciate the 
opportunity to be here today and to testify on the 2005 Air 
Force S&T budget.
    The United States Air Force is continuing to transform to a 
capability-based and focused expeditionary air and space force. 
We are doing this through the development of our concepts of 
operations (CONOPs) for each of the seven major tasks that the 
Air Force must accomplish to support the combatant commander.
    Our goal is to make the warfighting effects and the 
capabilities we need to achieve them the drivers for everything 
we do. In fact, we are specifically focused on this area in our 
S&T program.
    We have taken the effects and the capabilities required by 
the seven concepts of operations and the transformational goals 
and mapped them to the long-term challenges and the short-term 
objectives identified in the congressionally-directed S&T 
planning review we completed in 2002.
    Let me just briefly highlight some of the most exciting 
work we're doing in this area that's relevant, I think, 
particularly to the testimony on transitioning work that we're 
doing to our warfighters.
    We have increased our investment in space communications 
technology considerably. The objective here is to identify, 
develop, and demonstrate wide-band technologies needed to build 
a space-based laser communication network that can provide 
higher data throughput.
    Along with the movement of information, protection and 
assurance of that information to the commander in the field is 
equally important. Our work at Rome Labs in New York is world 
class in this particular area, in both computer network defense 
and attack as well as assurance of information to the 
warfighter.
    We have completed and transitioned the initial breakthrough 
work on laser eye and sensor protection developed at our Human 
Effectiveness Directorate at Brooks City-Base in Texas and the 
Materials Lab at Wright-Patterson. These efforts have been 
rated world class by our Air Force Scientific Advisory Board.
    Also world class is the space weather research being done 
at Hanscom up in Massachusetts. We will put the Communications/
Navigation Outage Forecast System (C/NOFS) satellite in orbit, 
which will help us provide the warfighter with a space weather 
forecast.
    We're also very proud of the work that we're doing on the 
research for the protection of facilities and equipment that 
Admiral Cohen spoke about. We've done considerable work on 
elastomeric coating polymers, which are coating this thing 
right here. We are, in fact, putting the polymer that's been 
developed under the DTRA on the Pentagon. Right now, as we 
refurbish the Pentagon and other buildings, it's incredibly 
effective in this particular capacity with a very thin coating.
    In addition, we're continuing to explore the use of these 
kinds of polymers embedded in fabrics for less-rigid 
structures, such as tents and field equipment, for protection 
of our forces in the field.
    Another exciting effort that we see in the near term 
demonstrated back here is the Vehicular-Mounted Active Denial 
System (VMADS) being jointly developed with the U.S. Marine 
Corps. It is a defensive millimeter wave system used for 
perimeter defense that we have developed down at Phillips Lab 
or at our Directed Energy Lab in Albuquerque.
    It is a directed energy weapon and it omits that nonlethal 
feeling, Mr. Roberts, that you had to experience three times 
while they were photographing you; just to make sure we have 
the right photograph. It is very effective. If any of you would 
like to have a demonstration of the full body blast, let me 
know and we can arrange that.
    We are working hard for our SOF by reducing the weight and 
integrating the kit that they use. We call this equipment the 
Battlefield Air Operations Kit, and improvements are being 
realized by using very rapid spirals to speed development, 
prototyping, testing, production, and fielding.
    As a result, our special tactics warriors will soon have a 
digital machine-to-machine capability that helps them quickly 
connect to the right aircraft with the right munitions on board 
guided precisely to the right target at just the right time.
    These new automated processes help reduce the time it takes 
to target the terrorist threat, while at the same time reducing 
human error in the targeting process.
    We're also working hard to defend against Man-Portable Air 
Defense Systems (MANPADS), and that's also demonstrated in the 
back. I think that is some of our most exciting work, which I 
think we're going to see fielded more and more, not only within 
our force structure, but internationally as well.
    In addition, Closed-Loop Infrared Countermeasure (CLIRCM) 
multi-spectrum missile warning system is coming online soon and 
will be the next generation. We are rapidly trying to get that 
mature and into the field as well.
    We strive to focus on those technologies that we believe we 
will need to transition over the next 10 to 15 years, 
principally in our program. But as Dr. Sega and the rest of my 
colleagues have pointed out, because of the operational 
necessity of today we have found very effective ways to take 
the work that is the basis of our technology and transition it 
quickly to our warfighter.
    At the same time, we have to balance that against the long-
term and make sure that we have that tech-base viable in the 
10- to 15-year period. One of the most important methods to 
determine if you're investing in the right things is to maybe 
dissect some legacy systems and see if the technologies you've 
invested in in the past have found their way into the 
developmental or operational systems we have today.
    One excellent example is the F/A-22 aircraft. A wealth of 
technologies have been transitioned into this aircraft and they 
can be traced back to an investment of approximately a billion 
dollars in the Air Force S&T over the years. Examples of these 
transitioned technologies include low observable materials, 
advanced two-directional thrust vector nozzles, new supercruise 
non-afterburning turbine engines, fly-by-wire integrated flight 
controls, solid state active transmit and receive radar, and 
thermoplastic composite structures, just to name a few.
    Additionally, a number of information-related technologies 
have transitioned into operational use, including the highly-
effective information data wall that we're currently using in 
Afghanistan and Korea, multi-layer communications securities 
being used by several government agencies, software-defined 
reprogrammable radios, and secure communications that are 
adaptable for coalition operations.
    In conclusion, the Air Force is fully committed to 
providing the Nation with the advanced air and space 
technologies required to meet America's national security 
interests around the world and to ensure we remain on the 
cutting edge of system performance, flexibility, and 
affordability.
    The technical advantages we enjoy today are a legacy of 
decades of investment in S&T. Likewise, our S&T in warfighting 
capabilities of the future will be substantially determined by 
today's investment in S&T.
    To meet all of the demands of our laboratory, the Air Force 
is working to increase our S&T funding. Our fiscal year 2005 
President's budget request is for $1.9 billion. This includes 
$1.4 billion in core S&T, which represents an increase of over 
$80 million or almost 5 percent real growth compared to the 
President's budget of fiscal year 2004.
    As we face the new millennium, our challenge is to advance 
technologies for the expeditionary air and space force as we 
continue to move aggressively into the realm of space 
activities.
    The Air Force S&T program provides for the discovery, 
development, demonstration, and timely transition of affordable 
transformation technologies that keep the Air Force the best in 
the world.
    As an integral part of the DOD S&T team, we look forward to 
working with Congress to ensure a strong S&T program tailored 
to achieve our vision of a superior air and space force.
    Mr. Chairman, thank you again for this opportunity to 
present testimony and thank you for your continuing support of 
the S&T program.
    [The prepared statement of Mr. Engle follows:]

                  Prepared Statement by James B. Engle

                              INTRODUCTION

    Mr. Chairman, members of the subcommittee, and staff, I very much 
appreciate the opportunity to provide testimony on the fiscal year 2005 
Air Force science and technology (S&T) program. The United States Air 
Force is transforming to a capabilities-focused Expeditionary Air and 
Space Force. We are doing this through the development of the concept 
of operations for each of the seven major tasks the Air Force must be 
capable of accomplishing to support our combatant commanders. Our goal 
is to make the warfighting effects and the capabilities we need to 
achieve them the drivers for everything we do. This is especially true 
in our S&T program. We have taken the effects and capabilities required 
by the seven concepts of operations and mapped them to the long-term 
challenges and short-term objectives identified in the congressionally-
directed S&T Planning Review completed in February 2002. Not 
surprisingly, we have a high correlation between our S&T programs and 
the capabilities required by these concepts of operations. This is 
because the Air Force Research Laboratory (AFRL) closely links the 
technologies reflected in its S&T plan to warfighter capability needs.
    The United States Air Force is committed to an S&T program that 
enables us to achieve our vision of becoming an integrated air and 
space force capable of rapid and decisive global engagement. By 
continuing our investment in transformational technologies that support 
a reduced cycle-time, spiral development acquisition process, the Air 
Force will retain its dominance of air and space in future conflicts, 
against both traditional and asymmetrical threats.
    Innovation is a vital part of our heritage and is key to ensuring 
the Air Force will meet the challenges of tomorrow. Transforming our 
warfighting capabilities towards this end will involve continued 
innovations in how we train our forces and how we think about employing 
our forces to defend our Nation, as well as continued advances in our 
technology. We must be prepared to counter regional instabilities, the 
worldwide availability of advanced weapons, and other emerging and less 
predictable acts of terrorism against our Nation and allies. We are 
developing transformational technologies that permit flexible forces to 
operate far from home, on short notice, and for extended time periods. 
However, we must also be able to afford transformational innovations 
once we develop them in order to re-capitalize the Air Force to fulfill 
our vision. To meet warfighting capability objectives, we invest in the 
most promising and affordable technologies in order to win decisively, 
protect our forces, and minimize collateral damage.

                S&T BUDGET/SENIOR LEADERSHIP INVOLVEMENT

    We continue to be faced with the reality of a fiscally-constrained, 
but operationally-demanding environment. The high operations tempo 
(OPTEMPO) the Air Force has sustained in support of peacekeeping 
operations and conflicts, such as in Afghanistan and Iraq, has placed a 
great burden on our people and the supporting logistics.
    In spite of these rigorous demands, the Air Force is working to 
increase S&T funding, while maintaining a balanced S&T portfolio. The 
Air Force fiscal year 2005 President's budget request for S&T is $1.9 
billion--this includes $1392.8 million in ``core'' S&T efforts, which 
represents an increase of over $80 million or almost 5 percent real 
growth compared to the President's requested amount for similar 
``core'' S&T efforts in fiscal year 2004. The most significant change 
in the S&T President's budget request results from the integration of 
programs that were devolved last year from the Office of the Secretary 
of Defense (OSD) to the Air Force S&T program. This includes the 
University Research Initiative program and the High Energy Laser Joint 
Technology program.
    The Air Force understands the concerns of Congress regarding the 
level of support for these devolved programs and continues to work hard 
to ensure these programs support the diverse multiple military 
objectives inherent in joint programs. Furthermore, the OSD continues 
to provide policy guidance and oversight for these efforts.
    In a separate action last year, the Seismic Research Program for 
detection of nuclear explosions was transferred back to the Air Force 
from the Defense Threat Reduction Agency (DTRA). We continue to work 
with the OSD, the Air Force Technical Applications Center, and the Army 
to invest in a seismic research program that addresses operational 
nuclear explosion monitoring needs. Under the guidance of the OSD-led 
intergovernmental steering committee, the Air Force is funding research 
to increase the understanding of seismic wave propagation at regional 
distances of less than 2,000 kilometers.
    One area in which the Air Force has increased its investment is in 
space communications technology with initiation of the transformational 
communications technology development program. This program will 
identify, develop, and demonstrate the wideband technologies needed to 
build a space-based laser communications network that could provide 
higher data throughput to transform our military satellite 
communications infrastructure.
    Warfighter and senior Air Force leadership involvement in the 
planning, programming, and prioritizing of Air Force S&T continues to 
be a priority. For example, the Secretary and Chief of Staff of the Air 
Force, along with the Air Force Service Acquisition Executive and the 
Air Force Materiel Command Commander, conduct a full portfolio review 
of the S&T program similar to the former S&T summits. In addition, the 
Integration Capabilities Review and Risk Assessment process involves 
several levels of senior Air Force leadership, including the chief and 
all the four stars, and further promotes a greater understanding within 
the Air Force of the S&T program and its link to warfighting 
capabilities. The Capabilities Program Execution Review provides a 
forum in which the commander of each major command is afforded a 
focused look at his portfolio and an opportunity to resolve issues at 
the system/program level and provide insight to the S&T program. 
Finally, the Applied Technology Councils (ATCs), which are discussed in 
greater detail later in this statement, bring together acquisition 
product centers, logistics centers, major user commands, and laboratory 
personnel to review and discuss S&T efforts--ATCs foster top-level user 
involvement in the transition of technology from the laboratory to the 
system developer to the operational user.

                             TRANSFORMATION

    The Air Force continues to transform from a Cold War to a post-Cold 
War air and space force. As we do so, we must prepare for new forms of 
terrorism, attacks on our space assets, attacks on our information 
networks, cruise and ballistic missile attacks on our forces and 
territory, and attacks by adversaries armed with chemical, biological, 
radiological, nuclear, or high explosive (CBRNE) weapons. To address 
this post-cold war reality, the Air Force has established a process of 
transformation by which it will achieve and maintain the ``advantage 
through changes in operational concepts, organization, and/or 
technologies that significantly improve its warfighting capabilities or 
ability to meet the demands of a changing security environment.'' 
Critical to this transformation is the ability to mature and translate 
a vision into actual operational capabilities in order to prevail in 
conflict and avert technological surprise.
    When examining the concept of combat transformation, it is 
important to note several fundamental points. First, transformation is 
not the result of a one-time improvement or change, but rather a 
continuum of sustained and determined efforts. Second, meaningful 
transformation requires integrating expanding capabilities with those 
of the other Services and non-military elements of national power. 
Third, transformation is more than new ``gee-whiz'' technologies. It 
includes adapting existing capabilities and using them in new ways, 
changes to the organizational structure to increase effectiveness, and 
changes in doctrine and concepts of operations to include training and 
tactics that determine force deployments. Fourth, transformation should 
not be achieved at the expense of ongoing operations in support of the 
Department of Defense (DOD) strategy of maintaining adequate readiness 
and infrastructure, conducting critical recapitalization, and 
attracting quality personnel. To achieve rational transformation there 
must be a careful balance between these requirements, which all compete 
for limited resources.
    To institutionalize transformational changes, the Air Force will 
capitalize on three core competencies. One, developing airmen to ensure 
they receive the education, training, and professional development 
needed to provide a quality edge second to none. Two, integrating 
operations to enhance combat capabilities that are pivotal to 
maximizing the air and space environment. Three, the technology-to-
warfighting vision of translating technology into operational 
capabilities. These three core competencies are the foundation of 
success and will ensure we remain dominant in air and space operations.
    Transformation further translates into Air Force operational 
concepts--more commonly known as Concepts of Operations (CONOPs). Air 
Force CONOPs provide the long-term roadmaps to get the right 
capabilities at the right time and place for the joint warfighter. 
Implementation of these CONOPs require new and sometimes revolutionary 
changes to existing CONOPs and organizations, and refocusing technology 
developments. The CONOPs form the basis of the Air Force investment 
strategies for technology development, system acquisitions, and support 
decisions. The Air Expeditionary Task Force is an overarching CONOP 
that uses the capabilities provided by the following six supporting 
CONOPs:

        <bullet> Global Strike provides the capability to maintain 
        battlespace access for all required joint/coalition operations;
        <bullet> Space and Command, Control, Communications, Computers 
        and Intelligence, Surveillance, and Reconnaissance (C\4\ISR) 
        provides persistent space and air situational awareness and 
        executable decisionmaking information to the Joint Forces 
        Commander;
        <bullet> Global Response provides intelligence and strike 
        systems to attack fleeting or emergent, high-value or high-risk 
        targets by surgically applying power anywhere on the globe 
        within hours;
        <bullet> Homeland Security leverages Air Force capabilities 
        with joint and interagency efforts to prevent, protect, and 
        respond to identified threats;
        <bullet> Nuclear Response provides the deterrent ``umbrella'' 
        under which conventional forces operate and, if deterrence 
        fails, avails a rapid scalable response; and
        <bullet> Global Mobility provides the capability to enable 
        rapid, timely, and effective projection, employment, and 
        sustainment of power in support of global interests.

    The Air Force goals to achieve transformation include information 
superiority, air and space superiority, precision engagement, global 
attack, rapid global mobility, and agile combat support. The Air Force 
S&T program has been planned and focused to support the Air Force 
CONOPs and goals. The Air Force Capabilities Review and Risk Assessment 
(CRRA) process supports the CONOPs by identifying and analyzing current 
and future capabilities, capability shortfalls, health risks, and 
opportunities. Part of the CRRA process is to provide information on 
these identified technology gaps and shortfalls to the S&T program 
planners to provide direction and focus to the S&T capability planning 
process. The CRRA process is transformational as it concentrates on 
desired battlespace effects vice specific air and space platforms.

                               WORKFORCE

    The Air Force scientist and engineer (S&E) workforce is another 
area where senior Air Force leadership involvement plays a pivotal 
role. Both Secretary Roche and General Jumper are deeply involved in 
shaping our future S&E workforce. Air Force civilian and military S&Es 
are highly motivated and productive, but we need to be vigilant in 
continuing to recruit and retain the best and brightest individuals. 
The Air Force is unique in that approximately 20 percent of its 
laboratory S&E government workforce is active duty military. It is from 
this cadre that we draw the technical competence needed in our military 
Service leadership to operate an ever more technical force. In 
addition, this gives us a direct link to the warfighter, which in turn 
helps us to focus technology development on warfighting capability 
needs. Some of these military S&Es come directly from operational 
commands, while others will serve and support combatant commanders in 
operational commands later in their careers.
    The Air Force is committed to shaping its S&E workforce with the 
vision to enhance excellence and relevance of S&T into the 21st century 
and appreciates the support Congress has already provided. This 
challenge requires the Air Force to maintain a dominant edge in 
warfighting capabilities and also requires us to provide clear 
direction and growth for our S&E workforce. However, we, as do others, 
find it a significant challenge to recruit and retain S&Es. The Air 
Force has several initiatives, both civilian and military, that address 
recruitment and retention issues.
    Civilian initiatives include the recruitment of college students 
with critical S&E skills via recruiting incentives, a robust marketing 
effort, and a co-op central funding program that hires college students 
while still in school. Central funding for recruiting bonus and 
retention allowances for journeyman level S&Es also promises to provide 
much needed assistance with civilian recruitment and retention.
    On the military side, we're employing the Airman Education and 
Commissioning Program and the Technical Degree Sponsorship Program to 
recruit additional S&Es into the military workforce. We are in the 
process of examining the impact of bonus programs such as the Critical 
Skills Retention Bonus on retention and will assess future Air Force 
requirements for this and similar bonus programs.
    The Air Force is committed to its S&Es and published a ``Concept of 
Operations for Scientists and Engineers in the United States Air 
Force'' last year. We also baselined the requirement for the Air Force 
S&E workforce and, upon analyzing this baseline requirement, found that 
while our military and civilian authorizations were about right, our 
actual demographics were seriously short in some key areas. We continue 
to shift our focus towards retaining the workforce we have and infusing 
it with the vitality of new S&Es to meet tomorrow's need. During the 
next 7 years, we are investing nearly a third of a billion dollars to 
support the retention and reshaping of our technological workforce. As 
we replenish our S&E workforce, we are providing career guidance and 
mentoring that will enable us to meet our 21st century challenge. Once 
the National Security Personnel System is implemented it could also 
produce positive results in shaping our S&E workforce. Again, we 
express our thanks to Congress for your continued support.

                       MAXIMIZING OUR S&T DOLLARS

    We will continue to leverage technology to achieve new levels of 
combat effectiveness. Our strategy is to pursue integrated technology 
capabilities that support our warfighter's highest priority needs. In 
addition to transformational technologies, we must also pursue the 
fundamental enabling technologies that will improve tomorrow's Air 
Force. As technological superiority is increasingly a perishable 
commodity, we work hard to optimize our S&T funding, by not only 
``inventing the future'' ourselves, but also by speeding the transition 
of new technologies to our warfighters.
    One way of identifying technologies for rapid transition to the 
warfighter is through our ATCs and the Advanced Technology 
Demonstrations (ATDs). The councils are composed of two- and three-star 
generals from AFRL, our logistic centers, our acquisition product 
centers, and our major user commands who formally prioritize proposed 
ATD programs. We hold an ATC meeting with each major command twice 
every year and have commissioned 34 ATDs that have transition funding. 
The ATC process is extremely important in linking the S&T program to 
the system developers, the logisticians, and, finally, the operational 
user. This process facilitates technology transition to operational use 
and secures user commitment for resources to do systems design and 
development and fielding of the technology. Currently about 50 percent 
of our Advanced Technology Development (6.3) budget is committed to ATD 
programs.
    Since deployed technology may remain in use for decades, the Air 
Force S&T program not only focuses on enhancing performance, but also 
on sustaining our fielded warfighter capabilities. Emphasizing 
affordability from the very beginning through training of our 
management, and science and engineering staff, as well as through an 
in-depth review of technology development efforts, increases our 
potential to reduce the costs of technology early in the system 
development process and throughout a product's life cycle.
    We maintain an excellent balance of military, civilian, and 
contractor expertise, which allows us to be very selective about 
investing in high payoff technological opportunities. We constantly 
seek opportunities to integrate Air Force planning and leverage our S&T 
funds by cooperating with other Services, agencies, the private sector, 
and international partners. For example, we rely on the Army as the 
lead Service for defensive chemical-biological technology development. 
The Air Force also has inter-agency efforts, such as our program in 
aging aircraft, which is focused on detection and management of 
corrosion and fatigue in aging structures. It is closely coordinated 
with the civilian aging aircraft research programs at the National 
Aeronautics and Space Administration (NASA) and the Federal Aviation 
Administration (FAA). Our partnership with the industrial and 
university research base is very strong. In fact, we outsource over 70 
percent of our S&T funding to universities and industry. Finally, the 
Air Force is involved in international cooperative technology 
development efforts for S&T, such as the non-destructive inspection, 
tactical missile propellants, and aircraft battle damage repair efforts 
conducted with the United Kingdom, Germany, and Italy, among others. 
Another example of international cooperation is the multi-domain 
network management program with Australia and Canada. This program is 
developing the technology concepts and tools for creating and managing 
secure computer networks with our coalition partners.

                            LEGACY PROGRAMS

    Over the years, the best and most reliable way to judge whether you 
are investing in the ``right'' technologies is to look at legacy 
systems that are in development or operational use and see how the 
technologies you invested in previously have transitioned into these 
``products.'' An excellent example is the F/A-22. A wealth of 
technologies that transitioned to the F/A-22 can be traced back to an 
investment of approximately $900 million in Air Force S&T over the 
years. These technologies include efforts such as low-observable 
materials, advanced two-directional thrust vectoring nozzles, new 
supercruise non-afterburning turbine engines, airframe design, mission 
integrated transparencies, solid state active transmit and receive 
radar, thermoplastic composite structures, and fly-by-wire integrated 
flight controls. In the space arena, examples of technologies that have 
transitioned into space ``products'' include radiation-hardened 
electronics to protect our satellites from the harmful effects of 
radiation; longer life, lighter weight lithium ion batteries; compact, 
more efficient solar cells for more effective processing of sunlight 
into electrical power; composite bus structures that are lighter weight 
and stronger; hall thrusters for orbit change and orbit maintenance; 
and enhanced antenna designs that provide for more efficient 
communications. In addition, a number of information-related 
technologies have transitioned into operational use including the 
highly effective information data wall that is currently being used in 
Afghanistan and Korea, multi-layer communications security being used 
by several government agencies, and software defined reprogrammable 
radios for secure communications and adaptable for coalition 
operations.
    Some technologies, such as those being implemented as spiral 
upgrades to the Battlefield Air Operations (BAO) Kit that is used by 
Air Force ground controllers who call in air strikes, were rapidly 
transitioned into use during Operation Iraqi Freedom (OIF). The BAO Kit 
is one of the Secretary of the Air Force's top priorities and continues 
being developed in several different acquisition spirals as the 
technology matures. The technology transitioned from S&T into 
developmental and operational products is extensive and provides the 
confidence that S&T funding is being wisely invested. The Panoramic 
Night Vision Goggles (PNVGs) are another prime example and provide 
operators a significantly wider field of view than the ``soda straw'' 
view of earlier goggles. Technology transition into operational use is 
the ultimate metric for assessing the value of our S&T investment.

                          WORLD CLASS RESEARCH

    The quality of our program is assessed by the Air Force Scientific 
Advisory Board (SAB) through yearly reviews. The SAB conducts an in-
depth review of half of the S&T program each year, covering the entire 
program over a 2-year period. Twelve technical areas have been 
identified as world-class research during the last cycle of reviews--
let me highlight a few of these areas that were identified as world-
class.
    The Directed Energy Directorate's Starfire Optical Range at 
Kirtland Air Force Base, New Mexico, is leading the adaptive optics 
research for use in large ground-based telescopes to image satellites 
and propagate laser beams through the atmosphere. This will enable 
high-quality, ground-based observations of space objects and 
propagation of laser beams through a turbulent atmosphere. Satellite 
images using this technology can provide real-time status information 
that cannot be obtained in any other manner.
    Our Propulsion Directorate's Hypersonics Technology (HyTech) work 
at Wright-Patterson Air Force Base, Ohio, is acknowledged by the SAB as 
world class and is the cornerstone of future hypersonic capabilities, 
such as destroying time-critical targets and responsive access to 
space. Our HyTech program has continued to advance the state-of-the-art 
in scramjet engines and completed the first ever ground test 
demonstration of a scramjet producing positive net thrust begun in 
2001. In February 2003, HyTech tested a flight weight scramjet ground 
demonstration engine operating at Mach 4.5. While the 2001 Performance 
Test Engine used copper heat-sink hardware and weighted 1,500 pounds, 
the 2003 ground demonstration engine used JP-7 fuel to cool the 
scramjet engine walls and weighed less than 150 pounds. This marked 
another first for the HyTech program--demonstrating the structural 
durability of a hydrocarbon fueled, actively cooled scramjet. Testing 
at Mach 6.5 has been completed. United States industry developed this 
particular engine in collaboration with Air Force scientists and 
engineers.
    Another SAB-rated world-class research program is the Warfighter 
Skill Development and Training efforts worked by our Human 
Effectiveness Directorate at Brooks City-Base, Texas. Specific research 
areas include Integrated PNVG and Distributed Mission Training. The 
Integrated PNVG will improve situational awareness and terrain 
avoidance at night through its wider field of vision and improved 
resolution. It will also provide protection from laser target 
designators, laser rangers, and laser threats through compatibility 
with existing laser eye protection technologies. Distributed mission 
training will provide an integrated set of training, simulation, and 
mission rehearsal technologies that will improve warfighter 
capabilities and mission readiness by enhancing operator and team 
performance skills. Technologies will increase operational readiness by 
providing more effective methods and approaches to train and assess 
personnel. These technologies will contribute to a more highly trained 
and flexible cadre of personnel at a reduced cost.
    Working closely with operational users and the Human Effectiveness 
Directorate at Brooks City-Base, AFRL researchers in the Materials and 
Manufacturing Directorate at Wright-Patterson Air Force Base, Ohio, 
continue to develop and transition new laser eye protection 
technologies that provide aircrews with improved eye protection. The 
world-class multi-disciplinary approach anticipates future threats and 
needs, and assures that next-generation hardening technologies will 
address the agile laser threat. The Laser Eye Protection program is 
enabling aircrews to conduct day and night air operations without 
visual jamming or personal injury. The Materials and Manufacturing 
Directorate also conducts world-class research to improve the 
affordability, durability, and performance of advanced aerospace metals 
by integrating modeling and simulation into all aspects of the program. 
The potential cost savings when qualifying metallic materials for 
insertion into Air Force weapon systems are significant. Revolutionary 
work on thermomechanical process modeling and probabilistic 
micromechanical modeling of failure and durability will change the way 
materials are developed and implemented in air and space applications.
    Our research in Electro-Optical Warfare at Wright-Patterson Air 
Force Base, Ohio, will allow future laser-based sensor systems to 
penetrate moderate cloud cover, obscurants, and camouflage. This will 
provide improved target detection and identification for our weapon 
systems. ``See and Avoid'' sensors will ease restrictions on unmanned 
air vehicle (UAV) operations in civilian airspace and allow autonomous 
operation in conjunction with manned aircraft. These technologies may 
also be applied as low-cost missile warning sensors to affordably 
protect military and commercial aircraft from surface-to-air missiles. 
Also, experimental research in infrared countermeasures is developing 
threat adaptive techniques for robust defeat of current and future 
infrared weapons and sensors.
    Space Weather research at Hanscom Air Force Base, Massachusetts, is 
another SAB-rated world-class technology development program. We 
continue to develop a modeling capability that specifies and forecasts 
space weather from the Sun to the ionosphere. In conjunction with this 
modeling capability, our Solar Mass Ejection Imager, launched in 
January 2003, is greatly increasing our ability to forecast solar-
induced ionospheric disturbances that adversely impact communications 
systems and spacecraft.
    At Edwards Air Force Base, California, the Propulsion Directorate 
is working on world-class research in polynitrogen propellants. The 
goal is to enable high performance monopropellant rocket propulsion 
systems with revolutionary performance. By improving the specific 
impulse of the propellant, we will have environmentally benign exhaust 
and reduced signatures. This could potentially improve storage, 
manufacturing, and rocket engine size.

                          COMBATING TERRORISM

    While the traditional focus of S&T has been on developing long-term 
capabilities, the Air Force S&T program also contributes to the current 
needs of the Nation and our troops deployed in hostile areas. One 
example of an Air Force project receiving a great deal of attention 
since September 11 is the Elastomeric Coating Polymer, which the Air 
Force developed to protect key buildings and installations from close 
proximity explosions, such as air dropped weapons or truck bombs. This 
easy-to-apply spray coating provides greater structural integrity of 
exterior walls and prevents dispersion of debris as well as separation 
of wall elements. In addition to protecting lightweight shelters, this 
polymeric coating is currently being applied to the interior of the 
outer walls of the Pentagon.
    Another transformational effort is the Vehicular Mounted Active 
Denial System (VMADS). The VMADS is being jointly developed with the 
U.S. Marine Corps and is a defensive millimeter wave system with many 
potential applications, including perimeter defense. It is a directed 
energy weapon that emits a non-lethal, non-damaging beam, which heats 
up the skin of a potential adversary when in close proximity to the 
system. The resulting temporary pain causes the person to flee.
    Yet another effort of significant interest is something called 
PING. PING is a standoff, microwave-based interrogation unit that has 
reliably identified AK-47s, rocket propelled grenades (RPGs), and 
suicide bomber apparatus in field demonstrations. PING operates by 
illuminating potential threats and then categorizing the return 
reflected off metallic objects found in a crowd of people using a 
laptop computer and specialized software to determine specific weapon 
types. Metallic substructures on weapons resonate at unique, natural 
frequencies that permit automatic identification of concealed weapons. 
The PING demonstration unit is vehicle-mounted and can be positioned up 
to 100 meters away to monitor persons or groups of people entering a 
checkpoint for concealed weapons. The unit can also be remotely 
operated. This Air Force S&T program has been briefed to the Army and 
we are optimistic that PING will rapidly transition into operational 
use.
    In the war on terror, Air Force Special Tactics Combat Controllers 
are changing the very nature of warfare. By performing operations deep 
in enemy territory, they help determine who the terrorists are, where 
their weapons are located, and who the innocent civilians are. Then, 
they precisely control the elements of airpower to defeat the terrorist 
threat, while taking care to spare innocent civilian casualties and 
minimize collateral damage. Then, these same Special Tactics Combat 
Controllers are there to provide instant battle damage assessment. We 
call these deep engagements BAO.
    The Air Force is accelerating new technology to these special 
tactics warriors in the form of significant improvements to their BAO 
Kit of equipment. As a result of this Air Force enterprise, our special 
tactics warriors will soon have a digital machine-to-machine capability 
that helps to quickly connect the right aircraft, with the right 
munitions, guided precisely to the right target, at just the right 
time, to achieve the desired effect. This new automated process helps 
to reduce the time it takes to target the terrorist threat, while at 
the same time reducing human error in the targeting process.
    Working collaboratively with the special tactics warriors, the Air 
Force ``BAO Tiger Team'' has also partnered with a national team of 
industry to field significant enhancements of increased capability, 
while reducing the weight and size of the individual BAO Kit equipment. 
They are performing these improvements by developing, prototyping, 
testing, building, and fielding these BAO Kit improvements in very 
rapid spirals. These new BAO capabilities will help to save American 
lives, and the lives of innocent civilians. BAO provides a 
revolutionary and highly effective way to combat the terrorist threat.

                     TRANSFORMATIONAL TECHNOLOGIES

    There are many other Air Force technology areas that deserve 
special mention. Let me highlight just a few examples. As mentioned 
earlier, there's our transformational communications technology 
development program, whose laser communications technology efforts 
promise to increase data transfer rates at least ten-fold compared to 
current radio frequency communications systems. Additionally, laser 
communications use a narrow beam, which decreases the likelihood of 
intercept and increases resistance to jamming. While laser 
communications have a high potential to revolutionize satellite 
communications, there are technical challenges to overcome such as 
precision pointing and tracking, weather constraints, and adapting the 
equipment for use in space. We continue to work on the technology 
challenges and are implementing the results of our recently concluded 
study to determine the best architecture for implementing laser 
communications technologies to complement and integrate with radio 
frequency-based systems.
    To increase aircraft survivability and operational efficiencies, 
the Air Force is developing the F/A-22 and F-35--Joint Strike Fighter, 
aircraft that can carry and employ weapons from both external and 
internal weapons bays. To increase the number of weapons the flight 
vehicle can fit into its internal weapons bays, part of our investment 
strategy focuses S&T funding on developing and demonstrating smaller 
precision weapons.
    One of the small munitions currently being flight demonstrated at 
Eglin Air Force Base is the Low Cost Autonomous Attack System (LOCAAS) 
technology program. The LOCAAS is a 100-pound class powered munition of 
which the primary target set is moving and relocatable targets. This 
ATD program will demonstrate the effectiveness and military utility of 
this type of munition for the Lethal Suppression of Enemy Air Defenses 
(SEAD), Theater Missile Defense (TMD) Attack Operations, and Armor/
Interdiction mission areas. LOCAAS will integrate a laser radar 
precision terminal seeker with autonomous target recognition 
algorithms, a multi-modal warhead, Global Positioning System (GPS)/
Inertial Navigation System (INS) mid-course guidance, and a miniature 
turbine engine with a fly-out range of 100 miles.
    In fiscal year 2005, the Air Force will conduct a cooperative 
program with the Royal Australian Air Force (RAAF) using the small 
diameter bomb. A test program on the RAAF F-111 aircraft in Australia 
is scheduled for the first quarter of the fiscal year 2005. This will 
be an important test for both nations--the U.S. is able to test 
munitions release at supersonic speeds and Australia benefits from the 
test results. These results could enable maturation of the 
computational simulation codes for separation of symmetric and 
asymmetric miniature weapons, providing for a reduction in the risk and 
cost of weapons certification efforts for aircraft with internal 
weapons bays such as the F/A-22, the F-35--Joint Strike Fighter, and 
unmanned combat air vehicles.
    To continue the trend of miniaturization of space platforms, the 
Air Force is also conducting the Experimental Spacecraft System (XSS) 
series to demonstrate increasing levels of microsatellite technology 
maturity. Following the successful XSS-10 mission in January 2003, we 
plan to launch the XSS-11 microsatellite in late 2004. XSS-11 will 
demonstrate fully autonomous operations and provide experience with 
command and control in proximity operations to another space object 
over several months. If successful, this could provide the capability 
to repair, refurbish, and perform maintenance operations from unmanned 
microsatellites.
    One of the most transformational and quickly deployable 
technologies available today is command, control, and communications 
technology, also known as information technology. This technology is at 
the heart of our Moving Target Indicator Exploitation program, which is 
developing web-enabled automated tools to exploit data from current and 
future sensor systems such as the Joint Surveillance Target Attack 
Radar System (JSTARS). The effort is focused on four technology areas: 
ground moving target tracking; motion pattern analysis; behavioral 
pattern analysis; and sensor resource allocation and scheduling, which 
provide the capability to track moving targets and get the information 
to the operations center.

                       BREAKTHROUGH TECHNOLOGIES

    In recent years, we have all come to appreciate the success of 
unmanned vehicles. We hear over and over again the tremendous 
operational advantages that systems such as Predator and Global Hawk 
are bringing to warfighters from all Services. Over the first two 
decades of the 21st century, advances in micro UAVs will provide 
significant additional capabilities to our Armed Forces. Micro air 
vehicles utilize advances in microscale aerodynamics, electronic 
miniaturization, munitions, and propulsion to package sensory and 
weapons payloads into highly reliable, on-demand systems. These systems 
will provide unprecedented levels of situational awareness in the most 
severe threat environments. Whether we are operating in urban 
environments, sensing biochemical dispersion through the atmosphere, or 
looking over the next hill, our troops will have the awareness needed 
to fight and survive. These systems will provide the persistent 
intelligence, surveillance, and reconnaissance (ISR) in high threat 
environments needed by our troops on the ground and our airmen in the 
air. When called for, swarms of these vehicles will cooperate together 
to generate both lethal and nonlethal effects.
    In the next 50 years, advancements in nanotechnology will provide 
the greatest change in how man operates since the invention of powered 
flight itself. Nanotechnology is a science and a series of disciplines 
that works at the atomic and molecular level to create structures, 
materials, and devices through improved molecular organization. By 
working with elements at the level of nanometer scale, we have access 
to the building blocks of nature. This will fundamentally change the 
way materials and devices will be produced in the future. The ability 
to synthesize nanoscale building blocks with precisely controlled size 
and composition and to then assemble them into larger structures with 
unique properties and functions will revolutionize segments of the 
materials and device industry. The benefits that nanostructuring can 
bring include lighter, stronger, and programmable materials; reductions 
in life cycle costs through lower failure rates; innovative devices 
based on new principles and architectures; nanosensors and 
nanoprocessors; and use of molecular/cluster manufacturing, which takes 
advantage of assembly at the nanoscale level for a given purpose.
    Another significant breakthrough technology that will change the 
way we develop systems is our work in biotechnology. Biology has 
developed unique materials and processes that may be exploited in non-
biological systems. Our research is focused on studying the science 
necessary to incorporate biological components and organisms into Air 
Force systems. For example, in biomemetics, we research the adaptation 
of natural biological sensor in reptiles. The natural infrared sensors 
in reptiles do not need to be cooled. We hope to adapt this biological 
process to Air Force sensor applications that normally require 
cryogenic cooling.

                         TECHNOLOGY TRANSITION

    The majority of Air Force S&T is contracted with industry and 
universities. This promotes relationships between the S&Es conducting 
the research and lays the foundation for technology transition. Strong 
connections between the technology supplier and the end user help speed 
transition of technology to the warfighter. In addition, the various 
transition programs in which the Air Force participates further cement 
this foundation. Air Force technology transition efforts include ATD 
projects, Small Business Innovation Research (SBIR) contracts, and 
Cooperative Research and Development Agreements (CRADAs) among others.
    The ATCs discussed earlier were initiated in fiscal year 1999 to 
foster top-level user involvement in the transition of technology from 
the laboratory to the system developer to the operational user. As 
noted, these councils review and approve Air Force ATD projects and 
ensure that the major commands plan for the transition of successful 
technology by tying approved ATD projects to planned Major Command 
Future Years Defense Program (FYDP) funding.
    Another Air Force technology transition tool is the CRADA--an 
agreement between a government laboratory and a non-Federal party under 
which the laboratory provides personnel, facilities, equipment, or 
other resources (but not funds) with or without reimbursement and the 
non-Federal party provides funds, people, services, facilities, 
equipment, or other resources to conduct specific research and 
development efforts that are consistent with the agency's mission.
    These efforts along with many other programs, such as Dual-Use S&T, 
Independent Research and Development (R&D), Mentor-Protege, Personnel 
Exchanges, etc., are mutually beneficial to the Air Force and the 
contractors and universities with whom we collaborate. Technology 
transition is a key component of the Air Force S&T program and is vital 
to our pursuit of national security requirements.

                           SECTION 253 STUDY

    Section 253 of the National Defense Authorization Act for Fiscal 
Year 2002, Public Law 107-107, directed the Air Force, in cooperation 
with the National Research Council of the National Academy of Sciences, 
to carry out a study to determine the effect of S&T program changes of 
the past 2 years. The Air Force Science and Technology Board (AFSTB) of 
the National Research Council prepared a written report, which the 
Secretary of the Air Force forwarded to Congress as directed. The 
findings contained in this report indicated that overall the Air Force 
has made considerable progress during the past 2 years in strengthening 
its S&T program. The AFSTB noted that great progress has been achieved 
in increasing the visibility of the S&T portfolio within the Air Force, 
but challenged us to continue working to stabilize funding levels, 
strengthen our workforce, and reestablish the ``development planning'' 
process. As the report indicated, however, we have already begun many 
initiatives targeted towards strengthening these areas and will 
continue to pursue them in the future. In fact, at almost $2 billion, 
the fiscal year 2005 President's budget request for Air Force S&T is 
funded at a level to achieve the distinctive capabilities supporting 
Air Force Core Competencies. In addition, we have also taken steps to 
strengthen our scientist and engineer workforce through various 
recruitment and retention initiatives. Finally, the Air Force has 
shifted from a threat-based approach to a capabilities-based approach 
to making investment decisions and providing for requirements 
generation planning. This transformation will be key to our ability to 
determine what is necessary to support our defense strategy in the 
years to come. ``Development planning'' will be a vital and fully 
integrated part of the Air Force's new capabilities-based planning 
process.

                               CONCLUSION

    In conclusion, the Air Force is fully committed to providing this 
Nation with the advanced air and space technologies required to meet 
America's national security interests around the world and to ensure we 
remain on the cutting edge of system performance, flexibility, and 
affordability. The technological advantage we enjoy today is a legacy 
of decades of investment in S&T. Likewise, our future warfighting 
capabilities will be substantially determined by today's investment in 
S&T. As we face the new millennium, our challenge is to advance 
transformational and enabling technologies for an Air and Space Force 
as we continue to move aggressively into the realm of space activities. 
The Air Force S&T program provides for the discovery, development, 
demonstration, and timely transition of affordable technologies that 
keep our Air Force the best in the world. As an integral part of the 
DOD's S&T team, we look forward to working with Congress to ensure a 
strong Air Force S&T program tailored to achieve our vision of a 
superior Air and Space Force.
    Mr. Chairman, thank you again, for the opportunity to present 
testimony, and thank you for your continuing support of the Air Force 
S&T program.

    Senator Roberts. We thank you, Mr. Secretary.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you gentlemen for your testimony. You've all highlighted the 
critical role that S&T plays in the defense of the Nation.
    Dr. Sega, you pointed out that the President's request was 
an increase from his last request, but it's a decrease from the 
money you had last year, am I correct?
    Dr. Sega. That's correct, sir.
    Senator Reed. That raises the question, do we have money? 
Are you still committed to the DOD goal of 3 percent funding 
for S&T programs?
    Dr. Sega. The goal of S&T investment at 3 percent of the 
total obligation authority (TOA) remains a goal of the 
Secretary of Defense.
    Senator Reed. How fast will we reach that goal if we're 
going backwards with this budget request?
    Dr. Sega. I can't answer that.
    Senator Reed. Dr. Killion, again for the record, is the 
position of the Army that 3 percent is a number you support?
    Dr. Killion. We support the goal of 3 percent. In fact, the 
Army has significantly increased its investment in S&T over the 
last several years. It's actually approached that goal in the 
President's budget.
    Senator Reed. Thank you.
    Admiral Cohen.
    Admiral Cohen. Navy leadership, both civilian and 
uniformed. You have testified to the value of S&T, but they 
have not committed to any percentage for S&T. I will tell you 
that the Marine Corps exceeds 3 percent. People say, well, they 
have a small budget in S&T, but to them it's a big budget.
    Senator Roberts. Well, they've had to put up with baling 
wire for so damned long, it's about time.
    Admiral Cohen. Yes, sir. They've done very well. I'm 
married to a Marine Corps junior and she got marine and 
submarine confused. I don't know how that happened. But she 
keeps me on the straight and narrow.
    For the Navy, I'm very pleased to tell you that the fiscal 
year 2005 budget that you have in front of you stops the 
decrease in the Navy line that we saw both in fiscal year 2003 
and fiscal year 2004. As we look through the Future Years' 
Defense Plan (FYDP), that is sustained.
    Senator Reed. Mr. Engle.
    Mr. Engle. Senator, we support the 3 percent overall as a 
DOD goal for S&T investment. I would quibble slightly in that 
the contribution from each of the various components or 
Services plus DARPA make up the total 3 percent.
    As the Air Force looks at it, we see that our share of that 
3 percent is probably less than a 3 percent number. Our goal is 
to hit about 2.4 percent of our TOA, which would probably fit 
nicely into an overall DOD goal of 3 percent.
    So we are moving in the right direction. Right now we're 
not at 2.4 percent, but we have committed to try to migrate in 
that direction with the goal of hitting 2.4 percent in the 2007 
time frame.
    Senator Reed. Thank you.
    We all recognize that with additional resources, you could 
do additional things. Could you provide a list to the 
subcommittee of those unfunded priorities that you have in a 
priority list as best you can? I think everyone is agreeing to 
that for the record. Thank you very much.
    [The information referred to follows:]

    Dr. Sega. The Department of Defense supports the President's fiscal 
year 2005 budget request. The science and technology (S&T) program is 
balanced to meet near-, mid-, and far-term needs to provide options for 
responding to a full range of military challenges both today and into 
the uncertain future. The Department's investment in S&T develops the 
technology foundation necessary to produce transformational 
capabilities. We are working with the military departments and defense 
agencies to ensure sufficient funding is directed toward projects that 
advance the six QDR transformation operational goals. Some of the 
technologies that support the QDR are the National Aerospace 
Initiative, the Energy and Power Technologies, Surveillance and 
Knowledge Systems, Future Combat Systems, Objective Force Warrior, 
Electric Ship, High Speed Sea Lift, and Directed Energy Weapons, and 
Advanced Space Systems.
    Dr. Killion.
        List of Army Science and Technology Unfunded Priorities
    Close In Active Protection System $23.3 million.
    Admiral Cohen.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Engle. Yes, like many areas in the Air Force, we could wisely 
invest additional funding in our S&T program if it were available. One 
of the most important efforts currently ongoing within our S&T program 
continues to be the work we're doing to enhance the Battlefield Air 
Operations (BAO) Kit equipment carried by the Air Force Special Tactics 
Controllers who perform critical operations deep in enemy territory. 
Using very rapid spirals to speed development, prototyping, testing, 
production, and fielding, the Air Force continues to work to realize 
significant enhancements to these kits, while reducing weight and size. 
The following list is a representative summary of high priority S&T 
efforts, including enhancements to the BAO Kit, for which the Air Force 
could use additional funding in fiscal year 2005. A more detailed, 
comprehensive list has been provided to the Senate Armed Services 
professional staff as requested.

                        [In millions of dollars]
------------------------------------------------------------------------
                           Effort
------------------------------------------------------------------------
BAO Kit Enhancements.......................................      $14.482
Integrated Striker Targeting and Connectivity..............       10.000
Directed Energy for Airborne Demonstration.................       12.100
Space Force Enhancement....................................       37.000
                                                            ------------
  Total....................................................      $73.582
------------------------------------------------------------------------


    One of the other areas that is so critical is the 
scientific and engineering workforce. You've all either 
explicitly or implicitly referred to that in your testimony.
    Again, for the whole panel, what unique role can you play 
to help ensure the scientific and engineering workforces? Are 
there any particular areas of endeavor in science, a particular 
field of science or engineering that requires more attention?
    Dr. Sega.
    Dr. Sega. Senator, that's a great question and one that we 
are in the process of assessing in more detail.
    The trends in terms of individuals receiving especially 
advanced degrees, physical sciences and engineering, in our 
country and overseas are being examined and the needs inside 
for the DOD and defense-related work are being looked at.
    There are key disciplines that would probably share the 
greatest need. For example, in some of the energy-related 
disciplines for high-power, the needs for directed energy for a 
more electric force requires expertise and background and 
education in high-power switches, power supplies, capacitors, 
those types of things.
    Subdisciplines of electrical and mechanical engineering 
materials would be important. We would suspect that we would 
see a base that we want to address, areas in nuclear 
engineering, nuclear physics, areas of high-speed flight, 
hypersonic flight, the aerodynamics, the propulsion, and 
aerothermal considerations.
    We are at the point now of going through and identifying 
with more rigor where the demand is versus the potential 
supply. In our case, much of the work needs U.S. citizens to 
accomplish it.
    Senator Reed. When do you anticipate finishing this report 
or study?
    Dr. Sega. That question is properly referred to Dr. John 
Hopps, who is the Deputy Under Secretary of Defense for 
Laboratories and Basic Sciences, an office that we stood up, 
one of the only offices stood up since being in this position, 
to focus on laboratory, space, and sciences workforce and 
education.
    Senator Reed. Can you provide us with your findings at a 
more appropriate time?
    Dr. Sega. We will.
    Senator Reed. Admiral Cohen, do you have a comment?
    Admiral Cohen. Senator, the short answer is we play a 
critical role in this area. The young people in this country 
today are turning away from science and math. When you ask them 
why, they say because it's hard. The statistics speak for 
themselves.
    Probably $1 million I spend each year as Chief of Naval 
Research that I am most proud of is the monies that we provide 
through our Navy Reserve Officer Training Corps (NROTC) units, 
69 of them, all around the country, for rising juniors, rising 
seniors, and graduate students to come work in our 
laboratories, the Naval Research Laboratory and all of our 
warfare centers, including the Naval Underwater Warfare Center 
in Newport. They work alongside our scientists and engineers 
who take them on as mentors. Many of them take them into their 
homes.
    Now, we don't expect all of them to come into government 
service. About 20 percent are. We're in our third year of doing 
this and when you look at that group of young Americans, you 
don't have to worry about diversity. We get them from all over 
the country. You're looking at the face of America. It's really 
uplifting.
    In the junior highs and high schools, we send our Reserve 
officers who are located all around the country to be involved 
with science fairs. We work with Dr. Bob Ballard and the JASON 
Group, as well as the National Science Foundation, to try and 
inspire the young people of the importance of S&T.
    I was raised on Mr. Wizard. We need a better name for Bill 
Nye, ``The Science Guy.'' It sounds a little geeky to me, but 
Rita Colwell and I have had that discussion. So we play a 
critical role and this is critically important for the future 
of this country.
    Senator Reed. Thank you, Admiral.
    Mr. Engle, your comments.
    Mr. Engle. Just briefly, Senator Reed.
    The Air Force is very concerned about this issue. Secretary 
Roche and General Jumper, when they came to office a few years 
ago, saw this, I think, primarily because of Dr. Roche's 
background in industry--and the difficulty of finding talent in 
the engineering career fields particularly--and brought that 
and highlighted it inside our service.
    We have, over the last 2 years, focused our senior 
leadership on this problem, expended a considerable amount of 
money to try to make sure that we are well-postured with the 
scientists and engineering talent we need to continue what is 
probably one of the most high-tech organizations on Earth.
    One difficulty, which I resonate with my colleague, Admiral 
Cohen, is that we, as the Services and DOD, with John Hopps' 
good work notwithstanding, we can't do this alone. This is 
really a national problem.
    We need to invigorate our youth in the areas of science, 
mathematics, and engineering. We need to build a cadre of young 
people that can grow up and feed not only the DOD but, as Dr. 
Hopps would tell you, interdepartmental demand for scientific 
and engineering talent. This is, I think, something that we 
really need to focus on nationally.
    Senator Reed. Thank you.
    Dr. Killion.
    Dr. Killion. Just as an example similar to the Junior NROTC 
program that Admiral Cohen talked about, one of the things the 
Army did last year was stand up a program called E-
CyberMission, which was intended to go out via Web-based 
competition and excite our youth in the seventh and eighth 
grades in interest in science, math, and engineering to come up 
with projects. We competed it nationally and actually brought 
the regional winners here locally for an awards ceremony that 
included the Chief of Staff of the Army, and my boss, Mr. 
Bolton, the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology.
    We're continuing that. One of the things that the chief 
said at the awards ceremony last year, because we had cut it 
off at eighth grade, was that we're going to expand it to ninth 
grade the next year because he got so much feedback from the 
eighth grade participants that they really wanted to continue 
this year.
    It's an early entry into getting our young people excited 
about science, math, and engineering, something we vitally need 
to do. It's important for us in the Army. It's also a 
contribution that we can make to our communities out there to 
help them and help our future industrial base.
    We have other programs in high school, like our science and 
engineering apprenticeship program. We have a very strong 
program going up here at Walter Reed Army Medical Center where 
we bring young people from disadvantaged areas in the 
metropolitan area in to serve in the laboratory and learn 
important skills and get exposed to where the opportunities 
will be in the future.
    So I think we have some very vital programs in that area.
    Senator Reed. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Senator Roberts. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    When you're in combat, it certainly brings into focus your 
shortcomings and your merits, your various military equipment 
and tactics.
    The Third Armored Calvary Division, which is stationed in 
Fort Carson, will return home later this summer and that 
calvary regiment has been subjected to the full spectrum of 
small arms fire, I believe, from IEDs to RPGs, and other 
shoulder-fired weapons.
    My question is, could you describe your priorities and 
investments in the fiscal year 2005 budget for advanced armor 
and crew survivability technologies? A follow-up question: Can 
we or are we fast-tracking these technologies for introduction 
to the armored vehicle fleet?
    Dr. Sega. I'll start and just introduce it knowing that 
most of the knowledge and the work is being done in the 
Services.
    On October 16, Secretary Wolfowitz sent a letter to Members 
of Congress on the issue of force protection. He had asked me 
to lead the task force and just facilitate bringing in the 
input of the technical community as well as those that 
represent the warfighting community, the combatant command, and 
the joint staff.
    From CENTCOM a prioritized list of items came in this 
letter, totaling about $335 million, to do in a rapid fashion. 
In that was included the armor, the protection pieces to 
include the Interceptor Body Armor and up-armoring HMMWVs. It 
included aspects of surveillance to include lightweight 
countermortar radars, aerostats, and UAVs. It also included 
some detect and defeat technologies, including electronic 
countermeasures and detection types of things.
    So in this fiscal year, we are accelerating work in force 
protection technologies and bringing them to the field. I think 
that's a good news story.
    One request that we would have for Congress, and we're 
working together as a team, requires some of the reprogramming 
from current budgets, whether it is the standard budget or that 
of the supplemental, to augment and move towards some of the 
force protection technologies. We appreciate expeditious 
movement of reprogramming actions when they apply in this area.
    That's an introduction, and I'll pass it along.
    Dr. Killion. Actually, Dr. Sega introduced a number of the 
areas. We can certainly provide a more detailed lay-down in 
terms of the specific investments if you're interested in that.
    But just to give some of the highlights, I would include 
improvements, for example, in Interceptor Body Armor. We have 
ongoing programs that continue next year in terms of providing 
the same level of protection at a reduced weight burden for the 
individuals. So you could get about a 25-percent reduction in 
the weight associated with those plates. It may not seem like a 
lot, but it is important to somebody who's carrying that weight 
around with him in all of his operations when he has to move 
around and wear those protective devices.
    In terms of protection for vehicles, some of the early 
warning capability that Dr. Sega mentioned, we're continuing to 
work that through our Communications and Electronics Research, 
Development, and Engineering Center (RDEC). We are exploring 
active protection systems, devices that can intercept and 
deflect or destroy incoming rounds to protect our vehicles and 
installations.
    Lightweight armor, new versions of armor. That Armor 
Survivability Kit is an expedient solution. The best we can do 
near term is an affordable capability that meets the weight 
burden associated with non-up-armored HMMWVs. As Admiral Cohen 
was talking about, we have a limit on how much weight we can 
put on them without ending up breaking the axles or making them 
less mobile than we want them to be. That kind of new armor 
we're looking at is ceramics to provide equivalent or higher 
levels of protection and is a byproduct of the work that we're 
doing for the FCS. We're working on lighter-weight vehicles for 
the future.
    Another example is the change detection capability. We are 
looking at taking advantage of some work that was done under 
the Joint Area Clearance ACTD and applying software into our 
tactical and manned aerial vehicle system which will allow us 
to fly along a route and then later fly the route again and 
automatically identify where there have been changes along that 
route, where we might be able to show that somebody came out 
and placed a device along that route. Therefore, we would have 
better advanced warning that there might be some kind of device 
out there, so we could go out and examine it.
    So there are a variety of investments. It would probably be 
best to follow-up, if you'd like, in terms of giving you a 
specific profile.
    Admiral Cohen. Senator, for the naval forces, we have 
traditionally followed a philosophy of active protection and 
defense in depth, destroy the enemy before they come close 
enough to destroy you.
    We've talked a little bit about the applications of some of 
those underlying technologies with our Army and Marine Corps 
brethren, and I am the Chief of Naval Research, so we do have 
the Navy and the Marine Corps.
    We had previously briefed a product called Quick Clot. This 
is now commercially available. In OIF, the application was just 
carried in your pocket. We lose most of our soldiers who are 
not killed immediately by bleeding out in that golden hour when 
we might get them to a field hospital. We believe this has 
saved 17 or 19 lives during OIF.
    So looking at that golden hour, you've heard statements 
here about the improvements in body armor and it's been on ``60 
Minutes.'' The ceramic armor that Natick labs and the Army have 
worked on so well has really reduced the number of fatalities 
that we're seeing in Iraq and the ongoing operations today.
    The unintended consequence of that is a significantly 
increased number of amputees, because we're protecting the 
body, but we're losing the arms or the legs. I have classmates, 
and I know many of you have friends and associates from the 
Vietnam War and other conflicts, where you don't want to see 
them in a T-shirt because they have leg tendons in their 
forearm, but it's their forearm.
    I don't want to raise any hopes here. But a month ago, we 
started through the Naval Research Lab working with Naval Air 
Technical Data and Engineering Service Command (NATEC) and 
working with anyone who will come to the table for an 
initiative along the lines of when you get in an airplane to 
fly it, you put on a flight suit. Well, our young kids in Iraq 
are suffering these IED injuries by making patrols in HMMWVs 
and four-by-four convoys, et cetera. We've talked about ISR and 
the need for that, et cetera.
    But under the rubric of what can you do to better protect 
the person and win that mission scenario, we're looking at 
leggings and stockings made out of what could be some exotic 
materials. It may not prevent the cuts. It may not prevent the 
shrapnel. But it may prevent the arm or leg from being blown 
off so that we then have the ability during that golden hour to 
take that soldier, take that marine to the field hospital and 
save the appendage.
    Now, I'm not promising anything here. But I'm telling you, 
you push that balloon. We did it with the body armor. Now we're 
having the amputees. I'm absolutely committed to this and so 
that's something that the Navy can do working with our other 
Services.
    Senator Allard. Okay. Let me move on to the next question 
here. A lot of our sources have been reporting that countries 
of concern are turning more and more to burying their 
facilities and defense installation as well as offensive.
    We've looked at--the subcommittee, which I've chaired and 
Senator Reed is on there too--various nuclear options on how 
you go after these deeply buried targets.
    My question to you is, are you looking at non-nuclear ways 
of us getting after these deeply buried targets?
    Dr. Sega. Senator Allard, the short answer is that we are 
working on a variety of penetration options for buried 
structures. Depending on the details, the type of penetration 
munitions varies. But work is ongoing and there are several 
activities--maybe Secretary Engle could pick up on this--of our 
work in terms of providing additional options for deep 
penetration munitions.
    Mr. Engle. Yes. I guess we're doing quite a bit in this 
area. Our principal customer, as you probably are aware, is 
Strategic Command (STRATCOM). Admiral Ellis, who has been given 
this mission for prompt global strike and hard and deeply 
buried targets is a big part of that.
    There are some hard physics involved here in that you can 
dig deeper and bury yourself to a point where there's not a 
whole lot of things that we can build that will get that far 
down and do the job. But we have some fairly effective ways to 
penetrate. Again, we can certainly provide details for those on 
a classified level.
    There are some large devices that we've looked at as well. 
Big Blu is one that might have come to your attention that 
we've looked at pretty heavily. It is a large explosive device.
    Then there are some other tactics that you can take to deal 
with these. If they are hardened and deeply buried and you can 
figure out how they communicate out and turn that off, 
sometimes that solves the problem for you. Then they can just 
live down there for as long as they'd like and really not 
affect the outcome of the combat.
    What we have looked at is some very good technology that 
helps us understand the connectivity of the communications 
systems that the enemy might use that emanates from those 
hardened bunkers, whether they're deeply buried or not, quite 
frankly.
    There's also some work that we have done with some radar 
systems that look like they might be able to affect 
communications systems in deeply buried places with kinetic 
effect. That's something that we're looking at.
    I guess there are a broad array of technical approaches in 
this area, but I will tell you quite frankly, it is very 
difficult if you want to blow up something several hundred 
meters under the ground and know that it's blown up. This is a 
very difficult task technically.
    Senator Roberts. Senator, as Senator Reed and you and I 
have discussed, this is an extremely important topic to follow-
up on in the classified portion of the hearing that we hope to 
have in the remaining days of this Congress. It's extremely 
important and I certainly appreciate you bringing it up.
    Senator Allard. Thank you. One more question, if I might, 
Mr. Chairman, just real briefly.
    There's a gap between taking these research concepts and 
then actually bringing them into some kind of weapons 
development system.
    My question is, how would you assess the success of your 
Technology Transition Initiative and the Quick Reaction Special 
Project to bridge this gap? Do you require any special 
authorization from this subcommittee to sustain or improve 
these technology transition tools?
    Probably Dr. Sega would be one of the best to answer to 
this.
    Dr. Sega. Senator Allard, we appreciate and thank Congress 
for providing the funds for the Quick Reaction Special Projects 
Program which includes the Quick Reaction Fund. As of today, we 
have committed or expended all of that fund for fiscal year 
2005 based on needs.
    A lot of good ideas and people are ready to go on 
technologies, principally in the force protection area. The 
Technology Transition Initiative, one good example of that is a 
small water pen that was developed and there were some 
residuals that were provided in the field in Afghanistan. It 
works really well. The Technology Transition Initiative was 
applied to that to accelerate the production of those and the 
Defense Acquisition Challenge program also is an effective 
mechanism for transition.
    There are certain technologies that you can move quite 
rapidly and the base that our panel has talked to in terms of 
S&T being stable, strong, and in a place where you can draw 
from is critically important.
    We have an acceleration from the discussion of this 
Combating Terrorism Technology Task Force in September 2001, 
the thermobaric weapon. It converted a Blu 109 2,000-pound bomb 
with a different fill. Well, in September, it was still at the 
basic research stage.
    Through the month of October, the team did work at Indian 
Head to identify a leading candidate. By November, we had done 
aesthetic testing in Nevada, a collaboration between the Navy, 
the Air Force, and the DTRA, and there was a flight test on 
December 14, 2001. So 90 days start to finish on that one.
    Then Congress provided quick reaction munitions funds in 
fiscal year 2002, $15 million. Thirteen million dollars of that 
went to a thermobaric hellfire application. So advanced was the 
technology that another generation flew off four different 
variances and went from R&D to being built and deployed, and 
they were used in OIF.
    Now, there's further application of that technology 
forward. So there's two examples where we have been able to 
accelerate the technology development and then a transition and 
an initial order of the Marine Corps for thermobaric hellfires.
    The Defense Acquisition Challenge program allows a 
mechanism for some of the spiral development into the programs 
of records which are longer. I think we're making progress. I 
also think we have a long way to go.
    Senator Allard. You don't need any legislation?
    Dr. Sega. I believe that the mechanisms we currently have, 
not only those three but also the Quick Reaction Special 
Projects, provide that crucial speed piece of near-term 
execution in some areas we couldn't anticipate really in 
submission of the budget. There's no need, so we wouldn't have 
guessed when the budget process was going.
    Some new technologies arise that we would not have 
anticipated. It is important to us to have flexibility during 
execution here.
    Other programs that are a little further off on the 
horizon--more like 2 to 5 years--are the ACTD process and areas 
where we do not have the adequate base. In those programs, we 
use some of the ``Defense Procurement Act, Title 3'' mechanism.
    So there are several mechanisms to employ new technology 
transition. I think we're okay regarding the mechanisms. But if 
someone disagrees, please say so.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Roberts. Dr. Sega, you stated that one of your 
primary goals both last year, and I think you referred to it in 
your testimony here this morning, was to improve the outreach 
and the coordination with the Intelligence Community.
    Now, having some interest in that, we are taking a look in 
the Intelligence Committee at the pre-war intelligence on post-
war Iraq.
    I guess my question is, are you benefitting--and by 
``you,'' I mean the S&T programs--from intelligence 
requirements in accelerating the technologies that are needed? 
Both accelerating and the anticipation of what you might need 
like we see with the new armor add-ons over here, and 
countermeasures for future threats. Is there a Grand Central 
Station arrangement between you and the 14 agencies that 
compromise the Intelligence Community?
    I would add that some of the intelligence that we gleaned 
or that was predicated or that was provided to the policymakers 
and to the Defense Intelligence Agency (DIA) and to the 
Pentagon, one would expect would be obvious, we expected a wave 
of humanitarian problems. Actually, that did not occur. We had 
a lot of infrastructure degradation and a lot of sabotage, but 
that other event did not happen.
    I know that some expected a lot of flag waving and thanks 
in regards to public demonstrations. I think that went on for 
about 24 hours until we got to the current situation.
    But if, in fact, the terrorists worldwide were using their 
favorite ploy, i.e., truck bombs, explosives, mortars, RPGs, so 
on and so forth, it would appear to me that the Intelligence 
Community and the S&T community ought to fit together not only 
in terms of anticipation, but also lessons learned, and 
anticipate what we might need a little better down the road.
    I'm not--well, I won't get into the inquiry that we are 
conducting, but I think we could sure as hell do better. I'm 
concerned about that. If you would, please comment for me on 
your relationship with the Intelligence Community and how 
that's working out both in terms of anticipation and in terms 
of accelerating what you need.
    Dr. Sega. Mr. Chairman, we have made that a priority and 
we're making progress on it. From about the second week of the 
advent of the Combating Terrorism Technology Task Force in 
2001, they have been part of that process.
    We have developed the surveillance and knowledge systems 
initiative with the Intelligence Community as part of the road-
mapping process of what S&T efforts should go on.
    We are working toward coordinating the program and sort of 
synching up when we need to have the pieces ready to coordinate 
in the budget process. So we do have funding coordination, if 
you will, on the programs that----
    Senator Roberts. Who are you coordinating with? Is that 
DOD? Is that CIA? Is that FBI? Is this a whole shooting match 
or what--who do you deal with in regards to these kinds of 
priorities and the laundry list that you are putting together? 
I don't mean that as a pejorative.
    Dr. Sega. I understand that. I have to admit it's not well 
institutionalized and we're working on----
    Senator Roberts. Should it be institutionalized?
    Dr. Sega. I would have to think more about how we would do 
that and what the pros and cons and the mechanisms of----
    Senator Roberts. If any of you have any ideas on that, if 
you could provide that to the subcommittee, or if you want to 
say something right now, please feel free to do that.
    Dr. Sega. Sir, there is the structure called the Science 
and Technology Intelligence Coordinator (STIC). I may have 
gotten the term wrong. From that, there is a list of critical 
areas, critical technologies. Myself and Secretary Cambone have 
brought together the technology and intelligence folks to take 
a look at assessments as we look at knocking off, if you will, 
this list of items, these technologies.
    Senator Roberts. Well, you went down some of those earlier 
in your comments in terms of your priorities. But it just would 
seem to me as we're going through--we used to do that. We 
pushed and pushed and pushed on the subcommittee to have joint 
exercises. There was a lot of objection to that because of 
limited budget dollars and what the Services want to do.
    Well, we have two dandies right now, one in Afghanistan and 
one in Iraq, and maybe one in Haiti by the time we're through 
with it. So it just seems to me that if there's ever a time 
where we could--I don't know if we need to say 
institutionalize, but maybe we ought to create--is STIC 
recognized as this Grand Central Station that I am referring 
to?
    It's one thing to try to get the 14 different agencies in 
the Intelligence Community to take down their stovepipes and 
have better coordination. I think we've achieved a great deal 
on that since September 11, especially.
    Then the thought occurs to me that that obviously would 
apply in regards to the priorities of the S&T community on 
lessons learned and where we go and what we provide the 
warfighter as soon as we possibly can, anticipating what we 
would need based on the best intelligence that we have.
    Dr. Sega. Within the last few months, under the National 
Security Technology Council, a subcommittee has been formed on 
national security R&D. I co-chair it along with Dr. Don Kerr 
from the CIA. That includes an interagency group beyond the CIA 
and DOD that has interagency participation and that's under the 
Office of S&T Policy (OSTP) sponsorship. So there is that 
interagency mechanism.
    What I referred to earlier on these assessments was more 
detailed. For example, nanotechnology is looked at to better 
inform our S&T investments for DOD needs, but also to help 
inform what investments we should be making for R&D for the 
intelligence function as a customer.
    Senator Roberts. Okay. I'm sort of an event-oriented 
person. I think most Senators are. I'm not a chart guy, 
although we do have awards for the best chart when we get into 
that. But the lights don't go off or you lose Members.
    But in the event-oriented thing, and this is how things 
work around here, I think, to a certain extent, you read in the 
fountain of all knowledge, The Washington Post, where it's 
going to take the FBI and the Border Patrol 4 years to get 
back-up technology and better coordinate it so that they can 
work together on the fingerprinting necessary for Border 
Patrol. Four years? Yet we have a device back here at PIER 2.3 
that can provide an amazing kind of identification security.
    It would just seem to me rather than horsing around for 4 
years trying to get your fingerprinting computer base worked 
out so you can share it, why wouldn't you just move to 
something like this and do it?
    We're already having application of this kind of 
technology, and I'm not trying to sell this product. But it 
seems to me that they have a very unique advantage or service 
that can be provided at this particular time. How do you plug 
that in with your intelligence?
    I know the CIA has a great interest in this product. I know 
the marines already have it and they want more. Yet I have read 
in the paper that there may be six different reasons why this 
wouldn't work in regards to the example I'm using.
    It seems to me there has to be a better coordination 
between the Intelligence Community, including the FBI, and I 
know that's outside your circle that you're working in in 
regards to Secretary Cambone, et cetera.
    That's a rambling road speech. That's really not a 
question.
    Dr. Sega. Mr. Chairman, let me give you an example of, 
though it may not be systematic across the board at this point, 
which I do not believe it is, but there are some examples where 
there are models that are working and the details we may follow 
on in a different session.
    But in terms of looking at explosive devices, currently in 
Iraq and in the CENTCOM theater they go to a combined 
explosives exploitation cell. I believe that's in Baghdad. I 
believe it has representation from the Intelligence Community, 
but I could be wrong on that.
    The next stop is at the Terrorist Explosive Device Analysis 
Center in Quantico. I've been down there to look at that. The 
primary management of that facility with defense dollars is 
FBI. So there's a level of exploitation of the explosive 
device.
    Then it goes to the proper places, whether Services or 
others, to understand how it works and then understand how to 
potentially defeat it.
    So as a limited example, there is a coordination process to 
run something quickly through from start to finish. But in a 
systematic sense, I've given you a couple coordination points 
and activities. I've probably mentioned almost half a dozen at 
this point.
    Senator Roberts. Well, we'll follow-up on that. I apologize 
for taking time here. We're getting toward the noon hour. But 
I'm very happy to learn that and I think that would be very 
valuable information for members of the subcommittee and the 
full committee. I was not aware of that in regards to Quantico.
    Obviously, what we're experiencing in Iraq in regards to 
the dangers there applies directly to homeland security and 
what we're facing on the domestic front.
    So I appreciate your commentary and we might have staff get 
together and you can better inform us and educate us as to how 
those channels are working now.
    Senator, do you have any additional questions?
    Senator Reed. No, I do not.
    Senator Roberts. Unless somebody has anything else that is 
absolutely important, this hearing is adjourned. Thank you so 
much.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Pat Roberts

                               S&T BUDGET

    1. Senator Roberts. Dr. Sega, Dr. Killion, Admiral Cohen, and Mr. 
Engle, the Department of Defense's (DOD) budget requests and statements 
from DOD officials clearly emphasize applied research. What is the 
departmental view of the role of basic defense science and technology 
(S&T) and what is the guidance with regard to future budgets for these 
programs and for the larger S&T portfolio?
    Dr. Sega. New military capabilities and operational concepts emerge 
from basic research. Basic research is a long-term investment with 
emphasis on opportunities for military applications far into the 
future. Additionally, it contributes to our national academic and 
scientific knowledge base by providing substantial support for all 
science and engineering and the education of our future scientists and 
engineers. Basic research investments over a long period of time have 
contributed significantly to new warfighter capabilities--low 
observables (stealth), lasers, infrared night vision, and 
microelectronics for precision strike, to name a few. Many of these 
advances were unpredictable. No promising avenue of research should be 
neglected. Although areas of emphasis may change, it is important to 
maintain a balanced portfolio in order to deal with unforeseen 
developments. Investments in basic research should help prevent 
technological surprise by our adversaries. We have consistently 
supported investment in basic research that, at a minimum sustains 0 
percent real growth. The overall fiscal year 2005 budget request for 
S&T funding exceeds 0 percent real growth by 1.8 percent. The Secretary 
has established a long-term goal to fund S&T at 3 percent of the total 
Defense budget. This goal is becoming difficult to achieve because the 
projected top line of the total DOD budget is increasing more rapidly 
than the programmed increasing rate of S&T funding.
    Dr. Killion. The Army's basic research program seeks new knowledge 
and understanding to achieve revolutionary advances in technology that 
can be translated into transformational warfighting capability. The 
program invests in world-class expertise (government, academic, and 
industry) and state-of-the-art equipment.
    The Army maintains a diverse S&T portfolio that has three major 
components: (1) exploiting basic research to (2) accelerate technology 
opportunities in applied research and (3) transition technology to 
systems through the advanced technology development programs. 
Investments within these three accounts work synergistically to provide 
the most capable technology solutions to satisfy our warfighting 
requirements. As we develop technology for the future force we are also 
seeking opportunities to transition advanced technology to the current 
force that is engaged in the global war on terrorism.
    Admiral Cohen. The majority of the Navy's S&T portfolio is divided 
into two areas: (1) discovery and invention; and (2) exploitation and 
deployment.
    The strength of the Office of Naval Research (ONR) is its basic 
research (6.1) investment in discovery and invention. ONR's fiscal year 
2005 budget request for basic research funding is $477 million. Navy's 
basic research investment funds long term research in the enabling 
technology for warfare areas such as command, control, communications, 
computing, intelligence, surveillance, and reconnaissance (C\4\ISR); 
underwater weaponry; underwater acoustics; naval architecture; and 
expeditionary warfare. They are absolutely critical to maintaining our 
future naval battlespace supremacy.
    We rely on the expertise of the naval research enterprise at the 
Naval Research Laboratory and the Marine Corps Warfighting Laboratory, 
other government labs, as well as academic institutions, to pursue long 
term, high risk, high payoff, basic research.
    Defense Planning Guidance (DPG), used to develop the fiscal year 
2005 President's budget request for S&T, supported 3 percent annual 
real growth. However, the Navy S&T accounts reflect the balance of 
priorities among the competing requirements of the fiscal year while 
attempting to be responsive to the DPG.
    The most critical element of support for long-term, high risk 
scientific research is to provide stable investment funding. The Navy 
fiscal year 2005 6.1 budget meets the DPG goal to provide no less than 
0 percent real growth for basic research.
    Mr. Engle. The Air Force depends on and fully supports its basic 
research program to provide for future long-term warfighting 
capabilities. Air Force core basic research is funded at $217.3 million 
in the fiscal year 2005 President's budget--an increase of almost $13 
million or almost 5 percent real growth over the fiscal year 2004 
President's budget. Total basic research funding within the Air Force 
also includes the University Research Initiative and High Energy Laser 
Research, which were devolved to the Air Force from the Office of the 
Secretary of Defense (OSD) in fiscal year 2004. Basic research funding 
stemming from these devolved programs is also up from the fiscal year 
2004 President's budget by almost $11 million or almost 8 percent real 
growth. We expect to maintain at least 0 percent real growth in future 
years. Overall, core funding for the total Air Force S&T portfolio has 
increased over $80 million or almost 5 percent real growth in the 
fiscal year 2005 President's budget when compared against similar 
funding in the fiscal year 2004 President's budget. We do not expect 
any significant changes to the current fiscal year 2005 President's 
budget funding in the upcoming budget cycle.

    2. Senator Roberts. Dr. Sega, Dr. Killion, Admiral Cohen, and Mr. 
Engle, what is the correct funding balance, by percentage, within the 
S&T accounts between basic (6.1), applied (6.2), and advanced 
technology development (6.3)?
    Dr. Sega. Determining the correct funding balance of S&T investment 
is not a precise science; rather, I believe it is a strategic decision. 
The Department's investment in S&T develops the technology foundation 
necessary for our modernization effort, and fosters the development of 
``leap ahead'' technologies that produce transformational capabilities. 
DOD must continue to invest broadly in defense-relevant technologies 
because it is not possible to predict in which areas the next 
breakthroughs will occur. The traditional guidelines have been to fund 
basic research at approximately 15 percent, applied research at 
approximately 35 percent, and advanced technology development (ATD) at 
approximately 50 percent of the total DOD S&T budget. This breakout has 
had success in leading to the discovery of new scientific knowledge and 
maturing these scientific discoveries into technology demonstrations 
that provide options for future military capabilities.
    Dr. Killion. The Army is committed to a strong S&T program that 
does not rely on specific investment goals within the S&T accounts. I 
think specific percentage targets would be too rigid. We need to 
maintain the dynamic portfolio management that we are using to 
accelerate the pace of our transformation through technological 
advances. As knowledge is gained in the basic research program we 
increase focus on areas of dramatic payoff. When our warfighting 
customers have the system development and acquisition resources, we 
increase investments in ATD to speed transitions of selected technology 
based upon our soldiers' needs. We balance the need to sustain 
investments over time to achieve ``breakthroughs'' in science with the 
need to seize on opportunities for rapid technology transitions as they 
present themselves. In this way we are being responsive to the dynamics 
of the science and technology environment and the business environment 
of resource allocations beyond the S&T program.
    Admiral Cohen. The S&T investment portfolio is driven not by 
arbitrary percentages within the S&T accounts, but by a careful 
strategy of investment in promising research and technology at whatever 
stage it may be. As the Chief of Naval Research, my goal is to balance 
the Navy's S&T portfolio between two broad investment areas: (1) 
discovery and invention; and (2) exploitation and deployment.
    Discovery and invention focuses on discovering and understanding 
new phenomena that may hold promise for the ``Navy after next.'' This 
includes all of our 6.1 investment and a portion of our 6.2 investment. 
Our investment in nanotechnology in the 1980s is an example of our 
support for long term, high-risk, high-payoff basic research. We are 
just at the beginning of delivering the benefits on nanotechnology, 
such as nano-coatings for submarine pumps. I believe it is crucial for 
the 6.1 budget to be stable to protect the long term basic research 
that develops the bold ideas that transforms warfare 10 to 30 years in 
the future.
    Exploitation and deployment, primarily 6.3 and a portion of 6.2, 
funds the transformational effort supporting ``The Next Navy and Marine 
Corps.'' Our future naval capabilities program, in close cooperation 
with the requirements, fleet/force, and acquisition communities, is 
transitioning components and systems to solve operational challenges. 
The other major effort in exploitation and deployment is our Innovative 
Naval Prototypes, large scale, high-risk, long term projects that may 
change warfare. Ongoing programs include development of the 
electromagnetic gun, the free electron laser, and electric ship 
propulsion.
    Mr. Engle. The Air Force maintains a balance between 
transformational and enabling technology developments in support of the 
warfighter. Air Force S&T is funded at a level to achieve the 
warfighting capabilities that support Air Force core competencies. This 
includes funding of approximately 18 percent or $345.5 million for 
basic research, 42 percent or $786.2 million for applied research, and 
40 percent or $763.7 million for ATD. Historically, this division has 
proven successful in providing transitionable technology at a pace we 
can afford to acquire, while preserving the scientific base for future 
warfighting needs. Currently, we are skewed slightly to the 6.3 
funding, which reflects the Air Force's interest in getting technology 
into the hands of the warfighter because of the urgency of current 
events.

                         DARPA'S STRATEGIC PLAN

    3. Senator Roberts. Dr. Sega, the National Defense Authorization 
Act for Fiscal Year 2004 contained language directing the Secretary of 
Defense to set up ``appropriate means for review and approval'' of the 
Defense Advanced Research Project Agency's (DARPA) strategic plan. What 
means for review have been established and what role will the Director, 
Defense Research and Engineering (DDR&E), play in DARPA's strategic 
plan?
    Dr. Sega. As the DDR&E, I have oversight responsibility over DARPA. 
The initial DARPA strategic plan was actually published in February 
2003 and was coordinated and vetted through the DOD and then approved 
by me prior to release. I have instituted a top-to-bottom review of 
DARPA program with my office directors. We also have instituted a 
detailed review of the DARPA's internal budget to ensure consistency 
with DOD goals. Finally, I will review and approve DARPA's strategic 
plan prior to submission to Congress in response to 10 U.S.C. 2352.

                 CURRENT PROGRAM AND SYSTEM ENHANCEMENT

    4. Senator Roberts. Dr. Sega, the DOD's S&T programs have an 
important role to play in providing enhancements for current and future 
programs and systems. Please briefly outline such efforts in the 
following areas: blue-force tracking; force protection; and secure 
networks. In addition, could you please briefly outline the DOD's 
coordination efforts for S&T in all unmanned systems activities?
    Dr. Sega. In my testimony I outlined and discussed five research 
and engineering priorities that directly impact current and future 
programs and systems, including: Integrating S&T with a focus on 
transformation; enhancing technology transition; addressing the 
national security science and engineering workforce; expanding outreach 
to the combatant commands and intelligence community; and accelerating 
technical support for the war on terrorism.
    The Secretary of Defense places high priority on Joint Blue Force 
Situational Awareness (JBFSA), formerly referred to as ``blue force 
tracking.'' Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) amplified the role of JBFSA in support of battlespace 
awareness, command and control, force application, and logistics for 
the coalition forces. The JBFSA Overarching Integrated Product Team is 
formulating the investment strategy and program roadmap in coordination 
with the Joint Capabilities Integration and Development System 
Functional Capabilities. The JBFSA Advanced Concept Technology 
Demonstration (ACTD) is providing the prototype enterprise architecture 
and common operational picture for theater commands to improve 
detection, tracking and identification of all blue and friendly forces.
    Our near-term force protection initiatives are focused on 
activities of the Combating Terrorism Technology Task Force (CTTTF) to 
rapidly accelerate technologies to mitigate effects stemming from 
terrorist use of weapons such as improvised explosive devices (IEDs), 
mortars, and rocket propelled grenades (RPGs). The CTTTF matches 
emerging laboratory technologies with operational challenges in the 
global war on terrorism. A number of ACTDs impact force protection. For 
example, the Counter Bomb/Counter Bomber ACTD detects either suicide 
bombers or command initiated terrorist conventional and non-
conventional explosive devices. The Active Denial System (ADS) ACTD 
will demonstrate long-range, anti-personnel, non-lethal force options 
to commanders using a powerful millimeter wave transmitter on 
stationary and mobile platforms to heat the skin and cause pain in 
threat personnel.
    Our initiatives to secure our networks and protect information 
include integration of emerging commercial technologies, exploration of 
new software capabilities and developing capabilities for managing 
network infrastructure, implementing autonomic response to cyber 
attack, and segregating information for releasability based on content 
and role of the user. There are a number of ongoing activities across 
the spectrum of communications and networking, including the active 
Network Intrusion Defense (ANID) ACTD which provides rapid correlation 
and visualization of cyber events, collaboration between ad-hoc virtual 
teams of experts and autonomic execution of pre-planned responses where 
appropriate, consistent with operational activities. Additionally, the 
Coalition Information Assurance Common Operational Picture (C-IA COP) 
ACTD is instituting a view of network status and health as it pertains 
directly to operational plans and activities by integrating defense 
cyber warfare tools with network management capabilities and processes. 
The Content Based Information Security (CBIS) ACTD is developing a 
revolution policy engine implementation which will enable information 
protection within a common shared network space while permitting role-
based access to releasable information to those network users who have 
clearance and authorization. These are specific examples of many 
activities in this important area.
    For unmanned systems, the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)) Unmanned Aerial 
Vehicle (UAV) Planning Task Force's UAV Roadmap consolidated the 
Services' and components' developmental activities related to UAVs and 
provided a path for future technology investment. This document is used 
to review the UAV S&T activities and to optimize areas for cooperation 
between programs and projects. Within USD(AT&L), there is excellent 
coordination between the offices responsible for the oversight of 
unmanned systems development, enabling the leveraging of S&T efforts. 
An example of this leveraging is the fiscal year 2004 Joint Unmanned 
Systems Command and Control (JUSC2) ACTD, developed primarily to 
support ground-based robots by the Joint Robotics Program Office, will 
be used to demonstrate the integration of surface and airborne unmanned 
systems.

                   RESTRICTIONS ON FOREIGN NATIONALS

    5. Senator Roberts. Dr. Sega, traditionally research conducted 
within the 6.1 basic and 6.2 applied research accounts has been viewed 
as fundamental in nature and therefore not subject to restrictions on 
publication or on participation by foreign nationals. Is the DOD 
reviewing this policy with a view toward possibly issuing a new 
security directive to clarify when such restrictions are appropriate 
and when they are not?
    Dr. Sega. The DOD is not reviewing its policy allowing foreign 
nationals to participate in fundamental research programs nor is DOD 
reviewing its policy that fundamental research findings are freely 
published and shared broadly within the scientific community.
    In 1985 President Reagan established the national policy on 
openness in American fundamental research with National Security 
Decision Directive (NSDD) 189. DOD supports NSDD-189. Fundamental 
research is exempt from the export license requirements in both the 
International Traffic in Arms Regulations (ITAR) and the Export 
Administration Regulations (EAR).
    While the DOD continuously reviews security policies, our policies 
with respect to fundamental research are not under active review at 
this time. We are reviewing and clarifying our policies with respect to 
the ITAR and the EAR to make clear when export licenses are required 
for the sharing of technical information with foreign nationals. With 
rare exceptions, both the ITAR and EAR provide export license 
exemptions for fundamental research.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins

                      LIGHTWEIGHT COMPOSITE METALS

    6. Senator Collins. General Cartwright, how can lightweight 
composite materials help the Army meet its needs in developing its 
future force, and how do you believe the proposed Center of Excellence 
at the University of Maine can help the Army meet its objectives?
    General Cartwright. The Army has great interest in affordable 
composite materials because they have improved properties over many 
materials currently in use. Key material properties of composites could 
be exploited in applications such as lighter weight structural 
components in vehicles to achieve longer component life and reduced 
vehicle fuel consumption, and improved ballistic protection with 
reduced weight burden.
    The Army is aware that the University of Maine has proposed the 
establishment in Maine of a U.S. Army Center of Excellence on Advanced 
Structures and Materials in Construction. Currently, higher Army 
priorities and funding requirements associated with current military 
operations mean that discretionary funding is insufficient to implement 
such a Center of Excellence focused specifically on structures and 
materials in construction. However, the Army does have an existing 
Center of Excellence for Materials to conduct research on metals, 
ceramics, polymers, and composites. This center is affiliated with the 
Army Research Laboratory through cooperative agreements awarded 
competitively. The University of Maine may respond to the Broad Agency 
Announcement expected in June 2005 for the Center of Excellence's next 
5-year contract.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                               FUEL CELLS

    7. Senator Levin. General Cartwright, do you see fuel cells playing 
a key role in the development of future Army ground vehicles?
    General Cartwright. We see fuel cells as an emerging technology 
with potential benefits for specific applications where the fuel cell 
represents a ``best fit'' when compared with other current and emerging 
power technologies. Fuel cells have certain inherent advantages such as 
low noise, high efficiency, high energy density and a potential for low 
maintenance that are very attractive. However, the technology also has 
inherent challenges such as high unit cost, low power density, and 
special fuel requirements. When fuel cells are fielded as power 
subsystems, consideration must be given to the overall size, weight, 
and volume of the entire weapon system as well as the infrastructure 
required. If pure hydrogen is required to feed the fuel cell, a number 
of issues must be addressed including safety concerns associated with 
on-board storage and transportation. Additionally, if high energy 
density hydrocarbon fuels are used, they must first be desulfurized and 
converted to hydrogen. This reforming process adversely impacts the 
overall efficiency of the system.
    Considering these limitations and given the current state of the 
technology, the Army's first step is to concentrate on the development 
of low- to mid-power systems where acoustic silence and high energy 
density are essential. Fuel cell auxiliary power units (APUs), both 
stationary and mobile, show near-term promise. APUs can be used to 
provide supplemental energy during periods of vehicle silent watch. 
Both cost and complexity are high for fuel cells. As we continue to 
obtain data through our lab testing, we must also concurrently keep an 
eye on the business case in order to make a meaningful capability 
transition for the soldier.

    8. Senator Levin. General Cartwright, what is your plan for 
developing Army fuel cells for stationary and ground vehicle purposes?
    General Cartwright. The Army is formulating a strategy for 
developing the necessary power and energy components and systems to 
achieve the levels of power and energy required to ensure that future 
systems will be more efficient, survivable and lethal. Fuel cell 
development is part of the plan. The first and most important step is 
to identify appropriate applications.
    Currently we are working jointly with the other Services, other 
Government agencies, the Department of Energy (DOE), DARPA, the 
National Aeronautics and Space Administration (NASA), the Federal 
Aviation Administration (FAA), industry, and academia to develop fuel 
cell systems that can function in an integrated environment.
    In addition, the Tank-Automotive Research, Development, and 
Engineering Center's (TARDEC) National Automotive Center has conducted 
numerous demonstration projects for fuel cells in cooperation with 
commercial industry partners. These will continue to be evaluated for 
both combat and non-combat applications. The Portable and Mobile Power 
S&T program includes fuel cell work for both vehicle APUs and battery 
rechargers for soldier power. This ongoing program is being 
restructured and coordinated with a new program, to include 
investigating small vehicle prime power. The Army also oversees a 
number of other projects, including work in Small Business Innovation 
Research (SBIR), Small Business Technology Transfers (STTR), 
Multidisciplinary Research Program of the University Research 
Initiative (MURI), and the P&E Collaborative Technology Alliance (CTA) 
for developing fuel cell components as well as for logistic fuel 
reforming.
    For installation scale applications (e.g., power for buildings), 
the Corps of Engineers, in cooperation with Research, Development, and 
Engineering Command (RDECOM), is installing Solid Oxide Fuel Cells 
(SOFC) and Proton Exchange Membrane (PEM) fuel cells at several Army 
and DOD sites. This work will yield meaningful performance and 
reliability data to support transitioning fuel cells that will provide 
energy security for fixed sites and forward base camps of the future.

                             ENERGY SOURCES

    9. Senator Levin. General Cartwright and Dr. Sega, what efforts are 
underway to develop the energy-efficient installation of the 21st 
century?
    General Cartwright. The Army is following DOD policy to invest in 
cost-effective renewable energy sources, design energy efficient 
structures, and regionally consolidate Defense requirements to 
aggregate bargaining power to secure energy at lower cost. The Army is 
doing all we can to reduce costs and ensure that the program goals are 
achieved. We defer to Dr. Sega for the DOD position.
    Dr. Sega. It is DOD policy to invest in cost-effective renewable 
energy sources, energy-efficient construction designs, and regionally 
consolidate defense requirements to aggregate bargaining power to get 
better energy deals. Energy management on DOD installations is focused 
on improving efficiency, eliminating waste, and enhancing the quality 
of life while meeting mission requirements. Accomplishing these 
objectives will reduce costs and ensure that the program goals are 
achieved. The DOD energy program for facilities is decentralized with 
DOD component headquarters providing guidance and funding, and regional 
commands or military installations managing site-specific energy and 
water conservation programs. The funding of energy projects is multi-
faceted, using a combination of Federal appropriations and private 
funds. Installations are responsible for maintaining awareness, 
developing and implementing energy projects, ensuring that new 
construction uses sustainable design principles, and meeting energy 
goals.
    In addition, there is a DOD-wide science and technology initiative 
in Energy and Power Technologies (EPT) that has potential payoffs in 
this area. This EPT initiative is broad-based and focuses on enabling 
technology supporting energy generation, storage and use. For instance, 
the initiative invests in batteries, advanced fuel cells, ultra large 
capacitors, high-efficiency electronic components, and so forth. We 
anticipate that many of these technology components will also benefit 
the energy efficient installation of the 21st century.

    10. Senator Levin. General Cartwright and Dr. Sega, how will such 
efforts develop a hydrogen infrastructure, utilize alternative energy 
sources, and utilize advanced vehicle propulsion?
    General Cartwright. The Army is developing a 21st century base 
concept that includes a provision for ``energy security.'' As such, the 
Army is investigating facilities and resources that can be used to help 
jump-start selected alternative energy projects in coordination with 
other government agencies and industry. The 21st century base will most 
likely include facilities to generate hydrogen, which would enable use 
of efficient fuel cell powered administrative and non-tactical 
vehicles. In some cases, the Army may be able to provide infrastructure 
and facilities for testing concepts that would be problematic to 
execute in the short term if attempted elsewhere. Additional 
cooperative work with industry and other government agencies is planned 
to evaluate base hydrogen infrastructures, reforming of fuels and/or 
utilization of natural gas. Other alternative energy projects, 
including integrating wind, solar, fuel cell or other capabilities into 
mini-grids, are being considered to help to reduce dependence on more 
traditional energy supplies.
    Dr. Sega. The DOD is committed to creating opportunities to install 
renewable energy technologies and purchase electricity generated from 
renewable sources to enhance energy flexibility when it is life-cycle 
and cost-effective. In 2002, funding was set aside by Congress to 
assess the renewable energy potential of U.S. military installations. 
DOD created a Renewable Energy Assessment Team, led by the Air Force, 
to explore solar, wind, and geothermal energy resources at military 
installations. In fiscal year 2004, additional funding was set aside to 
further this effort, which is scheduled to be complete in November 
2004. Also, the DOD, in partnership with the DOE, is using several 
military bases as demonstration sites for fuel cell-powered 
administrative vehicles development under DOE's FreedomCAR program. In 
addition, DOD has stationary fuel cell systems installed and 
operational at over 30 military bases across the country. Military 
bases provide an ideal environment for the controlled demonstration of 
fuel cell vehicle and stationary power applications, where the DOD has 
benefited by obtaining extensive practical experience in operating this 
advanced energy source.
    In addition, there is a DOD-wide S&T initiative in EPT that has 
potential payoffs in this area. This EPT initiative is broad-based and 
focuses on enabling technology supporting energy generation, storage 
and use. For instance, the initiative invests in batteries, advanced 
fuel cells, ultra large capacitors, high-efficiency electronic 
components, and so forth. We anticipate that many of these technology 
components will also benefit the energy efficient installation of the 
21st century.

                            HYBRID VEHICLES

    11. Senator Levin. General Cartwright and Dr. Sega, what 
investments are being made in fiscal year 2004 to develop hybrid 
vehicles?
    General Cartwright. The Army has several major S&T objective 
programs specifically aimed at developing hybrid electric vehicle (HEV) 
technology for Future Combat Systems (FCS) vehicles in Increment 1 and 
for future spirals. In these programs we are developing components 
(including advanced power electronics, electric motors, batteries, 
switches, and inverters) and HEV architecture that will provide greater 
power and energy at reduced weight and volume. This will enable 
vehicles to perform more efficiently and achieve greater lethality, 
survivability, and agility. Our fiscal year 2004 investments in these 
enabling technologies total $59.8 million in applied research, ATD and 
manufacturing technology (MANTECH) and $2.1 million in congressionally 
directed efforts.
    In addition to efforts supporting FCS, Army S&T is partnering with 
the automotive industry to address HEV and hybrid hydraulic 
technologies for current and future tactical vehicles. The Future 
Tactical Truck System (FTTS) ACTD focuses on integrating HEV technology 
into current and future light, and medium/heavy tactical vehicles and 
evaluating/quantifying the military utility of HEV technology. The FTTS 
ACTD is a $50 million effort over 4 years. Contract awards are 
anticipated in the July-August 2004 timeframe for vehicles that will be 
used to conduct the performance evaluations and military utility 
evaluations.
    Finally on the acquisitions side we have been looking at HEV 
technologies for high mobility multipurpose wheeled vehicles (HMMWVs). 
Due to need to support ongoing warfighting operations this effort has 
been put on hold.
    Dr. Sega. For tactical vehicles, the DOD continues to focus our HEV 
efforts through two main programs--the HMMWV acquisition program and 
the FTTS ACTD program. The HMMWV electric propulsion effort, identified 
in the August 2003 report to Congress titled ``The Feasibility of 
Fielding Hybrid Electric Vehicles in the Defense Fleets,'' has been 
deferred as a result of HMMWV upgrade efforts to support ongoing 
warfighting operations. The ongoing ACTD effort will feed the follow-on 
HMMWV electric propulsion effort. The FTTS ACTD is the primary funded 
Tech Base effort within DOD in pursuing the demonstration of hybrid 
vehicles. The goals and designs for tactical vehicles are components of 
this program. Field testing of vehicles, to demonstrate hybrid electric 
propulsion performance, is planned to begin in 2005. Lower level 
efforts include the Joint Marine Corps/ONR/DARPA Reconnaissance, 
Surveillance, and Targeting Vehicle (RSTV) program and the Army 
National Automotive Center Dual-Use Tactical Truck Hybrid projects.
    For combat vehicles, the Army is aggressively pursuing hybrid 
electric drive as a prime candidate for the FCS Increment 1 propulsion 
system. The FCS Lead Systems Integrator (LSI) has let several 
subcontracts for the development, test, and evaluation of hybrid 
systems to assess the cost-benefit of these systems in achieving 
desired capabilities.

    12. Senator Levin. General Cartwright and Dr. Sega, what agreements 
are in place or planned for the testing, demonstration, transition, and 
acquisition of these systems?
    General Cartwright. The leading power pack concept being considered 
by the FCS LSI is a HEV design. Component and subsystem technology 
deliveries for the FCS HEV architecture are detailed in Technology 
Transition Agreements among the program manager (PM) unit of action 
(UOA), and the vehicle subcontractors who are part of the LSI industry 
team, and the RDECOM.
    U.S. Army Tank Automotive and Armaments Command (TACOM) will be 
procuring a limited number of HEVs for the FTTS to be used in the 
military utility assessment in the near future. Award(s) is expected in 
the July 2004 timeframe.
    Under the FTTS program, the ACTD Implementation Directive calls for 
hardware deliveries beginning in January 2006, with a military utility 
assessment scheduled for the March through September 2006 timeframe.
    The effort to upgrade the HMMWV fleet that was described in the 
report to Congress last year has been put on hold in order to do other 
medications to accomplish more urgent upgrades in support of the war.
    Dr. Sega. The only current agreements regarding the demonstration 
and transition of HEV technologies exists within the Army's FTTS ACTD 
program. General Cartwright addresses this program in his response.
    With respect to planned agreements to acquire these systems, the 
DOD's investment in hybrid electric (HE) technology programs exist at 
both the component and system levels in an effort to advance HE 
technologies and provide a more successful transition into acquisition 
programs. Current and future efforts in developing advanced power 
electronics, electric motors, and energy storage devices will enable HE 
technology to overcome transition hurdles. Improvements in on-board 
energy and power densities enable a more viable propulsion alternative 
for integration into military platforms, thereby achieving desired 
operational capabilities. This work also benefits the commercialization 
of HEVs by increasing the knowledge base, industrial base, and 
ultimately, making the technology more affordable for the users.
    In addition, the future demand for increased electrical power to 
satisfy the emerging energy needs of advanced weapons and survivability 
systems makes the successful demonstration, transition and acquisition 
of HE technologies even more critical for future systems. The DOD's EPT 
initiative promotes the tri-service advancement of HE technology. These 
systems, along with an architecture that can accommodate the insertion 
of advanced technologies such as fuel cells and high temperature 
superconducting devices, will provide the infrastructure for the future 
military fielding of HE platforms.

                       ACTIVE PROTECTION SYSTEMS

    13. Senator Levin. Dr. Killion, active protection is a key part of 
the FCS. What efforts are underway to address close in active 
protection from kinetic threats as well as RPGs?
    Dr. Killion. Army S&T is working on several synergistic approaches 
to address the various types of threats to our medium and light 
vehicles and we are attempting to determine what the right combination 
of lightweight armor and type(s) of Active Protection Systems (APS) are 
best for the different platform classes. The close-in threats you 
mention are particularly difficult to counter because of the close 
proximity of their employment (in the case of the chemical energy (CE) 
munitions) and the short response times required to defeat them 
effectively (i.e., fractions of seconds for both CE and kinetic energy 
(KE) munitions).
    The Integrated Survivability ATD (IS ATD) program is addressing 
both CE and KE threats launched from distances beyond line of sight. 
With respect to CE threats, we have successfully demonstrated defeat of 
RPGs, anti-tank guided missiles (ATGMs) and tank fired high explosive 
anti-tank (HEAT) rounds using either an electronic warfare system or 
countermeasure (CM) launched to intercept the threat. We have done this 
with the protected vehicle both static and moving. This technology is 
being transitioned to PM FCS for application in Increment 1. Now we are 
beginning to focus on defeating tank fired KE threats. Proof-of-
principle testing has demonstrated that a number of different warhead 
approaches may be available to either break or deflect the threat KE 
round at an acceptable distance from the vehicle. The IS ATD is 
expected to demonstrate KE defeat from a static system in 2005 and 
demonstrate an on-the-move system in 2006. Concurrently the IS ATD is 
designing and demonstrating armors since, after a successful intercept, 
a significant amount of residual debris may still impact the vehicle. 
It is important to note that use of APS will not eliminate the need for 
armor; but it will help reduce the amount of armor required.
    The Army currently has two different efforts to address CE threats 
launched at distances of less than 50 meters. The Full Spectrum Active 
Protection Close in Layered Shield (FCLAS) program is in the early 
stages of development. The system comprises a mortar-launched munition 
and a warhead that integrates a tracking and a fusing (detonator) 
radar, digital signal processor, and explosive CM into a small, self-
contained interceptor. The interceptor can be launched from vehicle-
mounted tubes similar to smoke launchers. Multiple systems would be 
placed on the protected vehicle to achieve full 360-degree coverage. 
The preliminary FCLAS system design is complete and the contractor is 
currently awaiting component delivery to build a full up system. The 
next round of FCLAS range testing is scheduled for November 2004.
    The Close-in Active Protection System (CIAPS) program uses a suite 
of vehicle-mounted staring sensors to detect incoming RPGs and ATGMs 
and launches a CM to defeat the incoming threat. The system has 
multiple CM launchers to provide full azimuth coverage. The program has 
developed a prototype system mounted on a light armored vehicle. Live-
fire range testing of this prototype system is being conducted at this 
time.

    14. Senator Levin. Dr. Killion, how much is being invested in this 
area in fiscal year 2004 and requested in fiscal year 2005?
    Dr. Killion. The Army is spending $13.3 million in fiscal year 2004 
and $46.1 million is budgeted in fiscal year 2005 to address vehicle 
survivability against CE and KE threats through the three efforts.

    15. Senator Levin. Dr. Killion, is a formal program being developed 
to advance these efforts given their high operational priority?
    Dr. Killion. We are making great strides in each of these APS 
programs and are investigating the viability of applying the individual 
close-in APS systems (from FCLAS and CIAPS) or some combination of 
solutions (from the IS ATD) on current platforms as well as in the FCS. 
However, before we commit to any formal strategy for developing and 
deploying APS, we must develop a confidence in their performance and 
explore the tactics, techniques, and procedures that would ensure that 
the risks to personnel and materiel are manageable. We are actively 
working these issues, but at this time there is no planned System 
Development and Demonstration (SDD) for either FCLAS or CIAPS.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                       SEMICONDUCTOR CAPABILITIES

    16. Senator Lieberman. Dr. Sega, DOD has recognized that cutting-
edge and domestically produced advanced semiconductors and components 
are essential to our network centric warfare and defense 
transformation, and therefore to our national security. As your 
Department is aware, world semiconductor processing leadership is now 
being systematically transferred to China, with design and research and 
development (R&D) leadership widely expected to follow. DOD has put in 
place a ``trusted foundry'' approach to assure a secure supply of 
domestic integrated circuits that can meet DOD's current needs. While 
the trusted foundry approach mitigates the near term urgency of 
diminishing supplies of domestic circuits, it remains a short-term 
solution. As recognized in the October 10, 2003, directive of Deputy 
Secretary Paul Wolfowitz, DOD needs to make major progress on 
initiatives to retain U.S. semiconductor R&D leadership and a healthy 
U.S. industry sector. As the Deputy Secretary's directive suggests, 
funding key research initiatives and maintaining a healthy U.S. 
commercial integrated circuit industry is critical to sustaining the 
technological leadership the U.S. must have for intelligence and 
security reasons.
    In light of the Deputy Secretary's directive, what specific R&D 
initiatives, funds and programs will you commit to, in order to retain 
domestic semiconductor capabilities and ensuring a healthy U.S. 
industry base?
    Dr. Sega. The DOD continues to explore innovative approaches to 
ensure access to cutting-edge microelectronics. The Trusted Foundry 
Pilot program will satisfy immediate and near term requirements. Long 
term solutions are being explored, such as the recently initiated 
Defense Science Board (DSB) study to address the multitude of complex 
issues governing the health, stability, and technological future of the 
U.S. semiconductor industry. The Department has also initiated a SBIR 
theme to leverage cutting edge transformational technologies to address 
inspection and measurement of ``trust'' in microelectronic components 
of known or uncertain pedigree.
    The DOD is pro-actively advancing the technology at two U.S.-based 
foundries utilizing research, development, test, and evaluation (RDT&E) 
funds to meet critical needs for radiation hardened electronics. The 
DOD S&T programs, such as DARPA's Radiation Hardened by Design effort, 
will continue to address this important need. The Department will keep 
Congress informed of the progress.
    The DOD continues to increase its investments in militarily 
relevant advanced electronics S&T such as wide band gap devices, focal 
plane array sensors, maskless lithography and spintronics. These S&T 
investments are focused on enhancing future defense capabilities and 
may also provide benefits to the commercial sector.
    The DOD maintains a dialogue with leaders from industry and 
academia to foster support for educational programs for training the 
next generation engineers. Since 1999, the DOD has been supporting 
microelectronics research as part of its Government Industry Co-
sponsorship of University Research (GICUR) program. The program has 
supported ground-breaking research with a long-term horizon, as well as 
education and training in selected areas of strategic importance. The 
current program is managed as part of the DARPA Focus Research Center 
Program involving four major university-based microelectronics research 
centers (with the participation of more than 30 major research 
universities). These centers are at the forefront of research at the 
subnanometer scale focusing on providing solutions for the future 
generations of electronics.
    The electronics S&T investment strategy for the DOD will 
incorporate the findings of the DSB study with the results of ongoing 
S&T activities within our SBIR programs, DARPA, and the Service 
laboratories, as well as our efforts with the U.S. microelectronics 
industry, to achieve the objectives of the Deputy Secretary of Defense 
for secure defense electronics.

                             LAB WORKFORCE

    17. Senator Lieberman. Dr. Sega, when the National Defense 
Authorization Act became law on November 24, 2003, DOD research 
personnel were excluded from the National Security Personnel System 
(NSPS) established for the DOD, to continue to provide the flexibility 
granted by section 342 of the National Defense Authorization Act of 
Fiscal Year 1995 and section 1101 of the Strom Thurmond National 
Defense Authorization Act of Fiscal Year 1999. The research labs were 
given flexibility to establish innovative human resources systems 
necessary for scientific and technical excellence. The congressional 
intent for this was confirmed by the passage of section 1101 of the 
National Defense Authorization Act for Fiscal Year 2004, chapter 99, 
section 9902(c), where the labs are to be excluded from NSPS until 
after October 1, 2008. Moreover, the law states that after that date 
the labs may be included in NSPS only if the Secretary determines that 
the flexibility provided by NSPS are greater than those already 
provided to the labs.
    In a January 6 letter, Senators Voinovich, Collins, DeWine, and 
Sessions, along with myself, expressed our concern regarding DOD's 
intent to standardize the personnel flexibility currently enjoyed by 
the labs under a Best Practices Initiative that mirrors the not yet 
established NSPS, which would undercut broad initiatives and authority 
the labs already have. The February response from Dr. David Chu insists 
on moving the defense laboratories to the Best Practices Initiative, 
despite congressional disapproval of this position as summarized in the 
January 6 letter. This move clearly violates congressional intent. 
Implementing Best Practices, an integral part of NSPS, on the lab 
personnel is contrary to the section 9902(c). What are your intentions 
regarding efforts to include the labs in NSPS?
    Dr. Sega. The ``Best Practices'' personnel demonstration system 
will not be imposed on any of the labs. However, if the labs want to 
take advantage of some of these flexibilities, we will work with them 
to implement the improvements. We will continue to utilize and improve 
the flexibilities and features of the laboratory personnel 
demonstration systems until 2008. At that time, a comparison will be 
made with the flexibilities available under NSPS to consider potential 
conversion options, if appropriate.

                      BASIC RESEARCH FUNDING (6.1)

    18. Senator Lieberman. Dr. Sega, Federal funding for basic research 
(6.1) in S&T is vital for our Nation's national security and economic 
growth. It is through our investment in basic research that we ensure 
our ability to remain competitive and maintain a strong defense in an 
increasingly globalized economy. As southeast Asian nations 
aggressively pursue global leadership with targeted R&D subsidies and 
industrial policies, it is crucial that our defense capabilities remain 
at the leading edge of technology. This can only be sustained by 
continued investment in basic research. How does your 5.3 percent cut 
in 6.1 relative to fiscal year 2004 appropriated levels support our 
ability to remain ahead of other nations in defense technology?
    Dr. Sega. Our technological capabilities relies on a strong 6.1 
program that is well integrated into an equally robust RDT&E program. 
The 6.1 investments provide new knowledge and understanding that 
transition to new defense technologies within 6.2 and 6.3. Ultimately, 
other RDT&E programs incorporate those technologies into products or 
processes for military systems. While there are abundant scientific and 
technical opportunities to be exploited with additional 6.1 resources, 
there also must be a good balance in the investments among all of the 
components of RDT&E if research results are to be translated in a 
timely way into technologically superior, fielded systems. The amount 
requested for 6.1 in fiscal year 2005 reflects our carefully considered 
judgment on the best programmatic balance within available RDT&E 
resources. The fiscal year 2005 President's budget request for DOD 6.1 
is 0.2 percent higher in real terms, after adjusting for inflation, 
than the DOD request for fiscal year 2004. I urge your support for the 
full amount requested for 6.1 in fiscal year 2005.

                             GICUR PROGRAM

    19. Senator Lieberman. Dr. Sega, for the second straight year the 
administration has chosen not to provide funding for the GICUR program, 
and only requests $10 million in DARPA for the Semiconductor Technology 
Focus Centers program. While a small program, this program leverages 
funding from the industry primarily the semiconductor industry which 
provides $3.00 for every one provided by the government to support 
critical fundamental research being conducted at selected universities 
around the Nation. My understanding is that if the research being 
supported by this program is not done now, it could have impacts upon 
our ability to continue to increase computing capacity in the future, 
which will in turn have detrimental consequences for both our economy 
and national defense. The administration's limited funding of this 
program also is inconsistent with Deputy Secretary Wolfowitz's 
directive of October 10 to DOD to develop efforts to support 
semiconductor research leadership. What effect will this have on 
advancing and retaining the domestic semiconductor research, design, 
and manufacturing base that DOD will depend upon in the future?
    Dr. Sega. The GICUR program is a joint effort with the 
Semiconductor Industry Association. Since 1999, DOD has provided funds 
totaling approximately $35 million, while industry has provided 
matching funds of approximately $74 million, or industry has provided 
approximately $2.00 for every DOD dollar provided.
    The research being performed in the five national semiconductor 
technology research centers (involving about 35 major research 
universities) is critical to the U.S. leadership in this important 
industry. These university research centers perform research that 
focuses on providing solutions to overcome the projected difficult 
technological challenges that are expected to occur as deep sub-
nanometer dimensional scales are reached in the 2005-2010 time frame. 
The Focus Centers are developing solutions and paths around and beyond 
these technical challenges.
    If the research being performed by our universities is curtailed or 
eliminated, there will be a major impact on the ability to provide 
critical research results needed to solve the problems associated with 
future generations of nanoelectronics systems. Not only will the 
research be impacted, but there will also be an impact on the education 
of future scientists and engineers in critical technical areas of 
interest to DOD. This will significantly impact the future U.S. 
leadership position in electronics and computers.
    DOD, through DARPA, plans to continue to support this very 
important initiative.

    20. Senator Lieberman. Dr. Sega, what role does this unique 
partnership of government, industry, and academia play in training 
future scientists and engineers in this critical field?
    Dr. Sega. During the entire period of the GICUR program, the 
microelectronics research program has provided support for significant 
numbers of university faculty, post-doctoral researchers, graduate 
research assistants, and undergraduates. This program is one of the 
sources of support for research in silicon-based microelectronics and 
nanoelectronics. It has also been a resource for the training of 
graduate students.
    In fiscal year 2003, the DDR&E Basic Sciences Office initiated an 
undergraduate research assistantship program. DOD provided $1 million 
per year in fiscal year 2003 and fiscal year 2004 to support this 
undergraduate education program. The intent was to provide support for 
a minimum of 5 years. Industry provided approximately $600,000 each 
year to augment the DOD funds. This program is focused on attracting 
undergraduate students to these technical areas and to get them 
interested in pursuing graduate programs in microelectronics. The 
combined approach of attracting and supporting undergraduates and 
graduate students should impact the education of scientists and 
engineers in this critical S&T area.

    21. Senator Lieberman. Dr. Sega, how has the GICUR program and 
basic semiconductor research in DOD contributed to the developing of 
new defense capabilities?
    Dr. Sega. Semiconductor integrated circuits are at the core of 
nearly every defense and weapon system today, and future platforms are 
likely to have even greater dependence on advanced semiconductors. In 
this program, we are conducting research and developing technologies 
that will impact future generations of integrated circuits. Researchers 
in the Focus Center program are developing solutions to the future 
technological challenges facing the semiconductor field, to enable 
faster and lower power transistors, greater computational and signal 
processing functional power, higher performing mixed signal circuits, 
and much more. The interesting thing in this program is that we are 
partnering with the semiconductor industry and the equipment industry 
in sponsoring and managing the program. Highlighted below are a few 
examples of program successes:

        <bullet> Developed design concepts allowing robust operation of 
        deep submicron transistor circuits in noisy and radiation 
        sensitive environments of interest to the Department.
        <bullet> Invented and patented an interconnect method that 
        allows revolutionary, wafer-level packaging and test of multi-
        thousand Input/Output (I/O) integrated circuits for the next 
        generation Digital Signal Processing (DSP), microprocessor, and 
        Application Specific Integrated Circuit (ASIC) chips.
        <bullet> Developed platform-based design concepts that enable 
        rapid design of reprogrammable ``system on a chip'' products 
        which are being adopted as standard operating practice within 
        the design community.
        <bullet> Identified critical metrics for the performance of 10 
        nm transistors for future generations of ASICs which includes 
        non-classical silicon devices, carbon nanotubes, and molecular 
        and quantum dot structures.

    At the same time, we have an excellent path for transition and 
exploitation of the good ideas and concepts that are developed in the 
course of the program. Future defense capabilities will be impacted as 
Focus Center technologies are developed and transitioned to production, 
where they will be used to make fundamentally higher performing 
integrated circuits that will give our systems their tactical and 
strategic advantages over those of our adversaries.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                    CHEMICAL AND BIOLOGICAL DEFENSE

    22. Senator Reed. General Cartwright and Dr. Sega, given that 
terrorists are trying to develop or acquire chemical and biological 
weapons, chemical and biological defense have become more important. I 
note that the fiscal year 2005 R&D funding request for chemical and 
biological defense, which is intended to develop badly needed improved 
technology, is down $146 million from fiscal year 2004, and down $78 
million from 2003. How can we provide the needed level of S&T 
investment and technology development if we are reducing our funding 
levels?
    General Cartwright. RDT&E funding for the Chemical and Biological 
Defense Program is under the oversight of OSD as directed by Public Law 
103-160. Army S&T defers to OSD on this question.
    Dr. Sega. The primary difference between funding amounts for fiscal 
year 2003 through fiscal year 2005 as reflected in the fiscal year 2005 
budget request is that fiscal year 2003 and fiscal year 2004 have 
received congressional adjustments. The table below shows that the 
RDT&E budgeted core program submit has been relatively stable since 
fiscal year 2003. The fiscal year 2005 budget reflects an actual 
increase of $30 million compared to the fiscal year 2003 core budget 
submit and a $39 million decrease compared to the fiscal year 2004 core 
submit program. These differences reflect RDT&E changes as programs 
transfer from RDT&E to production.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    23. Senator Reed. General Cartwright and Dr. Sega, since chemical 
and biological defense technologies are developed in a joint program 
office, how do you work to transition these technologies into the hands 
of combatants in the various Services?
    General Cartwright. The Joint Program Executive Office for Chemical 
and Biological Defense (JPEO-CBD) is responsible for the acquisition of 
technologies to meet the system specifications, delivery schedules, and 
quantities needed by the warfighter as portrayed through the Joint 
Requirements Office (JRO-CBD). Army S&T defers to the JPEO-CBD on this 
question.
    Dr. Sega. The JPEO-CBD is the primary organization responsible for 
the acquisition of CB technologies to meet the needs (e.g. system 
specifications, delivery schedules, and quantities) of the warfighter 
as specified in capabilities documents developed by the JRO for 
Chemical, Biological, Radiological, and Nuclear Defense (JRO-CBRN).
    The JPEO-CBD contains seven joint program offices; Collective 
Protection, Decontamination, Individual Protection, Guardian, 
Contamination Avoidance, Medical Systems, and Information Systems, 
collectively managing 67 product lines. Each product manager is 
responsible for coordinating work with the Services to: (1) procure 
products within the defined JRO requirements, (2) test products to 
specification in both developmental and operational testing 
environments as defined by the Services, (3) test products for 
interoperability with existing battlefield systems, (4) develop the 
necessary training and doctrine to support fielding, use, and 
maintenance of the equipment, (5) provide guidance to the Services on 
operation and support costs and (6) field equipment to the warfighter 
within the required schedule.

    24. Senator Reed. General Cartwright and Dr. Sega, what types of 
chemical and biological protective gear and sensors have you sent over 
to Iraq and Afghanistan and which of them are new? What have you 
learned from this experience?
    General Cartwright. The JPEO-CBD has responsibility for this area. 
Army S&T defers to the JPEO-CBD on this question.
    Dr. Sega. The attached list provides the chemical and biological 
protective gear and sensors that were sent to Iraq in support of OIF. 
OIF data is the most readily available information and provides the 
most current lessons learned for the services. The JPEO-CBD sponsored a 
detailed OIF after-action survey that was conducted by the U.S. Army 
Natick Soldier Center. This systematic Joint Service survey sampled 
1,569 service members who had personal experience with 29 different CBD 
materiel systems during OIF. Detailed results are documented in a March 
17, 2004 report. The report identifies the number of survey 
respondents, common themes, good and bad points, and user suggestions 
for each system. It is organized around the six joint project managers 
(JPMs) in the JPEO-CBD who have life-cycle responsibility in the areas 
of individual and collective protection, contamination avoidance, 
decontamination, medical countermeasures, and CBD specific information 
systems. Based on technical analysis of the survey, action is being 
taken, where appropriate, to improve tactics, techniques, operational 
procedures, training and/or equipment issues.
Chemical and Biological Protective Equipment and Sensors Supplied for 
        Operation Iraqi Freedom
    Chemical and Biological Protective Equipment
        <bullet> M40A1 Mask (Army, Marines, limited use Air Force and 
        Navy)--Protective mask for individual warfighter. Protects 
        against all known chemical and biological agents and 
        radiological particulates.
        <bullet> MCU-2A/P Protective Mask (without blue tint eye lens) 
        (Air Force/Navy)--Head eye respiratory protection for ground 
        forces.
        <bullet> Protective Mask Carrier (Army, Marines, Air Force, and 
        Navy).
        <bullet> M7 Voice Amplifier for M40 Mask (Army, Navy, Marines).
        <bullet> M42 Mask (Army)--Protective mask for combat vehicle 
        crewman. Protects against all known chemical and biological 
        agents and radiological particulates.
        <bullet> M45 Mask (Army/Special Operations Command (SOCOM))--
        Protective mask for aircrew and special operations personnel.
        <bullet> Aircrew Eye and Respiratory Protection (AERP) (Air 
        Force)--Protective mask for aviators
        <bullet> M48 Mask (Army) Protective mask for Apache aircrew *
        <bullet> A/P22P-14(V) (Navy/Marine Corps)--Chemical-Biological 
        Aviator Mask. Protects against all chemical and biological 
        agents and radiological particulates.
        <bullet> M41 Protective Assessment Test System (PATS) (Army, 
        Air Force, Navy and Marine Corps)--Mask Fit Validation Testing 
        Equipment.
        <bullet> Joint Service Lightweight Integrated Suit Technology 
        (JSLIST) (Army, Marines)--Two piece garment, with integrated 
        hood, that provides protection from chemical and biological 
        contaminants.
        <bullet> Saratoga Suit (Marines, Navy)--A legacy two-piece 
        chemical protective suit with integrated hood.
        <bullet> Chemical Protective Undergarment--Part of the Army 
        Aviation Ensemble.
        <bullet> Aircrew Battle Dress Uniform (ABDU) (Army)--Two piece 
        garment that provides aircrew with protection from chemical and 
        biological contaminants.
        <bullet> CWU-66P (Air Force) Single piece garment that provides 
        aircrew with protection from chemical and biological 
        contaminants.
        <bullet> Black Vinyl Overboot (BVO) and Green Vinyl Overboot 
        (GVO) (Army/Marines/Navy/ Air Force).
        <bullet> Chemical Protective Footwear Cover (CPFC) (Marines, 
        Navy).
        <bullet> 25 mil butyl gloves and 7 mil butyl gloves (Army, 
        Marines, Navy and Air Force).
        <bullet> Chemically Protected Deployable Medical System (CP 
        DEPMEDS)--Provides Army DEPMEDS Combat Support Hospitals with a 
        capability to sustain operations in a nuclear, biological, or 
        chemical (NBC) environment by integrating environmentally 
        controlled collective protection elements into the hospital. *
        <bullet> Chemical Biological Protective Shelter System 
        (CBPSS)--Provides a mobile, contamination free environment for 
        forward medical treatment units. *
        <bullet> Collectively Protected Expeditionary Medical System 
        (CP EMEDS)--Provides the Air Force air-transportable 
        expeditionary medical facility with a capability to sustain 
        operations in an NBC environment by integrating environmentally 
        controlled collective protection elements into the hospital. *
        <bullet> Collectively Protected Small Shelter System (CP SSS)--
        Provides CB agent protection inside the AF Small Shelter System 
        shelter to create a ``shirt-sleeve'' environment. *
        <bullet> Collectively Protected Hospital Surgical Expansion 
        Package (CP HSEP)--Provides a surgical wing expansion to the 
        Air Force EMEDS air-transportable expeditionary medical 
        facility with the capability to sustain operations in an NBC 
        environment by integrating environmentally controlled 
        collective protection elements into the wing. *
        <bullet> Collectively Protected Hospital Medical Expansion 
        Package (CP HMEP)--Provides additional beds with integrated 
        environmental collective protection elements to the Air Force 
        EMEDS air-transportable expeditionary medical facility, 
        allowing it to sustain operations and treat additional patients 
        in a NBC environment. *
        <bullet> Interim Collective Protection System (ICPS) for the 
        Modular General Purpose Tent System (MGPTS)--Provides a 
        positive pressure, filtered air, toxic free shelter for 
        protection against chemical or biological weapons attacks and 
        radioactive particles. *
        <bullet> M20/M20A1 Simplified Collective Protection Equipment--
        Provides a clean-air shelter for use against chemical or 
        biological weapons attacks and radioactive particles.
        <bullet> M291 Skin Decontamination Kit
        <bullet> M17 Decontamination System
        <bullet> M295 Equipment Decontamination Kit
    Chemical and Biological Sensors
        <bullet> M8 Chemical Agent Detector Paper
        <bullet> M9 Chemical Agent Detector Paper
        <bullet> Automatic Chemical Agent Detector and Alarm (ACADA)
        <bullet> M256A1 Chemical Agent Detector Kit
        <bullet> M21 Remote Sensing Chemical Agent Alarm (RSCAAL)
        <bullet> Chemical Agent Monitor
        <bullet> Improved Chemical Agent Monitor
        <bullet> M8A1 Chemical Agent Alarm System
        <bullet> M272 Water Testing Kit
        <bullet> M93A1 Fox Nuclear, Biological, and Chemical 
        Reconnaissance System
        <bullet> Biological Integrated Detection System
        <bullet> Joint Portal Shield Biological Detector
        <bullet> Dry Filter Unit (DFU) Biological Detector *
---------------------------------------------------------------------------
    * Denotes systems--those with initial operational capabilities in 
fiscal year 2000 or later.


    25. Senator Reed. General Cartwright and Dr. Sega, both the 
National Institutes of Health (NIH) and the Department of Homeland 
Security (DHS) have significant investments in S&T to meet chemical and 
biological threats, ranging from sensor systems to vaccines. How do 
your organizations connect with these non-DOD entities to coordinate 
activities and promote rapid technology transition?
    General Cartwright. The President defines executive branch 
responsibilities and authorities for homeland security in Homeland 
Security Presidential Directives (HSPD). The President's Homeland 
Security Council (HSC) was established in HSPD-1, The Organization and 
Operation of the HSC. The HSC promotes coordination and cooperation 
across the executive branch. This includes rapid technology transition 
of weapons of mass destruction countermeasures. The HSC, through HSPD-
4, The National Strategy to Combat Weapons of Mass Destruction (WMD), 
and with the White House Office of Science and Technology Policy, 
established and operates interagency R&D working groups on 
countermeasures to weapons of mass destruction. Senior representatives 
from the DOD--the Assistant Secretary of Defense for Health Affairs--
Health and Human Services and Homeland Security, for example, meet 
regularly in a working group focused on development and availability of 
medical countermeasures to biological threats.
    Scientist-to-scientist interchanges are promoted across the 
executive departments' laboratory systems, such as in sensor systems 
technologies between the Army's Edgewood Chemical and Biological 
Command and the National Laboratory scientists working on Bio Watch for 
urban monitoring. There are substantial efforts underway to leverage 
and share critical infrastructure and scientific resources. For 
example, the Departments of Defense, Health and Human Services, 
Agriculture, and Homeland Security participate on a Board of Directors 
for the National Interagency Biodefense Campus that is located at Fort 
Detrick, Maryland. Fort Detrick was the DOD's biological weapons center 
until our unilateral renunciation of biological weapons in 1969. Since 
then, its unique facilities and system infrastructure for safely 
conducting high security, biocontainment R&D has been used by the DOD 
for discovery, development, and testing of medical countermeasures to 
biological agent threats. Excess laboratory capacity was turned over to 
the National Cancer Institute for discovery, development, and testing 
of medical products for the war on cancer. The Department of 
Agriculture maintained its Foreign Weed Science biocontainment 
laboratories at Fort Detrick. The DHS has joined with these other 
departments to exploit this infrastructure for biosecurity and 
biological defense programs. This is a preferred location, pending 
completion of environmental, cost, feasibility and related analyses, 
for the establishment of the Homeland Security National Biosecurity 
Analysis and Countermeasures Center that will house the BioThreat 
Characterization Center and the National Bioforensic Analysis Center.
    In addition, the Army currently supports the DHS's portfolio 
managers in the development of their technology roadmaps, especially in 
the areas of sensors, vaccines, and chemical/biological protection. 
Army representatives are currently co-located with DHS representatives 
to provide timely information and coordination in the development of 
policies and priority definition.
    Dr. Sega. The DOD and non-DOD entities, including the NIH and DHS, 
continue to coordinate and promote science and technology activities 
and rapid technology transition in the formal intergovernmental setting 
of the President's National Science and Technology Council (NSTC). 
NSTC's Committee on Homeland Security and National Security, (co-
chaired by DOD and DHS representatives, Michael Wynne and Charles 
McQueary, respectively), is our primary venue for interaction. The 
committee structure is further complemented with various subcommittees: 
National Security Research and Development, Radiological/Nuclear 
Countermeasures, International, Chemical/Biological/Radiological 
Countermeasures for Health, Standards, and Interagency working groups 
for WMD Medical Countermeasures and Biometrics. Further, the DOD, 
coupled with these and other non-DOD entities, continues to promote 
technology transition in this and many other focus areas through 
project-level sharing in activities such as those of the Technical 
Support Working Group (TSWG). There is also an initiative to identify 
medical countermeasure areas of common interdepartmental (DHS, 
Department of Health and Human Services (DHHS), and DOD) interest where 
we can collaborate, by establishing a Memorandum of Understanding that 
facilitates cooperation and collaboration.

                         TECHNOLOGY TRANSITION

    26. Senator Reed. General Cartwright and Dr. Sega, what else could 
you do to improve coordination and technology transition? How do you 
work to ensure that, where appropriate, the technologies your 
organizations are developing are available for use by first responders 
and other non-DOD personnel?
    General Cartwright. RDECOM currently has initiatives that represent 
an effort to identify, select, and promote promising new, advanced, and 
leading edge technologies, as candidates for early technology transfer 
and insertion into military programs. Currently a number of our 
laboratories have specific support agreements in specialty areas such 
as chemical and biological protection with organizations such as the 
Department of Justice and the NIH. The Army does not have any 
agreements that leverage some of our most critical technologies such as 
communications, sensors, and command and control from a system 
perspective. These critical technologies and systems are currently in 
use by soldiers in urban and civil applications in Afghanistan and 
Iraq. This is allowing the Army to create new standards that can be 
utilized by first responders and other non-DOD personnel.
    To better focus and direct the very broad technology base 
represented by the RDECOM laboratories, the RDECOM commander has 
recently stood up a DHS working group chaired by his Deputy Commanding 
General for Operations. This working group is the single point of 
access for all activities wishing to obtain RDECOM technologies for the 
purposes of DHS/DOD technology transfer and will maintain a database of 
products and leverageable efforts which can be made available to 
appropriate first responder representatives.
    The Army has specific support programs where major customers such 
as the New York City Metropolitan Transportation Authority (MTA) and 
the Port Authority of New York and New Jersey (PA NY/NJ) have requested 
assistance for them with large system integration efforts, but these 
are handled in an ad hoc fashion and there is no well defined method 
for states to gain easy access to Army expertise.
    A new mechanism we are implementing to get technologies developed 
by the Army labs to the developers faster is Technology Transition 
Agreements (TTA). The TTA would be appropriate between an Army S&T 
organization and an outside agency's acquisition office/program. A TTA 
is intended to formalize and document the needs and timelines for the 
critical technologies being developed by the S&T community. The TTA 
documents exactly what is to be delivered and when it will be 
delivered. The TTA would give the acquisition office/program a format 
to succinctly define and formalize the transfer of technologies once 
the need was established. Transitions to first responders and other 
non-DOD organization could be handled in a similar manner.
    Dr. Sega. The DOD has an active technology transfer program to 
ensure technologies developed are available, where appropriate, for use 
in the private sector. In general, we use a variety of tools including 
Cooperative Research and Development Agreements (over 2,000 in fiscal 
year 2003) and Patent License Agreements (over 350 in fiscal year 2003) 
to work with the private sector in jointly developing technologies for 
use or in licensing the private sector entities to use DOD-developed 
technologies. Our annual report to Congress, which was signed on June 
8, 2004, and forwarded to Congress, gives specific examples of 
technologies and products which have been made available through our 
technology transfer program. We have ongoing efforts at many of our 
local activities to transfer technologies for first responder use. One 
example is the Homeland Security Technology Office at Kirtland Air 
Force Base in New Mexico. The mission of this office is to share Air 
Force technologies and knowledge with the local first responder 
communities. We have also reviewed how best to accomplish this on a 
Department-wide basis and have established a partnership intermediary 
at the University of Pittsburgh. This partnership arrangement has 
allowed us to establish a DOD Technology Transfer Center of Excellence 
for First Responders at the University. This center will be working 
with established activities such as the Office of Law Enforcement 
Technology Commercialization, the Emergency Response Technology Program 
at the National Technology Transfer Center, the DHS, and regional first 
responders groups to ensure the user group needs are being satisfied 
with the technologies we are transferring.

    27. Senator Reed. Dr. Sega, how much fiscal year 2003 and fiscal 
year 2004 money has been proposed or approved for reprogramming thus 
far to support the transition of technologies to Iraq and Afghanistan?
    Dr. Sega. Last October, the DOD approved a decision to develop and 
field Rapid Reaction/New Solution (RR/NS) technologies to support force 
protection, primarily to counter IEDs in the area of operation. The 
cost of this effort is $70 million. We received $35.1 million in fiscal 
year 2003 funds ($9.9 million Below Threshold Reprogramming (BTR)) and 
$25.2 from a Prior Approval Reprogramming (fiscal year 2004-2006 PA) 
which has been approved by Congress. Of the fiscal year 2004 funds, $9 
million will be absorbed within the Quick Reaction Special Projects 
program. An additional $1.8 million was provided from a BTR. Part of 
the remaining fiscal year 2004 $24.119 million (fiscal year 2004-2014 
PA) reprogramming received congressional approval on April 24. Only 
$15.819 was approved by Congress due to the $8.1 million decrement for 
the ADS by Senator Stevens. Of the $70 million required, $61.9 million 
was provided for this work.

    28. Senator Reed. Dr. Sega, what has been the source of that 
funding, and what are the consequences on the programs that are the 
sources of that funding?
    Dr. Sega. The funding requirement for the RR/NS is $70 million. The 
funds came from fiscal year 2003 and fiscal year 2004 funds as follows:

        <bullet> Fiscal Year 2003 funds

                -- $25.2 million came from a Prior Approval 
                Reprogramming Fiscal Year 2004-2006 PA approved by 
                Congress on March 1. Of that amount, $19.5 million came 
                from reducing the number of sites (from 95 to 90) where 
                the Global Information Grid (GIG) Bandwidth Expansion 
                effort would be implemented. The reduction of sites was 
                less a priority than the requirements to increase 
                protection for U.S. and coalition forces.
                -- $9.9 million was realigned via a BTR from numerous 
                programs to minimize the impact.

        <bullet> Fiscal Year 2004 funds

                -- $9 million was absorbed within the Quick Reaction 
                Special Projects program.
                -- $1.8 million was provided from a Below Threshold 
                Reprogramming from numerous sources where the impact, 
                similar to fiscal year 2004-2006 PA, was minimal.
                -- $24.119 million was to come from fiscal year 2004-
                2014 PA reprogramming which received congressional 
                approval on April 24. However, only $15.819 million was 
                approved due to the $8.1 million decrement for the ADS 
                by Senator Stevens. Funding in this reprogramming 
                action became available due to inflation rates being 
                lower than previously budgeted.

                          OPERATIONAL TESTING

    29. Senator Reed. Dr. Uhler, General Waldhauser, and General 
Cartwright, the Pentagon's Director of Operational Test and Evaluation 
(DOT&E) is responsible for approval and oversight of operational 
testing prior to deploying new systems, to ensure these systems work in 
battle. In his last annual report to Congress, he warned that if we 
circumvent a rigorous acquisition process, ``. . . our warfighters may 
get weapons without knowing their operational capabilities and 
limitations.'' As you develop technologies to rapidly field to the 
warfighter, how do you ensure proper operational testing is done?
    Dr. Uhler. The Operational Test and Evaluation Division within 
SOCOM has the staff responsibility to independently report to the 
Commander, SOCOM, findings and assessments regarding operational 
testing of SOCOM equipment and systems. Further, these independent 
assessments are provided to the appropriate milestone decision 
authority for consideration in making acquisition decisions through the 
issuance of either System Production Certifications or Fielding and 
Deployment Releases.
    Operational Test and Evaluation within SOCOM is governed by SOCOM 
Directive 71-5, Operational Test and Evaluation. SOCOM Directive 71-5 
addresses Combat Mission Need Statement/Urgent Deployment Action (CMNS/
UDA) test requirements.
    Each acquisition program has a standing Test Integrated Working 
Group (TIWG), made up of members from the program office, supporting 
operational test activity, the SOCOM operational test office, the 
requirements office, and depending on the system, user representatives. 
Early user tests and operational assessments for SOCOM systems are 
conducted by partner operational test activities from the Services and 
national test assets.
    The use of Test and Evaluation Master Plans (TEMPs) or System 
Acquisition Master Plans (SAMPs) guide the conduct of a system's test 
program. It is the SOCOM policy that equipment, including that being 
fielded under CMNS/UDA authority, is not released to Special Operations 
Forces (SOF) units without an operational assessment, verified by the 
SOCOM Operational Test and Evaluation Division. This also applies to 
systems and hardware developed through the ACTD Technology Insertion 
and Foreign Comparative Testing (FCT) programs.
    These measures ensure that proper operational testing is done and 
each system's capabilities and limitations are identified. 
    General Waldhauser. To clarify part of the question, the DOT&E is 
responsible for approval and oversight of Major Defense Acquisition 
Programs, and those programs he chooses to specially designate for 
oversight. We are unaware of any Marine Corps experimental programs 
under DOT&E oversight.
    As demonstrated recently by the Small Unit Remote Scouting System, 
aka ``Dragon Eye'' UAV and the PTS-180 ``Viper'' laser range funding 
system, experimental or non-traditional programs can be transitioned 
quickly from experimental demonstration to systems of record, while 
preserving the need to independently and objectively verify suitability 
and effectiveness for the acquisition decisionmaker. The Marine Corps 
Operational Test and Evaluation Activity (MCOTEA) provides the 
Milestone Decision Authority (MDA) with an objective evaluation of 
those requirements. Because the experimental programs cannot be 
evaluated against traditional requirements documents, MCOTEA has 
attempted to enumerate the performance and suitability characteristics 
of the system to assist the decisionmaker in assessing the risk of 
fielding the system to the operational forces. The ``Dragon Eye'' 
system has been a template for success in testing and evaluating 
experimental systems with an immediate tactical need in the operational 
forces. Another area MCOTEA has been able to contribute test oversight 
is the observation and documentation of special armor plating for 
deployed vehicles. In addition to reducing the procurement risk to the 
MDA, MOCTEA can also provide an invaluable database of information to 
the warfighter in terms of employment considerations based on system 
performance. This also helps in the development of tactic, techniques 
and procedures. If provided the necessary resources, MCOTEA is capable 
of providing independent documentation of performance and reliability 
for a broad range of experimental programs.
    General Cartwright. The streamlined procedures discussed are not 
intended to field systems but are, instead, addressing critical 
operational needs with immediately available solutions. These efforts 
are more aptly characterized as experimentation with soldiers actively 
participating and providing user feedback. Prior to sending any 
materiel into theater, the operational commander must agree that the 
materiel answers a critical need and the Army Test and Evaluation 
Command (ATEC) must determine the materiel to be safe. Once deployed, 
ATEC may continue to evaluate the materiel by conducting an operational 
assessment using a task force concept that places evaluators in-theater 
with the operational units that received the materiel. This feedback is 
extremely valuable to the developers, especially if it is gathered in 
an operationally relevant environment, and can cut months, or even 
years, off from the developmental schedule. Additionally, it serves to 
focus and refine the requirements documentation processes and reduces 
the likelihood of discovering significant performance issues during 
formal operational testing when it eventually occurs. Successful 
efforts become candidates for handoff to the Program Executive Officer 
community for insertion in the Program Objective Memorandum (POM) and 
eventual fielding.

    30. Senator Reed. Dr. Uhler, General Waldhauser, and General 
Cartwright, the concepts of ``spiral development'' and ``capabilities-
based acquisition'' are being implemented throughout the DOD. The idea 
is to keep requirements flexible to get new technologies to the 
warfighter quicker. With such flexible requirements, how do you know 
what you are deploying is ``good enough''?
    Dr. Uhler. SOCOM has inherently embraced the concepts of spiral 
development since our beginnings in 1987. Our development community 
works hand-in-hand with our warfighters to understand their needs and 
translate them into achievable requirements. We begin by defining the 
most technically feasible implementation of the solution that can be 
achieved in the shortest timeframe with respect to the approved 
requirement and then augment it with an evolutionary (spiral) 
development plan to achieve the 100 percent solution. After initial 
fielding, we continue to work with our user to incorporate their 
feedback and continually enhance the product to achieve the maximum 
capability for our user. These evolutionary cycles of development allow 
risks to be taken for products used specifically by our SOF. This 
benefits our warfighter and allows SOCOM to quickly react to real world 
material deficiencies.
    General Waldhauser. Currently, the evaluation of the ``good 
enough'' measure of performance is established against the approved 
requirements or capabilities. However, in some cases, the experimental 
programs provide a capability where none previously existed. In those 
cases, the capability is documented and quantified so that decision 
maker can adequately evaluate the capability against the procurement 
and support costs for the system. In other cases, the experimental 
capability replaces, improves or enhances an existing warfighting 
capability. In that situation, the MCOTEA can quantify the performance 
and suitability increase (or decrease) that is offered by the new 
system, if the choice is made to conduct a baseline comparison test. 
The decisionmaker can then use this information to reduce the risk of 
the decision. Each of the Service Operational Test Agencies is in the 
process of transforming their test process to respond to capabilities 
based testing versus requirements based testing. Adding experimental 
programs to this new methodology is a natural fit in the evolution of 
operational testing.
    General Cartwright. Rather than limiting us to search for 
``perfect'' solutions, flexible requirements are what enable us to seek 
the ``good enough'' capabilities, especially for our current force. 
Training and Doctrine Command (TRADOC), as the warfighters' 
representative, provides key insights and sets the threshold 
requirements utilizing professional military experience and judgment 
available through the proponent schools, concept and capability 
developers, and professional experimentation forces. TRADOC, Army Test 
and Evaluation Command (ATEC), and RDECOM have established a teamed 
approach that provides a framework for Army leadership to determine 
``good enough'' by analyzing experiment-ready technology to meet 
warfighter needs, linked to operational capabilities. The linking of 
experimentation and technology demonstrations insures that the 
demonstrations are operationally relevant and provide a venue to 
develop operational concepts for new technologies. RDECOM has 
established technology Integrated Product Teams (IPTs) that look across 
the command, services, industry, academia, and international 
organizations to provide enabling technology enablers to the 
warfighter. These IPTs have strong warfighter participation from TRADOC 
headquarters and proponent personnel. Again, this teaming assures that 
only ``good enough'' operationally relevant experiment ready solutions 
are put forward for incorporation into the Doctrine Organization 
Training Material Leavership Personnel Facilities (DOTMLPF) solutions 
for consideration by decision authority for release to the warfighter.

    31. Senator Reed. Dr. Uhler, General Waldhauser, and General 
Cartwright, what criteria are used during operational testing to ensure 
the system works well enough, and who approves the criteria?
    Dr. Uhler. Test and evaluation within SOCOM is governed by SOCOM 
Directive 71-5, Operational Test and Evaluation. SOCOM Directive 71-5 
addresses CMNS/UDA test requirements. Criteria used during SOCOM 
operational testing and assessments are derived from the requirements 
documents. Measures of effectiveness and suitability--the test 
criteria--are directly related to validated capabilities requirements. 
For CMNS/UDAs, the criterion for minimum acceptable system performance 
is the successful attainment of the key performance parameters/critical 
operational issues of the requirement.
    Independent assessment of system operational effectiveness, 
operational suitability and safety of use is conducted by the SOCOM 
Operational Test and Evaluation Division. Concurrence to field 
equipment and systems to SOF is addressed by issuing either a System 
Production Certification (SPC) or a Fielding and Deployment Release 
(F&DR). These documents are signed by the Chief, Operational Test and 
Evaluation, the Director of Logistics, and the system's responsible 
SOCOM PEO.
    General Waldhauser. For traditional acquisition systems, the 
criteria under testing are derived directly from the approved 
Operational Requirements Document or Capabilities Documents, the 
Operations and Organizational Concepts, and from the Operational Mode 
Summary/Mission Profile. Criteria are directly cited from those 
approved requirements documents, and in some cases derived from those 
documents in a group setting by all the stakeholders.
    The new capabilities based system defines the requirement in the 
Initial Capabilities Document, the Capabilities Development Document 
and the Capabilities Procurement Document. MCOTEA has not yet tested a 
system based on these requirement documents.
    Approval of the criteria for testing is achieved in several 
documents. The entire test strategy is published and approved in the 
Test and Evaluation Master Plan. This document is signed by all the 
stakeholders, and by the DOT&E for oversight programs. Additionally, 
MCOTEA, using a proposed test scope letter, informs the MDA of 
anticipated operational test content and requests concurrence on this 
scope as adequate to support pending acquisition decisions. The test 
plan is completed in a teamed environment, and is approved by the 
Director of MCOTEA for programs not on oversight, and by the DOT&E for 
oversight programs.
    In the absence of requirements documents, the MCOTEA establishes a 
test planning group, and works with representatives from the combat 
developer, the material developer, the functional advocate and 
representatives directly from the operating forces to establish 
meaningful criteria for evaluation in a capabilities based test. This 
process is not nearly as exhaustive or defendable as the deliberate 
requirements process, but facilitates a much more rapid test and 
evaluation of a capability that has been determined to be of reasonable 
risk and benefit by the Warfighting Lab.
    General Cartwright. Testing criteria are derived from the 
Operational Needs Statement (ONS) submitted by the deployed commanders. 
Specific criteria are developed by an IPT assembled from the 
operational commands; the PEO/PM that has, or eventually will have, 
fielding responsibility; RDECOM; and TRADOC.

    32. Senator Reed. General Cartwright, what is the status of the 
proposal to establish a limited liability company at the Aberdeen Test 
Center?
    General Cartwright. In response to legislation allowing for pilot 
programs to be established at select DOD Test and Evaluation Centers, 
Aberdeen Test Center proposed a Limited Liability Company (LLC). The 
LLC would consist of Aberdeen, academia, and private industry.
    Public Law 107-314 Sec. 241(e)(3)(A), dated December 2, 2002, 
provided that ``Not more than one public-private partnership may be 
established as a limited liability company.'' Further legislation was 
drafted to define the parameters of the LLC. There were several 
concerns with the proposal forwarded to the Department of the Army and 
the proposed legislation was subsequently rewritten. The rewritten 
proposal, which went from DOD to the Office of Management and Budget 
(OMB), was captioned 10 USC Sec. 2374c, Centers for Research, 
Development, Test and Evaluation Excellence: public-private 
partnerships. Based on recent discussions with the Army Business 
Initiative Council (BIC), it appears that OMB has not concurred with 
the proposal and sent the proposed legislation back to DOD.

                                TRAINING

    33. Senator Reed. Dr. Killion, Admiral Cohen, and Mr. Engle, how 
are you working to ensure that our next generations of military leaders 
are well-trained and well-versed in S&T?
    Dr. Killion. The Army believes it is vital that military leaders 
understand not only what S&T can do for the warfighter today, but how 
S&T investments help sustain U.S. land combat dominance today and for 
the future. The Army has taken several steps to ensure Army leaders 
have an understanding of S&T. First, the Defense Systems Management 
College has incorporated information on Army S&T goals, plans, and 
investments in their courses available to senior Army Acquisition Corps 
leaders. Second, the Army created a uniformed scientists and engineers 
program through which selected Army leaders with advance degrees are 
provided hands-on professional development training at the Army's 
laboratories and Research, Development and Engineering Centers (RDECs). 
Third, the Army's RDECOM sends representatives to the Combined Arms 
Center at Fort Leavenworth to participate at seminars to inform Army 
leaders about the role S&T plays in enhancing Army capabilities. 
Finally, the Army's TRADOC, which is responsible for developing and 
implementing professional military education and training across the 
Army, plays a key role in the Army S&T community through their futures 
center and participation in S&T planning processes.
    Admiral Cohen. My highest priority, as the Chief of Naval Research, 
is to be the Navy's and Marine Corps' advocate for the S&T. It has been 
a tremendous challenge. At every opportunity, I argue for a stable, 
sustained investment to support long-term, high-risk transformational 
breakthroughs.
    In addition, I have several initiatives that also serve to educate 
the Navy and Marine Corps about the benefits of S&T:

        <bullet> The Naval Fleet/Force Technology Office puts 
        scientists and engineers in the fleet and force, with the 
        customer, to use their expertise to solve current and future 
        operational challenges with S&T. These advisors not only work 
        with the current naval leaders but also interact heavily with 
        more junior personnel, tomorrow's leaders, to educate them 
        about the possibilities that S&T can provide.
        <bullet> Naval research leaders and program officers work daily 
        with Fleet/Force personnel to develop longer term capability 
        based options requiring a concerted S&T investment to achieve. 
        This involvement not only helps develop a better product but 
        also provides insight for the fleet/force to the processes 
        needed to mature cutting edge technology.
        <bullet> Tech Solutions aligns Department of the Navy S&T 
        resources to enable rapid technology-based solutions to 
        problems that have a detrimental effect on the ability of the 
        fleet/force to train, operate, and fight. Due to the rapid 
        delivery, fleet/force personnel are able to see tangible 
        results of S&T.

    Finally, my experience is that our young military leaders know the 
benefits of S&T and are our best advocates. The current war on terror 
has resulted in several technologies being accelerated, at the request 
of the warfighter, in order to field a new capability or address a 
shortfall.
    Mr. Engle. Under the Air Force's new Total Force Development 
construct, we are making progress in developing senior leaders with 
technical expertise. Our Scientist and Engineer Development Teams, in 
conjunction with the Air Force Senior Leader Management Office, are 
responsible for implementing Total Force Development. They are 
identifying general officer and colonel leadership positions that 
require science, engineering, and technology backgrounds plus the 
supporting base of personnel needed to grow these future leaders. With 
this requirement identified, we have put in place career development 
guides which will help us develop future technically competent leaders. 
A critical part of these development plans is advanced education. To 
meet this need, under our Vector Blue Initiative, we are increasing 
opportunities available to our officers to pursue advanced technical 
degrees that will make them competitive for future technical leadership 
positions.

                         ENVIRONMENTAL CONCERNS

    34. Senator Reed. Admiral Cohen, there is continuing concern about 
the use of sonar by the Navy and its effects on marine mammals. Is the 
Navy making investments to develop alternative undersea imaging and 
sensing technologies so that military requirements can be met in a more 
environmentally-friendly way? What areas of research require investment 
so that we can develop these capabilities?
    Admiral Cohen. The Office of Naval Research (ONR) is making 
investments to investigate the development of a full complement of 
technologies to effectively implement anti-submarine warfare (ASW) in 
all places throughout the year and under all operating conditions; 
however, active acoustics is and will remain a necessary part of that 
complement. Effective ASW requires a mix of imaging and sensing 
technologies, including active acoustics. This is primarily because the 
marine environment, which changes with location and time of year, very 
strongly affects any given technology. In addition, the way submarines 
operate affects the use of any given technology. Fortunately, the mix 
of possible technologies complements each other to some degree. For 
example, acoustic technologies work well in many places during the 
winter while non-acoustic technologies work well in many of the same 
places during the summer. Active acoustic technology often works well 
against submarines operating deeply submerged while non-acoustic 
technology often works well against submarines operating near the 
surface.
    ONR is investing in the development of more effective passive sonar 
as well as the development of non-acoustic capabilities, including 
magnetic and optical sensors, with the goal of reducing reliance on 
active acoustics as a means of anti-submarine force protection. ONR is 
also developing more effective active sonar technology that the Navy 
hopes will reduce adverse effects on marine life through reduced source 
levels, alterations in signal characteristics and focusing of emitted 
sonar beams. ONR research into the interactions of marine life and 
sonar sounds will help guide our search for reduced environmental 
impact from active sonar, while preserving and enhancing the 
effectiveness of this vital fleet protection asset. Taken together, 
these programs should enable the U.S. Navy to keep up with the 
challenges posed by advancing foreign submarine technology while 
simultaneously reducing the potential risks to marine life from active 
sonar.

                               LANDMINES

    35. Senator Reed. Dr. Killion, the administration recently 
announced a new policy of anti-personnel and anti-vehicle landmines 
which details how we plan on using those weapons in future conflicts. 
In the past, the Army has invested in technologies that would produce 
mine systems that would meet Army requirements as well as being 
consistent with the rules of the Ottawa Treaty governing landmine use. 
Congress has also urged the Army to develop these kinds of systems as 
part of the FCS. What is the status of the development of these 
intelligent, Ottawa-compliant landmine systems?
    Dr. Killion. Funding in Program Element 0603606A Project 683, Anti-
Personnel Landmine Alternatives, has been used to evaluate and develop 
distributed surveillance unattended sensors (autonomous, seismic, 
acoustic, and day/night imaging sensor systems) and communication, 
command, and control systems (ad-hoc, wireless, networked inter and 
intra-field sensor communications, and information management tools) to 
be used with man-in-the-loop over watch fires. These evaluations have 
included soldier-in-the-loop live-virtual modeling and simulation 
experiments to evaluate new concepts and doctrine. Output of the 
simulation experiments have been used to determine specifications and 
requirements for the distributed networked sensor systems.
    The new U.S. landmine policy, announced on February 27, 2004, 
commits DOD to end the use of persistent mines (both anti-personnel and 
anti-vehicle) and endorses the continued use of self-destructing/self-
deactivating mines of both types. In compliance with Fiscal Year 2003 
Appropriations Committee Report language directing ``that the Army 
clearly define the requirements for a next generation intelligent 
minefield and ensure compliance with the Ottawa Treaty,'' DOD will 
consult with the Appropriations Committee concerning the impact of the 
new policy. Coordination for this consultation is in progress.

    36. Senator Reed. Dr. Killion, how much are you investing in these 
technologies in this budget request?
    Dr. Killion. Approximately $2,949,000 in fiscal year 2005.

    37. Senator Reed. Dr. Killion, what significant technical 
challenges remain to producing a system that meets Army requirements 
and is compliant with the Ottawa Treaty?
    Dr. Killion. Significant technical issues exist and will remain 
since the Army requirements for an Anti-Personnel Landmine Alternative 
system and the parameters of Ottawa are not congruent. PE 0603606A, 
Project 683, Anti-Personnel Landmine Alternatives does focus on the 
following significant challenges related to remote networked sensor 
surveillance systems for man-in-the-loop over watch fires and command-
detonated munitions:

          (1) Improving low cost, low power unattended imaging and non-
        imaging sensors to enable more reliable identification of 
        combatant-noncombatant;
          (2) Developing low power, long range, antijam communications 
        technologies; and
          (3) Developing automated, networked sensor field dispensing 
        techniques and developing the hardened low cost sensors and 
        communications devices required for such dispensers.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                    AIR FORCE RESEARCH LABORATORIES

    38. Senator Clinton. Mr. Engle, the Information Directorate of the 
Air Force Research Laboratory (AFRL) develops systems, concepts, and 
technologies to enhance the Air Force's capability to successfully meet 
the challenges of the information age. I was disappointed that your 
testimony did not include a discussion of your vision for the Air Force 
Research Laboratories in Rome, New York. Can you give a description of 
the role that Rome Labs will play in the AFRL's future?
    Mr. Engle. The Rome Research Site in Rome, New York, continues to 
play a pivotal role in the Air Force's achievement of the warfighting 
capabilities needed to support our core competencies and will continue 
to do so. The Rome Research Site has long been a key contributor to the 
Air Force S&T program and to the Nation as a whole. One of the most 
transformational and quickly deployable technologies available today is 
command, control, and communications technology, also known as 
information technology. This technology is at the heart of our Moving 
Target Indicator Exploitation program, which is developing web-enabled 
automated tools to exploit data from current and future sensor systems 
such as the Joint Surveillance Target Attack Radar System (JSTARS). 
Perhaps one of the most exciting technologies to come out of our lab at 
Rome is the information data wall. This data wall has proven highly 
effective and is currently being used in Afghanistan and Korea. In 
addition, several government agencies use multi-layer communications 
security developed at Rome and software-defined reprogrammable radios 
for secure communications and adaptable for coalition operations have 
also transitioned into operational use.
    The Information Directorate at Rome is at the center of a growing 
national resource focused on communications technology. We believe the 
future for this enterprise is to lead the way for our national security 
needs in information technology and use this expertise to continue to 
grow this vital Center of Excellence in the Rome area.

                      LABORATORY PERSONNEL ISSUES

    39. Senator Clinton. Dr. Sega, the DOD intends to convert employees 
at the Defense laboratories excluded from the NSPS by congressional 
action into the Best Practices Initiative through a regulatory action 
and then convert them again into the NSPS personnel system at some 
future date. What are the implications of such a double conversion on 
the lives and careers of our scientists and engineers?
    Dr. Sega. We value our scientists and engineers in accomplishing 
the mission of the laboratories, their lives and careers are certainly 
of paramount importance to the Department. It is because of the value 
placed on our scientists and engineers that we are working to establish 
the most flexible personnel framework possible. The DOD will not impose 
the ``Best Practices'' personnel demonstration system on any of the 
laboratories.

    40. Senator Clinton. Dr. Sega, what are the costs of the conversion 
of the laboratory demos to the Best Practices Initiative?
    Dr. Sega. While ``Best Practices'' will not be imposed on the 
laboratory demonstrations, some labs may voluntarily choose to 
implement some of the flexibilities found in Best Practices. Salary 
costs would not be affected if the labs were to adopt any of the 
flexibilities found in Best Practices--employee base salary would be 
preserved. Unlike the General Schedule system, the lab demonstrations 
do not provide periodic within-grade increases to basic pay. Thus, if a 
lab chooses to implement these features of Best Practices, there is no 
need to ``buy in'' lab demonstration employees--that is, to pay them a 
percentage of the next within-grade increase, based on the time each 
employee has already served toward the next increase. Another point to 
consider is that there are costs not operating under a single personnel 
framework, which entail the maintenance of redundant payroll and 
personnel data, policies, and administration.

    41. Senator Clinton. Dr. Sega, has any independent analysis been 
performed that has indicated that the Best Practices Initiative will 
improve the ability of the affected organizations to perform their 
missions?
    Dr. Sega. Many private and public analyses have been accomplished 
over the last four decades to examine the defense laboratory structure, 
and as an integral part, assess the laboratory personnel framework. The 
flexibilities available in Best Practices are based upon a review of 
use and impact of the flexibilities available and independent analysis 
performed by the Office of Personnel Management (OPM). OPM's evaluation 
let us know what was working in the demonstration projects and what 
could be improved.

                         INFORMATION ASSURANCE

    42. Senator Clinton. Mr. Engle, as indicated by other witnesses 
during the hearing, information security is becoming a growing concern 
for both forces deployed overseas as well as our military activities at 
home. Please highlight the efforts that the Air Force S&T program is 
making to address our information security requirements. How are the 
products and innovations stemming from Air Force research being 
transitioned for use by the DHS and the private sector?
    Mr. Engle. The Rome Research Site in Rome, New York, is the center 
of expertise for command, control, communications, and intelligence 
(C\3\I) technology development, including information security 
requirements. The Information Support Server Environment (ISSE) Guard 
initiated by the Air Force in 1990 to meet the needs of the Air Force 
and also of the U.S. Intelligence Community, has become an enabling 
information security development effort and is a prime example of how 
the Air Force S&T program is addressing information security 
requirements. ISSE Guard provides for the multi-level security needed 
in or between information networks. Since its inception, the ISSE Guard 
solution has been a mix of best-of-breed commercial items combined with 
government-sponsored/developed software needed to satisfy military and 
intelligence requirements. ISSE Guard has been installed and is being 
used in a variety of Service/Defense agencies, such as the U.S. Air 
Force Technical Applications Center, U.S. Space Command, National Air 
Intelligence Center, National Geospatial-Intelligence Agency (formerly 
the National Imagery and Mapping Agency), U.S. Central Command 
(CENTCOM), Defense Intelligence Agency (DIA), Navy Warfare Development 
Center, U.S. Army South, Office of Deputy Chief of Staff, Intelligence 
(ODCSINT), among others.
    The Information Directorate at the Rome Research Site works with a 
large customer/collaborator group, including the DARPA, the 
Intelligence Community, the Missile Defense Agency (MDA), and other 
Services. In addition, the nearby Griffiss Institute is a collaboration 
of industry, academia, and government in the area of information 
assurance. While our mission at Rome is in support of Air Force 
warfighting capabilities, some of the technologies being developed may 
also benefit other organizations and the private sector. The close 
working arrangement that the Information Directorate enjoys with these 
various organizations facilitates the transition of information 
technologies into operational use by both government and the private 
sector. In fact, the Joint Defensive Planner (JDP) developed by the 
scientists and engineers at Rome is currently being used for homeland 
defense. This program automates the defensive planning process and 
functions with Service operators who are separated geographically. The 
JDP program allows planners at widely distributed locations to use 
common planning software and databases to exchange concepts, overlays, 
and analyses of options. The JDP program can support multiple clients, 
interface with other Service tactical planners, and enable access to 
the JDP application through the Web.

                              SBIR PROGRAM

    43. Senator Clinton. Dr. Sega, Dr. Killion, Admiral Cohen, and Mr. 
Engle, the budget materials submitted to Congress include a negative 
assessment of the DOD SBIR program. What is your assessment of the 
value of small business research and the SBIR program as part of the 
overall DOD S&T strategy?
    Dr. Sega. Small business research and the DOD SBIR program play an 
important role in developing and maturing needed technologies in 
support of the DOD S&T program. The negative assessment to which you 
refer is the OMB assessment which focused on commercialization of SBIR 
technology. This is only one of the goals of the SBIR program. The four 
goals are to: stimulate technological innovation; increase private 
sector commercialization of Federal R&D; increase small business 
participation in federally funded (DOD) R&D; and foster participation 
by minority and disadvantaged firms in technological innovation. We are 
committed to increase our tracking of commercialization in the future 
to improve our OMB assessment. However, we place as much importance on 
the other goals of the program, and believe that SBIR is meeting all 
the intended goals.
    Dr. Killion. Small business research and the Army SBIR program play 
a critical role in developing and maturing technologies needed to 
support the Army's S&T strategy. My staff provides guidance to the Army 
SBIR PM to ensure that solicited topics are current, relevant and 
aligned with the strategy. The current SBIR budget of $228 million will 
be invested in Phase I and Phase II proposals selected for award that 
support future force and FCS objectives. Through SBIR and other similar 
small business research programs, we have learned that the very best 
ideas do not necessarily come from the laboratories of large 
corporations or even from our government laboratories. Most often, 
innovative technologies are invented by creative individuals and small, 
entrepreneurial companies whose workers truly think ``outside the 
box.'' With the strong participation from the Army S&T community, there 
is a greater chance of SBIR successes that will achieve current Army 
research goals, thereby leading to increased opportunity for 
incorporation into the acquisition process.
    Admiral Cohen. I believe that this is in response to the Government 
Performance Results Act (GPRA) rating from OMB on the overall DOD SBIR. 
Please recognize that all information was not available to OMB at the 
time of the evaluation.
    The Navy's SBIR program is working extremely well. A number of SBIR 
technologies have been integrated into the Navy's ongoing programs. A 
number of Navy SBIR small businesses have been acquired by large 
businesses and several products that are being used in the IRAQ which 
are a result of the Navy's SBIR program. Some examples:

        <bullet> Flight certification of Silver Fox is underway and 
        training of marines has been scheduled with the goal of 
        providing this UAV capability to I Marine Expeditionary Force 
        (MEF) in Iraq. As soon as higher resolution sensors can be 
        integrated into Silver Fox an upgraded version will also be 
        provided.
        <bullet> A Persistent Area Surveillance System that includes a 
        360 degree camera that was demonstrated on 12 Dec 2003, has 
        been identified for possible deployment to Iraq to provide 
        surveillance of high interest areas.
        <bullet> LogisTech, Inc.--Provides platform protection from 
        corrosion. Has received over $500 million in DOD PHASE III 
        funding to date. Now provides product to Iraq.
        <bullet> SAVI Inc.--Solved the problem of total asset 
        visibility for DOD. Developed a ``smart'' barcode label. On the 
        surface, it looks like a barcode you see at the grocery store. 
        Beneath the surface, however, a radio frequency identification 
        (RFID) chip and an antenna system carry product information, 
        which can be captured by an special reader. Used for DOD 
        container shipments overseas.
        <bullet> Science and Applied Technology (now AKT Missiles)--
        Advanced Anti-Radiation Guided Missile (AARGM) development, 
        design, demonstration and transition to SDD and production a 
        multi-sensor fuzed weapon system to defeat advanced surface to 
        air threats employing countermeasure techniques including 
        counter shutdown. Over $750 million in sales over 10 years. The 
        company has grown from less than 10 employees to over 200.

    The Navy's SBIR/STTR Program is a mission oriented program that has 
a dual use component. One of the metrics that we use internally to 
judge the success of the program annually is a comparison of SBIR funds 
in a given year to the Phase III (non-SBIR funds) provided to Navy SBIR 
companies by Navy acquisition programs. For example, in fiscal year 
2003, the Navy SBIR program had $200 million for award of contracts to 
small businesses in Phases I & II of the SBIR program. The Navy 
acquisition programs provided Navy SBIR participating companies in 
excess of $275 million.
    Likewise, in fiscal year 2002 the Navy SBIR program had $156 
million and SBIR companies received in excess of $195 million in Phase 
III awards from Navy acquisition programs. These figures don't include 
funding received by the Navy SBIR participating companies from non-Navy 
DOD and other government agencies, prime contractors and the private 
sector. The accompanying chart highlights our success in this area.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Engle. The Air Force is a strong supporter of the DOD SBI 
program. This program and the small business research it encourages 
play a vital role in the Air Force S&T program. Although the OMB has 
expressed concerns that, in some cases, the SBIR program funds 
companies with poor performance and overestimates commercial successes 
stemming from Federal funding by treating additional investment the 
same as product sales, these have not been significant issues for the 
Air Force. We are sensitive to the capabilities and contributions of 
small businesses as they interact with us in this program and we have 
efforts in place to increase their success. For example, the Air 
Force's Mentor-Protege program provides funding to small businesses 
that have successfully transitioned efforts to larger companies so that 
they can mentor other small businesses towards similar successes. The 
Air Force has also deployed an e-business solution called the SBIR 
Shopping Mall, which links small businesses that have or are completing 
SBIR efforts with large businesses, Air Force product development 
offices, and logistics centers. The Air Force also has a history of 
funding those efforts that contribute to both military and commercial 
capabilities and have successfully transitioned to SBIR Phase III, 
which is the phase in which commercialization occurs.
    The National Science Foundation estimates that small company 
investment in research and development in the U.S. is about $40 billion 
for 2003. The SBIR program provides DOD and the Air Force a valuable 
tool to leverage this national innovation engine. Phase I and II of 
this program allow us to solicit and exploit this vast investment in 
the U.S. Although the management of this program requires significant 
effort to ensure return on investment, the payback is worth it. As 
already stated, the Air Force is a strong supporter of the DOD SBIR 
program and its contributions to the Air Force S&T program. However, 
one change to the way we currently do business could potentially 
improve the SBIR program and, in the process, address OMB's concerns. I 
believe we could improve transition of SBIR efforts to military systems 
and/or commercialization success by raising the ceilings for SBIR Phase 
I and Phase II efforts. Raising these ceilings will provide additional 
funding to mature technologies and should improve the transition of 
efforts to SBIR Phase III or commercialization.

    44. Senator Clinton. Dr. Sega, Dr. Killion, Admiral Cohen, and Mr. 
Engle, the assessment also indicates that the administration will 
``seek to get highly successful awardees to enter the mainstream of 
defense contracting.'' What are your plans to execute this plan?
    Dr. Sega. The DOD has two initiatives to facilitate the rapid 
transition of SBIR technologies, products, and services into DOD 
acquisition programs. First, we require the services to solicit letters 
of interest from their DOD acquisition' programs in order to 
demonstrate interest in transitioning the successful projects to 
defense acquisition contracts. At this time, approximately half of the 
SBIR projects have received statements of interest. Second, we have 
developed a Phase II Enhancement policy under which we provide a Phase 
II company with additional SBIR funding if the company can match the 
funds with non-SBIR funds from DOD acquisition programs or the private 
sector. Generally, enhancements will extend an existing Phase II 
contract for up to one year and will match up to $250,000 of non-SBIR 
funds. These initiatives have been extremely effective in attracting 
DOD acquisition and outside investor money as well as attention to SBIR 
projects. We strive to increase the awareness of SBIR projects in the 
acquisition community through these initiatives and we believe that 
this will enable small businesses to compete within the mainstream of 
defense contracting.
    Dr. Killion. The Army has established two formal initiatives 
recently to facilitate the rapid transition of SBIR technologies, 
products, and services into DOD acquisition programs. First, at least 
50 percent of the SBIR topics that are solicited must be either co-
authored by an acquisition program official or include a memorandum co-
signed by the laboratory topic author and a DOD acquisition program 
official, stating that if the technology is successful, the acquisition 
program would be interested in providing non-SBIR funding during or 
after phase II to integrate the technology into the program. This year, 
over 75 percent of Army topics were endorsed in this manner by an 
acquisition official. Second, under the Phase II Plus Program, the Army 
provides up to $250,000 in matching SBIR funds to expand an existing 
Phase II that attracts investment funds from a DOD acquisition program 
or a private sector investor. Phase II Plus allows for an existing 
Phase II Army SBIR effort to be extended for up to 1 year to perform 
additional research and development. Since its inception, the Phase II 
Plus Program has selected and funded 110 projects and continues the 
Army's emphasis on enabling the development and commercialization of 
dual-use technologies and products. These two initiatives have been 
extremely effective in attracting DOD acquisition and outside investor 
money to SBIR projects to support the Army S&T strategy. We strive to 
increase the awareness of past and present Army SBIR projects in the 
acquisition community through conferences, brochures, and Web sites, 
and by facilitating networking efforts of the small businesses.
    Admiral Cohen. With the Navy's SBIR program this is occurring in 
several ways:

    (1) SBIR small businesses that have developed technology that is 
beneficial to the Navy/DOD have been purchased by the large prime 
contractors. Such acquisitions allow new small businesses to engage in 
SBIR. Below is a list of some of those small businesses that have been 
acquired:

        <bullet> DSR, Inc.--Multi-Purpose Processor (bought by General 
        Dynamics) provided lower cost and improved performance of 
        weapons systems with commercial off-the-shelf equipment. Over 
        $200 million in Navy Phase III--partnered with Lockheed Martin.
        <bullet> Microcom, Inc.--Improved Transponder. Funded as second 
        source and bought by Loral--now L3 Communications.
        <bullet> Science and Applied Technology (now AKT Missiles)--
        Advanced Anti-Radiation Guided Missile Development.
        <bullet> Solopsis Corporation developed Cooperative Engagement 
        Capability (CEC). Purchase by Raytheon.
        <bullet> Darlington Incorporated developed Combined Wide Area 
        Network (COWAN) Technology purchased by EDO Corporation.

    (2) Small Businesses are teaming with large businesses or selling 
product directly to the government. Below is an example of large 
business interested in Navy SBIR:

        ``Raytheon, with 2002 sales of $16.8 billion, is an industry 
        leader in defense, electronics, space, information technology, 
        and business and special mission aircraft. The company has 
        launched a unique SBIR partnering initiative through its 
        Integrated Defense Systems (IDS) business to leverage both Navy 
        and Raytheon resources. The initiative championed by IDS 
        President Dan Smith, uses the Navy's SBIR capacity to generate 
        new technologies to help fill gaps in Raytheon IDS' own annual 
        technology roadmap for a dozen-odd defense programs--including 
        the Navy's revolutionary DD(X) and other new platforms. . .'' 
        Quote from ``Transitions'' Volume 1, Issue 1, the Navy SBIR 
        Newsletter.

    (3) Currently the Navy provides an opportunity for all small 
businesses that are awarded a Navy SBIR Phase II to enter the Navy's 
``Transition Assistance Program'' (TAP). This is a 9-month program 
designed to provide small SBIR firms (which are typically scientific or 
technically oriented) some business acumen. The 9 months are culminated 
at the Navy Opportunity Forum on 3-4 May 2004. The small companies 
brief their technologies to venture capitalists, Navy/DOD acquisition 
program managers, and Navy/DOD prime contractors. The outcome of the 
presentations provides a unique opportunity for large and small 
businesses to work together.
    Mr. Engle. The Air Force fully supports the administration's plan 
to encourage successful SBIR awardees to actively participate in the 
mainstream of defense contracting. We believe this could make a 
meaningful contribution to the U.S. industrial base by increasing the 
number of trusted sources available to support Air Force contractual 
needs. There are several efforts currently underway to assist small 
businesses, including extended intellectual property rights that can 
extend well after the end of Phase III vice the normal 5-year period, 
an extended Phase II program that uses SBIR funding to help transition 
promising Phase II efforts that aren't quite ready for Phase III, and 
the Mentor-Protege program under the Air Force's Small and 
Disadvantaged Business Utilization office that provides funding to 
small businesses that have successfully transitioned efforts to larger 
companies so that they can mentor other small businesses towards 
similar successes. The Air Force's SBIR Web site also provides a 
``shopping mall'' of current SBIR efforts to provide insight to the 
larger companies and hopefully generate interest in the various efforts 
ongoing within these small businesses. This Web site also links to the 
U.S. Small Business Administration SBIR/STTR Web site for an even 
broader look at what's currently ongoing.

    45. Senator Clinton. Dr. Sega, Dr. Killion, Admiral Cohen, and Mr. 
Engle, do you plan to establish and fund more formal Phase III programs 
for SBIR contractors who have successfully executes Phase II SBIR 
contracts?
    Dr. Sega. Phase III is the goal of every SBIR effort, and 
represents the commercialization phase of the program. In Phase III, 
the successful company markets the products or services developed in 
Phase II, either to the government or in the commercial sector. As you 
are aware, no SBIR funds can be used in Phase III. The two initiatives 
described in the previous answer help facilitate the transition of 
small business research from Phase II to Phase III. We believe these 
projects will successfully market and compete for follow-on contracts, 
without separate funding.
    Dr. Killion. Phase III is the goal of every Army SBIR effort, and 
represents the commercialization phase of the program. In Phase III, 
the successful company markets the products or services developed in 
Phase II, either to the government or in the commercial sector. As you 
are aware, no SBIR funds can be used in Phase III. Besides the two 
initiatives described previously to help facilitate the transition of 
small business research from Phase II to Phase III, the Army maintains 
data on successful Phase II and Phase III projects which is maintained 
on a Web site for ready access. The Army also publishes this data in a 
yearly commercialization brochure that is disseminated widely 
throughout DOD and the small business community. This visibility helps 
to facilitate the transition of successful Phase II projects. Also, the 
Army established a Venture Capital Initiative recently with the mission 
to discover, invest in, and support companies and programs developing 
innovative mobile power and energy technology with potential 
application to U.S. Army needs. This program uses a range of investment 
approaches, including making equity investments, project partnering, 
research sponsorship, licensing arrangements, and others. It also acts 
as a bridge between the Army and the innovation community 
(entrepreneurs, established companies, universities, researchers, and 
venture capitalists) to develop business relationships. The Army aligns 
all SBIR projects with the S&T strategy that is supportive of Army 
acquisition programs, thereby creating a Phase III market for the small 
businesses that participate in the Army SBIR Program.
    Admiral Cohen. The Navy views SBIR as an important component in its 
toolbox for developing technologies/products to perform its mission. 
Some acquisition programs such as PEO--submarines have a formal method 
of providing incentives to prime contractor's awards to incorporate 
SBIR awardees. However, the majority of acquisitions have not used this 
method but rely more on the Navy's SBIR program to ``show them.''
    The Navy's SBIR program attempts to connect its SBIR topics to 
acquisition programs in the Navy. Approximately 80 percent of the 
topics in the Navy section of the DOD solicitation are associated with 
a mission need associated with the sponsoring Navy acquisition program. 
We rely on the guidance of the Navy SBIR technical monitors to provide 
guidance to the small business relative to which acquisition programs 
may be interested in a company's technology and the Navy TAP to provide 
the small business the tools to enable them to make contacts in the DOD 
acquisition/prime contractor community.
    One of the metrics that we use internally to judge the success of 
the program annually is a comparison of SBIR funds in a given year to 
the Phase III (non-SBIR funds) provided to Navy SBIR companies by Navy 
acquisition programs. For example, in fiscal year 2003, the Navy SBIR 
program had $200 million for award of contracts to small businesses in 
Phases I & II of the SBIR program. The Navy acquisition programs 
provided Navy SBIR participating companies in excess of $275 million. 
Included below is a chart highlighting our past success.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Engle. The Air Force is a strong supporter of the SBIR program 
and encourages small business contractors to participate in this highly 
effective program. Our principal objectives are to stimulate 
technological innovation by small businesses, to increase small 
business participation in meeting Federal R&D needs, and to increase 
the commercialization of technology developed through Federal R&D 
efforts. Phase III is the phase in which this commercialization occurs 
and the Air Force has a history of funding those efforts that 
contribute to both military and commercial capabilities and have 
successfully transitioned to Phase III. We plan to continue to fund 
Phase III efforts when it can be demonstrated that there are Air Force 
benefits to be derived from these investments.

    [Whereupon, at 11:54 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                       WEDNESDAY, MARCH 10, 2004

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS OF THE DEPARTMENT OF ENERGY 
  AND THE COOPERATIVE THREAT REDUCTION PROGRAMS OF THE DEPARTMENT OF 
                                DEFENSE

    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Reed, and 
Akaka.
    Majority staff members present: Elaine A. McCusker, 
professional staff member; Paula J. Philbin, professional staff 
member; and Lynn F. Rusten, professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; William G.P. Monahan, minority counsel; and 
Arun A. Seraphin, professional staff member.
    Staff assistants present: Michael N. Berger and Nicholas W. 
West.
    Committee members' assistants present: Darren Dick, 
assistant to Senator Roberts; Russell J. Thomasson, assistant 
to Senator Cornyn; Elizabeth King, assistant to Senator Reed; 
Richard Kessler, assistant to Senator Akaka; and Andrew 
Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The Subcommittee on Emerging Threats and 
Capabilities will come to order. The subcommittee meets today 
to receive testimony on the defense nuclear nonproliferation 
programs of the Department of Energy (DOE) and the Cooperative 
Threat Reduction (CTR) programs of the Department of Defense 
(DOD).
    We welcome our witnesses: the Honorable Paul M. Longsworth, 
who is the Deputy Administrator for Defense Nuclear 
Nonproliferation within the National Nuclear Security Agency 
(NNSA) under the DOE; and Ms. Lisa Bronson, who is the Deputy 
Under Secretary of Defense for Technology Security Policy and 
Counterproliferation. The programs for which you are each 
responsible are critically important to the national security 
of the United States. In a major address on this topic at the 
National Defense University (NDU) on February 11, the President 
indicated, and I am quoting here: ``The greatest threat before 
humanity today is the possibility of a secret and sudden attack 
with chemical or biological or radiological or nuclear 
weapons.'' He was referring, of course, to the threat of 
weapons of mass destruction (WMD) getting into the hands of 
terrorists.
    The President proposed to expand the U.S. and international 
nonproliferation efforts both in the former Soviet Union (FSU) 
and in other countries. Speaking of CTR, he said: ``Under this 
program we are helping the FSU states find productive 
employment for former weapons scientists. We are dismantling, 
destroying, and securing weapons and materials left over from 
the Soviet WMD arsenal. We have a lot more work to do there.''
    The President also called on the international community to 
cooperate on nonproliferation beyond the FSU. He said: ``We 
will retain the WMD scientists and technicians in countries 
like Iraq and Libya. We will help nations end the use of 
weapons-grade uranium in research reactors. The nations of the 
world must do all we can to secure and eliminate the nuclear, 
chemical, biological, and radiological materials.''
    Now, the reason I went into that in some detail is that I 
do not think the speech received the press it deserved in 
regard to the international effort to address this very key 
question. I know we are getting a lot of press about the events 
of the day in Iraq and the events of the day in an even 
numbered year, but in regards to the NDU speech I think the 
President certainly highlighted what needs to be done.
    In the National Defense Authorization Act for Fiscal Year 
2004, the DOE and the DOD were given the authority to use 
nonproliferation and CTR funds outside the FSU.
    We look forward to your testimony regarding your current or 
anticipated nonproliferation activities in new countries. For 
instance, the DOE has just announced a program aimed at funding 
science projects for former Iraqi WMD scientists. We are 
prepared to continue this discussion in closed session as 
necessary.
    The fiscal year 2005 budget request demonstrates the 
administration's continuing commitment to these threat 
reduction and other programs. I strongly share that commitment. 
The vast majority of these programs have been successful, but 
there have been some unfortunate past instances where the 
United States taxpayer dollars were invested in projects that 
never came to fruition.
    I am sure you would agree that continued support for these 
very critical programs requires both that the American people 
understand how they contribute to U.S. national security and 
that the programs be managed well to ensure that the American 
taxpayers are getting the maximum return on their investment.
    In that spirit, the subcommittee looks forward to your 
testimony in support of your fiscal year 2005 budget request 
for these very important nonproliferation programs. I thank you 
for your service, I thank you for your time and effort. I thank 
you for taking time out of your busy schedule to appear before 
this subcommittee.
    I will now turn to my distinguished friend and colleague, 
Senator Reed, for his opening remarks.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
join you in welcoming Administrator Longsworth and Secretary 
Bronson. Thank you very much for being with us today. I want to 
thank the chairman for scheduling this hearing on an 
extraordinarily critical and timely subject.
    Preventing the spread of nuclear, chemical, and biological 
technology, materials, and weapons is vitally important to our 
Nation's security and to international stability. Our witnesses 
today are responsible for many of the important 
nonproliferation and threat reduction programs that are 
actively engaged to address the dangers presented by nuclear, 
chemical, and biological weapons. These are challenging 
problems.
    I want to particularly thank the people in the DOD and the 
DOE who have been working the field on these programs, often in 
very difficult circumstances, over the last 10 years. They are 
committed Federal and contractor employees who understand the 
importance of what they do.
    The cooperative efforts in Russia have been ongoing for 
over 10 years and, while much has been done, much remains to be 
done. For example, the effort to destroy Russian chemical 
weapons is finally aggressively under way. This effort is a 
truly cooperative effort, with substantial funding and support 
being provided by Russia, the United States, and the 
international community.
    To be successful, however, the program will require the 
continued support of the administration and Congress. For 
example, the authority of the President to waive certain 
certifications needed to keep this program on track will expire 
in fiscal year 2004. I believe the DOD will be seeking 
permanent authority to allow annual waivers of the 
certifications. Permanent authority is important to ensure that 
the program runs smoothly from year to year. I hope that we 
will be able to support the President's request in this year's 
National Defense Authorization Bill.
    Both the DOE and the DOD have expanded their programs in 
the republics of the FSU outside of Russia, expanding the work 
with countries such as Kazakhstan, Uzbekistan, Georgia, 
Ukraine, and others. It is important to building strong 
relationships with the United States. While what is required in 
each country is unique, there are opportunities to address 
chemical, biological, radiological, and nuclear (CBRN) issues. 
I look forward today to discussing what your organizations are 
doing to expand the work in these countries.
    In the National Defense Authorization Act for Fiscal Year 
2004, the DOD was authorized to conduct CTR activities outside 
the FSU and the DOE was authorized to conduct materials 
protection control and accounting activities outside of the 
FSU. We would like to hear what each of you might do utilizing 
this authority.
    There are still challenges to be met, including the 
plutonium reactor shutdown program, mixed oxide fuel program, 
biosecurity and bio early warning programs, and the resolution 
of the current standoff between Russia and the United States on 
liability issues. I would very much like to get your thoughts 
on these and other challenges today.
    Again, welcome. We look forward to hearing from you.
    Thank you, Senator Roberts, again for holding this hearing.
    Senator Roberts. Senator Akaka, do you have any opening 
statement to make here?
    Senator Akaka. Yes. Thank you very much, Mr. Chairman. 
Thank you for calling this hearing.
    I welcome our witnesses. The programs you administer I feel 
are very vital to our national security and I am concerned the 
President or his people may not be giving you the priority that 
you deserve.
    I have a longer statement that I would request to be made 
part of the record, Mr. Chairman.
    Senator Roberts. Without objection.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Thank you Mr. Chairman for calling this hearing. I welcome our 
witnesses. The programs you administer are vital to our national 
security, but I am concerned the President is not giving them the 
priority they deserve.
    The Department of Energy (DOE) plays a vital role in maintaining 
the security of our country.
    In that regard, I am pleased to see that the Off-Site Source 
Recovery Project has been transferred from DOE's Office of 
Environmental Management to the National Nuclear Security 
Administration (NNSA), where there will be a greater focus on safety 
and security. I am also pleased that the funding level for this project 
is now more in line with the importance of its mission. I have 
introduced legislation, S. 1045, on this program which was incorporated 
into the pending energy bill. I am pleased to see that DOE is taking 
action to secure domestic radioactive sources.
    However, when it comes to the administration's approach to nuclear 
weapons, I have a number of concerns.
    The time and resources being devoted to research and development 
(R&D) of new weapons technology, such as the Robust Nuclear Earth 
Penetrator (RNEP) and new low-yield nuclear weapons, are taking away 
from other nonproliferation and threat reduction programs.
    As I have said before, these weapons systems are not needed and 
will require an ongoing funding commitment that we cannot afford. On 
the one hand, the administration is asking for an increase in funding 
for nuclear weapons by 5.4 percent. While on the other hand, the 
resources for programs critical for preventing the spread of nuclear 
weapons to terrorists is only increased by 1.1 percent, with cuts to 
some key programs.
    The President's budget priorities are sending the wrong message to 
would-be proliferators. We seem to be telling states that when it comes 
to nuclear weapons development, ``do as we say, not as we do!''
    When the administration seeks funding both to increase our test 
readiness and for new weapons research, while reducing the budget for 
nonproliferation programs, why should other countries not see that as a 
green light to develop nuclear weapons?
    We can't have it both ways.
    The U.S. cannot expect other nations to agree to give up their 
weapons while we seek to develop a newer, more usable nuclear arsenal.
    Moreover, the failure by the administration to accelerate the 
Cooperative Threat Reduction (CTR) program is disturbing. Last spring, 
a Harvard study noted that a dramatic acceleration of the CTR program 
is clearly needed. The CTR and other DOE nonproliferation programs are 
the primary means we have to prevent weapons, weapon-usable materials, 
and the expertise in the former Soviet Union (FSU) from falling into 
the hands of terrorists.
    Just yesterday, in testimony before the Armed Services Committee, 
the Director of Central Intelligence (DCI) George Tenet said, ``Russian 
weapons of mass destruction materials and technology remain vulnerable 
to theft or diversion. We are also concerned by the continued eagerness 
of Russia's cash-strapped defense, biotechnology, chemical, aerospace, 
and nuclear industries to raise funds via exports and transfers--which 
makes Russian expertise an attractive target for countries and groups 
seeking weapons of mass destruction and missile-related assistance.''
    We cannot afford this risk.
    We should heed the advice of experts at Harvard and the Central 
Intelligence Agency (CIA) and develop an accelerated plan to take 
control of nuclear material at the most vulnerable sites worldwide.
    By not doing this, the President is leaving the door open for 
terrorists to steal nuclear weapons. 
    We must close that door.
    I welcome our witnesses, and I look forward to their testimony.

    Senator Akaka. Mr. Chairman, I am concerned that the 
President's budget priorities are sending the wrong message to 
would-be proliferators. We seem to be telling states that when 
it comes to nuclear weapons development, ``Do as we say, not as 
we do.''
    When the administration seeks funding both to increase our 
test readiness and for new weapons research, while reducing the 
budget for nonproliferation programs, we ask ourselves why 
other countries should not see that as a green light to develop 
nuclear weapons. In a way, we cannot have it both ways. The 
U.S. cannot expect other nations to agree to give up their 
weapons while we seek to develop a newer, more usable nuclear 
arsenal.
    Moreover, the failure by the administration to accelerate 
the CTR program is disturbing. Just yesterday in testimony 
before the Armed Services Committee, the Director of Central 
Intelligence (DCI) George Tenet said, ``Russian weapons of mass 
destruction materials and technology remain vulnerable to theft 
or diversion. We are also concerned by the continued eagerness 
of Russia's cash-strapped defense, biotechnology, chemical, 
aerospace, and nuclear industries to raise funds via exports 
and transfers, which makes Russian expertise an attractive 
target for countries and groups seeking weapons of mass 
destruction and missile-related assistance.''
    At this point we need to really consider whether we can 
afford this risk.
    Thank you very much, Mr. Chairman.
    Senator Roberts. Thank you, Senator.
    We now recognize the Honorable Paul M. Longsworth, who is 
the Deputy Administrator for Defense Nuclear Nonproliferation, 
NNSA, within the DOE. If you have to repeat that to everybody 
in regards to what you do, you probably spend a great deal of 
time doing that.
    Paul, your entire statement will be made part of the 
record. Every golden word will be ensconced for memory and 
shining the light of truth into darkness, so you feel perfectly 
free to summarize if you so wish. We recognize you at this time 
and thank you again for appearing.

   STATEMENT OF PAUL M. LONGSWORTH, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Longsworth. Thank you, Mr. Chairman. I will be brief.
    I do want to thank you for holding this hearing today. It 
is a pleasure to be back here before the subcommittee to 
discuss the important activities that we conduct in the 
nonproliferation arena.
    Before discussing specific activities, I want to first 
again thank this committee for its continued support for the 
very important efforts that you have all laid out. On behalf of 
the men and the women and the scientists and technicians that 
carry out this work in these far-flung locations, I want to say 
thank you on their behalf as well.
    In my oral statement I would like to briefly describe the 
specifics of our nonproliferation activities, address the 
critical components of our 2005 budget, and highlight some key 
accomplishments we have made. Mr. Chairman, as you have 
requested, I will discuss some of the challenges that we face.
    You quoted the President's speech and I think it bodes 
restating. He said at the NDU in February that, ``The greatest 
threat before humanity today is the possibility of a secret and 
sudden attack with chemical or biological or radiological or 
nuclear weapons. America and the entire civilized world will 
face this threat for decades to come.'' The President went on 
to say that, ``We have to address this challenge with open eyes 
and unbending purpose.''
    I would say that that is what the programs in the Defense 
Nuclear Nonproliferation Office do. We carry out programs in 70 
countries across the world to prevent the spread of WMD and in 
many cases we are reversing the capabilities to support WMD 
programs. Our mission has seven principal components: We 
conduct cutting-edge nonproliferation and national security 
research and development (R&D); we secure nuclear weapons and 
North Korea and radiological materials at potentially 
vulnerable sites in Russia and throughout the world; we reduce 
the overall quantities of nuclear and radiological materials; 
we bolster border security overseas; we support international 
nonproliferation and export control regimes; we help downsize 
the nuclear weapons infrastructure in the FSU; and we work to 
mitigate the risks and consequences at nuclear facilities 
worldwide.
    By addressing key elements of the proliferation spectrum, 
these activities play an essential role in stemming 
proliferation of WMD.
    While our nonproliferation programs are international in 
scope, our activities also support the global war on terrorism 
by removing the raw materials that a terrorist might use to 
attack the U.S. or our interests abroad. In all of these cases 
our programs directly strengthen U.S. national security.
    Our mission goals form the crux of a multi-layered 
capability that reduces the incentive for terrorists and drug 
states to obtain WMD and reduce the access and the wherewithal 
to obtain such weapons. All of our program efforts are designed 
to bolster national security in the United States. We do not 
conduct foreign aid. We carry out projects that directly 
enhance U.S. national security interests.
    Our fiscal year 2005 budget is $1.35 billion. That is 
roughly a 1 percent increase over 2004, but it is a 60-percent 
increase over the 2001 appropriation. Some would argue that our 
budget is flat-lined. I think they would be wrong.
    We have moved into an era of global burdensharing. In 2002, 
President Bush proposed that the G-8 member nations join 
together to form a global partnership to step up proliferation. 
The President committed the U.S. to spend $10 billion initially 
in Russia over 10 years on such an initiative. Since then our 
partners in the G-8 have committed to spend up to $10 billion 
over 10 years to match the U.S. funding.
    The President has now proposed an expansion of the global 
partnership, both in terms of donors and recipient nations, to 
address proliferation threats worldwide. This burdensharing 
must be accounted for when we do an overall assessment of how 
much funding is going into nonproliferation programs globally.
    Let me just briefly walk through a few budget highlights in 
our fiscal year 2005 request. In the area of fissile materials 
disposition, this is by far our largest program. It accounts 
for about 43 percent of our total budget. The President's 
request includes $649 million for this work, of which $549 
million is for plutonium disposition.
    The fiscal year 2005 budget request seeks funding to begin 
construction of both the U.S. and the Russian mixed oxide (MOX) 
fabrication facilities in 2005. We are currently targeting May 
2005. We must resolve liability with the Russian Federation 
soon in order to meet that schedule, but this request reflects 
the U.S. commitment for proceeding with plutonium disposition.
    In the area of plutonium reactor shutdown in Russia, not 
only are we pursuing the disposition of weapons-usable 
plutonium, we are also working hard to get Russia to shut down 
its last remaining plutonium-producing reactors. They have 
three remaining reactors. We are on a schedule now to shut 
those down by 2008. We will shut down two by 2008 and we hope 
to shut down three by 2011. This is a program that actually was 
transferred from the DOD to the DOE.
    By shutting off these reactors, we will reduce the 
production of 1.2 metric tons of new plutonium each year. So 
every year that we do that sooner is another 1.2 metric tons of 
plutonium that will not be created.
    We expect to complete design by the end of 2004, and by 
that time we will have a firm, validated cost estimate for this 
project.
    In the area of material protection, control, and 
accounting, the President's request includes $238 million, 
which includes efforts to secure Russian warheads, plutonium, 
and highly-enriched uranium (HEU). It also includes our Second 
Line of Defense and Megaports programs, which are intended to 
detect illicit trafficking of nuclear and other radiological 
materials at border crossings, airports, and seaports. The 
objective of that program is to detect and stop weapons-usable 
material before it arrives at the U.S. border.
    In some smaller areas, which are by no means unimportant, 
we have requested an increase for the Off-Site Source Recovery 
Program. This recognizes the serious global threat that 
radioactive source materials might be used in radiological 
dispersal devices. This is a new effort for the NNSA and we are 
assuming responsibility for this program after it was 
transferred to us from the Office of Environmental Management. 
We estimate the initial program funding will be $5.6 million, 
with a projected cost of about $40 million over the next 5 
years.
    If you allow me, Mr. Chairman, I would like to walk through 
a few of the accomplishments we have achieved. I think these 
are important to go through because we are not very good at 
tooting our own horn. I think the folks that do this work 
throughout the world have achieved many laudable successes.
    I will start with the most obvious one. It is in Libya. The 
DOE played a key leading technical role to support the 
operation to verify Libya's pledge to dismantle its WMD. In 
North Korea, we are participating in the six-party talks on a 
technical level and we are beginning to develop the tool kit 
that will be necessary to support the complete, verifiable, and 
irreversible dismantlement of North Korea's nuclear weapons 
program when that occurs.
    In the area of materials protection, control, and 
accounting (MPCA), we have accelerated the time line for 
securing the 600 metric tons of weapons-usable nuclear material 
at 55 sites in Russia and Eurasia, and we have accelerated that 
schedule by more than 2 years. From 2002 to 2003, we tripled 
the amount of new fissile material that is under safeguards and 
secured in Russia, and are operating at about the same pace 
this year.
    With the Russian Navy, we have completed 77 percent, or 
about 30 sites, of the 39 Russian nuclear navy sites where they 
store warheads, and we will be finished with that we think at 
the end of 2005. We are expanding our work with the Strategic 
Rocket Forces (SRF) to secure warheads at their sites. We have 
added three additional sites this year and hope to add 
additional sites in the near future.
    In the area of our Second Line of Defense program, we are 
continuing to install radiation monitors at sites throughout 
Russia and we plan to install this year 25 new sites in 
Kazakhstan and 25 sites in the Ukraine. Worldwide, we expect to 
be at 165 locations with nuclear trafficking detectors by the 
end of fiscal year 2005.
    In addition, we are very close to completing installation 
of radiation detectors at the largest seaport in Europe, the 
port of Rotterdam. That will be completed by mid-summer. We 
expect to conclude other letters of intent and agreements with 
other countries, most notably China, which has three very large 
ports, and we hope to do those in the April-May time frame.
    Under our Russian highly-enriched fuel return program, we 
have repatriated HEU fuel, fresh fuel, from Yugoslavia, 
Romania, and Bulgaria. This material in total was sufficient to 
make several nuclear weapons.
    Finally, in our R&D program, an often overlooked part of 
our program, we continue to have a 100-percent on-time payload 
delivery record for nuclear explosion monitoring satellite 
capabilities.
    So we have accomplished a lot, but there are many 
challenges and I would like to walk through those just briefly. 
Liability is the largest challenge we face right now. We are in 
a disagreement with Russia about what is an appropriate level 
of liability protection for U.S. workers and the U.S. 
Government. American contractors must have adequate liability 
protection in Russia and elsewhere, and we are urging the 
Russian government to seek a quick ratification in the Duma of 
the CTR umbrella agreement that contains full liability 
protections for U.S. work.
    CTR ratification will facilitate agreement on a number of 
other critical nonproliferation programs which are currently 
not being renewed until that agreement is ratified, most 
notably the mixed oxide fuel program and the Nuclear Cities 
Initiative (NCI).
    Transparency is another area that is a challenge. Achieving 
adequate transparency is an ongoing problem for many U.S. 
nonproliferation initiatives within the Russian Federation. 
Assuring that we are in fact securing the materials and 
facilities intended to be secured is challenging. It takes 
technology and it takes access. The NNSA is continuing to work 
bilaterally and multilaterally to ensure that our mutual goals 
are met in this area.
    I mentioned access. That is an ongoing problem. Our 
nonproliferation programs often require access to other 
countries' most sensitive facilities. In Russia, considerable 
progress has been made accessing the less sensitive sites, but 
we continue to be blocked from some of their most sensitive 
sites that have ongoing defense activities.
    We have established a working group that the Secretary and 
his counterpart, Minister Rumyantsev, formed to break down 
those barriers, and we believe it is working pretty well. It 
goes without saying that reaching agreement on access at these 
sites is a major challenge and will require patience and 
steadfastness on our part.
    Finally, concluding contracts and agreements is a complex 
process that often delays our work in Russia as well. Even 
though there is agreement in principle to undertake a given 
nonproliferation program, actually implementing the program 
requires time. The Russians have a fairly large bureaucracy. 
They inherited it from the Soviet era. It did not go away, and 
we face normal bureaucratic challenges there.
    Some of the solutions are: First and foremost, Secretary 
Abraham has developed a close working relationship with his 
counterparts in Russia in order to identify and address 
roadblocks to our progress very quickly. This has worked very 
well and he has committed to work with Mr. Rumyantsev's 
successor once they meet.
    To summarize, I would just like to draw your attention to 
the progress that our programs have made in recent years and 
the programs that have been accelerated and adapted to meet the 
complex and unpredictable security threats that we face. In his 
February 11 address, President Bush outlined the path forward 
to better strengthen the global nonproliferation regime, to 
control exports, and to further restrict access to nuclear 
technologies. The Office of Defense Nuclear Nonproliferation 
will continue to address these myriad of threats across the 
proliferation spectrum and we will do that in concert with our 
other Federal agencies.
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Longsworth follows:]

                Prepared Statement by Paul M. Longsworth

                              INTRODUCTION

    Thank you, Mr. Chairman and members of this subcommittee, for the 
opportunity to appear before you today to discuss the activities of the 
National Nuclear Security Administration's (NNSA) Office of Defense 
Nuclear Nonproliferation. Before discussing our specific activities, I 
want to express how critically important I consider your contributions, 
both past, present, and future, to the United States' efforts to 
prevent the spread of weapons of mass destruction (WMD). Of course, it 
goes without saying that our ability to address the myriad of 
proliferation threats that confront us requires that the U.S. Congress 
fully understand those threats, and that its Members are confident that 
the money they are authorizing and appropriating to NNSA's programs is 
being used effectively and efficiently to both meet and exceed the 
goals to which this funding is directed. Your continued support for our 
programs demonstrates the committee's long-standing commitment to 
furthering nonproliferation throughout the world. I appreciate your 
strong support and I look forward to our continued work together.
    There have been concerns raised in the past that our 
nonproliferation programs are akin to an aid program to Russia rather 
than a focused element of our Nation's agenda to prevent WMD 
proliferation. As it is a cooperative effort, U.S. and Russian 
nonproliferation objectives are not mutually exclusive, and substantial 
progress has been made. I hope this presentation will help to ease 
these concerns by drawing attention to the critical role our programs 
play in stemming the spread of WMD throughout the world, and enhancing 
our national security.
    In his recent speech at the National Defense University (NDU) in 
February, President Bush stated, ``The greatest threat before humanity 
today is the possibility of secret and sudden attack with chemical or 
biological or radiological or nuclear weapons . . . America, and the 
entire civilized world, will face this threat for decades to come.'' To 
meet this challenge, the President asked that we confront it ``with 
open eyes, and unbending purpose.''
    The Office of Defense Nuclear Nonproliferation has expanded and 
accelerated its programs to address this proliferation threat. We now 
work with more than 70 countries to prevent the spread of WMD, and we 
are continuously adapting our activities to meet today's complex and 
unpredictable proliferation threats posed by ``rogue'' states and 
terrorist networks.
    I would now like to briefly describe the specifics of our 
nonproliferation activities, address critical components of our fiscal 
year 2005 budget request, highlight key accomplishments we have made, 
and outline current challenges that we face.

                                MISSION

    Today, we are faced with a number of proliferators, rogue states, 
and terrorist networks that threaten United States and international 
security by actively pursuing WMD capabilities, technologies, and 
expertise. The Office of Defense Nuclear Nonproliferation plays a 
prominent role in responding to these WMD proliferation threats. We 
recognize the broad scope and complex nature of this threat, and 
understand that our programs must identify and address potential 
vulnerabilities within the nonproliferation regime before terrorists or 
rogue states exploit them.
    Our mission is to detect, prevent, and reverse the proliferation of 
WMD, while mitigating the risks associated with peaceful nuclear energy 
operations. We implement this mission by:

        <bullet> Conducting cutting-edge nonproliferation and national 
        security research and development (R&D);
        <bullet> Securing nuclear weapons and nuclear and radiological 
        materials at potentially vulnerable sites in Russia and across 
        the globe;
        <bullet> Reducing overall quantities of nuclear and 
        radiological materials;
        <bullet> Bolstering border security domestically and overseas;
        <bullet> Supporting international nonproliferation and export 
        control regimes;
        <bullet> Downsizing the nuclear weapons infrastructure of the 
        former Soviet Union (FSU); and
        <bullet> Mitigating risks at nuclear facilities worldwide.

    By addressing key elements of the proliferation spectrum, these 
activities play an essential role in strengthening United States and 
international security. Our efforts are making the world more secure. 
But the nonproliferation regime still faces serious challenges from a 
few rogue states and terrorist threats seeking the capability to obtain 
WMD, and from those states that facilitate such activity or often 
appear indifferent to it. Lastly, we continue to receive reports of 
illicit efforts to acquire nuclear or radiological weapons technologies 
and materials.

                                 BUDGET

    The Office of Defense Nuclear Nonproliferation program works to 
prevent the spread of nuclear weapons and materials to terrorist 
organizations and rogue states. For fiscal year 2005, the 
administration requests $1.35 billion to support activities to reduce 
the global WMD proliferation threat. Total dollars spent, however, is 
not the only measure for judging overall program effectiveness. It 
should be measured on accomplishments, which I will talk about later. 
This $1.35 billion is a 1 percent increase over fiscal year 2004, but 
it does not reflect the total funding for nonproliferation worldwide. 
We have moved into an era of global burdensharing. In 2002, President 
Bush proposed a new G-8 initiative on proliferation, and our partners 
have committed to spend up to $10 billion over 10 years to help 
decrease the proliferation threat, initially in Russia. The President 
has now proposed an expansion of the global partnership's donors and 
recipients, to address the proliferation threat worldwide. This 
burdensharing must be accounted for in the overall assessment of 
nonproliferation spending.
    One of the key obstacles we have encountered this year is a 
disagreement with Moscow regarding liability protection for plutonium 
disposition work performed in Russia. Even with the liability issue 
being worked on at high levels of the administration, lack of 
resolution to date has resulted in a 10-month delay in the start of 
construction of a mixed oxide (MOX) facility in Russia as well as a 
similar facility in the United States. The President's fiscal year 2005 
budget request seeks funding to begin construction of both the U.S. and 
Russian MOX facilities in May 2005, as we work to resolve the liability 
issue this spring. This reflects the U.S. commitment for proceeding 
with plutonium disposition.
    Not only are we pursuing the disposition of weapons-useable 
plutonium, we are also working hard to stop Russia from producing more 
plutonium that could be used for nuclear weapons. We have assumed the 
responsibility from the Department of Defense (DOD) for shutting down 
the last three plutonium production reactors in Russia and replacing 
them with fossil fuel plants by a targeted 2008 and 2011 timeframe. 
This will result in the cessation of Russia's annual production of 1.2 
metric tons of weapons-grade plutonium. Under the Elimination of 
Weapons-Grade Plutonium Production Program, we have selected the 
Washington Group International and Raytheon Technical Services to 
provide oversight for Russian contractors who will actually be 
performing the work at two Siberian sites. We are preparing preliminary 
designs for the planned fossil-fuel replacement plants and validating 
cost estimates for the program. As more of the engineering design work 
is completed, we will be better able to refine the overall cost and 
schedule for the replacement fossil-fuel plants. We expect to complete 
the detailed designs by the end of calendar year 2004, at which time we 
will be able to provide Congress with firm cost estimates.
    Given recent threats to the United States, it has become 
increasingly clear that protecting and securing nuclear materials and 
detecting nuclear and radioactive material at foreign ports, airports, 
and border crossings is a very high priority. Our budget request for 
Material Protection, Control, and Accounting (MPCA), which includes our 
Second Line of Defense programs and Megaports Program, is $238 million. 
Of that, $15 million will go toward moving ahead with our Megaports 
Program to train law enforcement officials and equip key international 
ports with radiation detection equipment to detect, deter, and 
interdict illicit trafficking of nuclear and other radioactive 
materials. We are scheduled to complete work at ports in Greece and the 
Netherlands by late summer 2004. We have made a number of security 
improvements to nuclear Navy sites in Russia and we are now focusing 
resources on securing Strategic Rocket Force (SRF) sites.
    In addition to this work, we are also pursuing a dialogue with 
other countries, including China. We hope that these activities will 
lead to broader MPCA cooperation in the coming years.
    In fiscal year 2005, NNSA assumes responsibility for the Off-Site 
Source Recovery Project from the Office of Environmental Management. 
The requested program funding is $5.6 million, with a projected cost of 
about $40 million over the next 5 years to substantially reduce the 
risk of these source materials being used for radiological dispersion 
devices. The program works closely with the U.S. Nuclear Regulatory 
Commission (NRC) to prioritize source recovery.
    I would now like to detail our core mission activities and 
highlight some of our most recent accomplishments in each of these 
areas.

                            ACCOMPLISHMENTS

    The President's recent speech at the NDU included several 
nonproliferation measures designed to strengthen U.S. national 
security. Among his proposals, the President underscored the need to 
address the demand for the most critical elements of the nuclear fuel-
cycle, enrichment and reprocessing, as well as a renewed, stronger 
approach towards the implementation of safeguards.
    The Office of Defense Nuclear Nonproliferation is working directly 
with the members of the Nuclear Suppliers Group and with the Zangger 
Committee to strengthen the nuclear export control regime, that 
includes making the adoption of the International Atomic Energy 
Agency's (IAEA) Additional Protocol a condition of supply and banning 
the spread of enrichment and reprocessing technologies. Recognizing the 
need to work with emerging nuclear technology suppliers and 
transshipment states, we increased our work in the area of export 
controls by $6 million.
    Our work to secure nuclear materials, nuclear weapons, and 
radiological materials at potentially vulnerable sites in Russia and 
elsewhere is one of our most important missions. We are promoting the 
further safeguarding and physical protection of nuclear materials at 
nuclear sites worldwide, including the states of the FSU and in over 40 
countries with U.S.-origin material. The United States and Russia 
continue to accelerate cooperative nonproliferation efforts, and we are 
making progress. For example, we have accelerated the timeline for 
securing 600 metric tons of weapons-usable nuclear material at 55 sites 
in Russia and Eurasia by 2008. To date, we have upgraded the security 
of 41 percent of the material and compared to 2002, we tripled the 
amount of new material placed under comprehensive upgrades in 2003. We 
are also working internationally to consolidate and secure fissile 
materials and at-risk radioactive sources. We have upgraded security at 
13 nuclear facilities in Eurasia, holding 3.5 metric tons of weapons 
grade nuclear material, to meet international physical protection 
guidelines. Although our work continues to expand beyond the FSU, we 
are still working in the region to improve security at Russian Navy and 
SRF facilities--among the most sensitive facilities in Russia. We have 
expanded security upgrades of Russian Navy and SRF nuclear weapons 
sites and have secured 77 percent (30 sites) of the 39 Russian Navy 
warhead sites and initiated security upgrades at three Russian SRF 
sites.
    Downsizing the nuclear weapons infrastructure of the FSU remains an 
important activity. Since the fall of the Soviet Union, we have worked 
hard to reduce the potential for diversion of WMD expertise, materials, 
and technologies to terrorists and proliferant states. To meet this 
objective, we are working to redirect WMD scientists, engineers, and 
technicians to peaceful work and reduce WMD complexes by downsizing 
facilities and creating sustainable civilian alternatives. Through the 
Russian Transition Initiatives Program, we have engaged over 14,000 
former weapons scientists at over 200 institutes across the FSU in 
peaceful and sustainable commercial pursuits, attracting $162 million 
in private sector matching funds and over $140 million in venture 
capital and other investments, created 25 new businesses in the closed 
cities, and facilitated the downsizing of Russia's nuclear weapons 
complex.
    Late last year, the Office of Defense Nuclear Nonproliferation 
established the Nuclear and Radiological Threat Reduction Task Force, 
which represents another important step in combating the threats posed 
by radiological dispersion devices or ``dirty bombs.'' We created this 
task force to identify, secure, store on an interim basis, and 
facilitate the permanent disposition of high-risk radiological 
materials that could be used as a radiological dispersal device, both 
in the United States and overseas; and identify the most vulnerable 
research reactors worldwide and develop an action plan to mitigate 
these vulnerabilities. Working in close concert with foreign countries 
and the IAEA, this task force will ensure that the NNSA has the 
capability to address the full spectrum of radiological threats, 
including locating and securing vulnerable radiological materials 
overseas, and recovering and securing unwanted and abandoned 
radioactive materials within the United States that pose security and 
health risks.
    Bolstering border security as a second line of defense is another 
important component of our strategy. To implement this core mission, we 
develop and employ nuclear detection equipment at key border crossings, 
airports, and ports, including major seaports or ``megaports,'' 
worldwide. We also work hard to assist and train customs officials at 
home and abroad to detect the illicit trafficking of nuclear and 
radiological materials as well as identify dual-use commodities that 
might be used in WMD programs. Our hard work and cooperative efforts 
are paying dividends. For example, we have installed radiation 
detection equipment at 39 sites in Russia to detect, deter, and 
interdict the trafficking of nuclear and radioactive materials. Russia 
has also supplemented our cooperative border security efforts by 
upgrading and installing similar radiation detection equipment at many 
more of their prioritized border checkpoints. We maintain radiation 
detection equipment in more than 20 countries in the Baltics, Central 
and Eastern Europe, Central Asia, and the Mediterranean. We launched 
our Megaports Initiative at the Port of Rotterdam, which we are 
currently equipping with detection equipment at this international, 
high-traffic ``megaport.''
    We are not alone in our efforts. The international community and 
recipient countries have responded with strong support to advance our 
mutual nonproliferation interests. The G-8 Global Partnership has 
committed $20 billion over the next 10 years to work on 
nonproliferation issues in Eurasia. We are working cooperatively with 
our G-8 partners to leverage the funding that we have committed to 
Russia and the work in which we are involved. In another program, we 
are working with India and Pakistan to help them cooperatively work to 
find means to stop cross-border infiltration and avoid conflict.
    Our cutting-edge R&D program improves the United States' ability to 
detect and deter WMD proliferation and strengthen nuclear treaty 
regimes such as the Nuclear Nonproliferation Treaty (NPT). Our R&D 
programs serve as the technical base that provides operational 
agencies--including the DOD and the Intelligence Community--with 
innovative systems and technologies to meet their nonproliferation 
missions. For example, we have tested laser-based remote sensing 
systems to detect and characterize effluents from suspect WMD 
production facilities, and are designing miniature synthetic aperture 
radar sensors to fly on board unmanned aerial vehicles. Our technology-
base programs yielded several radiation detection systems now being 
used by the Department of Homeland Security (DHS), and evaluated at the 
test bed that we established at the Port Authority of New York and New 
Jersey. We have developed and produced nuclear explosion monitoring 
sensor payloads for deployment on Global Positioning System (GPS) and 
Defense Support System satellites, began designing the next-generation 
of space-based sensors, and are developing new tools to lower the 
threshold for detecting the yield of any nuclear explosion by two 
orders of magnitude. We continue to seek out improved solutions to 
emerging proliferation problems, and to coordinate our efforts with our 
U.S. Government partners.
    Strengthening international nonproliferation and export control 
regimes is another essential cornerstone of our efforts. We support 
U.S. nonproliferation treaties, initiatives, and agreements and work to 
strengthen international safeguards to detect clandestine nuclear 
programs and diversion of nuclear material from declared programs. By 
working with our international partners, we have accomplished a great 
deal to further the world's nonproliferation regime. Some of our recent 
accomplishments include Secretary Abraham's signing of the Statement of 
Intent on Peaceful Uses of Nuclear Energy and Nuclear Nonproliferation 
and Counterterrorism with Chairman Zhang Huazhu of the China Atomic 
Energy Authority this January in Beijing. Also in January, NNSA 
Administrator Brooks testified before Congress to urge prompt action on 
the Additional Protocol between the United States and the IAEA, to 
strengthen our hand in seeking other states' acceptance of strengthened 
international safeguards. In addition, we opened a Cooperative 
Monitoring Center in Amman, Jordan that will serve as a regional forum 
to discuss technical solutions to proliferation and other regional 
security problems. We are spearheading changes to Nuclear Supplier 
Group Guidelines to make the prevention of nuclear terrorism an 
explicit export control objective.
    To reduce stockpiles and available quantities of nuclear materials, 
we are working with Russia to irreversibly blend-down at least 500 
metric tons of surplus highly-enriched uranium (HEU). At the end of 
2003, over 200MT had been eliminated. We are also working with our 
Russian counterparts to shut down the three reactors in Russia that are 
still producing weapons-grade plutonium, and we are coordinating with 
them to return Russian-origin spent fuel to Russia. We further reduce 
quantities of weapons-usable HEU by converting research reactors in the 
United States and abroad to use low-enriched uranium (LEU) and working 
to eliminate 174 metric tons of HEU in the United States. The Office of 
Defense Nuclear Nonproliferation also is working proactively and 
cooperatively with Libya and international partners to dismantle 
Libya's WMD infrastructure. Currently, we are playing a leading 
technical role in the support of the operation to verify the 
dismantlement of Libya's nuclear program, and are playing a similar 
role in preparing for the complete, verifiable, and irreversible 
dismantlement of North Korea's nuclear weapons program. In 2003, we 
helped remove 17 kilograms of Russian-origin HEU from Bulgaria and 
returned it to Russia for safe storage. We also worked with Russia and 
the IAEA to return approximately 14 kilograms of fresh Russian-origin 
HEU from Romania to Russia to be down-blended and used for civil 
nuclear purposes.
    Our final core mission objective is to mitigate risks at nuclear 
facilities worldwide. To reach this goal, we are providing assistance 
to Russia and Eurasian countries to establish enhanced emergency 
response programs, and we are working cooperatively with Russia to 
improve the safety and security of its nuclear weapons during 
transportation and storage in connection with dismantlement. We are 
focused on improving nuclear emergency management practices worldwide 
by working with the IAEA and other western countries. For example, we 
worked to strengthen the IAEA's notification capability in the event of 
a nuclear emergency and are assisting Ukraine, Russia, and Japan in 
establishing emergency management training programs.

                               CHALLENGES

    Preventing the proliferation of WMD materials, technology, and 
expertise is a major undertaking, and developing a multi-layered 
approach to address these threats has not been without its challenges. 
In implementing our nonproliferation programs, liability issues, 
transparency, access, and concluding contracts and agreements will 
remain challenges in the years ahead. Since our nonproliferation 
programs are cooperative in nature, the progress we make is largely 
dependent on complex negotiations with Russia and other countries. 
Consequently, we will continue to face challenges in our work, 
particularly in Russia. I will now discuss these challenges in more 
detail.

                               LIABILITY

    Resolving liability issues with the Russians remains a key 
challenge. American workers and contractors must have adequate 
liability protection in Russia and elsewhere. We are urging the Russian 
government to seek quickly Duma ratification of the Cooperative Threat 
Reduction (CTR) umbrella agreement that contains full liability 
protections. CTR ratification will facilitate agreement on a number of 
our critical nonproliferation programs, including the construction of 
U.S. and Russian MOX facilities to dispose of 34 metric tons each of 
surplus plutonium and continuing cooperative projects under the Nuclear 
Cities Initiative (NCI).

                              TRANSPARENCY

    Achieving adequate transparency is an ongoing problem for many U.S. 
nonproliferation initiatives with the Russian Federation. Assuring that 
we are, in fact, securing the materials and facilities intended has 
been challenging. The NNSA will continue to work both bilaterally and 
multilaterally to ensure that our mutual goals are met and that 
cooperative programs remain objective, are preventing the proliferation 
of WMD, and promote long-term self-sustainability.

                                 ACCESS

    Nonproliferation programs often require access to other countries' 
most sensitive nuclear facilities. In Russia, considerable progress has 
been made accessing less sensitive sites. While we have had some 
success, we must continue to work to gain access to Russia's more 
sensitive sites and facilities. A working group has been established by 
Secretary Abraham and Minister Rumyantsev to address this issue and is 
testing new procedures for access to more sensitive Minatom facilities. 
It goes without saying that reaching agreement on access to these sites 
is a major challenge and will require patience and steadfastness on our 
part. After access agreement is reached, we must assure that its terms 
are honored.

                        CONTRACTS AND AGREEMENTS

    Finally, concluding contracts and agreements is a complex process. 
Even after there is agreement in principle to undertake a given 
nonproliferation program, actually implementing such a program requires 
time to bear fruit. Achieving concurrence on written agreements to move 
forward is often the first challenge to overcome. As a recent example, 
the Russian interagency must digest an agreement to return Russian-
origin spent fuel back to Russia and dispose of it to reduce the amount 
of global HEU. While we expect this review to happen in the near 
future, it is indicative of the substantial efforts that both sides 
must undertake. After the requisite agreements are in place and agreed 
to by both parties, objective and realistic milestones have to be 
developed before any contract can be awarded, and performance metrics 
established to address how those milestones will be met. Overall 
program success is incumbent on sound fiscal stewardship, and we 
believe that we are taking the necessary steps to effectively maximize 
program success rates.
    There are a number of steps we have undertaken to meet these 
challenges. First, the Secretary of Energy has developed a close 
relationship with the acting Minister of Atomic Energy and overcoming 
these challenges in the nonproliferation arena has been a priority. 
Secretary Abraham intends to continue to work constructively with the 
acting Minister or his successor. Second, at the working level, experts 
from our programs leverage over a decade of experience and 
relationships with their Russian counterparts to resolve contentious 
issues through sustained negotiations.
    The subcommittee's support is also critical to overcoming these 
challenges and to the overall success of our programs. Although I am 
optimistic that we will be able to work through these challenges, your 
continued support will play an important role as we create and 
implement solutions to overcome current obstacles.

                               CONCLUSION

    To summarize, I would again draw your attention to the progress our 
program has made in recent years and the acceleration with which we 
have expanded our activities to meet the complex and unpredictable 
security threats of our time. In doing so, we have strengthened the 
security of our Nation and are making the world a safer place. Working 
in concert with other U.S. Government agencies, the Office of Defense 
Nuclear Nonproliferation will continue to promote high-level political 
commitment among our cooperative country counterparts to establish an 
effective, comprehensive capability that can proactively react to an 
evolving threat environment. Our focus is on stemming the proliferation 
of WMD materials, technology, and expertise, and we will continue to 
work diligently and responsibly to counter that threat.
    Mr. Chairman and members of this subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions that you 
and members of this subcommittee may have.

    Senator Roberts. Paul, thank you very much for your 
statement.
    We now hear from Ms. Lisa Bronson, who is the Deputy Under 
Secretary of Defense for Technology Security Policy and 
Counterproliferation. Lisa, the same goes for you as it did for 
Paul. Please feel free to summarize and please be assured that 
virtually every verb, adjective, and adverb will be in the 
record.
    Please proceed and thank you for coming.

 STATEMENT OF LISA BRONSON, DEPUTY UNDER SECRETARY OF DEFENSE 
    FOR TECHNOLOGY SECURITY POLICY AND COUNTERPROLIFERATION

    Ms. Bronson. Thank you. Good morning, Mr. Chairman, Senator 
Reed. Thank you for inviting me to discuss the DOD CTR program. 
My written testimony submitted for the record reviews some of 
the important work accomplished during the last 2 years. I will 
not repeat it here this morning.
    Mr. Chairman, the achievements noted in my written 
testimony represent a reduction in the threat posed by the 
former Soviet WMD stockpile to the United States and its 
allies. Threat reduction has always been a key measure of how 
well CTR is doing. Another measure is how well we ensure that 
the taxpayers are getting value for the money they invest in 
nonproliferation through the CTR program.
    The Heptyl and Vodkinsk situations, which involve 
significant losses in CTR investments, reminded us that there 
is a third important measure of success for this program. That 
is the extent to which our partner countries truly cooperate in 
CTR.
    In his February 4, 2004, testimony before the full 
committee, Secretary Rumsfeld was asked why the President's 
fiscal year 2005 CTR budget request for $409.2 million is lower 
than that requested in fiscal year 2004. The question implies 
that the annual budget request is the single measure of 
progress and the single indicator of commitment. It is an 
important metric, but there are three others: actual threat 
reduction, value for U.S. investments, and increasing the 
recipients' stake in the success of specific projects. Measured 
against the aggregate of these four metrics, the CTR program 
continues to be a vital component in the U.S. Government's 
national security strategy.
    My written testimony describes the underlying rationale for 
our budget request. Mr. Chairman, we have reported to you in 
detail on the $106 million loss suffered by CTR in the so-
called ``Heptyl situation,'' in which Russia did not tell us 
that liquid rocket fuel destined for a CTR-constructed 
neutralization facility had been diverted to commercial uses. 
We have also had extended discussions about the Vodkinsk 
situation, in which CTR invested nearly $100 million in designs 
and site preparation for a solid rocket fuel elimination 
facility that was abruptly blocked by local Russian 
authorities.
    These two situations delivered a severe blow to the 
credibility of our Russian partners and caused us to rigorously 
review how we do business. My written testimony describes our 
management changes in detail.
    Mr. Chairman, it could be argued that the array of 
management changes implemented over the past 2 years risks a 
slowdown in CTR project execution. With the recent losses in 
Russia, we had no choice. We are carefully balancing our three 
goals of threat reduction, value for taxpayers' investment, and 
increased participation by partner countries. In some cases, 
simultaneous achievement of all three goals creates extra steps 
in project execution. In our judgment, this results in a better 
program.
    During the past 2 years we have significantly improved our 
responsiveness to Congress. We have resolved the backlog of 
reports and notifications. Some 24 reports and notifications 
have been delivered in the past 2 years. For the first time 
since the inception of the requirement, the CTR annual report 
was delivered on time in early February of this year.
    In March 2003, we began a 6-month comprehensive project by 
project review of the CTR program, building on the overall 
administration review conducted in 2001. This rescoping review 
for Russia revalidated the contribution of all project areas to 
current threat reduction areas, with some important 
adjustments, described in detail in my written testimony.
    The importance of continuing elimination of submarine-
launched ballistic missiles (SLBMs) and intercontinental 
ballistic missiles (ICBMs), as well as the silos and launchers 
from which they are removed, was revalidated. However, CTR will 
cease to regrade the silo sites once current commitments are 
fulfilled. This function will be turned over to Russia. We 
concluded that silo regrading, while an important safety 
matter, did not contribute to CTR's core threat reduction 
mission and could reasonably be assumed by Russia.
    CTR will continue to de-fuel nuclear-powered ballistic 
missile submarines (SSBNs), seal the reactors, and remove and 
eliminate the missile launcher components. However, the 
practice of cutting up the bows and sterns will be turned over 
to Russia. We concluded that the work on bows and sterns did 
not contribute to threat reduction because it is not essential 
to the disabling of the submarine as a whole and elimination of 
the launcher compartment. In addition, this is an area where 
Russia can reasonably be expected to increase its stake in the 
success of this project.
    The rescoping review for Russia will ultimately affect 
approximately $185 million. These funds will be reallocated to 
other CTR projects.
    As a result of our review of Ukrainian projects, we decided 
to cancel a CTR project that would have built a hydro-mining 
system to remove solid fuel from previously demilitarized SS-24 
missile stages and convert the byproduct to mining explosives 
that would be turned over to Ukraine for sale. This project was 
significantly over budget and presented further cost escalation 
risks. Technical aspects of safely storing the propellant 
byproduct and converting it into mining explosives were also 
unresolved after significant expense.
    All warheads and proliferable components have been removed 
from the 163 rocket motors, which are in safe storage built by 
CTR. Accordingly, the threat from these missiles has already 
been eliminated. We have offered Ukraine an alternative, less 
risky means of disposing of these motors. After understandably 
tough consultations, we recently received an expression of 
interest from Kiev.
    Overall, we assess that over $100 million in CTR activities 
previously programmed for Ukraine did not make a direct 
contribution to threat reduction. These funds will be 
reallocated to other CTR activities in Ukraine, including the 
bio-weapons and WMD proliferation prevention project areas.
    Mr. Chairman, reviewing, revalidating, and rescoping these 
project goals in Russia and Ukraine will help ensure that CTR 
remains focused on current threat reduction priorities. Our 
adjustments to project areas are designed to ensure that CTR is 
returning real nonproliferation value for the taxpayers' 
investments. Our insistence on increased Russian participation 
in certain ongoing projects is directed toward increasing 
Russia's stake and accountability in the CTR program.
    Of course, none of these works can go forward until we have 
completed the fiscal year 2004 congressional notification 
requirement of section 1304--Mr. Chairman, excuse me for a 
moment. Sorry, I lost my place. Let me begin again.
    Senator Roberts. I do that a lot. You go right ahead.
    Ms. Bronson. The pages stuck together. My apologies.
    Senator Roberts. You at least admit it. We do not admit it. 
[Laughter.]
    Ms. Bronson. Mr. Chairman, we estimate that there are 
approximately 40 institutes that were part of the Soviet 
biological weapons program. These institutes often contain 
extensive collections of dangerous pathogens. They face threats 
from within--underemployed experts--and from without--poorly 
secured facilities and weak inventory controls.
    We address this former Soviet biological weapons threat by 
balancing carefully the risks of proliferation against Russia's 
compliance with international commitments. In Uzbekistan, 
Kazakhstan, and Georgia, CTR's biological weapons proliferation 
activities continue. In addition, an agreement to support 
Biological Weapons Proliferation Prevention (BWPP) work in 
Ukraine is nearing completion, and we hope to expand this 
project area to the Kyrgyz Republic later this year.
    Of course, none of the BWPP work can go forward with fiscal 
year 2004 funds until the congressional notification 
requirements of section 1304 of the National Defense 
Authorization Act are met. I do not anticipate problems meeting 
this requirement for Kazakhstan, Ukraine, Uzbekistan, and 
Georgia.
    However, Russia poses unique challenges in this area. We 
continue to be concerned with Russia's compliance with the 
Biological Weapons Convention. Keeping Russia's bioweapons 
technology, pathogen collections, and expertise out of 
terrorist hands strengthens U.S. national security. However, 
those national security benefits need to be carefully weighed 
against the inherent risks of engagement. The risk of misuse 
can never be reduced to zero, but we are using policy and 
implementation strategies to minimize this risk and allow us to 
focus on the goal of biological weapons proliferation 
prevention.
    In conclusion, Deputy Secretary Wolfowitz wrote his Russian 
counterparts in mid-2003 to urge their prompt action on a 
pending CTR legal agreement. He told these senior officials 
that, ``We are reviewing all CTR project areas for consistency 
with U.S. nonproliferation goals, as well as good stewardship 
of U.S. resources.'' Secretary Wolfowitz's message captures 
what we have done with CTR since the Heptyl and Vodkinsk 
situations and through the course of the rescoping review.
    CTR has been reducing the threat of WMD since it began over 
a decade ago. We have revalidated that goal and the 
contribution of our activities to that goal in an exhaustive 
review. However, we have also been reminded that, even if we 
protect Americans from the threat of WMD proliferation, we must 
constantly improve our processes to ensure that Americans 
receive true value for their investment.
    One of the recent lessons in this regard is that the 
original concept of a cooperative program pays dividends by 
increasing our partners' stake in the success of the assistance 
activities they receive. Reemphasizing the ``C'' in ``CTR'' is 
an important way to keep this key U.S. threat reduction program 
on solid footing in its second decade.
    Thank you, Mr. Chairman. I would be happy to respond to any 
questions you might have.
    [The prepared statement of Ms. Bronson follows:]

                   Prepared Statement by Lisa Bronson

                  COOPERATIVE THREAT REDUCTION PROGRAM

    Mr. Chairman, Senator Reed, thank you for inviting me to discuss 
the Department of Defense (DOD) Cooperative Threat Reduction (CTR) 
program. It has been 2 years since this subcommittee received testimony 
on the CTR program, when Assistant Secretary J.D. Crouch II appeared 
before you on March 6, 2002. Today, I would like to review some of the 
important work accomplished since then.

        <bullet> In December 2003, the Fissile Material Storage 
        Facility at Mayak, Russia--some 7 years in construction--was 
        completed and certified by Russian regulators. The Mayak 
        project will consolidate and securely store more than 25 metric 
        tons of Russian weapons-origin plutonium.
        <bullet> In March 2003, construction on the Chemical Weapons 
        Destruction Facility (CWDF) at Shchuch'ye began after 11 years 
        of planning and negotiation. This facility will destroy all of 
        Russia's nerve agent inventory, thus eliminating a significant 
        proliferation concern. On March 18, 2003, Russia formally 
        committed to destroy all of its nerve agent weapons at 
        Shchuch'ye.
        <bullet> As of December 31, 2003, six countries have pledged 
        $69 million to CWDF infrastructure, helping to ensure that this 
        key project can begin operations on schedule.
        <bullet> In February 2003, Russia signed the Nuclear Weapons 
        Storage Site Security Protocol, granting CTR unprecedented 
        access to help consolidate and secure decommissioned nuclear 
        warheads.
        <bullet> DOD completed vulnerability assessments for six of 
        these sites and began designing comprehensive security upgrades 
        for each. The Russian Ministry of Defense (MOD) will shortly 
        designate the next 10 sites for security enhancements. In 
        addition, CTR has procured and transferred to the MOD 123 
        ``Quick Fix'' fencing and sensors sets for installation at 
        nuclear weapons storage sites, including the 12 noted above. 
        The Quick Fix sets are designed to provide interim security 
        upgrades to individual weapons bunkers. In all, DOD expects to 
        provide comprehensive security upgrades at more than 32 long-
        term nuclear weapons storage sites, including Quick Fix and 
        more permanent measures.
        <bullet> In 2003, Azerbaijan and Uzbekistan signed legal 
        agreements with us to provide the foundation for our Weapons of 
        Mass Destruction-Proliferation Prevention Initiative (WMD-PPI). 
        Kazakhstan and Ukraine are ready to sign similar agreements. 
        Georgia and Kazakhstan supplied us with dangerous pathogen 
        samples as our Biological Weapons Proliferation Prevention 
        (BWPP) program moved forward.
        <bullet> In May 2003, we began destroying rail-mobile 
        intercontinental ballistic missile (ICBM) launchers and 
        missiles in Russia.
        <bullet> In Autumn 2003, we delivered 60 small-arms training 
        sets and 1,200 hand-held radios to support nuclear weapons 
        storage security forces at all 60 sites we believe to be active 
        or used for training.
        <bullet> In December 2003, we completed and commissioned 
        systems to enhance security at the Kizner and Planovy chemical 
        weapons storage sites in Russia.

                       HOW IS PROGRESS MEASURED?

    Mr. Chairman, the achievements noted above represent a reduction in 
the threat posed by former Soviet WMD to the United States and its 
allies. Threat reduction has always been a key measure of how well CTR 
is doing. Another measure is how well we ensure that the taxpayers are 
getting value for the money they invest in nonproliferation through the 
CTR program. The Heptyl and Votkinsk situations, which involved 
significant losses in CTR investments, reminded us that there is a 
third important measure of success for this program. This is the extent 
to which our partner countries truly ``cooperate'' in CTR. CTR has 
never been traditional foreign assistance, and increasing the stake 
that recipient countries have in the execution of CTR projects has 
proven an essential measure of success.
    In his February 4, 2004, testimony before the full committee, 
Secretary Rumsfeld was asked why the President's fiscal year 2005 CTR 
budget request for $409.2 million is lower than the fiscal year 2004 
request ($450.8 million). There are a number of reasons for the modest 
decrease. The question implies that the annual budget request is the 
single measure of progress and the single indicator of commitment. It 
is an important metric. But there are three others: actual threat 
reduction, value for U.S. investments, and increasing recipients' stake 
in the success of specific projects. Measured against the aggregate of 
all four metrics, the CTR program continues to be a vital component of 
the U.S. Government's national security strategy. The President and his 
administration remain firmly committed to his 2002 pledge of $10 
billion over 10 years for nonproliferation and threat reduction 
programs in the former Soviet Union (FSU), including--but not limited 
to--CTR. Yearly programmatic requirements mean that some annual 
requests, as for fiscal year 2005, will be slightly below the $1 
billion average; others will be slightly above.
    It is important to acknowledge that, of the 62 CTR program areas 
Congress has funded since the program's inception, 51 of those areas 
are now complete. This reflects the large amount of former Soviet 
nuclear weapons inventory and infrastructure that CTR has helped 
eliminate or secure. Many of CTR's original array of projects are 
reaching completion. These include projects that were capital-intense 
in their early construction phases. CTR's fiscal year 2005 program plan 
includes only two ``infrastructure-heavy'' projects: the Shchuch'ye 
chemical weapons destruction project already under way, and 
infrastructure supporting nuclear weapons site security enhancement 
projects. Newer areas of CTR focus--biological weapons nonproliferation 
and WMD-PPI--do not require capital-intense construction projects to 
achieve their threat reduction goals.
    The fiscal year 2005 budget request for Strategic Offensive Arms 
Elimination in Russia--which accounts for strategic systems work--is 
the same as it was for fiscal year 2004: $58 million. No money is 
requested for this capital-intensive work in Ukraine for fiscal year 
2005 because our threat reduction goals have been accomplished and we 
have sufficient funds to eliminate the 163 remaining SS-24 solid rocket 
motors by detonation or burning, pending Government of Ukraine 
agreement on the technical approach and process.
    The change from fiscal year 2004 to fiscal year 2005 is caused 
primarily by the initiation of construction at the Shchuch'ye CWDF. 
Construction of the CWDF began in 2003, requiring a boost in fiscal 
year 2003 and fiscal year 2004 spending. Consistent with similar 
construction projects, customized, long-lead equipment that will be 
inside the facility was ordered in 2003 and more will be ordered in 
2004. Thus, the construction spending plan for the CWDF, adjusted for 
delayed commencement, always included high spending at the onset of the 
project. Decreased spending on Shchuch'ye, reflected in the fiscal year 
2005 CTR request, tracks with completion of the capital-intense 
construction phase, not a decrease in commitment. In fact, the actual 
schedule to complete Shchuch'ye has been accelerated in accordance with 
President Bush's direction: we plan to complete construction by 
February 2007 and transfer custody to Russia by September 2008.
    The authority Congress has granted to the President to waive the 
conditions on the Shchuch'ye project has been critical to our progress 
on this essential nonproliferation and threat reduction project. We 
urge Congress to make that waiver authority permanent beginning in 
fiscal year 2005, to that we can continue to work with Russia both to 
resolve the concerns underlying the congressional conditions on the 
Shchuch'ye projects and to allow the earliest possible destruction of 
Russia's nerve agent.
    The aggregate fiscal year 2005 request belies the number of 
important new CTR projects that will move forward without large capital 
infrastructure investments. These include the WMD-PPI and projects 
designed to address potential biological weapons proliferation. A 
summary of the fiscal year 2005 budget request is attached.

                         MANAGEMENT CHALLENGES

    Mr. Chairman, we have reported in detail to you and other 
committees on the $106 million loss suffered by CTR in the so-called 
``Heptyl situation,'' in which Russia did not tell us that liquid 
rocket fuel destined for a CTR-constructed neutralization facility had 
been diverted to commercial uses. We have also had extended discussions 
about the Votkinsk situation, in which CTR invested nearly $100 million 
in designs and site preparation for a solid rocket fuel elimination 
facility that was abruptly blocked by local Russian authorities. 
Although the two situations were very different, they collectively 
represented a severe blow to the credibility of our Russian partners 
and caused us to rigorously review how we do business.

        <bullet> We asked the DOD Inspector General (IG) to review CTR 
        from top to bottom. The last of the IG's four reports that 
        responded to this request was issued last month. The IG's work 
        has been instructive and our staffs ultimately developed such 
        close working relationships that the IG accompanied one of the 
        DOD teams that meet semi-annually with Russian counterparts.
        <bullet> In 2002, we did a baseline risk assessment of all CTR 
        projects for weaknesses similar to the Heptyl situation--
        reliance on good faith Russian promises or assumptions. Today, 
        legal commitments have replaced good faith obligations whenever 
        CTR-provided infrastructure or equipment is used to carry out 
        elimination projects.
        <bullet> Six of these new agreements already have been signed. 
        Based on our ``post-heptyl'' approach, we are awaiting 
        signature of two additional agreements by the Russian MOD 
        before any new work on the associated projects (enhancement of 
        additional nuclear warhead storage sites and nuclear warhead 
        rail transport car replacement) will be initiated. New legal 
        commitments are introduced as needed to respond to new 
        assistance requests.
        <bullet> Each new project proposal is considered only after 
        methodical analysis of ``Heptyl-like'' risks. This is the 
        potential for the recipient country to use CTR assistance for 
        purposes other than those intended. If the risk can be 
        mitigated by legal and implementation strategies, then the 
        proposal can be reviewed on its merits. If the risk cannot be 
        mitigated the project will not be pursued.
        <bullet> The Under Secretary of Defense for Acquisition, 
        Technology, and Logistics created the office of the Deputy 
        Assistant to the Secretary of Defense (Chemical 
        Demilitarization and Threat Reduction (CD&TR)) with special 
        oversight over CTR implementation. CD&TR and the Defense Threat 
        Reduction Agency (DTRA), implemented several management changes 
        to reduce our risks. These changes follow DOD acquisition 
        management processes to promote a disciplined, business like 
        approach to mitigate risk:

                <bullet> First is the adoption of the Milestone 
                Decision Authority (MDA) system, which is modeled after 
                the Defense Acquisition Board process. The MDA is the 
                one person responsible for balancing requirements with 
                risks, and approving and overseeing cost, schedule, and 
                performance baselines.
                <bullet> Second, we evaluated all projects against 
                cost, schedule, and political risk, and assigned the 
                appropriate level MDA for each project. Each project 
                will have a baseline approved and monitored by a MDA.
                <bullet> Third, we adopted the Integrated Product Team 
                (IPT) system to include all the stakeholders in the 
                implementation process, so tradeoffs between risk and 
                requirements can be made in a cooperative and working 
                atmosphere.
                <bullet> Fourth, we adopted a new reporting system to 
                alert higher management of any issues related to cost, 
                schedule, and performance.
                <bullet> Finally, we are opening up more overseas 
                offices in the FSU to allow for better onsite 
                management. These include offices in Tblisi, Georgia to 
                support biological weapons proliferation prevention, 
                Perm, Russia for solid ICBM elimination, and 
                Shchuch'ye, Russia for chemical weapons destruction. 
                Other offices may be opened up as our work expands.

    Mr. Chairman, it could be argued that the array of management 
changes implemented over the past 2 years risks a slow down in CTR 
project execution. With the recent losses in Russia, we had no choice. 
We are carefully balancing our three goals of threat reduction, value 
for taxpayers' investment, and increased participation by partner 
countries. In some cases, simultaneous achievement of all three goals 
creates extra steps in program execution. Our judgement is that this 
results in a better program. For example:

        <bullet> The program of semi-annual ``executive reviews'' with 
        Russian agencies responsible for CTR projects has been a 
        vehicle to streamline communication, if not actually expedite 
        projects. The executive reviews have transformed the way we do 
        business with Russia by putting a premium on regularized 
        transparency, accountability and open dialogue. Since July 
        2002, five executive reviews have been held and our teams 
        report that their Russian counterparts have been progressively 
        more responsive and better prepared.
        <bullet> In 2003, the Russian Aviation and Space Agency (RASA) 
        volunteered to pay for refurbishment of three open-burn 
        stands--potentially a $65 million expense--to help keep the 
        mobile missile elimination project area on track after the loss 
        at Votkinsk. RASA also readily agreed to new legal commitments 
        we proposed to limit our risks on other aspects of the mobile 
        missile elimination project area. This was the first time 
        Russia independently increased its stake in a threat reduction 
        project's success.
        <bullet> We are also improving our business practices within 
        the U.S. In the past, the complicated process of releasing 
        appropriated CTR funds for actual obligation took over 180 
        days. This involved certification or waiver of eligibility for 
        the recipient country and congressional notification. For 2004 
        funds, a certification or waiver was executed for most CTR 
        countries, including Russia, on November 7, 2003, only 37 days 
        into the fiscal year. The waiver authority has proven an 
        important threat reduction tool with respect to Russia, and as 
        the waiver authority expires at the end of fiscal year 2005, we 
        will urge that Congress make this authority permanent in the 
        next legislative cycle (2006).

    Finally, we have significantly improved our responsiveness to 
Congress. During the past 2 years, CTR policy and implementation staff 
have worked very hard to resolve a backlog of reports and 
notifications--some 24 reports and notifications have been delivered. 
For the first time since the inception of the requirement, the CTR 
annual report was delivered on time in early February of this year. 
Congressional oversight of the CTR program is important and welcomed. I 
estimate that the CTR policy and implementation staff spent an average 
of 5,300 hours per year during the past 3 years responding to reporting 
requirements and audits. We appreciate the move by Congress to 
consolidate several of those reporting and notification requirements 
into a single ``CTR Annual Report.'' This allows us to provide the same 
amount of information in a more efficient manner.

                  THE FIRST PROJECT-BY-PROJECT REVIEW

    Since September 11, 2001, DOD has refined the CTR program to ensure 
that it effectively addresses new threats associated with the global 
war on terrorism, even as we continue to pursue the program's 
longstanding goals and project activities. In March 2003 we began a 6-
month, comprehensive, detailed, project-by-project review of the CTR 
program, building on the overall administration review of non-
proliferation and threat reduction assistance in 2001.
    We evaluated the Strategic Offensive Arms Elimination and Nuclear 
Weapons Transportation/Security project areas against several criteria: 
actual contribution to threat reduction, support to national strategy 
and the global war on terrorism, best value for taxpayers' money, and 
the extent to which our Russian and Ukrainian partners have had an 
increasing stake in, and responsibility for, a project's success. We 
chose these project areas because they included a number of activities 
that had been under way for many years--certainly prior to the changes 
in U.S. strategy brought on by the September 11 attacks. We did not 
review the chemical weapons destruction, BWPP, or WMD-PPI project areas 
because they are more recent projects that are clearly in line with our 
current nonproliferation priorities.
    The review resulted in the revalidation of a majority of Strategic 
Offensive Arms Elimination and Nuclear Weapons Transportation/Security 
projects in Russia including the rescoping of 20 projects. All current 
contractual and other commitments in Russia will be fulfilled. The 
review resulted in the revalidation of our general approach in Ukraine 
with extensive refinements to certain projects.
    We reviewed Ukrainian and Russian projects separately because of a 
significant difference in key acquisition milestones. The Ukraine 
review was completed in March 2003, approved by the U.S. interagency in 
April and briefed to Ukrainian officials in May. The Russia review was 
completed in August 2003, approved by the interagency in October and 
briefed to Russian officials in November.
Russia
    The rescoping review for Russia revalidated the contribution of all 
project areas to current threat reduction efforts, with some important 
adjustments.

        <bullet> Liquid-fuel missiles: The importance of continuing 
        elimination of submarine-launched ballistic missiles (SLBMs) 
        and ICBMs as well as the silos and launchers from which they 
        are removed was revalidated. However, CTR will cease to regrade 
        silo sites once current commitments are fulfilled. This 
        function will be turned over to Russia. We concluded that silo 
        regrading, while an important safety matter, did not contribute 
        to CTR's core threat reduction mission and could reasonably be 
        assumed by Russia.
        <bullet> Solid-fuel missiles: Most of the activity in this area 
        is yet to begin, as mobile SS-24 and SS-25 missiles are just 
        beginning to be decommissioned. The importance of eliminating 
        these strategic systems, as well as their launchers, as rapidly 
        as Russia will turn them over was reaffirmed. However, CTR will 
        refrain from eliminating a number of SS-N-20 missiles that have 
        already been decommissioned until Russia turns over additional 
        nuclear-powered ballistic missile submarines (SSBNs) for 
        dismantling. As a matter of policy, CTR always insists that 
        launchers (silos, mobile launchers or SSBN launch compartments) 
        be turned over for elimination if we are to eliminate the 
        associated missiles. Eliminating the missiles alone could 
        facilitate modernization of overall Russian force structure.
        <bullet> SSBN dismantlement: CTR will continue defueling SSBNs, 
        sealing the reactors, and removing and eliminating the missile 
        launcher compartments. However, the practice of cutting up the 
        bows and sterns will be turned over to Russia. We concluded 
        that the work on bows and sterns did not contribute to threat 
        reduction because it is not essential to the disabling of the 
        submarine as a whole and elimination of the launcher 
        compartment. In addition, this is an area where Russia can 
        reasonably be expected to increase its stake in the success of 
        this project area.
        <bullet> Spent Nuclear Fuel. CTR will continue defueling SSBN 
        reactors and securing the fuel in specially designed casks. 
        However, the project to refurbish a building for long-term 
        storage of the casks at the Mayak nuclear complex will be 
        suspended once designs are complete. There is enough storage 
        space at the shipyards where SSBNs are dismantled to 
        temporarily store these casks pending final disposition by the 
        Russian Federation. CTR is prepared to improve security at the 
        shipyard storage areas if necessary. The Mayak refurbishment 
        project was judged to be an unnecessary infrastructure 
        requirement that did not contribute to threat reduction.
        <bullet> Nuclear Weapons Security/Transportation. We 
        revalidated the value of supporting Russian transportation of 
        warheads to secure, central storage sites with improved 
        inventory controls. However, CTR will turn over to Russia 
        responsibility for the personnel reliability and emergency 
        response support activities under this project area. These 
        activities will be at low cost to Russia, and provide an 
        opportunity to increase Moscow's stake in the success of this 
        project. In addition, CTR will continue transferring 
        responsibility for certain nuclear weapons storage site 
        security projects to the Department of Energy (DOE). The DOD 
        and DOE have worked closely on these complimentary efforts over 
        the past 2 years. Among other issues, storage sites more 
        closely associated with DOE activities were shifted to the DOE 
        for security improvements. These sites were often sites linked 
        to Russian naval facilities.

    The rescoping review for Russia will ultimately affect 
approximately $185 million. These are funds that will be reallocated to 
other CTR projects, or that will shift to DOE through the transfer of 
certain nuclear weapons storage security responsibilities.
Ukraine
    As a result of our review, we decided to cancel the CTR project 
that would have built a hydro-mining system to remove solid fuel from 
previously demilitarized SS-24 missile stages and convert the byproduct 
to mining explosive that would be turned over to Ukraine for sale. The 
project was significantly over budget and presented further cost 
escalation risks. Technical aspects of safely storing the propellant 
by-product and converting it into mining explosives also were 
unresolved after significant expense. All warheads and proliferable 
components have been removed from the 163 rocket motors, which are in 
safe storage built by CTR. Accordingly, the threat from these missiles 
has been eliminated. We have offered Ukraine an alternative, less risky 
means of disposing of these motors. After understandably tough 
consultations we recently received an expression of interest from Kiev.
    We also cancelled CTR projects in Ukraine that would have 
neutralized fuel from air-to-surface missiles, and destroyed liquid 
rocket fuel tank farms and concrete aprons where strategic bombers once 
sat on alert. We concluded that these projects no longer supported 
CTR's central threat reduction and nonproliferation mission because 
this infrastructure, in its current form, could not be used for any 
threatening activity or proliferated outside Ukraine. The requirements 
to eliminate this infrastructure are not complex or expensive, and were 
judged readily assumable by Ukraine. We revalidated projects to destroy 
strategic bombers still in Ukraine, as well as several old nuclear 
warhead storage bunkers, the designs for which could be exploited.
    Overall, we assessed that over $100 million in CTR activities 
previously programmed for Ukraine did not make a direct contribution to 
threat reduction. Of that total, approximately $30 million had already 
been appropriated. These funds will be reallocated to other CTR 
activities in Ukraine, including the biological weapons and WMD 
proliferation prevention project areas.
    Mr. Chairman, reviewing, revalidating, and rescoping these project 
goals in Russia and Ukraine will help ensure that CTR remains focused 
on current threat reduction priorities. Our adjustments to project 
areas are designed to ensure that CTR is returning real 
nonproliferation value for the taxpayer's investments. Our insistence 
on increased Russian participation in certain ongoing projects is 
directed toward increasing Russia's stake and accountability in the CTR 
program.

              BIOLOGICAL WEAPONS PROLIFERATION PREVENTION

    Mr. Chairman, we estimate that there are approximately 40 
institutes that were part of the Soviet biological weapons program. 
These institutes often contain extensive collections of dangerous 
pathogens. They face threats from within--under-employed experts; and 
from without--poorly secured facilities and weak inventory controls. We 
address this former Soviet biological weapons threat by balancing 
carefully the risks of proliferation against Russia's compliance with 
international commitments. In Uzbekistan, Kazakhstan, and Georgia, 
CTR's BWPP activities continue. In addition, an agreement to support 
CTR BWPP work in Ukraine is near completion and we hope to expand this 
project area to Kyrgyz Republic this year. CTR helps to reduce the 
biological weapons proliferation threat by:

        <bullet> Consolidating and enhancing the security of dangerous 
        pathogen collections at biological institutes to help prevent 
        their theft, diversion, or accidental release;
        <bullet> Eliminating infrastructure, equipment, and facilities 
        previously used to perform biological weapons related research, 
        testing, and production;
        <bullet> Engaging former biological weapons scientists in 
        peaceful pursuits by refocusing research priorities and 
        projects, increasing transparency at biological institutes, 
        promoting higher standards of ethical conduct, preempting a 
        potential ``brain drain'' of scientists to rogue states and 
        terrorist groups, and providing U.S. access to scientific 
        expertise and pathogens to improve public health and enhance 
        preparedness against biological threats;
        <bullet> Implementing a Biological Weapons Threat Agent 
        Detection and Response (TADR) project in Central Asia and the 
        caucasus to access medical intelligence, consolidate pathogen 
        collections into central labs, modernize diagnostic 
        capabilities to minimize need for pathogen retention at 
        vulnerable field stations, and develop a network of trained, 
        ethical scientists to prevent, deter, and contain either a 
        naturally occurring outbreak or a bioterrorist attack.

    Of course, none of this work can go forward with fiscal year 2004 
funds until the congressional notification requirements of section 1304 
(National Defense Authorization Act for Fiscal Year 2004) are met. I do 
not anticipate problems meeting this requirement for Kazakhstan, 
Ukraine, Uzbekistan, and Georgia. Outside Russia, cooperation on BWPP 
activities has been very good. We have had prompt agreement on the 
legal architecture to cover this CTR project area. In addition, a 
number of countries readily provided samples of dangerous pathogen 
strains native to their regions. DOD management and technical teams 
made nine trips in support of BWPP overall during 2003. Our teams 
traveled to Kazakhstan and Uzbekistan to discuss anticipated projects 
and toured three Uzbek and two Kazakh institutes to record observations 
and photographs to support future work. These teams also reviewed the 
ongoing threat and vulnerability analyses of these institutes and 
evaluated recommendations for emergency security upgrades proposed by 
the CTR contractor on these projects.
    Russia poses unique challenges in this area:

        <bullet> We continue to be concerned with Russia's compliance 
        with the Biological Weapons Convention.
        <bullet> We are also concerned about the solvency of certain 
        Russian laboratories being assisted by CTR.
        <bullet> Russia has still not provided a sample of its altered 
        anthrax strain. A research grant was made with the clear 
        understanding that the altered anthrax strain would be provided 
        to the U.S. The Russian government has obstructed the release 
        of this strain. This is inconsistent with the spirit of 
        cooperation against the bioterrorism threat to which Presidents 
        Bush and Putin agreed in November 2001.
        <bullet> We are also concerned that Russia has not been more 
        forthcoming on developing an efficient legal architecture 
        through which to provide CTR assistance. This assistance is 
        currently provided through the International Science and 
        Technology Center agreement negotiated by the Department of 
        State. While it is possible to carry on CTR activities in this 
        manner, it is inconsistent with CTR's strategy of using 
        project-related implementing agreements.

    Sound implementing agreements are one of the ways we manage program 
risks that are inherent in CTR's work. We also took several important 
steps in 2002 and 2003 to manage the proliferation risks associated 
with Russia's collections of pathogens and biological infrastructure.

        <bullet> In September 2002, the administration adopted 
        interagency guidelines for U.S. efforts to engage the former 
        Soviet biological weapons community, which take into account 
        our concerns about Russia's failure to fully comply with its 
        Biological Weapons Convention commitments. These guidelines 
        help U.S. agencies support nonproliferation policy choices by 
        providing project evaluation and selection criteria and by 
        establishing a coordination mechanism for agencies involved in 
        bio-related assistance to Russia.
        <bullet> We refined and added to the internal DOD review 
        mechanism that is designed to mitigate risks associated with 
        Cooperative Biological Research (CBR) projects. A new CBR 
        project proposal is reviewed by a DOD Advisory Board consisting 
        of biodefense, counterproliferation, technology security and 
        intelligence experts. Proposals are studied for dual-use 
        potential, scientific and technical merit, relevance to 
        national strategy, risk of diversion, and feasibility. These 
        projects are also scrutinized using the MDA review process.
        <bullet> The DTRA and the Department of the Army concluded a 
        memorandum of understanding in January 2004 that will help 
        ensure a supply of seasoned U.S. personnel to support CTR's 
        cooperative biological research program. These personnel, under 
        the auspices of the U.S. Army Medical Research Institute of 
        Infectious Disease (USAMRIID) will help to bring western 
        standards of research transparency and conduct to the former 
        Soviet biological weapons community. The experience of the 
        USAMRIID personnel also helps limit the risk of CTR assistance 
        being surreptitiously diverted for purposes inconsistent with 
        international law.

    Keeping Russia's biological weapons technology, pathogen 
collections, and expertise out of terrorist hands strengthens U.S. 
national security; however, those national security benefits need to be 
carefully weighed against the inherent risks of engagement. The risk of 
misuse can never be reduced to zero, but we are using policy and 
implementation strategies to minimize this risk and allow us to focus 
on the goal of BWPP.

    WEAPONS OF MASS DESTRUCTION-PROLIFERATION PREVENTION INITIATIVE

    The WMD-PPI is designed to address the vulnerability of the FSU's 
porous borders to WMD smuggling. DOD intends to build capabilities of 
Kazakhstan, Azerbaijan, Uzbekistan, and Ukraine to stem the potential 
proliferation of WMD.
    During 2003, the CTR staff began building the necessary legal 
framework for assistance to the four WMD-PPI recipient governments. 
Much progress has been made, with agreements signed between the DOD and 
Azerbaijan in January 2004, and between the DOD and Uzbekistan in 
October 2003. Ukraine has notified us that it is ready to sign, and we 
are in final negotiations with Kazakhstan. Discussion of requirements 
with these recipients is also at a mature stage, and obligation of 
funds will begin this year. We will provide equipment, training, and 
other support to help develop self-sustaining capabilities to prevent 
the trafficking of WMD materials across recipients' borders. WMD-PPI is 
being implemented in close coordination with other U.S. agencies to 
ensure it complements ongoing government assistance projects.
    Our plans include providing Uzbekistan the ability to detect 
radiological materials at key border crossings. This project area will 
be designed to transition into the larger DOE ``Second Line of 
Defense'' program once DOE is better positioned to assume 
responsibility. This activity helps WMD-PPI leverage pre-existing 
relationships in Uzbekistan during a period of increased DOD activity 
in the area.
    A key element of WMD-PPI will be a Caspian Sea WMD maritime 
interdiction project. We will provide surveillance radars and boarding 
and maritime interdiction equipment, to include small vessels, to 
Azerbaijan and Kazakhstan to build their capabilities to police their 
own borders against illicit WMD trafficking. An essential aspect of 
this project will be inclusion of WMD-related training both for 
operation of the equipment as well as follow-on maintenance 
requirements. This is a capabilities-based WMD non-proliferation 
activity: CTR's goal is to do what is necessary to build the 
capability, and then eventually turn it over to Azerbaijan and 
Kazakhstan to execute as their contribution to the global war on 
terrorism and WMD. Our initial plan calls for a 5-year project timeline 
to create the necessary capabilities.
    In Ukraine, WMD-PPI will assume a larger place, along with the 
BWPP, now that strategic infrastructure projects have been cancelled or 
wrapped up more quickly. Notional plans include building Ukrainian 
capabilities to detect and interdict smuggled radiological materials in 
the Transnistria region.

                           EXPANDED AUTHORITY

    The administration appreciates the new authority granted the 
President to use up to $50 million annually in existing CTR 
appropriations outside the FSU. Section 1308 of the National Defense 
Authorization Act for 2004 provides this important flexibility in the 
global war on terrorism. Enactment of this provision was a truly 
significant modernization of CTR's basic authorities. It allows our 
important work to go forward while improving readiness for a variety of 
contingencies in the global war on terrorism where DOD might bring 
special non-proliferation expertise to bear. On February 11, the 
President called for the expansion of the G-8 Global Partnership 
Against the Spread of Weapons and Materials of Mass Destruction, of 
which CTR is an important part, to address WMD proliferation threats 
worldwide. He specifically mentioned retraining WMD scientists and 
technicians in countries like Iraq and Libya, and the need to secure 
and eliminate WMD and radiological materials worldwide. The ability to 
use CTR outside the FSU is an important tool to help realize the 
President's proposal; we urge Congress to maintain the new authority.

                               CONCLUSION

    Mr. Chairman, Deputy Secretary Wolfowitz wrote his Russian 
counterparts in mid-2003 to urge their prompt action on a pending CTR 
legal agreement. He told these senior officials that ``we are reviewing 
all CTR project areas for consistency with U.S. nonproliferation goals 
as well as good stewardship of U.S. resources. The amendment we have 
requested is reasonable and will facilitate the important cooperative 
nonproliferation work DOD has undertaken . . . through the CTR 
program.''
    Dr. Wolfowitz's message captures what we have done with CTR since 
the Heptyl and Votkinsk situations, and through the course of the 
rescoping review. CTR has been reducing the threat of WMD since it 
began over a decade ago. We have revalidated that goal and the 
contribution of our activities to that goal in an exhaustive review. 
However, we have also been reminded that even as we protect Americans 
from the threat of WMD proliferation, we must constantly improve our 
processes to ensure that Americans receive true value for their 
investment. One of the recent lessons in this regard is that the 
original concept of a ``cooperative'' program pays dividends by 
increasing our partners' stake in the success of the assistance 
activities they receive. Re-emphasizing the ``C'' in CTR is an 
important way to keep this key US threat reduction program on solid 
footing in its second decade.

                               ATTACHMENT
                    FISCAL YEAR 2005 BUDGET REQUEST

Russia: Strategic Offensive Arms Elimination (SOAE)
    The fiscal year 2005 budget request includes $58.5 million for 
SOAE--unchanged from fiscal year 2004. SOAE assists Russia in 
eliminating strategic delivery systems and infrastructure. One of the 
larger project areas under SOAE relates to Solid Propellant ICBM/SLBM 
and Mobile Launcher Elimination, where $29.1 million is requested for 
fiscal year 2005. Other funds eliminate SLBMs and liquid-fueled ICBMs 
and their launchers. The program supports placement of spent naval 
reactor fuel into casks for long term storage, destruction of the 
launcher section and sealing of the reactor compartment.
Russia: Nuclear Weapons Storage Security (NWSS)
    CTR's NWSS program assists Russia with safe and secure storage for 
nuclear warheads. We requested $48.6 million in the fiscal year 2005 
budget for this program. All of the funds are directed toward the Site 
Security Enhancements project, which provides urgently needed security 
enhancements to the MOD nuclear weapons storage sites and select 
temporary transshipment points for movement of deactivated warheads. 
DOE provides comprehensive security enhancements to storage sites on 
all Russian Navy and some Strategic Rocket Forces (SRF) bases. These 
activities are closely coordinated with DOE and other U.S. agencies.
Russia: Nuclear Weapons Transportation Security (NWTS)
    We have requested $26.3 million for the NWTS program, which will 
provide safe and secure transport of approximately 1,500 nuclear 
warheads from deployed sites to dismantlement or enhanced security 
storage sites. This is a $3.1 million increase over the fiscal year 
2004 budget. This increase reflects an anticipated increase in railroad 
shipping tariffs and a need to replace aging warhead cargo railcars.
Russia: Fissile Material Storage Facility (FMSF) Construction
    In December 2003, CTR completed work on and transferred custody of 
the FMSF to the Russian Federation. This facility provides a secure, 
centralized storage facility for weapons grade fissile material. DOD is 
negotiating a transparency agreement to ensure the quality and quantity 
of material stored at the FMSF. DOD may require funding to design, 
construct, test, and certify a system to assess whether the contents of 
the fissile material containers to be loaded in the FMSF are of the 
desired quality and quantity.
Russia: Biological Weapons Proliferation Prevention
    Overall funding requested for the BWPP program in fiscal year 2005 
rose slightly from $54.2 million in fiscal year 2004 to $54.9 million. 
The BWPP funding request reflects the administration's firm commitment 
to combat biological weapons proliferation as part of the war on 
terrorism. DOD anticipates obligating approximately $20 million of 
fiscal year 2005 funds for BWPP activities in Russia.
Russia: Chemical Weapons Destruction (CWD)
    The budget request for the CWD program in Russia is $158.4 million, 
a decrease of $41.9 million. The reduction results primarily from the 
fact that we have passed the high point of the construction funding 
curve on the CWDF at Shchuch'ye. In addition, we will complete work on 
the Chemical Weapons Production Facility Demilitarization project at 
Volgograd this year.
    The CWDF saw a significant increase in fiscal year 2004 spending 
due to initiation of construction in March of last year. Since the 
design for the entire facility was over 80 percent complete, the 
construction drawing sets for many buildings were approved for 
construction. DOD has authorized construction of those buildings using 
the prior-year funding. The fiscal year 2005 funding level ($155.2 
million) continues to meet the President's direction to accelerate the 
CWDF consistent with the rebaselined schedule that calls for 
construction completion in February 2007 and transfer of custody to the 
Russian Federation by September 2008. Congress, in fiscal year 2002, 
conditioned all future funding for construction at Shchuch'ye on its 
certification of six conditions; the administration continues to press 
Russia on the two that remain unfulfilled: a full and complete 
accounting of the size of the Russian chemical weapons stockpile, and 
the completion of a practical plan for eliminating nerve agents.

                      NON-RUSSIAN FSU STATES: BWPP

    The budget request for BWPP increased slightly from the fiscal year 
2004 level of $54.2 million to $54.9 million. DOD anticipates 
obligating $34.9 million toward non-Russian FSU states in fiscal year 
2005, a significant increase from fiscal year 2004. This increase is 
due primarily to the expansion of the CBR project area and Biosecurity 
and Biosafety projects in the region, as well as continued 
implementation of the biological weapons TADR project in Uzbekistan, 
Kazakhstan, and Georgia. Ukraine and the Kyrgyz Republic have expressed 
interest in BWPP program activities and CTR staff are negotiating the 
necessary legal framework to support such assistance.

        <bullet> For CTR's Biological Weapons Infrastructure 
        Dismantlement and Restructuring program, DOD is requesting $1.7 
        million for fiscal year 2005 to continue eliminating remnants 
        of Soviet biological weapons-related infrastructure in Georgia 
        and Kazakhstan.
        <bullet> For CTR's CBR project area, DOD is requesting $7.1 
        million for fiscal year 2005. This will continue projects in 
        Kazakhstan and Uzbekistan to help prevent the proliferation of 
        biological weapons expertise, enhance transparency, improve 
        standards of conduct of former biological weapons scientists, 
        and leverage their extensive expertise. There is currently one 
        project in Kazakhstan and two in Uzbekistan; CTR plans to 
        develop new projects in both Uzbekistan and Kazakhstan as well 
        as in Georgia. In addition, we hope to be able to move forward 
        with this project area in Ukraine during fiscal year 2005.
        <bullet> For CTR's Biosecurity and Biosafety project area, DOD 
        is requesting $12.6 million for fiscal year 2005. We will 
        continue projects in Kazakhstan, Uzbekistan, and Georgia. We 
        hope to initiate projects in Ukraine and the Kyrgyz Republic 
        under this project area.
        <bullet> For CTR's TADR project area, DOD is requesting $13.5 
        million for fiscal year 2005. Under this project area, CTR 
        promotes biosecurity and biosafety at biological facilities in 
        Kazakhstan, Uzbekistan, and Georgia by strengthening dangerous 
        pathogen detection and response networks, facilitating the 
        discovery of the diversion or accidental release of biological 
        materials and allowing the removal of dangerous pathogen 
        collections from existing sentinel stations and consolidation 
        of them in central reference laboratories. We hope to initiate 
        projects in Ukraine and Kyrgistan.

                    NON-RUSSIAN FSU STATES: WMD-PPI

    As in 2003 and 2004, we are requesting $40.0 million in fiscal year 
2005 to support WMD-PPI, which is designed to enhance Kazakh, Azeri, 
Ukrainian, and Uzbeki capabilities to prevent, deter, detect, and 
interdict illicit trafficking in WMD and related materials. While this 
is not a security assistance program, DOD is coordinating with other 
U.S. agencies to finalize the overarching strategic plan for export 
control and border security assistance to these states. This initiative 
builds on the foundation created by the CTR Defense and Military 
Contacts program.
    In implementing the WMD-PPI, DOD has developed projects designed to 
produce comprehensive operational capabilities based on the interagency 
approved U.S. strategic plan and country/regional requirements. These 
projects will provide not only equipment and related training, but also 
self-sustaining operations and maintenance capabilities.

    Senator Roberts. Ms. Bronson, I thank you for an excellent 
statement. Thank you for summarizing your very important 
points, especially in regards to your emphasis on the 
cooperative nature of these programs.
    I am not going to get into a personal history of this, but 
this subcommittee was first formed on the suggestion of Senator 
Warner, Senator Lieberman, and Senator Coats, and I did have 
the privilege of chairing it at its first beginning. Obviously, 
the Nunn-Lugar program and the other programs have a life of 
their own in terms of value. But we have experienced serious 
problems and we have come up with some requirements, as a 
matter of fact, the requirements that basically saved the 
program from the criticisms that were being voiced in the 
House, and agreed to by the Russians and many delegations that 
would come here.
    Under the circumstances, I think that your comments are 
right on point.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you for your testimony. Both witnesses and the 
chairman referred to the President's speech, and it was a 
sobering but also a very ambitious challenge to all of us. I 
wonder how the budget for this year measures up to the 
challenge and to the scope of the problem. I know, Secretary 
Bronson, you said it is only one measure of what you are doing, 
but as I understand it the DOD budget goes down by $40 million. 
There are significant cuts of programs, but deferral in some 
cases of programs that were anticipated to begin.
    Can you comment on how the resources match the nature of 
the challenge and also the President's commitment to do a great 
deal more about it? Secretary Bronson?
    Ms. Bronson. I would be happy to do that. While my written 
testimony goes through line by line our budget request, you 
have raised an important point. If you look at the size of our 
budget request in fiscal year 2003, we asked for $414.4 
million. Last year, for 2004, we asked for $448.6 million. This 
year, as you have correctly pointed out, we have asked for 
$409.2 million.
    The vast majority of that extra $40 million or so was 
specifically asked for in 2004 to help us with the Shchuch'ye 
chemical weapons destruction facility (CWDF). In 2003 and 2004, 
we went ahead and we got over what I would refer to as the 
heavy infrastructure construction bump in this project. We are 
spending this year and we began to spend the money to go ahead 
and complete the construction and buy the capital-intensive 
equipment for that facility. We are not going to have those 
same kinds of up-front costs in 2005 and 2006.
    The amount of money we are requesting for the strategic 
offensive arms elimination is exactly the same as we asked for 
last year. The amount of money that we are requesting for BWPP 
activities is a bit more than we are for last year. The amount 
of money that we are requesting for an important new program, 
the WMD proliferation prevention initiative, is also more than 
we asked for last year.
    These two programs, the BWPP and the program for assisting 
the countries in the Caucasus and Central Asia to deal with 
their porous borders, these are not capital-intensive projects. 
These are projects where we can achieve results without the 
kinds of expenditure of money that we have to spend in a case 
like the CWDF.
    So I would urge close review of what we are trying to do 
and what we are trying to do with the money, in addition to 
scrutiny of the actual amount that we have asked for, Senator.
    Senator Reed. Well, I thank you. That is a very thoughtful 
response. I am going to turn to Mr. Longsworth in a moment. It 
strikes me too that in a situation where your theater 
operations have been expanded outside of the FSU, which would 
argue probably for more challenges and more money, also there 
is a refocusing on the war on terror, not just the traditional 
sort of dismantling of national weapons depots and national 
weapons systems like in the FSU. Also, the impression I have is 
that every time we turn around we discover the scope of this 
problem is much bigger than we ever thought, and also time does 
not seem to be on our side.
    We all will carefully look at the budget. It seems to me 
that we can and should do much more, but I thank you for your 
very careful and thoughtful response.
    Mr. Longsworth, I would ask you the same question, 
essentially.
    Mr. Longsworth. Our budget, has a 1-percent increase. As I 
noted in my testimony, that is augmented by the contributions 
from other G-8 nations, which are also spending increasing 
amounts of money in Russia. In our budget, I agree with what 
Ms. Bronson said--some of the things that will have the 
greatest impact on stemming proliferation are not high dollar 
activities. We have a $7 million increase in our export control 
program. That is a very small amount of money that pays big 
dividends in terms of detecting and creating a capability in 
other countries to detect and address proliferation that comes 
through their ports or across their borders.
    So it is not all about large capital projects. Some of 
these activities do not require large amounts of money to get a 
big bang. So we have focused on those. Our radiological 
dispersal device (RDD) program, where we are helping other 
countries to secure, consolidate, and in some cases dispose of, 
RDD-usable materials, again those are not large dollar amounts, 
but again it gets a big bang for the buck, no pun intended.
    Senator Reed. I am not going to touch that, Mr. 
Administrator.
    Mr. Longsworth. Yes, sir.
    Senator Reed. Let me focus on a specific area, and that is 
the emerging news from Pakistan about proliferation, about 
diversion of materials. Can you comment in general--we will 
start with you, Mr. Longsworth--about what you may be doing in 
Pakistan today?
    Mr. Longsworth. I think what the U.S. is doing I would 
prefer to defer to closed session.
    Senator Reed. Thank you.
    Secretary Bronson, similar?
    Ms. Bronson. Yes, I think that is best discussed in a 
closed session.
    Senator Reed. Thank you very much.
    As I mentioned before, in your testimony, Secretary 
Bronson, you discussed the review of the CTR program which was 
completed in August to ensure that it effectively addresses new 
threats associated with the global war on terror. From a 
programmatic perspective, what does this mean? Were programs 
cancelled, postponed, transferred, or created? Is the CTR 
program going to shift its focus to support other 
administration initiatives?
    Can you fill us in on the programmatic effect of this 
review?
    Ms. Bronson. The programmatic effect with respect to Russia 
was that we revalidated all of the project areas that we are 
currently working on. This includes the project areas on liquid 
fuel missiles, solid fuel missiles, SSBN dismantlement, spent 
nuclear fuel, and nuclear weapons security and transportation.
    While we revalidated these project areas we rescoped 
certain specific aspects of them to make sure that the CTR 
money was used specifically to reduce the threat. For example, 
in the area of SLBM and ICBM elimination, we used to pay for 
the regrading of the silos after the dismantlement took place. 
For the most part, this is not an activity that contributes to 
actual threat reduction. So our judgment was, number one, that 
does not contribute to actual threat reduction; number two, it 
is a task that can be taken on by the Russians; number three, 
it is relatively inexpensive and within the Russians' 
capabilities. That is a more appropriate task for the Russians 
to do and we keep our money focused on the actual reduction of 
the threat.
    The same kind of rationale was in effect when we looked at 
the solid fuel missiles. For example, we are only going to 
dismantle the number of missiles that are related to the actual 
launchers that are also turned over for destruction, or the 
actual SSBN launch compartments that are turned over for 
destruction. That is because we want to be sure that we do not 
inadvertently contribute to the modernization of the Russian 
force. If we get launchers and missiles together, then we can 
be sure that we are actually contributing to the reduction of 
the threat, and this is another type of activity that was 
revalidated in our review.
    Another example is with the----
    Senator Reed. Excuse me for interrupting, but the thrust of 
my question was more about how this new focus on the global war 
on terrorism affects programmatic issues.
    Ms. Bronson. I misunderstood the question. I thought you 
were asking more about the rescoping. With respect to the 
global war on terrorism, what we have done over the last 2 
years is to look at two projects in specific. One is the WMD 
Proliferation Prevention Initiative (PPI). This is the 
initiative to go ahead and create infrastructure, training, and 
capabilities in countries like Azerbaijan and Kazakhstan so 
that they can be partners in the global war against terrorism 
by doing a better job of policing their own borders.
    So what we have done in the last 2 years is gone ahead and 
complete implementing agreements with a number of countries in 
the regions. We have made in the area of five specific visits 
to the region for the purpose of assessing how we can improve 
their border security, how we can improve their training, and 
what kinds of equipment that these countries in the region 
would need to increase their ability to police their borders.
    Similarly, in the area of biological weapons proliferation, 
we have been working with a number of countries to enhance 
their ability to better detect either unusual outbreaks of 
disease or events that could be precipitated by biological 
weapons terrorism, so that they can be part of the overall 
network in combatting potential bioterrorism.
    Senator Reed. Thank you.
    Let me just follow up with two specific questions about 
dismantling of SSBNs in the FSU. Recently there were some 
changes you made in these arrangements. Will that affect the 
overall number of submarines that we will propose to or will be 
able to dismantle? I understand also there has been a recent 
decision not to build a spent fuel storage facility. Will that 
impact the number of these submarines that can be dismantled?
    Ms. Bronson. The overall number of submarines that can be 
dismantled will not be affected by what we have done. The key 
rate-limiting step in the number of submarines that we can 
dismantle is the number of submarines that Russia is prepared 
to turn over to us.
    Senator Reed. But is there a relationship between what we 
do and their willingness to turn submarines over to us?
    Ms. Bronson. We have found no relationship between the two, 
Senator.
    Senator Reed. So even though we have made changes in terms 
of--as I understand it, previously there was a complete 
dismantlement of the submarine into scrap and now the proposal 
is just to remove the nuclear components, but not funding or 
allowing the dismantling, leaving basically the remaining part 
of the ship. That will not inhibit the willingness of the 
Russians to turn these ships over to us?
    Ms. Bronson. We briefed the Russians on this and when we 
briefed them they had no objection.
    Senator Reed [presiding]. Thank you.
    One final question and then I would like to recognize, on 
behalf of the chairman, Senator Akaka. I understand, Mr. 
Longsworth, that you recently announced a program to work with 
Iraqi scientists. Can you just describe in general details how 
this program will be structured? Are these nuclear weapons 
scientists or just scientists in general, and how will you 
address the perennial issue of liability?
    Mr. Longsworth. Let me start at the tail end of your 
question. It is interesting that with other countries we have 
not had the same liability roadblocks that we have had with 
Russia. Other countries are willing to accept the liability 
standard that we have asked for, again to protect U.S. workers 
and companies.
    Senator Reed. Can I just interject? It is my understanding 
that there are arrangements with Russia that have liability 
protections that are already up and running. But we are asking 
for more expansive protections in general now. I guess it begs 
the question, if we can get some programs up and running with 
one form of liability, why do we have to change the score?
    Mr. Longsworth. We have suspended several programs that had 
separate liability provisions in them, most notably the 1998 
Plutonium Disposition Agreement and the NCI agreement. The rest 
of our programs are attached to the CTR umbrella agreement, 
which has not expired yet, and Ms. Bronson can talk more about 
that.
    Today, our programs use CTR liability protections as their 
umbrella agreement.
    Senator Reed. Again, I diverted you for a moment. Just a 
quick point on Iraq and then I am going to cease work.
    Mr. Longsworth. Yes. This is a cooperative effort we are 
doing with the nations in the Persian Gulf region. This is not 
a U.S. initiative. This will not have a U.S. face on it. It 
will have an Arab face on it. We are cooperating with the other 
nations. They have formed an organization that will go into 
Iraq and, much the opposite of what we are trying to do in 
Russia--in Russia we are trying to make sure that scientists 
that leave the lab have some soft landing so that they do not 
go work for a rogue element. In Iraq it is the opposite. We are 
trying to bring the scientists back and give them legitimate 
work. So it is the inverse of what we are trying to do in 
Russia.
    But we will provide some funding. Regional partners will 
provide additional funding. The intent is to employ scientists 
that could support WMD programs. It is WMD across the board. It 
is not just nuclear, because you need physicists, you need 
chemists, you need engineers in all of those types of weapons 
programs. So this is something that will address WMD generally. 
Obviously, our principal interest parochially for our program 
is nuclear, but the people that we will employ could work in a 
broad range of WMD programs.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Roberts [presiding]. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Longsworth, I want to tell you that I am pleased that 
the Off-Site Source Recovery Program is receiving more support. 
I am pleased about that. I have been urging this for a while, 
and I want to thank you for taking this on and bringing it to 
this point.
    You said in your testimony that, given recent threats to 
the United States, it has become increasingly clear that 
protecting and securing nuclear materials and detecting nuclear 
and radioactive materials at foreign ports, airports, and 
border crossings is a very high priority.
    Mr. Longsworth. Yes, sir.
    Senator Akaka. Yet, the fiscal year 2005 budget request is 
$238 million, while the budget request for fiscal year 2004 was 
$249.5 million. So my question to you is, what part of the 
program will have to be sacrificed due to these cuts?
    Mr. Longsworth. Actually, it is an anomaly of the way 
budgets are presented. There was a significant add-on to our 
request in fiscal year 2004. So it looks as though the budget 
is decreasing. It is actually increasing if you normalize that. 
I believe we got almost a $90 million plus-up for Megaports.
    Our ability to absorb that funding is limited. We have to 
sign agreements with the host countries, we have to go do site 
surveys. All of these activities take time. Now, I will say we 
cannot engage in negotiations with a government unless we, with 
these foreign governments, have the obligational authority. So 
we do have to have the money in our account before we can sign 
an agreement with a foreign government.
    But I think we are spending at about the rate we can spend. 
I do not know that we can spend much more than we have already. 
Again, the reason it looks like it is a decrease is simply that 
we got a very large additional plus-up from Congress in fiscal 
year 2004. So fiscal year 2005 looks like it is decreasing, but 
the trend line is certainly up.
    So I guess the short answer to your question is nothing 
will not be done. In fact, we are able to accelerate because of 
that plus-up. Again, the people that work in this program--
there is one woman who I think she has been home 1 week out of 
the last 10, and she is traveling all over the world getting in 
place these agreements with the governments. So we are 
accelerating that work significantly.
    Senator Akaka. Mr. Longsworth, I am pleased that NNSA is 
working to stop Russia from producing more weapons-grade 
plutonium. But I am concerned about the budget cuts in this 
program as well. You know better than I the risk to Americans 
should terrorists obtain this nuclear weapons-grade material. I 
am certain you share my sense of urgency in this area, and my 
concern about what may happen in the event of thefts.
    I was just reading an account where in 1993, back there in 
Russia, some of the material was stolen. The person stole it 
because the person wanted money and sold it. So we are very 
concerned about this.
    So could you explain to me how the program can stay on 
target, considering the proposed reduction in fiscal year 2005 
funding?
    Mr. Longsworth. Again, I think the reduction--you think you 
are referring to the MPCA program. The Second Line of Defense 
program is actually embedded in that number. So when you hear 
about that budget line item, it includes not only securing 
material but also it includes the programs that will detect 
whether that security has failed so that you can detect any, as 
you said, any individual who is trying to steal and traffic the 
material.
    One of the reasons it looks like a decrease is what I 
mentioned before, that because that Second Line of Defense 
budget is embedded in that broader MPCA budget, it looks like 
it is decreasing.
    In addition to that, we have accelerated our warhead 
security work with the Russian navy, and that work is beginning 
to decrease because we are finishing. We are actually going to 
complete most of that work this year and probably completely 
done by the end of 2005.
    Those are major capital projects that we are just 
finishing. We are ramping up, and there is an increase for SRF 
sites that we will be adding. Again, I noted we added three 
sites. We hope to add some additional sites later this year.
    Overall I think we are working at a pace that is as fast as 
last year, and last year was three times faster than the year 
before. So we are working at a pretty good pace. We are about 
what Russia can absorb at this point in terms of funding.
    Again, I have often said, and the Secretary and Ambassador 
Brooks have said, we are not limited by funding right now; we 
are limited by Russia's ability to absorb the funding that we 
provide. Some of the challenges I mentioned, like access, 
liability and other things, affect Russia's ability to absorb 
funding.
    Senator Akaka. Thank you.
    Ms. Bronson, the CTR is an important program to prevent 
weapons and weapons-usable materials and expertise from falling 
into the wrong hands. Experts are calling for an acceleration 
of the program. Yesterday, DCI Tenet emphasized to us in 
testimony before the full committee his concern that terrorists 
are trying to obtain WMD, including nuclear material from 
Russia.
    I understand from your testimony that your fiscal year 2005 
budget of $409.2 million does not represent a decrease in 
overall funding for the program, and yet in your testimony it 
is noted that in fiscal year 2004 it was at $450.8 million. I 
am concerned that there is not enough money to accelerate the 
program in the way that is needed and the experts say that is 
needed.
    If these threats are real, Madam Secretary, why are we not 
accelerating this program?
    Ms. Bronson. I have spent many hours looking at how one 
could go ahead and accelerate this program. If I were to walk 
through each area, I can walk you through where we have looked 
at that and we have not been able to find places where we can 
accelerate.
    For example, in the area of the destruction of ICBMs and 
the destruction of ICBM silos, we can only destroy those as 
fast as the Russians will turn them over to us. In the area of 
SLBM launchers and in the area of SSBNs, we can only destroy 
them as fast as the Russians will turn them over to us.
    I would point out that in our budget the amount of money 
for strategic offensive elimination is the same as it was for 
last year. In the area of nuclear weapons storage security, we 
are asking for a little bit more than we asked for last year. 
Here there is an important problem, and the problem with 
nuclear weapons safety and security is that we cannot make any 
more progress until Russia signs the additional legal 
commitment that we asked them to sign so that we can protect 
the taxpayers' money.
    We gave the Russians that document in December 2002 and we 
still do not have it signed yet, and that is despite a 
tremendous amount of pressure that we have put on the Russian 
government. So we cannot accelerate that because the Russians 
will not go ahead and sign the agreement.
    In the area of nuclear weapons transportation security, 
last year we asked for $23.2 million. This year we have asked 
for more, $26.3 million. In that area as well, Senator, we have 
a commitment agreement that we provided to Russia in December 
2002 that they still have not signed. That commitment agreement 
is a commitment that they will only use the new cargo cars to 
support consolidation or dismantlement of nuclear weapons. We 
have to get a legal agreement that they will not use those 
cargo cars to modernize their force or for purposes that have 
nothing to do with threat reduction. So we cannot accelerate 
that until the Russians go ahead and sign that agreement.
    In the area of biological weapons proliferation, we have 
asked the Russians to go ahead and sign with us a specific 
biological weapons implementing agreement. The biological 
weapons area is the only area where we do not have a specific 
implementing agreement. To date the Russians have been 
intransigent and will not go ahead and sign that agreement.
    We are unable to go ahead and pursue additional funding to 
biological weapons proliferation issues with Russia until we 
get better assurances concerning their biological weapons 
compliance.
    Now, in the area of chemical weapons destruction I am 
pleased to report that, after we lost 4 years, in large part 
because of Russian behavior, we have been able to accelerate 
that schedule and gain back 29 of the months of the 4 years 
that we lost. So we are accelerating there, and in fact part of 
the money that we had for last year's budget is being used to 
accelerate the Shchuch'ye chemical weapons destruction facility 
in accordance with the specific direction that we have from the 
President.
    In the areas of WMD proliferation prevention, we have two 
agreements signed, we have two more we hope to have signed in 
the next few months, and we are looking to go ahead and 
accelerate, consistent with good spending of money, the 
projects to go ahead and make those porous borders in the 
Caucasus and in Central Asia more safe.
    Senator Akaka. Well, I am glad to hear about those 
accelerations. I was just worried also about the remarks that 
were made by DCI Tenet that terrorists are trying to obtain 
WMD, including nuclear material, from Russia at the present 
time, and looked upon this as part of the possible 
acceleration.
    Also, what are we doing, and are we doing everything we 
can, to prevent fissile material from getting out of Russia; 
and also these other nuclear materials, as well as WMD?
    Ms. Bronson. Well, in December 2003 the fissile material 
storage facility in Mayak was finally completed. This facility 
will store securely more than 25 metric tons of Russia's 
weapons-origin plutonium. In addition, in 2003 we agreed on the 
principles to monitor the material that will be stored in that 
facility. We have been negotiating now for some 7 years a 
transparency agreement with Russia. It is our hope that we will 
complete that transparency agreement in the first half of this 
year.
    With respect to nuclear weapons security, we signed 
protocols in February of 2003. We visited six major storage 
sites to work on the security of those sites, and we will visit 
four more of those sites this year.
    Senator Akaka. Thank you very much for your responses.
    Thank you very much, Mr. Chairman.
    Senator Roberts. Thank you, Senator.
    I know each of your departments has taken steps to improve 
the effectiveness and the efficiency of the CTR programs, as 
you have just gone into in answer to the Senator's question. 
The DOD, for instance, has instituted a program to have semi-
annual executive reviews with its Russian counterparts to 
identify and rectify the potential problems. As you have 
indicated, some of these issues have proved very persistent and 
difficult to resolve.
    Is there anything we might do in legislation that would 
help strengthen your position as you negotiate with the 
Russians on matters that continue to prove difficult in regards 
to access and liability, not to mention fungibility? What could 
we do to help you in that regard? Let me go back to the not so 
thrilling days of yesteryear, when the House had determined to 
pretty well cut this program out, and we put forth in this 
subcommittee basically some mandatory steps that the Russians 
had to fulfill, and in doing so convinced our House 
counterparts that it was a worthwhile program. Senator Lugar 
personally did a great job in terms of making that point and, 
as chairman of the subcommittee at that particular time, we 
thought we had made some real steps forward. But I know that 
there are a lot of problems that continue.
    As a result of putting in these contingencies or these 
mandatory requirements, we had a Russian delegation, several of 
them, come to Washington and thank us for doing that and saying 
that they would work certainly toward these goals and basically 
thanking us for saving the program.
    I must confess that my service on the Intelligence 
Committee has prevented me from doing the homework that I need 
to do, and I apologize for that, despite able staff, in regards 
to some of the more difficult issues. But I am perfectly 
willing and open to suggestion in regards to any legislation 
that might be helpful.
    Would you like to comment?
    Mr. Longsworth. Actually, I would----
    Senator Roberts. Or should we leave well enough alone?
    Mr. Longsworth. Well, no. Let me start with some of the 
problems that we face. I think we are concerned by a number of 
developments in Russia, and Russia today is not the Russia it 
was 5 years ago or 10 years ago.
    Senator Roberts. No, they are in a lot better shape.
    Mr. Longsworth. They are, and we are seeing their economy 
is doing fairly well. It is primarily resource-based, oil and 
gas exports. It is not robust, but it is growing. They have an 
ability to pick up some of these burdens, and in fact are in 
many cases in our programs, picking up some of the burdens of 
the efforts that we do on a cooperative basis.
    I think we are also concerned by the rise and the increased 
influence of the Federal security services with regard to 
programs that we carry out in Russia. Many of our access 
problems were laid to denials that come from the Federal 
Security Services.
    I think continuing to emphasize the importance of this 
work----
    Senator Roberts. Pardon me for interrupting. Where do we 
have programs where we do not have access?
    Mr. Longsworth. We have secured a large percentage of the 
material in Russia. We have secured a larger percentage of 
sites. The most sensitive sites are what we refer to as the 
serial production enterprises. These are their most sensitive 
sites. They have ongoing national security and nuclear weapons 
missions. Just as we would be very sensitive about allowing 
foreigners into our sites, those are the sites where we have 
the most difficult access. There are ways to work around it, 
but there are tedious details and it is very--there are tough 
negotiations on how to get in there.
    Senator Roberts. Well, we are not in closed session, but it 
seems to me that my memory comes somewhere in the neighborhood 
of bigger than about an 18-site bread box. I went to Obelinsk. 
I have been to one other so-called ``Secret City'' that was 
opened up through the NCI and other programs. I did not get 
over to see the Shchuch'ye chemical plant. Senator Lugar does 
that and has posed for a very powerful picture of, I think, a 
suitcase and some things that you could put in the suitcase if 
you were of a mind to do that, and it indicated the importance 
of the Shchuch'ye project, despite a General Accounting Office 
(GAO) report, by the way, that was very critical. That will be 
a question of mine down the road if you want to respond to it.
    But we simply could not get access. Of course, on the other 
side of it, we had a lot of problems in regards to 
transportation--how much the transportation would cost, who 
would get access, who would go, if you had to use a pole vault 
to get over the damn fence. That was not the case, but it 
almost was.
    So I guess what I am asking you is, just generally in terms 
of access, has it gotten better, worse? Where are we?
    Mr. Longsworth. For us it is about the same. It is always 
difficult. We do have a pilot at one of their most sensitive 
cities, just one, and it is going fairly well. We have a 
commitment that once that pilot is under way, about halfway 
through, they will identify the second site.
    This is a large breakthrough because these sensitive 
facilities have the greatest volume of material--a fewer number 
of buildings, but there is more material in those buildings. It 
is what I would refer to as kind of the last bastion of fissile 
material that we need and want to secure.
    So it is about the same. We do have a pilot that is 
successful, but even that has lots of fits and starts in that 
work.
    Senator Roberts. I basically interrupted you to answer my 
question in terms of legislation. We did put into legislation 
these requirements. I do not know whether we need to take 
another look at that under the current situation and get your 
advice and counsel. You could probably provide that for the 
record or if you had any, just any comments that you would like 
to make now.
    Mr. Longsworth. I would prefer to provide that for the 
record, sir.
    [The information referred to follows:]

    The administration's support for addressing the global threat of 
proliferation of WMD, both in states of the FSU and around the world, 
is reflected in the President's fiscal year 2005 budget submission, 
which requests $1.35 billion for this work. For more than a decade, the 
DOE, and now through its NNSA, has played a central role in the United 
States' effort to improve the security of under-secured nuclear 
warheads and weapon-useable nuclear materials in the Russian Federation 
and other independent states of the FSU. But the security of the United 
States, including the war on terrorism, urgently requires reducing the 
proliferation risk of nuclear, chemical, biological, and radiological 
weapons and materials, warheads, technology, and expertise in countries 
beyond the borders of the FSU.

    Senator Roberts. All right, that is fine.
    They have not met two of the six congressional conditions 
for assistance, although, as you have indicated, they are 
close, ``they'' meaning Russia, to meeting the one that 
requires the submission of a practical plan for the chemical 
weapons destruction. I understand the administration will be 
seeking permanent waiver authority for Shchuch'ye in the fiscal 
year 2005 request.
    I go back again to the GAO report, which was not exactly 
glowing in regards to Shchuch'ye. I remember going over that in 
some detail and thinking that we needed to provide security 
more than we needed to commit the funding, with all the 
problems that were connected with that plant.
    If all that is correct, would you please provide the 
administration's rationale for seeking permanent waiver 
authority? Is it in any way problematic when Congress grants 
only annual waiver authority rather than the permanent waiver 
authority that the administration has requested previously?
    Ms. Bronson. Senator, you ask an excellent question. Let me 
begin by underscoring the absolutely critical role this 
subcommittee played in the development of those six conditions. 
Those six conditions in my view allowed us to get off of square 
one. They put sufficient pressure on the Russians, they put 
Russia on sufficient notice, and they were absolutely 
invaluable in our being able to move forward in this area.
    We do believe that we are going to receive a practical plan 
from the Russians later this spring, and that leaves us with 
the final condition which has not yet been met, which is to 
satisfy our questions about the actual numbers concerning the 
stockpile. I do not believe that we are going to be able to 
resolve those tough issues about the size of the stockpile down 
to the level of detail that is going to satisfy that condition 
this year. I am reminded of the opening comment that Senator 
Reed made this morning. The desire for a permanent waiver on 
Shchuch'ye is not to go ahead and remove the pressure from the 
Russians, but the desire for the permament waiver for 
Shchuch'ye is designed, as Senator Reed mentioned, to help us 
keep the program running smoothly from year to year.
    Senator Roberts. So it is the consistency issue that you 
are talking about?
    Ms. Bronson. Yes, Senator.
    Senator Roberts. With all the questions that we have about 
access, liability, fungibility, the heptyl plant, and the 
Votkinsk--help me with that pronunciation?
    Ms. Bronson. ``Vot-kinsk.''
    Senator Roberts. All right. It is $206 million that went 
down the drain. If the American people know about $206 million 
that ended up in a very futile situation--and you have gone 
over that in your testimony--a $106 million loss suffered by 
CTR in the so-called ``heptyl situation,'' in which Russia did 
not tell us that the liquid rocket fuel destined for a CTR-
constructed facility had been diverted to commercial use. In 
other words, we build this facility, we think that we are going 
to be housing the liquid rocket fuel, which of course was the 
entire intent, and then we got into a big whoops--okay, we have 
this facility; bring us the rocket fuel; well, we do not know 
how to tell you this, but we do not have any; we have used it 
for commercial purposes.
    What in the hell are we doing with that facility now? Do we 
have a flag on it? What I am saying is that if you get into 
these kind of things and we do not have enough cooperation and 
we get into basically a screw-up like that, that becomes the 
headline in regards to CTR, despite all of the goodwill and the 
wishes and the speeches that we have made down through the 
years. Then you add in another $100 million, that is a $206 
million whoops. If you are a taxpayer you are going to say: I 
do not understand this, more especially with an improved 
economic situation in Russia.
    I am being the devil's advocate. What did we do with that 
facility? Did we paint it, or what did we do with it?
    Ms. Bronson. First of all, your comments are exactly right, 
Senator. What Russia did with respect to the heptyl situation 
was inexcusable. What we have gone ahead and done with the 
facility is we have made a decision to go ahead and take those 
parts of it that we can salvage and reuse for other parts of 
the program, so that we are going to try to get back as much 
from that investment as we can.
    But I am not going to kid you, Senator. We are not going to 
get that much back. So our goal has been to ensure that in 
every single project area that we are undertaking now or that 
we will ever undertake, we will not get ourselves into the 
situation where we rely on good faith assurances by Russia. 
Anything that we are relying on Russia to do or any assumption 
about their behavior must be turned into a legal agreement 
before we will go ahead and spend taxpayers' money in the 
future.
    Senator Roberts. I am concerned that, on the waiver 
authority, if we grant the permanent authority--explain to me 
again how that works? You have the permanent authority, but 
annually you come to Congress and say, yes? What are you 
telling us if you have the permanent authority as opposed to 
annual authority that we would grant?
    Ms. Bronson. If we have the permanent authority, each year 
as an independent determination, we would have to go ahead and 
assess how the Russians are doing on their six conditions that 
were laid out.
    Senator Roberts. Yes.
    Ms. Bronson. We would have an obligation to come and tell 
you whether or not we thought those conditions were met, and if 
the conditions were not met--including the one that I believe 
will not be met by the end of this year, which is the final 
accounting of the amounts. Then we would have the ability to 
each year make an independent judgment as to whether or not 
failure to meet that condition outweighs our security interests 
in going ahead and continuing to get that facility to a 
position--and I am talking about the Shchuch'ye facility--so 
that we can destroy the nerve agent, which is in a most 
proliferable form.
    The nerve agent that Shchuch'ye will destroy is in rocket 
form. It is in artillery shells. It is in our national security 
interest not to slow down the progress on getting that facility 
up and running so that we can destroy it.
    But each year the administration would have to go ahead and 
decide whether or not the value we would get from destroying 
those, the proliferation value from destroying those shells 
filled with nerve agent, outweighed the fact that the condition 
had not been met.
    Senator Roberts. Other than the funding for this program, 
what is it that this subcommittee, full committee, both the 
House and Senate, would have as a peg to hang our hat on in 
regards to the waiver authority and exactly what you are 
talking about, separating the wheat from the chaff? Okay, here 
is one requirement they have not met, but we do not want to 
shut down the whole thing because we are making progress in 
other areas.
    I am not sure about our decisionmaking in that process, 
which in my view should be mandatory. It was this 
subcommittee's effort that, first, saved the program from the 
House again; and second, that the Russians said, yes, we agree 
with this, we want to do it. It is my understanding that there 
has been very considerable contribution to the project, both 
from Russia and from international donors. So we see the value 
of it. But in terms of certification, I do not think you can 
certify a lot of this. I do not think it is possible.
    Ms. Bronson. Well, the one condition out of the six that I 
believe we are not going to be able to certify this year is the 
condition that calls for us to reconcile the books on the 
amounts of chemical weapons. You are correct, we are not going 
to be able to certify that that condition is met, and I do not 
see a clear way to resolving that.
    Now, there are a couple of things that I would just point 
out. Last year the authority for the presidential waiver ran 
out on September 30. The only way we were able to continue to 
spend money toward the acceleration of the construction of the 
CWDF was because we had a continuing resolution that allowed us 
to do that. We relied on the continuing resolution authority to 
continue to spend money up until the middle of November, when 
we finally obtained the waiver authority.
    The situation we are in right now is we can continue to 
spend money under the current presidential waiver authority up 
until September 30. If we do not get a permanent waiver or we 
do not get a renewal of the waiver, then you run the risk that 
everything will have to stop in terms of expenditure of funds 
on September 30.
    So there are two ways that this could work. If we had some 
kind of sense that the yearly waiver authority would be granted 
on time, that is not an unreasonable way to go. What would be 
better from a business standpoint would be to have the 
permanent waiver authority with the understanding that there is 
a clear obligation on the part of the administration to go 
ahead and make this determination and to report to Congress on 
the status of the conditions.
    Senator Roberts. We will take a hard look at it. I think 
probably the permanent waiver authority is the best way to go, 
but you can now certainly report back to your Russian 
counterparts that the pleasantly irascible chairman who put in 
the requirements to begin with is not very happy with their 
cooperation, and we might just yank this back on an annual 
basis and give you that authority.
    I am not sure that is the best approach, but you can at 
least send up some fireworks on that and see what happens.
    I understand the state of the art facility at Mayak is 
completed and ready to accept the fissile material for long-
term safe and secure storage. The Inspector General, back in 
2003, expressed concern that the Russians had not really 
committed to storing a specific quantity or type of fissile 
material on the facility and that we had not reached an 
agreement on the transparency measures so that the United 
States can monitor the use of this facility.
    Any new information on that?
    Ms. Bronson. We have not finished the transparency 
agreement. We are going to send back our response to the latest 
Russian comments on the current draft of the transparency 
agreement. That will be done by the end of March. We will then 
send a team to go ahead and enter into the next round of 
discussions with the Russians on the transparency agreement 
this April.
    I am hopeful that by the end of the first half of this year 
we will have completed that transparency agreement with the 
Russians.
    Senator Roberts. Last year the project to refurbish or 
build two fossil fuel plants in Russia to enable eventual 
shutdown of three old Russian weapons-grade plutonium 
production reactors was transferred from DOD to DOE. Has that 
gone smoothly, and what steps has the DOE taken to ensure that 
once these alternative heat sources are up and running the 
Russians will actually shut down the reactors?
    In other words, are these projects actually proceeding on 
schedule and on cost?
    Mr. Longsworth. The transfer went fairly well. We just 
transferred the last $17 million from DOD to the DOE. As I 
noted in my oral statement, we hope to have a validated cost 
estimate for both new fossil plants by the end of calendar year 
2004, in December. Those will be the first validated numbers.
    The numbers that we received, the cost of the facilities 
that the Russians estimated, have never been validated. We have 
just completed a bottoms-up assessment. We are trying to 
interpret those numbers. But by the end of this calendar year 
we will know what it costs to build both of those facilities.
    In terms of the Russians' commitment to shut down, it is 
encompassed in an agreement that the Secretary signed with his 
counterpart in Russia that once the replacement plants are 
operational, the Russians have committed to shut down those 
reactors. We also, as soon as we begin work on the fossil plant 
itself, they have to begin implementing a shutdown plan. So 
once construction begins, that triggers the initiation of 
shutdown planning.
    I might also note that in the interim we have actually de-
rated the power of those reactors such that they are not 
producing as much fissile material now. We have powered them 
down to about the lowest level we think that they can operate 
at and still provide steam and electricity. They are rated to 
produce one and a half metric tons a year. We have de-rated 
them so they are producing about 1.2 metric tons a year.
    All of these steps are positive, but we do want to move 
forward very quickly in getting those fossil plants built.
    Senator Roberts. Senator Reed asked a good question in 
regards to activities outside the FSU, and that sort of ties in 
with the President's speech before the NDU. Do you anticipate 
any circumstances under which the annual limit of $50 million 
for this purpose would be too restrictive?
    Mr. Longsworth. Yes, sir, I do. I can see a circumstance. 
Libya is a very good example. In Libya, we had a window of 
opportunity. We had to move very quickly, again cooperatively 
working with the Libyans, to implement their commitment to rid 
their country of WMD. Any inhibitor, that we would have to jump 
through a hoop or get a waiver, that just slows us down.
    When we first went in there, we were not sure that the door 
would be open for very long, so speed was of the essence. We 
did that work with the Libyans very quickly. I do worry, Mr. 
Chairman, in the future that if an opportunity came up such as 
that was presented by Libya that the inhibitors might slow us 
down and we might miss that opportunity.
    So I do worry about it.
    Senator Roberts. Where would you get the money from if in 
fact an opportunity actually occurred? I will use an example 
that is a non-starter, but say North Korea.
    Mr. Longsworth. Well, we hope North Korea is a starter.
    Senator Roberts. Well, I hope so, too. But, Kim Jong Il is 
not exactly the most cooperative person to be working with.
    Mr. Longsworth. Again, assuming in the future that we were 
invited in to begin the complete and verifiable, irreversible 
dismantlement of their programs, that would be a significant 
undertaking.
    Senator Roberts. You would just simply ask for a 
supplemental or to take the cap off, or what?
    Mr. Longsworth. Either of those things, yes, sir. The cap 
only applies to things that are not specifically authorized and 
appropriated. So if there is a specific authorization for work 
or a specific appropriation, then I believe our lawyers have 
determined that the cap does not--and I think your staff has 
agreed--that the cap does not inhibit those activities. It 
would only inhibit those activities that were initiated during 
a fiscal year.
    But again, I do worry about the cap, our losing an 
opportunity to do something quickly because we had to get a 
waiver or because we had to go through some approval process.
    Senator Roberts. I am through with my questions. Paul, do 
you have anything that you would like to sum up with? Or Lisa, 
do you have anything else to add before we move to the closed 
session?
    Mr. Longsworth. I would like to follow up one thing to 
summarize what our programs do, related to Senator Akaka's 
comments about what we are doing to stop the potential for 
fissile material to leave Russia. We have a comprehensive set 
of programs that not only secure HEU, plutonium, and RDD 
sources at the locations where they are, we then put detectors 
in place to detect whether they leave. We also have 
technologies that detect whether someone is violating treaties 
or to remotely detect proliferation.
    We view our program as a meshwork of programs that are 
self-supporting and provide defense in depth. All of our 
programs are geared toward stopping threats to the U.S. before 
they get to our borders. So just, to answer his question--he 
asked what we are doing--I think our entire program is focused 
on securing, detecting trafficking, and then eliminating 
through HEU blend-down programs, plutonium disposition, getting 
rid of permanently those materials that are useful for nuclear 
weapons.
    So I wanted to summarize. I think that is what our program 
does at the DOE.
    Senator Roberts. I appreciate that. Thank you both, and we 
will now move to a closed session.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                      COOPERATIVE THREAT REDUCTION

    1. Senator Akaka. Ms. Bronson, as I stated at the hearing, I am 
concerned that the Cooperative Threat Reduction (CTR) program needs to 
be accelerated. I understand that getting cooperation from Russia is a 
key obstacle. However, I would like the program to continue looking for 
ways to accelerate in a responsible way. What would you do more of if 
you had the money to do so, including hiring additional staff to manage 
activities?
    Ms. Bronson. The President's fiscal year 2005 budget request for 
the CTR program coupled with prior year unobligated balances permits 
the elimination of strategic systems as rapidly as the Russian 
Federation authorizes their elimination. Since the hearing, agreements 
that the Ministry of Defense of the Russian Federation had been 
reviewing for over 12 months have been signed. Their signature permits 
security upgrades to continue for all nuclear weapons storage sites 
thus far identified by the MOD and we are urging the MOD to identify 
additional sites. The DOD security enhancement effort is carefully 
coordinated with the DOE nuclear weapons site security enhancement 
effort. Our joint efforts have permitted the schedule to be 
accelerated. The department has reprogrammed funds to  maximize the 
acceleration of the construction of the Chemical Weapons Destruction 
Facility at Shchuch'ye. We are continuing efforts to secure dangerous 
pathogen collections at all locations where the USG has been granted 
access by the Russian Federation. The CTR program has sufficient staff 
and has a Systems Engineering and Technical Assistance (SETA) 
contractor with SAIC to support the DOD staff. DOD also has contracted 
with U.S. integrating contractors to expeditiously implement the 
program.

           BIOLOGICAL WEAPONS PROLIFERATION PREVENTION (BWPP)

    2. Senator Akaka. Ms. Bronson, I am especially concerned with the 
proliferation risks associated with Russia's collection of pathogens 
and biological infrastructure. Infectious disease knows no boundaries. 
Do you have the resources you need, both in terms of budget and 
personnel to combat this problem in the most expeditious way?
    Ms. Bronson. Yes. I believe that we now have in place the necessary 
personnel and that funding is sufficient to combat this problem in the 
most expeditious way possible, consistent with the access that we have 
to sites in Russia.

        ASSISTANCE TO COUNTRIES OUTSIDE THE FORMER SOVIET UNION

    3. Senator Akaka. Ms. Bronson, we are providing more and more 
assistance to countries outside the former Soviet Union (FSU), yet the 
total budget is not increasing. I am concerned that initiatives in 
Russia are being short-changed. How are these things being prioritized?
    Ms. Bronson. Programs in Russia are not being short-changed. Our 
funding requests are based on our projected needs. The need is directed 
related to the rate the Russian Federation decides to remove strategic 
systems from the operational force and eliminate them and decides to 
grant access to nuclear weapons storage sites and dangerous pathogen 
collections. As I stated during the hearing, we had a heavy 
infrastructure construction bump for the Shchuch'ye CWDF in 2003 and 
2004. We are not going to have that same sort of up front costs in 2005 
and 2006. The funding for SOAE remains the same because the Russian 
Federation is removing strategic systems from the operational force at 
a uniform rate per year. Since my testimony, we have signed new 
agreements with the Ministry of Defense that permit security upgrades 
to continue for all nuclear weapons storage sites thus far identified 
by the MOD and we are urging the MOD to identify additional sites. The 
DOD security enhancement effort is carefully coordinated with the DOE 
nuclear weapons site security enhancement effort. Our joint efforts 
have permitted the schedule to be accelerated. We are continuing 
efforts to secure dangerous pathogen collections at all locations where 
the USG has been granted access by the Russian Federation.
    The funding for CTR activities in Russia relative to other 
countries has remained fairly constant. Prior to September 11, 2001, 
after which we increased our funding for BWPP and requested funding for 
WMD-PPI in Central Asia, we had been active in other countries 
eliminating their legacy nuclear systems, specifically in Ukraine, 
Kazakhstan and Belarus. Also, the CTR budget in the early years of the 
program was smaller than it is today.

    4. Senator Akaka. Ms. Bronson, what Russian programs will have to 
be cut in order to provide assistance to the other countries?
    Ms. Bronson. We have always requested sufficient funding to take 
care of all requirements we have in Russia and in other states of the 
FSU. As a result, we do not anticipate cutting any programs in Russia 
in order to provide assistance to the other countries.

               MATERIAL PROTECTION CONTROL AND ACCOUNTING

    5. Senator Akaka. Mr. Longsworth, I am concerned that the $238 
million budgeted for the Material Protection Control and Accounting 
(MPCA) program is being spread too thin. Last years budget for this 
same program was $249.5 million. The budget includes $15 million for 
the Megaports program, which is currently focusing on ports in Greece 
and the Netherlands. What Russian programs will have to be cut to 
accommodate both the decrease in overall funding and the funding of 
programs outside the former Soviet Union and how are these priorities 
being set?
    Mr. Longsworth. The core mission of the MPCA program remains 
upgrading the security of nuclear materials. The fiscal year 2005 
budget request supports this priority mission. The core mission's 
portion of the request is $174 million, an $8 million increase over the 
fiscal year 2004 request, and a $4 million increase over the fiscal 
year 2004 appropriation. This budget request reflects plans for major 
expansion of efforts to secure sites in the Russian Strategic Rocket 
Forces (SRF) warhead sites, as well as accelerated efforts to secure 
weapons usable nuclear materials at sensitive Weapons Complex sites of 
Russia's Ministry of Atomic Energy (MinAtom). The request also accounts 
for scope reductions due to completion of upgrades at several MinAtom 
facilities and the; Kurchatov Institute in fiscal year 2004. The 
request also includes funds for critical security activities in 
countries outside the FSU.
    The $238 million fiscal year 2005 budget request for MPCA is an 
increase over the fiscal year 2004 request of $226 million. The budget 
allocation in fiscal year 2004 was increased to $260 million primarily 
because Congress increased funding for the Second Line of Defense 
program. This increase provided additional resources for the Megaports 
initiative and the acceleration of Second Line of Defense activities in 
Russia and the FSU. Due to a large ($84 million) supplemental 
appropriation received for Megaports in fiscal year 2003, and because 
negotiations for implementation of Megaports are still underway in most 
countries, the fiscal year 2005 budget request only includes funding 
for one additional Megaport.

                    OFF-SITE SOURCE RECOVERY PROJECT

    6. Senator Akaka. Mr. Longsworth, as I said in my statement at the 
hearing, I am pleased that the funding for the Off-Site Source Recovery 
Program (OSRP) has been increased. However, I am concerned that more 
could be done to recover radioactive materials. The University of 
Hawaii is trying to decommission an irradiator facility that they no 
longer need for research. This irradiator contains cobalt-60 sources 
which belong to the Department of Energy (DOE). The DOE has agreed to 
recover these sources and dispose of them, but funding will have to be 
re-prioritized first. Other universities find themselves in the same 
position. I am concerned that these universities may not have the 
security and trained personnel necessary to maintain these facilities 
in a safe manner until the sources are removed. Would more funding 
speed up this process and what would you do to move this along, if you 
could, without cutting other key activities?
    Mr. Longsworth. The OSRP under the Nuclear and Radiological Threat 
Reduction Task Force is the National Nuclear Security Administration's 
(NNSA) program to address U.S. sealed sources. The OSRP has recovered 
over 8,000 sources since 1997, many of these from academic 
institutions. The OSRP identifies excess and unwanted sources, and 
recovers those sources placing them in secure storage at specific DOE 
sites. The OSRP works closely with the U.S. Nuclear Regulatory 
Commission to establish the recovery prioritization for excess and 
unwanted sources which are of concern for use in a radiological 
dispersal device. The OSRP continues to aggressively pursue the 
recovery of sources, and the program is planning to expand its scope 
and address additional isotopes of concern.
    Sources which are to remain in use at academic institutions and 
other locations, and require security in place fall under the purview 
of the U.S. Nuclear Regulatory Commission and the Department of 
Homeland Security (DHS). The DOE stands ready to provide technical 
assistance as well as share the expertise that we have developed 
internationally for providing enhanced secure storage of in use 
radiological materials.

       ELIMINATION OF WEAPONS-GRADE PLUTONIUM PRODUCTION PROGRAM

    7. Senator Akaka. Mr. Longsworth, I am pleased to see that the NNSA 
is working to stop plutonium production in Russia, but I am concerned 
about what seems to be a budget cut for the program. Your statement to 
the subcommittee said that you expect to have detailed designs and a 
cost estimate to Congress by the end of calendar year 2004. Will the 
program be able to stay on target with this reduced funding?
    Mr. Longsworth. The Elimination of Weapons Grade Plutonium 
Production (EWGPP) program's relative decrease from fiscal year 2004 to 
fiscal year 2005 reflects a +$15.3 million adjustment in fiscal year 
2004 associated with the reappropriation of unobligated prior-year 
balances that were transferred with the program from the DOD. Please 
see page 405 of the Fiscal Year 2005 Defense Nuclear Nonproliferation 
Congressional Budget Request for this adjustment, that page is also 
attached here as reference and for insert to the record.
    The reappropriation occurred because part of the funds transferred 
from DOD expired for additional obligation on September 30, 2003, based 
on the original appropriation of these funds. However, the National 
Defense Authorization Act for Fiscal Year 2003 providing for the 
transfer of the program from DOD to the DOE also entitled the 
transferred unobligated appropriations to be available for 3 fiscal 
years after and including fiscal year 2003.
    Without this adjustment reflecting reappropriation of EWGGP funds 
transfer from DOD, the fiscal year 2005 request is actually a slight 
increase over fiscal year 2004.
    No substantial fiscal year 2005 programmatic increase was requested 
as the program has sufficient funds for execution of all planned 
program and project efforts through fiscal year 2005, when including 
the $50.1 million fiscal year 2005 congressional request for the 
program.

         PREVENTING FISSILE MATERIAL FROM GETTING OUT OF RUSSIA

    8. Senator Akaka. Mr. Longsworth, when we discussed fissile 
material leaving Russia at the hearing, you stated that NNSA 
concentrates on a program that approaches this problem with a defense-
in-depth strategy. This program includes, among other things, securing 
the materials at their current location and detecting trafficking. I 
have noticed what seems to be a trend to devoting increased emphasis to 
border protection rather than securing materials at their location. Can 
you explain to me why we are emphasizing border protection to a greater 
degree?
    Mr. Longsworth. Our efforts to secure material in place have not 
dwindled in any way. We continue to make good progress in our efforts 
to secure contracts for implementation of upgrades at Russian sites. We 
recognize, however, that we can never provide total assurance that our 
improvements will prevent material from being removed from a site. Our 
Second Line of Defense program provides another opportunity to detect 
illegal movement across Russian borders and beyond. In applying our 
defense in depth strategy, we are expanding the Second Line of Defense 
program beyond the borders of Russia to provide additional 
opportunities to stop such efforts.
    The $238 million fiscal year 2005 budget request for the Office of 
International Material Protection and Cooperation is actually an 
increase over the fiscal year 2004 request of $226 million. The budget 
allocation in fiscal year 2004 was increased to $260 million primarily 
because Congress increased funding for the Second Line of Defense 
program. This increase provided additional resources for the Megaport 
initiative and the acceleration of Second Line of Defense activities in 
Russia and the FSU. Due to a large ($84 million) supplemental 
appropriation received for Megaports in fiscal year 2003, and because 
negotiations for implementation of Megaports are still underway in most 
countries, the fiscal year 2005 budget request only includes funding 
for one additional Megaport.
    The MPCA budget request in fiscal year 2005 (excluding Radiological 
Threat Reduction and Second Line of Defense) is $174 million, an $8 
million increase over the fiscal year 2004 request, and a $4 million 
increase over the fiscal year 2004 appropriation. This budget request 
reflects plans for major expansion of efforts to secure sites in the 
Russian SRF warhead sites, as well as accelerated efforts to secure 
weapons usable nuclear materials at sensitive MinAtom Weapons Complex 
sites. The request also accounts for scope reductions due to completion 
of upgrades at several MinAtom facilities and the Kurchatov Institute 
in fiscal year 2004. The request also includes funds for critical 
security activities in countries outside the FSU.

    9. Senator Akaka. Mr. Longsworth, please explain to me how these 
priorities are being set. Has a study been done to show that this 
approach is more effective?
    Mr. Longsworth. Given our understanding that no one approach will 
provide 100 percent effective protection of material or prevention of 
illicit trafficking, we do not prioritize between the two approaches, 
but rely on the strengths of each to provide a more comprehensive 
protective strategy.
    With respect to the Second Line of Defense program, our primary 
efforts have focused on securing the borders of Russia with the 
understanding that the most significant stockpiles of vulnerable 
nuclear materials are stored within it. As we expand the Second Line of 
Defense program, we are focusing on those countries bordering Russia to 
create the next layer of defense. Our priorities are also influenced by 
our relationship with these countries and our ability to realistically 
implement our programs in cooperation with the host governments. In the 
future, we anticipate the program will expand beyond eastern Europe and 
the Caucasus region as we try to address smuggling pathways to 
countries with known terrorist networks that want to obtain nuclear 
material for use in their activities.

                    COORDINATION WITH OTHER AGENCIES

    10. Senator Akaka. Mr. Longsworth, since NNSA, the Department of 
State (DOS), and DOD all have a role in providing border control, I 
would like to know about your interagency coordination in this area. 
Can you provide me with your plan to assure coordination with the other 
agencies?
    Mr. Longsworth. The DOE/NNSA works closely with the DOD and the DOS 
and other agencies to coordinate programs and issues associated with 
threat reduction programs at all levels, ranging from project 
management working groups to White House policy coordinating committees 
to ensure our threat reduction activities complement and reinforce as 
opposed to duplicating efforts.
    In order to more clearly outline roles and responsibilities among 
the agencies, two Strategic Plans were recently adopted. The first, for 
Nonproliferation Export Control and Related Border Security Assistance 
in Eurasia, was largely driven by the National Security Counsel (NSC) 
to address coordination among all relevant stakeholders (DOD, NNSA, 
Department of Commerce (DOC), and DHS. The NSC, particularly the 
Proliferation Strategy Sub-PCC, will provide broad policy oversight of 
agency efforts to implement this strategic plan and overarching 
guidance to ensure that assistance supports the U.S. National Security 
Strategy in a non-duplicative, mutually reinforcing manner consistent 
with agency strengths. The NSC approved this plan in early February.
    The second plan, on Interagency Coordination of Nuclear Detection 
Assistance Overseas, was coordinated by DOS and is being finalized. 
Subject to the guidance of the NSC, global export control and related 
border security assistance will continue to be coordinated through the 
State/Nonproliferation-chaired Interagency Working Group (IWG) on 
Nonproliferation Export Control Assistance. The DOS, DOD, DOC, DHS, and 
the Intelligence Community participate in this IWG. Given the increased 
funding for this type of assistance, it is even more important to use 
this coordination mechanism.
    All U.S. Government agencies that fund and/or implement export 
control and related border security assistance will coordinate their 
annual program plans with other agencies through this IWG. The State/
Nonproliferation-chaired IWG performs a coordination and advisory role, 
but exercises no authority over agency programs. Any disagreements over 
agency efforts to implement this strategic plan through assistance 
programs that cannot be resolved at the IWG or by relevant agency 
members will be forwarded to the Proliferation Strategy Sub-PCC. The 
IWG will coordinate periodic reviews of the strategic plan to ensure 
its effectiveness and coordinated implementation and report its results 
to the NSC.

    [Whereupon, at 11:09 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                         FRIDAY, APRIL 2, 2004

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                        COUNTERNARCOTICS PROGRAM

    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Warner, 
Allard, Dole, and Reed.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Paula J. Philbin, professional staff 
member; and Lynn F. Rusten, professional staff member.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Bridget E. Ward and Nicholas W. 
West.
    Committee members' assistants present: Darren Dick, 
assistant to Senator Roberts; Derek J. Maurer, assistant to 
Senator Collins; Christine O. Hill, assistant to Senator Dole; 
Mieke Y. Eoyang, assistant to Senator Kennedy; and Elizabeth 
King, assistant to Senator Reed.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The subcommittee will come to order. The 
subcommittee meets today, on a Friday--and thank you for being 
here--to receive testimony on the status of Department of 
Defense (DOD) drug interdiction and counterdrug activities, in 
review of the fiscal year 2005 Defense Authorization Request 
and Future Years Defense Program.
    I want to especially welcome our witnesses: the Honorable 
Thomas W. O'Connell, the Assistant Secretary of Defense 
(Special Operations and Low-Intensity Conflict (ASD SOLIC)); 
Brigadier General Benjamin R. Mixon, the Director of Operations 
for J-3 within the U.S. Southern Command (SOUTHCOM); and Rear 
Admiral Bruce Clingan of the United States Navy. He is the 
Deputy Director of Operations for U.S. Central Command 
(CENTCOM).
    When the subcommittee last held a comprehensive counterdrug 
hearing, clear back in April of 2000, narcotics were basically 
emanating from South America and were a significant and growing 
national problem. The damage to the health and the welfare of 
our Nation was enormous. At the time, Congress was debating 
support for Plan Colombia. As we meet today, narcotics do 
remain a significant problem, not only because of the harm they 
cause to our citizens, but because of the nexus between drug 
money and funding of terrorist activities all around the world.
    I believe we will hear from our witnesses today that Plan 
Colombia was a wise investment, a visionary step. Coca 
cultivation and cocaine production in Colombia is down 
significantly. The government is reasserting its authority all 
throughout the country and I believe is winning the war against 
the narcoterrorists.
    Unfortunately, narcotics cultivation, production, and 
trafficking is on the rise elsewhere, not only in South America 
but in Southeast, South, and Central Asia as well. The 
potential danger of these drugs in funding terrorist 
organizations and their activities cannot be overstated. It is 
a threat which must be effectively fought and confronted.
    It is important to note that the DOD counternarcotics 
efforts are part of the larger and comprehensive U.S. 
Government and allied partners effort to reduce the demand at 
home, interdict the movement of illegal drugs across our 
borders or in transit, and discourage any production abroad. 
Each of these areas are equally important and a coordinated 
effort is essential.
    Most attention of late has been focused on the global war 
on terrorism and continued military operations in Iraq and 
Afghanistan. Clearly these are the highest priority. But we 
must remember that effective counternarcotics activities do 
contribute to the war on terrorism, improve our national 
security, enhance our relations with other nations, and improve 
the readiness of our Armed Forces.
    The President's budget request for fiscal year 2005 
includes $852.7 million for counternarcotics activities. Now, 
this is approximately $57 million less than the appropriated 
amount for fiscal year 2004, and I do look forward to Secretary 
O'Connell's explanation for this decline. The DOD has had 
success in its counternarcotics efforts. Additionally, the DOD 
has been proactive in extending its efforts to areas of 
increasing concern.
    At the request of the administration, this subcommittee led 
efforts to provide new authorities to the DOD to assist 
countries in the Andean region as well as Central and South 
Asian nations in their efforts to eliminate or reduce narcotics 
production and traffic. Additionally, responsibility and 
authority to support the Department of Homeland Security (DHS) 
and domestic law enforcement agencies in their counternarcotics 
efforts has been assumed by the U.S. Northern Command 
(NORTHCOM). We look forward to our witnesses' testimony on how 
these authorities will be used and what progress has been 
achieved.
    General Mixon, we are all anxious to hear your testimony on 
the situation in Colombia. General Hill testified before the 
Senate Armed Services Committee yesterday and reported that 
great progress has been made by the Colombian armed forces. He 
also said that more planning and training assistance is needed 
to sustain this momentum and that a modest increase of U.S. 
Armed Forces above the current cap of 400 is required. We 
certainly look forward to your views on the Colombian military 
operations, exactly why the additional U.S. military assistance 
is necessary, and what challenges lie ahead.
    Admiral Clingan, CENTCOM has had its hands full with the 
military operations in Iraq, Afghanistan, and the Horn of 
Africa. We have all been troubled by reports of increased poppy 
cultivation and opium production in Afghanistan. The Joint 
U.S.-British counternarcotics effort does not appear to have 
been successful in discouraging the narcotics production and 
trafficking.
    The fiscal year 2004 supplemental appropriation provided 
$73 million to support the counternarcotics efforts in 
Afghanistan and the surrounding nations. Your testimony on the 
effectiveness of efforts to date and what more needs to be done 
will be very helpful to this subcommittee.
    I thank our witnesses for your service, your leadership, 
and your perseverance, and I look forward to your testimony. 
Following statements and questions, we will move to room SR-
232A for a brief closed session.
    I will now turn to my distinguished colleague and friend, 
the ranking member or vice chairman, if you will, of the 
subcommittee, Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. I want to 
join you in welcoming Secretary O'Connell, General Mixon, and 
Admiral Clingan.
    Secretary O'Connell is here with a huge burden since 
Secretary Rumsfeld has not yet replaced the Principal Deputy 
ASD (SOLIC)--that individual left the office last year--and the 
position of Deputy Assistant Secretary of Defense for 
Counternarcotics Policy has remained vacant since October 2003. 
Therefore, Secretary O'Connell is doing yeoman's work without 
all the assistance he needs. We hope he can communicate again 
our concern to Secretary Rumsfeld about filling these 
positions. We know he is going to do a great job since he is a 
graduate of the University of Rhode Island, but there is no 
need to have him doing three jobs.
    The purpose of our hearing today is to review the DOD 
request for funding and authority for counternarcotics programs 
in fiscal year 2005. This includes international programs, 
especially in the Western Hemisphere and Southwest Asia, and 
military efforts to support the domestic counterdrug work of 
other Federal, State, and local agencies.
    We are also here to learn about how resources and 
authorities are currently being used in two of the geographic 
commands with a critical role to play in reducing illicit drug 
activities internationally, SOUTHCOM and CENTCOM.
    On the domestic side, the DOD has been providing valuable 
intelligence, surveillance, and other support to the other 
agencies manning our borders, ports, and shores. The National 
Guard, on top of their other duties, plays a critical role in 
such drug interdiction efforts.
    Outside of the United States, the DOD provides 
international support to stop illicit drug production and 
trafficking. Two areas of particular interest to this committee 
are Colombia and Afghanistan. In Colombia, some progress 
appears to have been made. In 2003 the air bridge denial aerial 
interdiction program in Colombia resumed, 2 years after the 
tragic shootdown of U.S. missionaries in Peru. We heard 
yesterday at a full committee hearing from General Hill, 
Commander of SOUTHCOM, that in the last year the Colombian 
military has successfully captured or killed narcoterrorist 
leaders, is increasing the territory controlled by the central 
government, and denying that territory to the narcoterrorists.
    Also in 2003, as the Department of State's (DOS) recently 
released international narcotics control strategy report notes, 
the government eradicated illicit crops at a record-setting 
pace. Unfortunately, the same report points out that Colombia 
remains a major producing country. Indeed, the Office of 
National Drug Control Policy in its January 2004 pulse report 
on trends in domestic drug abuse found that in 2003 crack and 
powder cocaine availability remained relatively stable across 
the United States and prices remained stable or declined in 
some cities.
    There are of course any number of factors to explain this. 
However, I hope that Secretary O'Connell and General Mixon can 
address these facts and the challenges of reducing coca 
cultivation and drug trafficking in Colombia and the Andean 
region, especially in the context of the DOD's request for 
authority to raise the cap on military and civilian personnel 
from 400 to greater numbers.
    In the meantime, we face an urgent and potentially 
worsening situation in Afghanistan. According to the DOS's 
recently released international narcotics control strategy 
report and the United Nations' (U.N.) latest global illicit 
drug trade report, Afghanistan has produced its highest amount 
of opium since 1999, about three-quarters of the world's 
illicit opium.
    Moreover, the U.N. report indicates that poppy cultivation 
could expand further in 2004. The U.N. Office on Drugs and 
Crimes estimates that the revenue from opium in Afghanistan is 
about $2.3 billion, equivalent to more than 50 percent of 
Afghanistan's estimated gross domestic product (GDP). The 
potential impact on security and President Karzai's control 
over the country is clearly jeopardized by this type of illicit 
activity. Indeed, just 2 days ago President Karzai told a 
donors conference in Berlin, in his words: ``Drugs in 
Afghanistan are undermining the very existence of the Afghan 
state.''
    The British have had the lead in counternarcotics 
activities in Afghanistan but obviously they need help. In 
recognition of these facts, the 2003 Iraq supplemental included 
$73 million for counterdrug efforts in Afghanistan. I look 
forward to hearing from Secretary O'Connell and Admiral 
Clingan--about the DOD's strategy and CENTCOM's plans for 
employing these counterdrug resources.
    Thank you, Mr. Chairman.
    Senator Roberts. I thank the Senator for his comments.
    We have been joined by the distinguished chairman of the 
full committee, which obviously gives evidence of the 
importance of this subcommittee hearing.
    I would repeat again what I said in my opening statement. 
We have all been troubled, as seconded by Senator Reed, by 
reports of increased poppy cultivation and opium production in 
Afghanistan and the fact that the joint U.S. and British 
counternarcotics efforts do not appear to have been successful 
in discouraging narcotics production and trafficking.
    The distinguished chairman has just returned from that 
area. The chairman is a great believer in going out and talking 
to the troops in regards to our various, very difficult mission 
areas that we have all over the world. Mr. Chairman, I think 
you have been to Iraq and to Afghanistan and Pakistan at least 
three times and perhaps more. I joined you on a couple of those 
trips. But I would ask if you had anything that you would wish 
to say prior to the witnesses giving their testimony. Welcome, 
sir.
    Senator Warner. I thank you, Chairman Roberts and Ranking 
Member Reed, for the opportunity just to say a few words.
    I was in the area of responsibility (AOR) in Iraq and 
Afghanistan, just a few weeks ago and you are quite correct in 
your mentioning of President Karzai. Both you and the 
distinguished Senator from Rhode Island addressed that he 
personally is injecting himself into this. He told us he used 
to figure, Senator Reed, that opium makes up 60 percent of the 
gross national product (GNP) estimated in Afghanistan.
    But he also told us--and we are not here to fault the 
British, but clearly the initial efforts in Afghanistan have 
gone in the wrong direction. Apparently they offered a program 
by which if farmers would cease and desist and stop raising 
poppies they would get a payment. Well, as your lifetime of 
experience in agriculture----
    Senator Roberts. Similar to the U.S. farm program, right.
    Senator Warner. The farmer down the road said: Wait a 
minute; I will start growing them, then get in line for the 
payments. Yes, it has a note of humor, but it has a tragic note 
of seriousness. These moneys are funding, as my distinguished 
colleague Senator Allard and I have discussed, the jihadists 
worldwide. Al Qaeda, Hamas, and Hezbollah are profiting from 
the enormity of this sum of money.
    Also overlaying this, Mr. Chairman, we learned from General 
Jones, the North Atlantic Treaty Organization (NATO) commander 
of forces, that he personally, together with others, is looking 
toward expanding NATO's role in Afghanistan, and that is not 
the role of NATO, to deal with that drug situation. Until that 
situation is contained and is subject to a program which can 
lead to the cessation of this growth and production, I think 
NATO is not likely to further involve itself in Afghanistan. 
That concerns me a great deal, because I think it is important 
not only for NATO, but for the world to have larger 
participation in helping Afghanistan secure its freedom.
    Therefore, I did want to hear the admiral's testimony and 
will listen to it. As you said, yesterday General Hill, in 
discussing the troop cap request before Congress, now said 
there is a direct correlation between our additional 
participation and hoped-for additional curtailment of drugs 
from that area into our country. It is to the benefit of the 
United States to do everything we can to continue to choke off 
the flow from Central America and most particularly from 
Colombia.
    So I thank the chairman and the distinguished ranking 
member for holding this hearing, and I appreciate the 
opportunity to say a word or two.
    Senator Roberts. Well, we thank you, Mr. Chairman. Let the 
record show that it was through your leadership that this 
subcommittee was formed up quite a few years ago--I was going 
to say several years. I have had the opportunity and the 
privilege of being the chairman for quite some time.
    It is called the Emerging Threats and Capabilities 
Subcommittee. I think we had better change the name, because 
most of the threats have emerged. But we want to thank you for 
your leadership in that respect.
    Senator Allard, would you have anything to say at this 
time?
    Senator Allard. Mr. Chairman, I do have a brief comment. I 
was also on a trip in this last break to Iraq and Afghanistan 
and had an opportunity to visit with President Karzai. He 
expressed to me the very same concerns that the chairman of the 
Armed Services Committee expressed.
    I think this particular hearing is very timely and I would 
join you in welcoming our distinguished panel here this 
morning. I look forward to hearing what their insights and 
recommendations might be.
    Yesterday we heard related testimony from our combatant 
commanders and the testimony highlighted the increasing 
participation of terrorist organizations like al Qaeda, 
Hezbollah, and Hamas in the drug trafficking trade. Their 
involvement is not limited to the Middle East. Hamas and 
Hezbollah are now conducting business in our own back yard, in 
General Mixon's Latin America AOR. Indeed, profits from the 
illegal drug market are now funding jihadist political and 
military activities on a truly global scale.
    Two weeks ago I had the opportunity to visit with President 
Karzai and discuss specific drug-related concerns across 
Afghanistan. He emphasized the immediate problem of combating 
both the exploding poppy cultivation and drug trade as well as 
the profiteering by the narcoterrorists that directed the 
subversive and destabilization actions against President 
Karzai's government. Over the long term, however, we need to 
assist Afghanistan with establishing broad-based economic and 
agricultural alternatives to growing poppies and producing 
opium.
    Mr. Chairman, again I appreciate your calling this hearing 
so that we can better understand the risks surrounding the 
illegal drug trade and their relationship to terrorist 
activities throughout the world. Thank you.
    Senator Roberts. Senator Dole, would you have any comments 
you would like to make?
    Senator Dole. Yes, thank you, Mr. Chairman, Senator Reed. I 
appreciate this opportunity to review a critical aspect of our 
homeland defense. The links between international narcotics 
trafficking and international terrorism have become 
increasingly clear and in the last years Congress has also 
recognized this connection. The granting of expanded authority 
to use counterdrug funds for counterterrorism missions in 
Colombia recognizes that there is no useful distinction between 
the narcotrafficker and his terrorist activity.
    I look forward to hearing about your priorities and 
operations. The war on drugs is often buried in the back pages 
and many of your successes will never be covered with much 
fanfare. But I applaud your dedication and particularly want to 
commend the men and women in your operation, who are meeting 
the challenges of this mission with a courage that makes us all 
proud.
    I would just add that during the 1980s, as Secretary of 
Transportation, I was privileged to serve as the first female 
departmental head of a branch of the armed services, the United 
States Coast Guard, and I was very proud of the work that the 
young men and women did there in drug interdiction. So I 
certainly look forward to hearing your testimony and continuing 
to work closely with you in the months and years to come.
    Senator Roberts. We thank the Senator.
    Secretary O'Connell, would you please proceed. Let me say 
that all of your statement, every golden word, will be made 
part of the record and you can certainly feel free to 
summarize, either through bullet points or the things that you 
really want to emphasize, if you so choose.

 STATEMENT OF HON. THOMAS W. O'CONNELL, ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT

    Mr. O'Connell. Thank you, Chairman Roberts. I would like to 
thank the distinguished chairman, Senator Warner, for joining 
us this morning. Senator Reed, distinguished members of the 
subcommittee: It is my pleasure to appear before you today to 
discuss the DOD programs and policies that assist nations 
around the world in their battle against narcoterrorism. I will 
place my longer statement in the record, Chairman Roberts.
    Fighting narcotics is a complex process that requires 
coordination and funding from all levels of government 
agencies, local and State law enforcement, and the foreign 
countries we assist. We are increasingly aware of the linkages 
between terrorist organizations, narcotics trafficking, weapons 
smuggling, kidnapping rings, and other transnational networks. 
Terrorist groups such as the Revolutionary Armed Forces of 
Colombia (FARC) in Colombia, al Qaeda in Afghanistan, and 
groups around the world can finance key operations with drug 
money.
    The DOD, with our counterparts in the DOS and other 
government agencies, seeks to systematically dismantle drug 
trafficking networks, both to halt the flow of drugs into the 
United States and to bolster the broader war on terrorism.
    We thank you for the $73 million in funding added in this 
year's emergency supplemental to support our efforts in 
Afghanistan and neighboring nations. Our fiscal year 2005 
counternarcotics budget requests resources to sustain these 
efforts. To support similar efforts in Colombia, the DOD will 
soon be forwarding to Congress a request for reprogramming $50 
million during this fiscal year. I am pleased to report that 
the DOD will maintain this emphasis on Colombia by increasing 
our efforts in Colombia in fiscal year 2005 by $43 million.
    Our international counternarcotics support is predominantly 
in response to requests from our principal partners, the DOS, 
the Drug Enforcement Administration (DEA), and includes 
deployments and programs to train and furnish intelligence and 
operational support for drug detection, monitoring, and provide 
equipment to partner counterdrug forces.
    Domestically, the DOD continues to work through NORTHCOM 
and the National Guard, with the DHS and law enforcement 
agencies, to coordinate the counternarcotics effort. The 
National Guard is an exceptional partner to law enforcement in 
domestic counternarcotics missions requiring militarily unique 
skills, including air-ground reconnaissance, intelligence 
analysis and analysts, and training for law enforcement 
agencies.
    The DOD is maintaining our National Guard support for law 
enforcement along the southwest border and adding linguist 
centers in California and Washington for additional support.
    In terms of the DOD's demand reduction efforts, our view is 
that illegal drug use is, of course, incompatible with a 
service member's sensitive and dangerous duties. The DOD's 
demand reduction policy sets minimum standards of testing rates 
at 100 percent, meaning each service member is tested at an 
average of once per year. Increased testing begins in fiscal 
year 2005, with a goal of reaching 100 percent testing by 
fiscal year 2006. This cost-effective drug testing, along with 
punitive consequences for members who are identified as drug 
users, will continue to deter drug use among military 
personnel.
    I would like to thank you, Chairman Roberts, Senator Reed, 
members of the subcommittee, for the tremendous support you 
have provided, and I look forward to answering your questions.
    [The prepared statement of Mr. O'Connell follows:]

               Prepared Statement by Thomas W. O'Connell

    Chairman Roberts, Senator Reed, distinguished members of the 
subcommittee, it is my pleasure to appear before you today to discuss 
the Department of Defense (DOD) programs and policy that assist nations 
around the world in their battle against narcoterrorism. I value the 
work that you do and congratulate you on your continued leadership.
    Each year, my office expends a great deal of time, effort, and 
resources to keep drugs from crossing our borders. This is a complex 
process that requires coordination and funding from all levels of 
government agencies, local and State law enforcement, and the foreign 
countries which we assist. We recognize that a portion of the profits 
from drug sales either directly or indirectly support terrorist 
organizations--another reason we are working hard to reduce the supply 
of drugs around the world.
    Illegal drug use exacts a heavy toll on American society every 
year. It accounts for billions of dollars in direct and indirect costs 
including health care, lost revenue due to crime, social welfare costs, 
and lost productivity. While cocaine continues to be the single most 
serious drug threat, heroin, synthetic drugs, methamphetamines, and 
marijuana are also serious, and in some cases, increasing problems. 
Global and regional terrorists threatening United States interests can 
finance their activities with the proceeds from narcotics trafficking. 
Terrorist groups such as the Revolutionary Armed Forces of Colombia 
(FARC), al Qaeda in Afghanistan, and groups around the world partially 
finance key operations with drug money. The DOD, with our counterparts 
in the Department of State (DOS) and other government agencies, seeks 
to systematically dismantle drug trafficking networks, both to halt the 
flow of drugs into the United States, and to bolster the broader war on 
terrorism effort.
    Domestically, the DOD continues to work through U.S. Northern 
Command (NORTHCOM) and the National Guard with the Department of 
Homeland Security (DHS) and law enforcement agencies to coordinate 
counternarcotics efforts. The National Guard is an exceptional partner 
to law enforcement in domestic counternarcotics missions requiring 
military-unique skills, including air/ground reconnaissance, 
intelligence analysts, and training for law enforcement agencies. The 
DOD is maintaining our National Guard support to law enforcement along 
the southwest border, and adding linguist centers in California and 
Washington.

                      THE COUNTERNARCOTICS BUDGET

    In accordance with statutory authorities, we use counternarcotics 
resources as effectively and efficiently as possible to achieve 
national and DOD counternarcotics priorities. We focus on programs that 
fulfill statutory responsibilities and use military-unique resources 
and capabilities, and continue to advance the national priorities of 
the National Drug Control Strategy. Our counternarcotics authorities 
and funding are an effective combination that supports war on terrorism 
efforts and the implementation of the DOD's Security Cooperation 
Guidance.
    The DOD's July 31, 2002, counternarcotics policy guidance states 
that the DOD will execute drug detection and monitoring and other 
programs using military command, control, communications, and 
intelligence resources, as well as military operational planning 
capabilities. This year we have issued new Demand Reduction, Domestic 
Support, and International Support counternarcoterrorism policies have 
expanded upon this definition. We focus on counternarcotics activities 
that will contribute to:

        <bullet> The war on terrorism;
        <bullet> Security Cooperation Guidance;
        <bullet> Military readiness; and
        <bullet> National Security.

    In order to best characterize and describe the support DOD 
provides, the DOD defined four missions areas to encompass the scope of 
the DOD's program. These mission areas are:

        <bullet> Demand Reduction: Drug testing, treatment, and 
        outreach;
        <bullet> Domestic Support: Active duty counternarcotics 
        support, National Guard State Plans, National Guard schools, 
        Aerostat radars;
        <bullet> Intelligence and Technology Support: Signals 
        Intelligence (SIGINT) collection and processing, intelligence 
        support and analysis, research and development; and
        <bullet> International Support: Detection and monitoring, 
        intelligence support and analysis, equipment, training, and 
        infrastructure.

    The DOD provides, through combatant commands, the military 
departments, and the defense agencies, unique military personnel, 
systems, and capabilities that support domestic law enforcement 
agencies and foreign security forces involved in counternarcotics 
activities, including efforts to counter activities that aid, benefit 
from, or are related to narcotics trafficking. This broad-scope support 
is provided primarily under the authorities contained in 10 U.S. Code 
Sec. Sec. 124, 371-374, 379-381, 2576, 2576a, Title 32 U.S. Code, 
Sec. 112, Section 1004, National Defense Authorization Act for 1991, as 
amended; and section 1033 of the National Defense Authorization Act for 
1998, as amended.
    With finite funds and resources, multiple missions to address, and 
numerous requests for assistance, the DOD must establish priorities for 
its support mission. The areas that receive resources must be where DOD 
capabilities will provide the highest impact on the drug threat while 
at the same time contributing to the war on terrorism and enhancing 
national security. DOD's efforts will be continually evaluated based on 
the changing drug threat and participating nations' need.
    The Department's Central Transfer Account (CTA) program request of 
$852.7 million for fiscal year 2005 for the CTA reflects price growth 
of $11.4 million and a program decrease of $67.3 million over the 
fiscal year 2004 level of $908.6 million, which primarily reflects the 
fiscal year 2004 congressional increases to the DOD's 
counternarcoterrorism program. The DOD's fiscal year 2005 
counternarcotics budget will continue to fund, within fiscal 
constraints, an array of unique and effective programs that support the 
National Drug Control Strategy and Department goals.

                            DEMAND REDUCTION

    Illegal drugs are readily available to DOD members and their use is 
incompatible with a service member's security-sensitive and dangerous 
duties. During the past decade, use of prohibited drugs in the United 
States civilian community, especially by young citizens, has increased, 
prompting the President to establish a goal of reducing drug use by 25 
percent over each 3-year period.
    The DOD has assimilated the President's goal of a 25 percent 
reduction in drug use over 3 years into its strategic plan. The 
approach emphasizes prevention of drug use through pre-accession, 
random drug testing, anti-drug education, and treatment. Emphasis is 
placed on deterring drug use through cost effective drug testing with 
punitive consequences for members who are identified as drug users.
    In accordance with the DOD Demand Reduction policy, we plan to 
increase drug testing for all military members to a minimum average 
testing rate for each Service, the Army National Guard, and the Air 
National Guard of one test per member per year. This increase will be 
incrementally phased in through the out years. We also plan to increase 
drug testing for civilian employees in testing designated positions to 
a minimum average testing rate for each agency or component of one test 
per testing designated employee per year.
    A total of $19.4 million is for the National Guard State Plans and 
Service outreach programs, and the young marines outreach program, and 
$102.7 million is for the continued support of the DOD Demand Reduction 
Programs.

                            DOMESTIC SUPPORT

    Since 1989, domestic law enforcement agencies at the State, local, 
and Federal levels have requested military support for their respective 
counternarcoterrorism operations. Domestic counternarcoterrorism 
operations have historically included support for interdiction of 
cocaine, marijuana, and methamphetamines coming into the United States; 
interdiction of illegal drugs transiting the United States; 
identification of domestic marijuana grows and methamphetamine labs; 
identification and arrest of drug manufacturers, traffickers and 
distributors; and the prevention of drug use among America's youth.
    We work closely with NORTHCOM and the Assistant Secretary of 
Defense for Homeland Defense on counternarcotics support to domestic 
law enforcement. The focus of this support is managed through Joint 
Task Force-Six in El Paso, Texas, which provides active duty and 
Reserve missions in areas of engineering support, aerial and ground 
reconnaissance, transportation, and logistics support and intelligence. 
These counternarcotics missions provide excellent training in real 
world situations and enhance domestic security.
    Additionally, the DOD is committed to improving information sharing 
between DOD and law enforcement agencies in support of 
counternarcoterrorism objectives. DOD is installing classified computer 
systems and networks in High Intensity Drug Trafficking Area 
intelligence centers operated by National Guard intelligence analysts. 
Active duty and Reserve members are playing an integral role in 
arrival-zone detection and monitoring, cross-agency intelligence 
fusion, and the development of actionable intelligence.
    A total of $219.5 million supports Federal, State, and local drug 
law enforcement agencies (DLEAs) requests for domestic operational and 
logistical support, and will assist the DLEAs in their efforts to 
reduce drug-related crime. Of this amount, $151.1 million is for a 
portion of the total National Guard State Plans that supports domestic 
law enforcement efforts and the counternarcoterrorism schools; $20.3 
million is for Domestic Operational Support, such as NORTHCOM 
counternarcoterrorism support to DLEAs and Title 10 National Guard 
translation efforts; $32.3 million is for domestic detection and 
monitoring efforts (Tethered Aerostats); and $15.8 million is for 
command, control, communication, computers, and intelligence support, 
such as ADNET.

                  INTELLIGENCE AND TECHNOLOGY SUPPORT

    The basic nature of the smuggling threat mandates the need for 
explicit intelligence if the DOD is to be effective in detection, 
monitoring, and interdiction operations. The DOD will continue to 
provide critical intelligence support to national policies designed to 
dismantle narcotics trafficking and international terrorist 
organizations benefiting from drug trafficking. These intelligence 
support programs make use of unique DOD capabilities, systems, skills, 
and expertise, and directly support the National Drug Control Strategy.
    Use of new technology continues to be instrumental in combating 
narcoterrorist activities. The DOD will continue to test, evaluate, 
develop, and deploy technologies that are used to collect and survey 
suspect narcoterrorist smuggling operations in air, land, or sea. Wide 
area surveillance will be a technology challenge as legacy systems such 
as Relocatable Over-the-Horizon Radar have surpassed lifecycle 
expectations and will require major hardware and software replacement 
to lower the risk of system failure. The program will pursue merging 
disparate data and sensor feeds into a common operating picture, to 
provide worldwide counternarcotics elements with counternarcoterrorism 
intelligence and operational awareness.
    Ringold translation support will be expanded to include additional 
languages critical to the global war on terrorism. Throttle Car is a 
critical data warehousing effort jointly funded by the DOD and the Drug 
Enforcement Agency (DEA). Capabilities will be increased to accommodate 
capacity increases and ensure readiness.
    A total of $103.3 million will be used for intelligence programs to 
collect, process, analyze, and disseminate information required for 
counternarcoterrorism operations. Technology programs increase the 
DOD's abilities to target narcoterrorist activity. A total of $58.6 
million is for counternarcoterrorism intelligence support and analysis; 
$21.1 million is for SIGINT collection and processing; $10.0 million is 
for Service and U.S. Special Operations Command (SOCOM) command and 
control programs; and $13.7 million is for counternarcotics technology 
efforts.

                         INTERNATIONAL SUPPORT

    Financial, political, and operational linkages exist among 
narcotics trafficking, smuggling, and the global expansion of 
terrorism. Since September 11, 2001, the DOD has expanded its 
counternarcoterrorism mission to include targeting those terrorists 
groups worldwide that use narcotics trafficking to support terrorist 
activities. In order to support the war on terrorism, DOD 
counternarcoterrorism uses its resources in regions where terrorists 
benefit from illicit drug revenue and know-how, and is working to 
bolster already well-established counternarcoterrorism efforts in U.S. 
Pacific Command (PACOM), particularly in Southeast Asia where the U.S. 
and its Asian partners face a challenging combination of terrorism/
extremism, drug trafficking, and the serious need for increased 
maritime security.
    In the CENTCOM area of operation, terrorists/extremists in 
Afghanistan and its neighboring countries exploit the abundance of 
illicit drugs to support their activities. The DOD is working to break 
the links between terrorism and drug trafficking. In Afghanistan, where 
drug traffickers have extensive links to terrorists/extremists, the DOD 
will provide substantial counternarcoterrorism support to the United 
Kingdom (U.K.)-led counternarcoterrorism efforts in Afghanistan, as 
well as developing Afghan border infrastructure and border police 
capabilities. In other countries in Central Asia and the Middle East, 
CENTCOM is currently expanding its counternarcoterrorism efforts to 
curb the transit of illicit drugs through international smuggling 
corridors. We thank you, therefore for the $73 million in funding added 
in this year's emergency supplemental to support our efforts in 
Afghanistan and neighboring nations. Our fiscal year 2005 
counternarcotics budget requests resources to sustain these efforts.
    A total of $40.8 million will be used for emerging threats support 
efforts in the CENTCOM, PACOM, and U.S. European Command (EUCOM) AORs 
to detect, interdict, disrupt, or curtail activities related to 
substances, material, weapons, or resources used to finance, support, 
secure, cultivate, process, or transport illegal drugs. $29.0 million 
supports operations in those AORs, including section 1033 support; 
$11.8 million is for AOR command and control support.
    Cocaine is the primary drug threat in the United States due to its 
high demand, availability, and expanding distribution to new markets, 
high rate of overdose, and its relation to violence. In 2002, there was 
an estimated 250 metric tons of cocaine consumed in the U.S. There were 
approximately 2 million people age 12 and older using cocaine in the 
U.S. in 2002. Each user consumed approximately 34 grams of cocaine a 
year.
    Cocaine consumed in the United States originates from coca plants 
grown in South America. The average potential production of cocaine 
produced in South America in 2002 was over 1,200 metric tons. Of this 
amount, approximately 879 metric tons of export quality cocaine 
departed South America. Approximately 540 metric tons of cocaine were 
exported to the U.S. and another 230 metric tons went to Europe. After 
cocaine seizures and consumption throughout the transit zone en route 
to the U.S., some 350 metric tons of export-quality cocaine were 
available in U.S. markets in 2002.
    Colombia produced approximately 680 metric tons of 100 percent pure 
cocaine in 2002. Coca leaf produced in other countries, primarily Peru 
and Bolivia, is transported across the border into Colombia to be 
processed into hydrochloride cocaine. The processed cocaine is then 
shipped/exported through other bordering countries or through the 
Caribbean and Eastern Pacific to the final destination. Over 500 
maritime shipments depart Colombia annually, equating to almost two 
shipments a day. Of the cocaine that enters the United States, 72 
percent passes through the Mexico/Central America corridor, another 27 
percent moves through the Caribbean, and 1 percent comes directly from 
South America.
    Colombia offers a unique window of opportunity with congressional 
approval of expanded authority and the aggressive leadership of 
President Uribe. The administration continues to support President 
Uribe in seeking a secure and democratic Colombia, including providing 
resources in support of Colombia's Plan Patriota.
    Supplemental funding ($34 million) in fiscal year 2003 was provided 
by Congress for DOD support to Colombia initiatives. With existing 
funds and the additional supplemental funding, SOUTHCOM increased 
support to the Colombian military, adding to their capability through a 
variety of programs. These programs provided critical support in 
logistics, mobility, light infantry operations, riverine operations, 
command, control and communications, at-sea interception, maintenance, 
security, base operations support, and intelligence collection and 
dissemination. Congress extended expanded authority to support 
Colombia's counternarcotics and counterterrorist efforts for fiscal 
year 2004.
    Interagency principals have planned to increase assistance for the 
Colombian military during fiscal years 2004 and 2005. SOUTHCOM 
developed a support package to provide needed assistance to the 
Colombian military. This funding will continue to support and expand 
upon programs already established during fiscal year 2003 and will 
focus on increasing the Colombian military's capability in mobility, 
logistics, operationalizing intelligence, planning assistance, medical 
evacuation and care, secure communications, and security. To support 
these efforts in Colombia, the DOD will soon be forwarding to Congress 
a request for reprogramming $50 million during this fiscal year. I am 
pleased to report that the DOD will maintain this emphasis on Colombia 
by increasing our efforts in Colombia in fiscal year 2005 by $43 
million.
    A total of $366.9 million will support efforts in the SOUTHCOM AOR, 
including detection and monitoring operations to assist U.S. law 
enforcement agencies to counter the flow of drugs in transit into the 
United States, and supporting nations (such as Colombia) in their fight 
against narcoterrorism. A total of $173.0 million is for detection and 
monitoring platforms and assets; $142.5 million is for operational 
support; and $51.4 million is for AOR command and control support, 
including Joint Interagency Task Force South (JIATF-S).
    The current troop cap limits the U.S. presence in Colombia to 400 
military personnel and 400 contractors. SOUTHCOM manages this on a 
daily basis, often canceling or postponing personnel travel to 
Colombia. To date, the impact has been small. However, in the coming 
year as the Colombian military will be conducting full-scale operations 
across the country, the personnel cap will begin to have a deleterious 
effect on the mission. While U.S. personnel will not be directly on the 
front lines, more training and planning assistance will be required for 
the Colombian military, since they will be directly engaged on a 
broader front to defeat the narcoterrorists. We should support this 
effort with manning that reflects the current and future situation on 
the ground. Consequently, the administration has requested an increase 
of the personnel cap to 800 military and 600 contractor personnel.

                               CONCLUSION

    The DOD appreciates Congress' continued support of the 
counternarcotics program. I thank you, Chairman Roberts, Senator Reed, 
and the members of the subcommittee for the tremendous support you have 
provided. I look forward to answering your questions.

    Senator Roberts. We thank you for your statement and we 
thank you for summarizing. Without objection, your full 
statement will be made a part of the record.
    Admiral Clingan, would you please proceed.

 STATEMENT OF REAR ADM. BRUCE W. CLINGAN, USN, DEPUTY DIRECTOR 
              OF OPERATIONS, U.S. CENTRAL COMMAND

    Admiral Clingan. Chairman Roberts, Chairman Warner, Senator 
Reed, members of the subcommittee: Thank you for this 
opportunity to join you today to discuss CENTCOM's role in the 
DOD drug program, and in particular our efforts in Afghanistan 
to curtail narcotics production and trafficking.
    As many of you are aware, currently in Afghanistan there 
are more than 10,000 soldiers, sailors, airmen, and others 
conducting counterinsurgency operations and promoting stability 
and security. That 10,000 represents a small number of the 
service members currently deployed to our AOR, conducting 
counterinsurgency operations in Iraq, looking hard in the Horn 
of Africa to determine what kind of international terrorist 
networks are functioning there, and prosecuting the greater 
global war on terrorism in the 25 countries that comprise our 
AOR. Although the 10,000 soldiers in Afghanistan represent a 
small percentage of the Armed Forces we have in the AOR, 
clearly their contributions and the importance of their efforts 
are hard to overstate.
    We have a couple of objectives that we are after in 
Afghanistan. Not the least among them are setting conditions 
for economic reconstruction and for the ongoing political 
process. Countering the growing narcotics trade, which 
contributes to the criminal and terrorist activities that 
undermine efforts to achieve that stability, are important and 
a priority for CENTCOM and the coalition.
    In fiscal year 2004, Congress made available to CENTCOM $73 
million to further our counternarcoterrorism efforts in 
Afghanistan and the bordering countries. For CENTCOM, that 
represented a 300-fold increase in our budget for this effort--
not 300 percent, 300-fold. So since October we have invested 
ourselves in concentrating on developing a comprehensive plan 
that will address the narcotics problem in Afghanistan, along 
with our partners in the United Kingdom (U.K.) and the other 
interagency units.
    This plan, which I have outlined in my prepared statement, 
is in execution now and on track to achieve some tangible 
effects in this realm in the third and fourth quarter of this 
year.
    Thank you again for the opportunity to address this 
subcommittee and I look forward to your questions, sir.
    [The prepared statement of Admiral Clingan follows:]

           Prepared Statement by Rear Adm. Bruce Clingan, USN

    Chairman Roberts, Senator Reed, distinguished members of the 
subcommittee, it is an honor to appear before you today to discuss 
illegal narcotics trafficking in Afghanistan, its relation to 
narcoterrorism, and the programs we are developing to help counter this 
problem in collaboration with other agencies and governments. We 
appreciate Congress' support of the Department of Defense (DOD) 
counternarcotics program in last year's supplemental appropriations 
bill, particularly in regard to our efforts related to Afghanistan.
    U.S. Central Command (CENTCOM) is currently focused on defeating 
transnational terrorism and creating secure and stable environments in 
Iraq and Afghanistan. However, the broader CENTCOM area of 
responsibility (AOR) encompasses the geographic and ideological heart 
of the global war on terror, a war without borders that spans all 25 
countries in the region. The overt war on terror began in Afghanistan. 
A stable, democratic, economically viable state there will provide an 
alternative to the terrorist vision of a future characterized by 
oppression and prolonged conflict.
    The narcotics problem in Afghanistan presents a special challenge. 
The international community and Afghan leadership, with the support of 
the United States and other coalition allies, is addressing this 
challenge. The United Kingdom (U.K.) has the international lead in 
Afghanistan and with key Afghan leaders, including President Karzai and 
Minister of Interior Jalali, is beginning to take action against the 
narcotics trade. This problem requires a comprehensive, sustained 
effort championed by the Afghan Government. Technical help and 
resources from the U.K., U.S., and the international community will 
greatly enhance the Afghan Government's effectiveness in combating this 
destructive trade.
    The CENTCOM counternarcotics program for Afghanistan and the 
surrounding Central Asian states is being developed in coordination 
with the Department of State's (DOS) efforts to improve law enforcement 
in Afghanistan and compliment the programs developed by the U.K. In the 
short term, we will focus our efforts on direct assistance to the 
Afghan Government that establishes a more effective counternarcotics 
capability.
    CENTCOM will focus the $73 million made available in the fiscal 
year 2004 supplemental for Afghanistan's counternarcoterrorism program 
to disrupt the illicit drug trafficking that supports terrorist 
elements in Afghanistan. These groups include Taliban remnants, al 
Qaeda operatives and leaders, other extremist elements like Gulbuddin 
Hekmatyar's Hizb-I-Islami, as well as Afghan criminal gangs and 
transnational criminal elements.
    The supplemental funding that Congress has approved will assist 
coalition, host nation, contractor, and other governmental agencies to:

        <bullet> Monitor traditional overland smuggling routes from 
        Afghanistan to the bordering nations through the construction 
        of border control checkpoints and the employment of sensor 
        technology;
        <bullet> Equip Afghan counternarcotics units and law 
        enforcement agencies to conduct interdiction operations against 
        narcotraffickers;
        <bullet> Provide Afghanistan with the communications 
        connectivity necessary to rapidly respond to narcoterrorist 
        threats with synchronized interagency operations;
        <bullet> Establish an interagency counternarcotics Intelligence 
        Fusion Center to gather, collect, process, and disseminate 
        information leading to actionable intelligence. This will 
        enhance operations by U.S. law enforcement officers, Provincial 
        Reconstruction Team law enforcement liaison cells, coalition 
        forces, the Drug Enforcement Administration (DEA), the Crimes 
        and Narcotics Center, U.K. law enforcement and intelligence 
        agencies, and other governmental agencies represented in the 
        region;
        <bullet> Conduct an Afghan counternarcoterrorism public 
        awareness program in concert with the DOS that helps the Afghan 
        interior ministry develop a public affairs capability;
        <bullet> Provide equipment and other support in concert with 
        U.K. operations against narcoterrorist activities in 
        Afghanistan; and
        <bullet> Conduct Maritime Interception Operations and monitor 
        vessels suspected of transporting narcotics and/or terrorists 
        based on actionable intelligence.

    CENTCOM views narcotrafficking as a significant obstacle to the 
political and economic reconstruction of Afghanistan. The revenue 
generated from poppy cultivation provides resources for extremists and 
the smuggling infrastructure that supports narcotics trafficking 
facilitates terrorist transportation and logistics. Local terrorist and 
criminal leaders have a vested interest in using the profits from 
narcotics to oppose the central government and undermine the security 
and stability of Afghanistan. As a result, the DOD counternarcotics 
program in Afghanistan is a key element of our campaign against 
terrorism.
    As important as our contribution to the DOD counternarcotics 
program is, the underlying causes for the growth of narcotrafficking 
must be addressed. Farmers are hard pressed to cultivate cash crops 
that can provide revenue for their families and villages. Poppies are 
notoriously easy to grow, and their market value makes it difficult for 
legitimate crops to compete. Additionally, narcoterrorists prey upon 
farmers who do not produce, contributing to a lack of confidence at the 
local level in the capability of the central government to provide 
adequate security. We must not only target poppy production and 
trafficking, we must also implement holistic initiatives that enhance 
the economy and agriculture to provide alternatives to the opium 
growers if we are to be ultimately successful in eliminating narcotics 
proliferation in Afghanistan and the region.
    Thank you for the opportunity to share CENTCOM's strategy, 
objectives, and plans.

    Senator Roberts. We are going to set a record, Mr. 
Chairman, for summarized statements.
    Senator Warner. You know how to run a show.
    Senator Roberts. This is outstanding.
    We would now like to hear from General Mixon. Would you 
please proceed.

  STATEMENT OF BRIG. GEN. BENJAMIN R. MIXON, USA, DIRECTOR OF 
             OPERATIONS, J-3, U.S. SOUTHERN COMMAND

    General Mixon. Yes, sir. It is good to see you again, sir, 
and Senator Warner, after spending a very long day with you 
last year in Bagram, Afghanistan, and Kabul, if you recall that 
evening where we loaded you on a C-130 aircraft late at night. 
You may not recall that. I certainly do, and it was an honor 
for me to escort you in Afghanistan.
    Senator Roberts. I remember that lunch.
    Senator Warner. Thank you for that recollection. I remember 
that.
    Senator Roberts. I am not sure I want to remember it again, 
but I remember that lunch. [Laughter.]
    Senator Warner. As a matter of fact, we had the same meal 
that you were providing the training of the Afghanistan army; 
is that not correct?
    General Mixon. Yes, sir.
    Senator Roberts. Yes, and they were very proud of that 
meal. It was a true Afghan meal.
    Senator Warner. That is right.
    Senator Roberts. I would recommend it for anybody who wants 
to----
    Senator Warner. Steady as we go. Thank you very much. 
[Laughter.]
    Senator Roberts.--enjoy Afghan cuisine.
    Please proceed, General.
    General Mixon. Sir, I am in a different environment now 
than I was in Afghanistan, but an equally important 
environment, as you pointed out.
    My statement is a little bit longer. If you would indulge 
me, I think it is important to outline for you what we are 
doing.
    Senator Roberts. Please proceed.
    General Mixon. Mr. Chairman, Senator Reed, distinguished 
members of the subcommittee: Thank you for allowing me a few 
minutes to make some opening comments. We at SOUTHCOM are fully 
committed to meeting DOD's responsibilities in the fight 
against drugs and narcoterrorists. We fulfil these 
responsibilities through detection and monitoring programs, 
close interagency coordination, and military support to partner 
nations. Our programs cover the entire SOUTHCOM AOR, including 
Central and South America and the Caribbean Basin.
    Our principal agent for the planning and execution is the 
National Joint Interagency Task Force-South (JIATF-S) located 
in Key West, Florida. JIATF-S is a one of a kind premier 
organization of excellence for multi-service, multi-agency, and 
multi-national support to the counterdrug mission. Their 
operations, in conjunction with SOUTHCOM, deliver an integrated 
approach to meeting DOD mission sets in the war against drugs 
and narcoterrorists.
    Our cooperation with the Central American countries 
continues to strengthen. During the last year, besides our 
daily interdiction efforts, we conducted 18 major surge drug 
counteroperations. The most significant narcotrafficking 
pattern centers on suspect air traffic transitting the Central 
American corridor. Using the Cooperating Nations Information 
Exchange System, we continue to make great strides in 
regionalizing the effort to identify, monitor, and respond to 
suspect air and maritime tracks in Central America.
    Through numerous maritime professional exchanges and our 
Joint Task Force (JTF) Bravo helicopter deployment, SOUTHCOM 
and JIATF-S continue to develop the Central American partner 
nation abilities to accept, hand off, and effect interdiction 
and apprehension of illicit trafficking activities.
    We also remain strong partners with our Caribbean friends. 
Besides periodic multinational and bilateral counterdrug 
operations, we also remain committed to assisting in the 
maintenance, logistics, and training of their counterdrug and 
maritime forces.
    We continue our robust military cooperation with our South 
American allies, focusing on improving their capabilities to 
deal with the narcoterrorists and war on terrorism threats. We 
have deployed counterterrorist and counterdrug training teams 
to Ecuador, Bolivia, Peru, Chile, and Paraguay. Brazil, 
Ecuador, and Peru have recognized the threat of Colombia's 
narcoterrorists to their stability and are taking concrete 
steps to curtail it.
    Assisting Colombia in their fight continues to be in the 
United States' best interest and a top priority for SOUTHCOM. 
In close coordination with the DOS, we continue to provide a 
full range of support to the Colombian government, its security 
forces, and its people. This includes training and equipping 
both the military and police, assisting the ministry of defense 
in the development of modern budget and logistics 
organizations, assisting them in their narcoterrorist 
demobilization programs, and providing humanitarian assistance 
to populations that are most dramatically affected by this 
narcoterrorist war.
    Two of our most successful equipment and sustaining 
programs remain the extensive support we have provided to the 
Colombian army's counternarcotics brigade and the 
infrastructure security strategy program, which has 
dramatically reduced the number of narcoterrorist attacks on 
Colombia's northeastern rural infrastructure. We are also 
extensively involved in supporting the Colombian military's 
campaign plan.
    I would like to emphasize that all of our training and 
advising programs operate under strict rules of engagement that 
prohibit U.S. service members from participating in combat 
operations.
    The continuation of expanded authority is the single most 
important factor for us to continue building success in 
Colombia. This legislation has allowed us to use funds 
available for counterdrug activities to provide assistance to 
the government of Colombia for a coordinated campaign against 
the terrorist activities of its illegal armed groups. Granting 
of expanded authority was an important recognition that no 
meaningful distinction can be made between terrorists and drug 
traffickers in our region. All three of the terrorist groups 
operating in Colombia are deep into the illicit narcotics 
business.
    Another key legislative priority we support is the raising 
of the force ceiling, or cap, currently at 400 military and 400 
civilian contractors. We at SOUTHCOM seek authorization to 
increase the military numbers to 800. In fiscal years 2003 and 
2004 we have repeatedly had to curtail training missions to 
both the Colombian military and police, cancel intelligence and 
reconnaissance missions, staff visits, and limit other 
programs, ranging from medical exchanges to officer development 
programs.
    If granted this authority, we do not envision an immediate 
increase in military personnel. This increase will simply allow 
us the flexibility to enhance support as required while still 
complying with the rules of engagement.
    We have continued to support Colombia's air bridge denial 
program since its resumption in August 2003. Since the program 
restarted, there have been 14 aircraft forced down, 11 of those 
destroyed, and 7.9 metric tons of drugs seized. We are prepared 
to support the DOS's nonlethal program in Peru upon its 
resumption.
    Measures of effectiveness in this war are difficult to 
gauge. Using calendar year 2002 and 2003 data, which roughly 
corresponds to the inception of expanded authorities, the 
Colombian security forces have experienced dramatic successes 
on all fronts. I would like to cite a few of these examples. 
The 2003 homicide rate is the lowest since 1987, pegged at 
approximately 52 per 100,000 population. We are also proud of 
the capture of over a dozen mid-level members and one senior-
level member of the FARC leadership, and the restoration of 
Colombian government presence in all of Colombia's 1,098 
municipalities.
    In conclusion, we are at a critical point in Colombia's 
history. Under the leadership of President Uribe, who enjoys a 
very high approval rating, the military and police have 
regained areas long held by the narcoterrorists. They have also 
dealt serious blows to the leadership of these groups and have 
embarked on a strategic offensive to dismantle the FARC. 
Colombia's citizens have regained hope and the security forces 
are imbued with a renewed sense of momentum and commitment. Our 
continued support to them at this point is critical.
    Thank you for the opportunity, and I would like to 
highlight the great work the men and women do in SOUTHCOM every 
day, and I appreciate the opportunity to make this statement 
and I look forward to your questions.
    [The prepared statement of General Mixon follows:]

        Prepared Statement by Brig. Gen. Benjamin R. Mixon, USA

    Mr. Chairman, Ranking Member Reed, and distinguished members of the 
subcommittee, it is a pleasure to appear before you today to discuss 
the United States Southern Command's (SOUTHCOM) role in assisting 
Colombia with its battle against narcoterrorism. Every day your 
soldiers, sailors, airmen, marines, coast guardsmen, and civilians at 
SOUTHCOM are working hard and employing their skills to accomplish our 
missions in this vital endeavor. We are shoring up our own national 
security by addressing this challenge at this time and in this place. 
Simultaneously, we are laying the groundwork to promote and maintain 
future security and stability.
    Colombia is at a decisive point in its fight. We are seeing steady 
progress toward establishing security and stability in Colombia and we 
are confident the Government of Colombia will continue to do so under 
President Uribe. President Uribe is a man of vision, principle, and 
substance. He is inculcating his government and his Armed Forces with 
an aggressive spirit and belief they can win the war against the 
narcoterrorists and end the violence. But the momentum he has built and 
the progress Colombia has shown is reversible. Consequently, we must 
maintain our steady, patient support in order to reinforce the 
successes we have seen and to guarantee a tangible return on the 
significant investment our country has made to our democratic neighbor.
    To outline SOUTHCOM's efforts in this endeavor, I will discuss the 
status of SOUTHCOM's support of Plan Colombia, the progress we are 
seeing in Colombia, our activities with the Andean Ridge countries, and 
the way ahead. Assisting Colombia in their fight continues to be in our 
own best interest. A secure Colombia will benefit fully from democratic 
processes and economic growth, prevent narcoterrorist spillover, and 
serve as a regional example. Conversely, a failed Colombia, serving as 
a safe haven for narcoterrorists and international terrorists, would be 
a most unwelcome regional model. The center of gravity right now is in 
Colombia, and the future health of the region hinges upon what happens 
there. While this is Colombia's fight to win, we have the opportunity 
to tip the balance by augmenting their efforts decisively with our 
unwavering support.

                  SOUTHCOM'S SUPPORT TO PLAN COLOMBIA

    Plan Colombia is a 6-year plan designed to defeat the threat the 
Colombians face. This threat continues to come from the three largest 
illegal armed groups in Colombia, all named on the Department of 
State's (DOS) list of foreign terrorist organizations and two named on 
the President's list of drug kingpins: the Revolutionary Armed Forces 
of Colombia (FARC), the National Liberation Army (ELN), and the United 
Self-Defense Forces (AUC). While these groups may retain fragments of 
their founding philosophies, they appear to have jettisoned ideology in 
favor of terrorist methods and narcotrafficking.
    Narcoterrorism threatens the stability of several nations in Latin 
America and the Caribbean and erodes the very fabric of democracy by 
spawning terrorism, corrupting public institutions, promoting criminal 
activity, undermining legitimate economies, and disrupting social 
order. The violence and corruption not only threatens our neighbors, it 
poses a direct national security threat to our homeland. Illicit drug 
abuse is certainly a multi-faceted problem, but our support to Plan 
Colombia is effectively addressing one of its most critical components.
    Our role at SOUTHCOM is to support implementation of the military 
aspects of the plan. The plan addresses the entire depth of Colombia's 
complex problem, however, and is by no means envisioned as a simple 
military solution. Various other U.S. Government agencies and 
departments received funding to support both military and non-military 
aspects of Plan Colombia.
    Colombia is just completing the fourth year of this 6-year plan. 
The first phase of their three-phased plan focused on the Putumayo and 
Caqueta Departments of southern Colombia, where approximately half of 
Colombia's coca cultivation took place and lasted from December 2000 
until December 2002. That phase consisted of challenging illegal armed 
groups, finding and destroying cocaine laboratories, and providing 
security for intensive aerial eradication of coca, the principal bill 
payer for narcoterrorism in Colombia. SOUTHCOM was responsible 
primarily for training and equipping a Counternarcotics (CN) Brigade, 
fielding Blackhawk and Huey II helicopters, and also training pilots 
and crews during the first phase. Secondary efforts provided for 
infrastructure upgrades, riverine training, and counterdrug 
intelligence support. In Phase II, the Colombians are expanding the 
size of the Armed Forces, working with neighboring countries for 
combined operations, building forests where coca once grew, and 
creating units comprised of campesino soldiers to help guard towns 
where government presence was formerly lacking. These initiatives 
support continued drug eradication and interdiction. Phase III of Plan 
Colombia culminates the entire plan by expanding the government 
presence and control nationwide. While it is still too early to predict 
the exact end state of Plan Colombia, the progress we are seeing is a 
positive development that promises to complete that plan and 
institutionalize its successes.

                               CN BRIGADE

    The CN Brigade headquarters and its three battalions are the best-
trained and equipped conventional units in the Colombian Army. Its 
mission is to conduct ground, riverine, and air assault offensive 
operations against narcoterrorist organizations and provide ground 
security for aerial eradications. U.S. military personnel conducted 
staff and light infantry training for almost 2,300 troops. In 
accordance with Plan Colombia, the CN Brigade was originally designed 
to operate in southern Colombia. The CN Brigade has had impressive 
results during drug interdiction operations in that part of the country 
by destroying coca processing labs, providing security to eradication 
operations, and seizing chemical precursors and coca leaf. Most 
recently, the CN Brigade captured Nayibe Rojas Valdarrama, aka 
``Sonia,'' Chief of Finances and Logistics for the FARC Southern Bloc. 
Her capture has led to numerous other related arrests and has degraded 
the FARC's ability to conduct narcotrafficking.
    The Colombian military synchronized the deployments of the CN 
Brigade in Phase I with Colombian National Police and DOS eradication 
efforts. The Office of National Drug Control Policy found that 
Colombia's coca cultivation decreased by 21 percent in 2003 from 2002. 
Because of its success in the Putumayo and Caqueta Departments, this 
brigade is now also being used beyond its original scope in other parts 
of the country, most notably the Narino Department. We continue to 
provide sustainment training to the CN Brigade. In 2003, this unit 
transformed its organizational structure to become more flexible and 
deployable to plan and conduct offensive operations throughout the 
entire country.

                              HELICOPTERS

    Since December 2000, the United States has provided air mobility to 
the first CN Brigade using a company of 28 UH-1Ns with a combination of 
Colombian and DOS contracted pilots. The UH-1N aircraft are based in 
Tolemaida with the Colombian Army Aviation Battalion and are forward 
deployed to Larandia for operations. The current operational focus 
remains providing air mobility support for counterdrug operations as 
well as selected counternarcoterrorism operations. Delivery of the 25 
Plan Colombia Huey IIs was completed in September 2002. These 
helicopters are also based at Tolemaida and currently focused on 
supporting pilot training and infrastructure security. All 14 UH-60L 
Blackhawk helicopters procured under Plan Colombia for the Colombian 
military began operations in January 2003 after a thorough program of 
pilot training. These helicopters also support the CN Brigade, pilot 
training, and infrastructure security. While the DOS is responsible for 
program oversight and funding for operations and contract maintenance 
for all of these helicopters, quality control is provided by a U.S. 
Army Technical Assistance Field Team. The Department of Defense (DOD) 
retains responsibility for training Colombian Army pilots, crew chiefs 
and aviation unit maintenance personnel to fly and maintain Blackhawk 
and Huey II helicopters. The maintenance programs are supplemented by a 
safety initiative that integrates risk management planning into air 
operations. Overall, these helicopters have given the Colombian 
military unprecedented mobility. This mobility allows an increasingly 
well-trained Colombian Army to maneuver across a rugged landscape, in 
parts of the country they have not operated in for years, resulting in 
greater operational effectiveness against the narcoterrorists.

                  ENGINEER AND INFRASTRUCTURE SUPPORT

    The Plan Colombia supplemental appropriation allowed us to complete 
large-scale infrastructure improvements that greatly accelerated the 
development of increased operational capabilities for Colombia's 
forces. In subsequent years, we have continued to provide necessary 
facilities to support our training and equipping programs. Among our 
more significant engineer projects were the expansion of both fixed-
wing and helicopter facilities at Tres Esquinas, the establishment of a 
comprehensive helicopter pilot training school at Melgar and Tolemaida, 
improved port facilities at Buenaventura, development of riverine 
support and maintenance facilities at Tres Esquinas and La Tagua, and 
the development of helicopter operational and support facilities at 
Larandia. We are moving now to develop the logistics infrastructure 
needed to support Colombian forces as they move outward to re-establish 
government control throughout Colombia. We just completed and turned 
over a hangar that will improve the operational rate of the Colombian 
C-130 fleet by improving their maintenance program. Additionally, in 
September 2003, we awarded contracts to establish logistics support 
centers, motorpools, and maintenance facilities. As a direct result of 
the completion of these facilities, Colombian forces will be better 
able to conduct and sustain forward operations.

                    PROFESSIONALISM AND HUMAN RIGHTS

    Embedded within the training SOUTHCOM and U.S. forces provide under 
Plan Colombia is the institutionalization of human rights and the 
respect for law by the Colombian military. We have helped the Colombian 
Ministry of Defense institute legal reforms through the creation of a 
Military Penal Justice Corps, similar to the U.S. military's Judge 
Advocate General's corps. On July 29, 2003, the permanent facility for 
Colombia's new Armed Forces School of International Humanitarian Law, 
Human Rights, and Military Justice opened. This school teaches human 
rights and international humanitarian law to attorneys, commanders, 
officers, and sergeants. Additionally, hundreds of military, police, 
and civilian lawyers have received continued professional legal 
education beyond that provided at the school. The Colombian military 
legal corps, similar to the method used by our Armed Forces, is also 
becoming embedded with the field units of the Army in order to provide 
on the spot legal advice to commanders during operations.
    SOUTHCOM continues to support Colombian efforts to extend human 
rights training throughout its ranks. Colombia is fighting its illegal 
armed groups justly, in accordance with democratic values and human 
rights. This is instrumental in what we are collectively striving to 
achieve.
    Under President Uribe's ``Democratic Security Policy,'' 
extrajudicial executions in 2003 were down 48 percent, assassinations 
were down 41 percent, homicides of trade unionists were down 68 
percent, and forced displacements were down 68 percent. Further, none 
of the units U.S. forces trained have been accused of human rights 
abuses. I am confident that President Uribe and the Colombian military 
have taken human rights to heart, unlike their adversaries, who commit 
the vast majority of human rights abuses. Alledged human rights abuses 
by Colombian security forces are now less than 2 percent of those 
reported and the institutionalization of respect for human rights 
continues.
    In 2003, as members of the illegal armed groups demobilized, over 
77 percent turned themselves into government forces. If they suspected 
that they would be subject to torture and abuse, they would have turned 
themselves into nongovernmental organizations and the Church as they 
did in years past, before human rights became an integral part of the 
Colombian military's ethos. The Colombian Government is not resorting 
to rural concentration camps, peasant roundups, massacres, 
disappearances or other tactics used by their enemies. Their 
professional ethos is also reflected in public opinion that lists the 
Colombian military as the second most respected institution in the 
country just behind the Catholic Church.

                  THE URIBE ADMINISTRATION'S PROGRESS

    Plan Colombia predates President Uribe by 2 years and will end 
coincidentally when he leaves office in 2006. While he has firmly 
embraced the plan, he has also brought to office new initiatives and a 
long-term vision that extends well beyond that 6-year plan. President 
Uribe won a landslide victory by running on a platform of aggressively 
defeating and neutralizing the terrorists in his country while 
asserting government control of national territory. After years of 
failed attempts to negotiate with illegal armed groups, to include a 
bold experiment that gave the FARC a safe haven in the southern part of 
the country, the people of Colombia had finally had enough of terrorist 
groups, especially after seeing how the FARC had used their safe haven 
to plot terrorist acts and establish drug base camps instead of 
developing their notional politics into a concrete reality.
    President Uribe faces enormous challenges, but he is using his 
mandate to put deeds behind his words. He has been in office for 19 
months, and turning the government from a conciliatory posture to an 
aggressively focused one has not been an easy task. We need to be 
steadfast in our support of him now to set the conditions for his 
longer-term success. The signs of his progress, which have built upon 
our support to Plan Colombia, are already becoming evident. Colombia 
developed a comprehensive national security strategy that directs all 
the tools at the government's disposal toward a common end of defeating 
the terrorists. The Colombians now spend nearly 4 percent of their 
gross domestic product (GDP) on defense. President Uribe has levied a 
war tax on the country's wealthiest citizens. He is increasing police 
end-strength to supplement those already planned for the military. The 
government has developed a plan to protect travelers along the major 
roadways. He is pushing the military and the police to gain control of 
areas and neighborhoods dominated by the narcoterrorists.
    The military has had growing operational success against the 
narcoterrorist organizations across the country, particularly against 
the mid-level leadership, and all indications are that they will 
continue to take the fight to the illegal armed groups over the next 
year. The firm resolve of the Uribe administration, backed by 
aggressive military operations, has resulted in increased desertions by 
enemies of the state. These desertions are promising, especially since 
the government provides a program under which those who leave the FARC 
voluntarily are put in protected housing and receive health care, 
education, and work training.
    Our Special Operations Forces (SOF) have trained the staff and 
soldiers of Colombia's best units, giving these units an added edge of 
operational effectiveness that is paying dividends. The Colombian Army 
has established its own Special Operations Command to coordinate and 
oversee difficult and complex operations against the most sensitive 
targets. The establishment and training of Commando and Lancero 
Battalions, modeled on our own Ranger battalions, has given the 
Colombians a unit that can strike high-value targets including enemy 
leadership. The Colombian military is also in the process of 
establishing a Joint Special Operations Command that will synchronize 
special operations among all branches of the Colombian military. 
SOUTHCOM's special forces component, Special Operations Command South, 
will provide training to this new unit. Currently, U.S. military forces 
are conducting deployments in 14 different locations in Colombia, 
providing training to 9 major Colombian military units. Additionally, 
Planning Assistance Training Teams are assisting the Colombian army's 
mobile brigades in operational planning. We have also trained the 
Colombian urban counterterrorist unit and continue to upgrade their 
capabilities and equipment.
    Our SOF also trained Colombian Armed Forces in Arauca to protect a 
portion of the 772-kilometer oil pipeline that had been a frequent 
target of FARC and ELN attacks. Pipeline attacks are down 
significantly. This training was just one part of a nationwide 
Infrastructure Security Strategy that protects critical facilities and 
reestablishes control in narcoterrorist influenced areas of the 
country.
    We continue to train Colombia's helicopter pilots, providing their 
forces a growing ability to perform air assaults that are key in the 
battle against dispersed enemies. We deploy intelligence, surveillance, 
and reconnaissance assets in-country that have provided timely, 
actionable intelligence to Colombian units. We are training their 
staffs with Planning Assistance Training Teams that increase their 
ability to plan and execute intelligence driven operations against 
illegal armed groups. We are working with Colombian Marines to 
establish a third Colombian Training Team that will work with units of 
the Riverine Brigade to increase the operational readiness and 
proficiency of Colombia's extensive riverine forces. We contracted 
logistics to help the Colombians maintain their own C-130 fleet and 
provided maintenance trainers to improve the operational readiness of 
their helicopter fleet. Toward that end, we are looking forward to 
establishing long-term solutions to readiness issues with the 
establishment of a National Maintenance Point for Colombia's 
helicopters, and a Logistical Automation System that will integrate 
supply and fiscal management for parts and materials for the Colombian 
military and National Police. We also are assisting in the training of 
the Colombian National Police Carabineros (Rural), who have recently 
established presence throughout the country.
    We continue to provide medical training and assistance to the 
Colombian military to improve their health services support to their 
combat troops. With our support, the Colombian military now has a well-
established ``Combat Life Saver'' training course. Additionally, they 
have adopted our Forward Surgical Team concepts and doctrine and have 
moved ahead by establishing four deployable surgical teams.
    In civil-military relations, we are helping the Colombians to build 
a civil affairs capability that will enhance the communications between 
the Colombian military and government with the populace in previously 
ungoverned spaces. In the past year, with our support, the Colombian 
military has written and adopted a civil affairs doctrine that allows 
them to minimize the impact of their military operations on the 
civilian population, while at the same time synchronizing humanitarian 
assistance with their operations. In the departments of Arauca, 
Cudinamarca, Caqueta, and Guaviera--portions of the last three are in 
the former despeje--the Colombian military has provided basic medical 
care to over 20,000 civilians and rehabilitated a number of educational 
and medical facilities. In the next 6 months, they will conduct 39 
similar events in conjunction with other Colombian ministries. In 
addition, our civil affairs forces have worked with the office of the 
Minister of Defense to develop mechanisms that synchronize the 
interagency planning requirements needed to re-establish governance in 
previously ungoverned spaces. To this end, the Government of Colombia 
has establish a Coordination Center for Integrated Action. This 
interagency body--consisting of representatives from the office of 
President Uribe, the Ministries of Defense, Interior, Education, and 
others--develops policies and plans to ensure that as the Colombian 
military successfully reclaims terrorist controlled areas that the 
other bodies of government rapidly respond, establish presence, and 
provide the population with the government services they did not have 
while under control of the illegally armed groups.
    Beyond our coordinated military efforts, President Uribe has 
sponsored political, economic, and judicial reforms. These measures 
will assist the Colombian economy as well as free up resources for 
increased security measures. President Uribe aims to reduce the 
government bureaucracy, eliminate corruption, and enact fiscal reform. 
Economically, President Uribe's stance and the promised reforms have 
buoyed the country's confidence. The Government of Colombia has 
collected 18 percent more taxes compared to last year. Further, tax 
collection (as a percentage of GDP) rose from 16 percent in 2002 to 19 
percent in 2003. Colombia has raised over $1 billion via bonds since 
the new administration took office, and its stock market has increased 
by 50 percent this year. Likewise, President Uribe has sought to stamp 
out corruption and bolster judicial reform.
    This list is just a partial highlight of the coordinated effort the 
Colombian Government is making to solve its own problems. President 
Uribe has infused his government with energy, organization, and a sense 
of purpose. He is getting results now, and will continue to direct all 
his resources toward making Colombia a safe, prosperous, democratic 
nation.
    Under President Uribe, our country's significant investment in Plan 
Colombia is beginning to show substantial results. He is fully adhering 
to Plan Colombia and already looking well beyond it. Most notably a 
subsidiary campaign plan provides a long-term strategy and has been 
coordinated across the Colombian services, and the interagency. This 
campaign plan details the systematic defeat of Colombia's 
narcoterrorists. He is also building the systems that will eventually 
return Colombia to the ranks of peaceful and prosperous nations. 
President Uribe has only 2\1/2\ more years in office. Consequently, it 
is critical--especially this year and next--that he gets our unwavering 
support to set all his long-term initiatives firmly into place.

                               WAY AHEAD

    We are seeing the pendulum swing in Colombia, and we will continue 
all of our planned training and support as well as seeking new 
opportunities to increase that support at this critical moment. 
Colombia is the linchpin in the narcoterrorist battle, but we must be 
careful not to win the battle in Colombia and lose the war in the 
region. As the Colombians make progress, their success will push 
narcoterrorists to seek safer areas in which to operate. Already, the 
FARC, ELN, and AUC operate across the porous borders of Colombia's 
neighbors, and the remote nature of many of these areas makes them ever 
more attractive as safe havens. While we are seeing increased 
coordination and cooperation among most of Colombia's neighbors, some 
of those countries also lack the resources to maintain territorial 
sovereignty in these ungoverned spaces. Thus, across the Andean Ridge, 
we are working with the bordering nations to increase cooperation 
further, fortify borders and strengthen capabilities.
    In an ongoing series of multinational exercises (UNITAS, 
Amphibious, and Panamax), we are training with the Colombian Navy in a 
combined operation. In Peru, we continue to sustain their riverine 
interdiction ability, as well as work with the interagency to support 
their eradication program and counternarcotics aviation. In Ecuador, we 
have supported their riverine capability and worked closely with them 
to complete the essential forward operating location at Manta. We are 
seeing a welcome acknowledgment of the Colombian border concern by 
Ecuador. In Bolivia, we have worked on their riverine capabilities as 
well and supported their eradication efforts. Additionally, we have 
already seen the Brazilians take up active patrolling on their own 
border with Colombia.
    As the lead DOD agent for implementing military aspects of U.S. 
policy in Colombia, SOUTHCOM will continue to maintain a priority 
effort against narcoterrorism. Key in most of our recent endeavors has 
been approval by the U.S. Congress of expanded authority legislation. 
This legislation has allowed us to use funds available for counterdrug 
activities to provide assistance to the Government of Colombia for a 
coordinated campaign against the terrorist activities of its illegal 
armed groups. The granting of expanded authority was an important 
recognition that no meaningful distinction can be made between the 
terrorists and drug traffickers in our region. The country's two 
largest terrorist groups--the FARC and AUC--are deep into the narcotics 
business; the smaller ELN also participates to an extent. Trying to 
decide whether a mission against a FARC unit was a counterdrug or 
counterterrorist one was an exercise in futility and hampered 
operational effectiveness on the ground. Expanded authority has 
eliminated the time-consuming step of first evaluating the mission 
based on its probable funding source and now allows us to bring to bear 
all our assets more rapidly. As just one example, it will allow assets 
controlled by Joint Interagency Task Force South (JIATF-S) to continue 
being used to their full potential to provide real-time, actionable 
intelligence that is key in conducting effective operations against the 
narcoterrorists. Additionally, JIATF-S will take an increased role in 
counterillicit trafficking, as many materials other than narcotics use 
the same transit routes through our area of responsibility (AOR). 
Expanded authority for fiscal years 2005 and 2006, coupled with 
increasing the personnel cap, are the single most important factors for 
us to continue building success in Colombia. While our efforts are, for 
good reason, Colombia-centric, we are not letting others fall behind to 
become the next targets for terrorist groups. The cooperative counter 
narcoterrorist groundwork we are laying today will further our national 
security for decades to come.

                               CONCLUSION

    We are at a critical time in Colombia's history. The elected 
government of President Uribe enjoys unparalleled approval ratings over 
75 percent. Under his leadership, the military and police are helping 
to regain control of areas long held by narcoterrorists. Colombia's 
citizens are taking a more active role in their nation's defense and 
providing actionable intelligence to the Colombian Armed Forces. There 
is a renewed sense of momentum, commitment, and hope as the Colombian 
people struggle to save their country, but there is also a finite 
window of opportunity beyond which public opinion and support will wane 
without significant progress.
    We are optimistic about the progress we are seeing in Colombia, 
though there remains an enormous amount of work to be done. We are at a 
critical point where the progress in eliminating conflict, reducing 
tension, and establishing democracy throughout the region could be at 
risk if we are not steadfast in our efforts. While our attention is 
drawn to another region of the world, we must keep in mind that we live 
in this hemisphere, and its continued progress as a region of democracy 
and prosperity is paramount to our national security.
    I would like to thank the chairman, ranking member, and the members 
of the subcommittee for this opportunity and for your continued 
support. The men and women of SOUTHCOM are working to their utmost to 
accomplish their missions for our great country.

    Senator Roberts. We thank you very much, General.
    Mr. Chairman, would you like to start off with any 
questions you might have?
    Senator Warner. I thank the distinguished chairman, but I 
think I would like to follow your subcommittee and perhaps do a 
little wrap-up here toward the end. So you and Senator Reed and 
your other two members should go ahead. I am privileged to come 
in on these meetings, but I do not mean to preempt your normal 
sequence of recognition.
    Senator Roberts. We will hand you the mop and the broom to 
get things cleaned up at the end.
    Secretary O'Connell, we have heard a great deal about all 
of the problems and the challenges in regards to our 
counternarcotics activities, both from the standpoint of the 
harm that it does, not only to our country but to those 
countries where the narcotics are grown, but more especially 
what this does in regards to financing terrorism around the 
world.
    I indicated in my opening statement that the President's 
budget has $852 million for counternarcotics activities. That 
is $56 million less than the appropriated amount for fiscal 
year 2004. Why?
    Mr. O'Connell. The central reason, sir, is that, as you 
correctly stated, the fiscal year 2005 request is at $852.7 
million. That is an increase over our fiscal year 2004 request 
and the primary reason for the two differences are: first, the 
congressional add-on that took place last year, which I believe 
was at $18.2 million; and then the $73 million supplemental 
which was added primarily for Afghanistan.
    Senator Roberts. Would you anticipate another request in 
the supplemental?
    Mr. O'Connell. Sir, I am on very dangerous ground. That is 
not my area. I do not--I make recommendations to the Secretary, 
which I have done, and where the supplementals go----
    Senator Roberts. We will not ask you to skate on that 
important but thin ice.
    Mr. O'Connell. Sir, I have to skate on that. I think you 
understand.
    Senator Roberts. All right. Let me ask a question, if I 
might, for Secretary O'Connell and Admiral Clingan. As has been 
stated by the chairman and Senator Allard and everybody that 
has been over there to talk to President Karzai, there was a 
big mistake made 2 years ago when farmers who were planting 
poppies were paid to destroy their crops. I did not mean to 
make a joke, but we used to have a farm program in this country 
where you paid farmers not to grow anything, but you did have 
acreage restrictions. I am not sure that was the case this time 
by any means. This obviously encouraged other farmers to plant 
poppies so that they would be paid.
    Could you give me an indication of what the current focus 
of the counternarcotics activities is in Afghanistan and what 
alternatives are being considered to curtail the poppy 
cultivation that can be offered to Afghan farmers?
    Mr. O'Connell. Chairman Roberts, your comments are exactly 
on the mark. We were witness to a mistake. Making alternative 
offers to the poppy growers was perhaps not a wise move.
    In response to your question as to what we are doing now, 
when we look at the $73 million----
    Senator Roberts. That was a British plan, was it not?
    Mr. O'Connell. Exactly, sir.
    Senator Roberts. Right.
    Mr. O'Connell. In fact, sir, the British do have the lead. 
I have been fortunate enough to have four very extended and 
frank exchanges with British officials. Some of them express 
displeasure at how we were holding up our end of the bargain 
and vice versa. But I think we are at a consensus now that, in 
conjunction with the Afghan government, the clearly delineated 
responsibilities of the Brits and the inclusion of efforts such 
as the Germans on the police side, the Italians on the judicial 
side, that we do have a coordinated effort under Karzai's 
decision that he will lead the eradication through his 
governors.
    We are going to take our funds, in conjunction with CENTCOM 
and, of course, the task force there, and try to put this 
counternarcotics effort into the context of the stability 
operations that are ongoing in the country. We are not going to 
go out and raid the farmers or raid the poppy growers. We are 
looking at how we: one, train law enforcement to do this job 
themselves; two, how we increase border security and cut down 
on the smuggling routes; three, how we can provide intelligence 
fusion as well as specialized intelligence support, identifying 
the labs and some selective signal intelligence support; and 
four, how we can provide increased transportation for the 
Afghan forces that are going to be conducting and are 
conducting raids on various labs.
    We put these together in conjunction with the stability 
operations and try to do these things concurrently. Is it a 
perfect plan? Will it work? I cannot answer those things. But I 
can say, Senator, that I am extremely hopeful that, one, we 
have a plan; two, the Brits are on board; three, we are working 
together; and four, I think CENTCOM has put together a solid 
first crack at this effort against poppies in Afghanistan.
    Senator Roberts. Let me change subjects and go to the troop 
cap. This is for General Mixon. We are now currently limited to 
800 personnel, that is my understanding, 400 military, 400 
contractors. Obviously, the administration is asking for an 
increase in this cap. You have indicated that that would be the 
case in regard to flexibility to respond if in fact that was 
needed for some new development.
    My question: Why do you not just sort of summarize why you 
think you need the additional U.S. military forces in Colombia? 
Many Members of the Senate, I can recall when this first 
started, had a lot of concern about this. Can you tell me for 
what purpose and length of time these forces will be used? 
Basically, in light of the heavy deployments elsewhere, are 
there sufficient forces, especially in regard to Special 
Operations Command (SOCOM) and the Army, available for this 
purpose?
    General Mixon. Yes, sir. If we break it down into broad 
categories of support provided, we would see this support being 
directed as required at planning and assistance teams that 
would work with their units that are participating in the 
military campaign that supports Plan Colombia; logistics and 
intelligence assistance that would be provided to them. As we 
become more involved in assisting the Colombians and the 
reestablishment of governments in their areas, particularly in 
the civil-military operations, assistance in that area.
    I would tell you that I would not see this going on 
immediately, as I said in my statement, but it would allow us 
the flexibility to increase that.
    In reference to your question on the current strain on the 
military forces, you are exactly right and we fully recognize 
that. Most of the support that we would provide would not be 
unit specific, i.e., organic units that are participating in 
combat, with the exception of some potential additional support 
that may be required with Special Operations Forces (SOF)-
unique capabilities.
    Most of these are individuals who are qualified in the 
intelligence, logistics, and operational fields that we put 
together on an individual basis and form teams. We bring them 
to SOUTHCOM, form a cohesive team, and link them up with a unit 
that is participating in military operations.
    Senator Roberts. I am going to beg the indulgence of the 
subcommittee, and I apologize for this, but I want to add in 
that my daughter, whose name is Ashley, who works in Rome with 
the World Food Program, told me she was going to travel to 
Afghanistan to determine the criteria being met in regards to 
the World Food Program, the McGovern-Dole program where you set 
up a school, allow young women to attend the school, and then 
they are being fed various lunches.
    I said that she was not going to Afghanistan, being her 
father and a Senator. She indicated that she did not know why 
that was the case, and we went into quite a discussion. It 
ended with me saying that I would have her fired. That perhaps 
was a little strong, but I was very concerned. She said: 
``Well, okay, daddy; it is okay; I did not go to Afghanistan; I 
went to Colombia instead.''
    She was in an area 3 days after the FARC was there and 2 
days prior to the paramilitary being there. During those 5 days 
they continued that program on a hill under a tree with a 
ramshackle building and were able to continue that schooling 
and the nutritional supplements that the World Food Program 
does provide.
    Are we doing any better with stability in regards to those 
areas so that those programs can work and we can make some 
progress, especially with the education of women, which I think 
is one of the biggest answers to terrorism that we can 
accomplish?
    General Mixon. Yes, sir, we are doing better, and we are 
seeing results as far as the local population and their 
acceptance of the Colombian military and their approval 
ratings. This was mentioned in General Hill's testimony 
yesterday.
    Also, for the first time in many years the Colombian 
civilian population is able to move around the countryside and 
around the roads and visit their families and their farms that 
are out in the countryside. So yes, sir, we are seeing progress 
in that area.
    Senator Roberts. I appreciate hearing that.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your testimony.
    Chairman Roberts has raised the issue of the effect of the 
operation tempo (OPTEMPO) on activities throughout DOD. 
Secretary O'Connell, could you comment on whether this OPTEMPO 
increase has affected your ability to discharge your 
counterdrug responsibilities?
    Mr. O'Connell. Thank you for the question, Senator Reed. I 
agree with General Mixon. Certainly the forces are under 
strain. But looking at my responsibility for the oversight of 
the 48, 49,000 United States SOF, it does not appear so at this 
time. In fact, we have been able to use forces that had been in 
Colombia previously in other operational areas. General Brown 
and I testified the other day before the Senate Armed Services 
Committee on posture, and I agree with General Brown that the 
force is not overextended at this point.
    In terms of the specific counternarcotics work done on the 
Special Operations side, we look primarily to SOUTHCOM, of 
course, and the Seventh Special Forces Group. I would just like 
to point out that the ability of the Colombian military, sir, 
to follow the advice and guidance of these wonderful Green 
Berets has made a difference of enormous proportions down 
there. The Colombian military is now going out into areas which 
were previously off limits. They are conducting ambushes, long-
range reconnaissance, and direct strikes against the FARC, and 
I think we have all seen that that has had an unbelievable 
effect on the morale of the people of Colombia.
    To move back to one point that Chairman Roberts made in 
terms of increases on the cap, I would like to point out that 
because the Seventh Special Forces Group has been able to push 
the Colombian military out farther--and, Senator Reed, you 
certainly recognize this in view of your military service--we 
are talking now about considerably more terrain to cover. So 
the helicopter routes are longer, the medical evacuation 
requirements, the rearm, refuel, equip, the maintenance 
requirements, go up as you obviously have to address more 
territory. So that would go to the question of Chairman 
Roberts.
    But to answer your question, sir, the answer at this time 
is no.
    Senator Reed. Let me ask another variation on the question. 
Are you declining requests for assistance that previously you 
would entertain, requests from the Colombians, requests from 
the Afghani government through CENTCOM?
    Mr. O'Connell. Sir, not to my knowledge. I would defer of 
course to the combatant commanders, General Hill and General 
Abizaid. I will say, with respect to General Hill, we meet and 
talk very often. He is very much into not only the 
counternarcotics business, but also stability operations 
throughout his hemisphere. He is an astute leader. He 
understands very carefully his responsibilities. I think he is 
looking to the future, and he will apply our military force and 
training any place that it can be beneficial throughout the 
hemisphere.
    Senator Reed. Thank you.
    General Mixon. I would like to comment on that, sir.
    Senator Reed. Yes, sir. Go ahead, General Mixon and 
Admiral.
    General Mixon. We have never turned down a request from 
support since I have been there last July. However, the cap has 
caused us to have to shift support to make sure we did not go 
over the 400 cap. I would just like to make that point.
    Senator Reed. Thank you, sir.
    General Mixon. Senator Reed, if I could just add, sir. I 
think at least in the press there has been some misperception 
that this requested cap increase would be consistent with a 
deployment order, and that is not the case. I would hope that 
that message was delivered by General Hill yesterday.
    Senator Reed. Can I raise another question, General Mixon, 
about the cap since you brought it up. You want to go up to 
800, but do you have an estimate of what your sort of average, 
steady state deployment in country would be?
    General Mixon. Sir, today as we speak the number that we 
count against the Plan Colombia cap is 332. We had a high about 
30 to 45 days ago of 392, and we were making some adjustments.
    Senator Reed. Let us assume that the permission is granted. 
Do you think you will have close to 800 people on the ground at 
all times?
    General Mixon. I do not.
    Senator Reed. What is your estimate?
    General Mixon. We did a best case analysis of this before 
we went forward of if we were able to provide all of the 
support that we can envision over the life cycle of Plan 
Patriota, which is the military campaign plan, and we found it 
to be at 726.
    Senator Reed. Thank you.
    Admiral, you have a comment?
    Admiral Clingan. Sir, in Afghanistan to my knowledge we 
have not denied any request for support specifically from 
President Karzai nor the minister of interior.
    Senator Reed. Thank you very much.
    Secretary O'Connell, in October 2003, Secretary Wolfowitz 
promulgated a new international counternarcotics policy which 
essentially made a link explicitly between counternarcotics and 
counterterrorism. In his words, ``the Department's 
counternarcotics support should be oriented to the greatest 
extent feasible toward supporting the war on terrorism and 
Department security cooperation guidance.'' It seems terribly 
logical to me.
    We have given explicit authority in the case of Colombia 
for the DOD to use counterdrug funds to support Colombian 
efforts to fight a unified counterdrug, counterterrorism 
campaign. That is one case. To your knowledge, does the DOD 
plan to ask for additional authority to use counterdrug funds 
for overlapping counterdrug, counterterrorism?
    Mr. O'Connell. Sir, I am not aware of any. The combatant 
commanders may have specific commands.
    But if I could comment on the mechanism that has been 
provided for generally the central transfer account, which is 
the way we handle certainly the bulk of these counternarcotics 
activities----
    Senator Reed. I would like you to do that, Mr. Secretary. 
But Congress has funded this central transfer account 
counterdrug to fight drugs.
    Mr. O'Connell. Yes, sir, exactly.
    Senator Reed. Is this now being used in other ways which we 
should be at least aware of?
    Mr. O'Connell. Sir, it is my belief that it has not been. 
Sir, it is extremely difficult to draw that precise line. But 
in our planning, in the reporting that we do back to Congress 
on what we spend this money for, we specifically aim at the 
counterdrug, counternarcotics areas.
    The point is, sir, that the central transfer account, the 
way it is structured, although it has been under increasing 
pressure due to things like inflation and other aspects such as 
closing down Roosevelt Roads, which has increased our maritime 
patrol costs, allows extraordinary flexibility. I think that 
the DOD has been very candid and very honest in how it has 
handled and allocated those funds.
    We, of course, look very carefully at any reprogramming. I 
would be happy to go into some of the bloodier specifics 
perhaps during our closed session when we get into contentious 
issues. But you have provided very flexible authorities and to 
the best of my ability, and I think certainly the combatant 
commanders realize and certainly the Secretary, we will focus 
that on the intended focus, the intended aim of the money, sir.
    Senator Reed. Thank you, Mr. Secretary.
    I listened to the exchange between Senator Roberts and the 
panel with respect to Afghanistan, the drug policy. The initial 
approach was a British focus on labs and trafficking. We, with 
our strategy, have come in to strengthen security along the 
Afghan-Pakistan border. There is one sort of issue, though, 
that we have not spoken about directly. That is eradication. Is 
that going to play a role? Is that too contentious an issue 
within the context of the politics?
    Mr. O'Connell. No, I do not believe so, sir, because 
obviously eradication has to be part of a strategy. President 
Karzai has said he will lead the eradication through his 
governors and out into the provincial regions. We do not, in 
DOD, specifically do eradication, per se. There may be some 
support for eradication in terms of, let us say, provision of 
security while eradication is taking place.
    But no, sir; it has to be part of the strategy. I would ask 
Admiral Clingan if he had a comment on that.
    Senator Reed. Admiral.
    Admiral Clingan. The Secretary has it exactly right. We do 
not participate in any way, shape, or form with regard to 
eradication. But many of our efforts complement that process, 
in particular the law enforcement capabilities that we endeavor 
to enhance and those intelligence efforts can promote success 
in the eradication effort.
    Senator Reed. Thank you, gentlemen. My time has expired.
    Senator Roberts. Senator Dole.
    Senator Dole. General Mixon, counternarcotics operations 
rely heavily on SOF and National Guard assets. Are your 
operations requirements receiving adequate focus and are you 
being consulted in the Army's plan to rebalance its forces? 
What changes would you like to see in the force mix available 
to you?
    General Mixon. We are receiving the adequate focus that we 
need, Senator Dole, for our activities there. As the military 
is looking at its restructuring program, we have been sent 
those working papers and provided comment as a combatant 
commander on the organization of both the Guard and the Active 
Forces. So I feel very comfortable that we are in sync with DOD 
on their restructuring programs.
    Senator Dole. One other question. The military training of 
Colombian units that are vetted for human rights abuses is a 
key enabler, I understand, in the success of Plan Colombia. 
What role, if any, does the Western Hemisphere Institute for 
Security Cooperation (WHINSEC) play in the training? If a role 
is being played, in your opinion is this institute producing 
the caliber of military professional needed to achieve security 
and stability in Latin America?
    General Mixon. I am glad you brought up the human rights 
aspects of the support and the vetting. The vetting process is 
viewed very strictly at SOUTHCOM. In fact, we are the only 
combatant command that has an organization in our headquarters 
that focuses on vetting.
    As it pertains to WHINSEC, they primarily train individuals 
rather than units, and their training that they give 
individuals we believe has a heavy focus on the human rights 
aspects of military operations.
    Senator Dole. Thank you.
    Thank you, Mr. Chairman.
    Senator Roberts. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    General Mixon, your testimony today is indicating that as 
far as the Colombia plan is concerned, you see real and 
tangible results. We heard similar testimony from your superior 
yesterday. You have partly answered this question, but from an 
operational standpoint what part of that plan do you attribute 
the greatest success to, and then what part of that plan has 
been a disappointment? For what part would you consider some 
modification if you had to do it over again?
    General Mixon. Yes, sir. The part of the plan in my opinion 
that has been the greatest success is the close cooperation 
between the Colombian military and the Colombian civil 
agencies, such as the police and other agencies, to have a 
combined and joint effort. They full well know that in order to 
win victory for them in Colombia they must reestablish 
governance in these areas once the military actions are over. 
This is the first time in their history, at least to my 
knowledge, that they have worked closely together with all 
governmental agencies throughout Colombia to ensure that this 
goal is achieved.
    That is buttressed by President Uribe's leadership and all 
those agencies have his support, not only from the standpoint 
of the raising of taxes in Colombia and increased military and 
police structure, but also just his physical presence and his 
leadership.
    Disappointment? I have been in this job since last July. I 
have not seen a disappointment per se, but I would like to see 
the Colombian military become more joint in the way they use 
their capabilities, and they are doing that.
    Senator Allard. Do they have various branches like we do?
    General Mixon. They do have various branches. With our 
advice and assistance, their most recent campaign that is 
ongoing in what is literally the heartland of the FARC, they 
have established a joint task force with all of their 
components--army, navy, marine, and air force--under one single 
commander. This is the first time in their history that they 
have done that.
    So as I say, the lack of jointness has been somewhat of a 
disappointment. We see steady progress in that area.
    Senator Allard. So if we had another country emerge like 
Colombia, then what you would like to see happen is encourage 
more cooperation between the various law enforcement and 
military agencies, all of them coming together in a joint 
effort to implement their efforts against narcotics?
    General Mixon. Yes, sir, that is correct. If I could 
elaborate on that, what you just said. What we have tried to 
encourage all the militaries in our region to do is the same 
thing we are doing in the U.S. military and take a 21st century 
approach: identify the threats within their organization, their 
country, and reorganize themselves accordingly.
    Not all countries need a large military. They may need more 
police forces. For example, the gangs we are seeing forming in 
some of these countries; the police are the ones that need more 
force structure and more support versus the military. So we 
encourage them along those lines.
    Senator Allard. Now, one of the things that I have noted, 
it seems like when you have success in one area the drug trade 
moves someplace else. I do not know whether you can comment on 
this in an open session like this, but in which areas of the 
world do you see a potential for, once you move them out of 
Colombia and move them out of some of the areas we have had 
success in, where do you think they may go to next? If you 
cannot give us a specific geographic area that you may see 
where they would head, perhaps you could share with this 
subcommittee certain factors that you look at that put certain 
parts of the world on your watch list for possible inclusion in 
the drug trade.
    General Mixon. As far as growth in production, the two 
principal countries that we will continue to keep an eye on 
will be Peru and Bolivia. We know the history that Bolivia has 
had, and we also know the culture in Bolivia as far as coca is 
concerned. So we will continue to watch those countries in 
particular.
    Senator Allard. Bolivia at one time had a drug trade. Then 
it was brought under control, the way I understand it, and you 
think it is still at risk?
    General Mixon. It is still at risk. Particularly, the 
government, Senator, recently has experienced some turmoil in 
that area, and as we watch the various forces that are working 
there some of them have links to the Cocalera movement. We are 
very concerned about what is going on down there and we will 
keep a close eye on it.
    Senator Allard. Peru is also a concern?
    General Mixon. It is a concern. We will watch it.
    Senator Allard. Mr. Chairman, I think those are the main 
things I wanted to pursue in my time. Thank you.
    Senator Roberts. Senator Warner, would you like to make any 
comments at this time?
    Senator Warner. Thank you, Mr. Chairman and the ranking 
member. Mr. Chairman, we are fortunate, this subcommittee and 
indeed the full committee and Congress, that Secretary 
O'Connell accepted this post. It is a very important post. It 
was created and envisioned right in this room many years ago, 
and I participated in the deliberations and the legislation 
which established your office.
    If I may say, you bring to this office an extraordinary 
record of accomplishments: in uniform, the 82nd Airborne, SOF, 
intelligence officer, liaison with the British intelligence in 
Great Britain. We are fortunate you relinquished other, perhaps 
more lucrative, opportunities and accepted this one. You have 
the strong support of this committee.
    Mr. O'Connell. Thank you, Senator. That means a great deal 
coming from you.
    Senator Warner. Well, I appreciate that.
    I also think there is a direct correlation between the drug 
trade, wherever it is in the world, and terrorism. Particularly 
I am going to address my questions here to Afghanistan 
momentarily. But it is ever so clear there. Perhaps you have 
knowledge of it, but there may be evidence you could share with 
us that Osama bin Laden and the current operation of al Qaeda 
could be receiving funds from the poppy trade in Afghanistan.
    Before I proceed further, though, Mr. Chairman, members of 
the subcommittee, given the distinguished career of our 
Secretary, we should recognize our sympathies to the families 
of those members of the private sector contractors lost 
recently in Iraq. It was tragic. Many former U.S. military have 
gone on to really indirectly serve their country by working for 
private contractors. Those individuals are essential to the 
work that we are performing in Iraq, primarily the rebuilding 
of the infrastructure. It requires a certain amount of security 
and we are fortunate that these retired military people have 
stepped up.
    Is there anything further you could tell us about that 
incident here this morning for the record?
    Mr. O'Connell. Sir, not for the record, but I know we go to 
a closed session. We were talking with Senator Dole just 
recently. Of course, that company is home-based in her State. 
You are correct that many special operators go to work for 
firms like that.
    Senator Warner. When you say ``special operators,'' those 
following this proceeding might not pick up on that. These are 
U.S. military SOF like yourself.
    Mr. O'Connell. Many of them would have been Navy SEALs, 
would have been Army Rangers or marines or just people who were 
willing to go through the training and take on this type of 
job.
    It is becoming more and more frequent in our society. There 
is a high demand for that type of trained person. They take a 
very high risk. Certainly I agree with you, Senator; our hearts 
go out to not only all the military, but the civilian 
contractors that have lost their lives, not only in Afghanistan 
and Iraq but around the world. We have hostages in Colombia 
today, three Americans, that of course are on our minds all the 
time.
    With respect to your issue in Afghanistan, sir, can that 
country move forward with the basis of the economy being so 
tightly tied to narcotics? I think the answer is no. I think we 
all realize that. If, in fact, the numbers that have been 
kicked around are correct, and 60 percent of the GNP is coming 
in some way, shape, or form from the narcotics trade, then I do 
not think we are going to be successful.
    That is why I am encouraged by the approach that we have 
agreed to with the British government, with the Germans, with 
the Italians, and particularly the plan that CENTCOM I think 
will put into effect with good results. I am optimistic that 
this next year will be a signal change in how we approach the 
issue.
    A lot of it--you just returned from talking with President 
Karzai and going out into the countryside--is going to depend 
on whether the Afghan people can step up to their own 
governance. Are they willing to take the risks to be policemen?
    Senator Warner. On that point, just days after we departed, 
one of his principal ministers was gunned down. Is there a 
linkage yet established, perhaps with the narcotics business?
    Mr. O'Connell. Sir, quite frankly, I think the Intelligence 
Community has been less than precise on this issue. As we were 
talking about, coming over in the car, it is a bit like pickup 
sticks there. You pull one drug lord out or someone you feel is 
tied into the drug business and there are unintended 
consequences. You never know what militia that is tied into, if 
it is tied into the government, and what is going to be the net 
result.
    There are longstanding tribal rivalries and frictions, as 
you well know, there, sir. But I think as our intelligence 
effort picks up we are going to be able to identify those 
people who are, in fact, involved with processing, in fact 
involved with shipping, and hopefully get better insight into 
what portion of that money goes into supporting groups as, not 
only al Qaeda, but the Taliban and potentially other spinoff 
groups. But there clearly is a linkage.
    Senator Warner. Well, let us take just a minute to focus on 
the background, the history of this. We fortunately have 
yourself--and General Mixon, I know you have been through this 
very country where these drug operations take place in your 
assignment over there.
    You go back in history--the British Empire tried to conquer 
this region in the late 1800s and lost tens and tens of 
thousands of soldiers, and finally wrapped up and went home 
unsuccessful. That was followed by the Soviet Union that went 
in there and lost tens and tens of thousands of soldiers, and 
of course there was a very strong civil war in addition.
    But this is mountainous country. It is prevalent with old, 
historic trails that only a donkey can crawl over. This is not 
going to be an easy job, shutting this down, because this poppy 
growing has been going on for centuries. Am I not correct?
    Mr. O'Connell. Afghanistan, sir, is made by God for growing 
poppies.
    Senator Warner. I went into this in some detail. I have a 
modest interest in agriculture. This is the former chairman. 
But you can literally throw the poppy seeds on the ground and 
hardly scratch the earth and they take root, and they can 
survive under extraordinary drought conditions and produce a 
prolific crop.
    So this is a daunting and challenging task, and 
particularly against the history of others who have tried to 
bring into this region some conformity with the laws of man.
    But I congratulate General Abizaid. We are fortunate to 
have him as the combatant commander. He is an extraordinary 
man, and all of us here on the committee have dealt with him 
extensively.
    In the course of our meeting, we met with General Hillier, 
who is the commander of the joint forces over there, and he 
expressed great concern about this situation. I want to once 
again reiterate, I think it is very important that NATO come 
into this AOR and begin to work in it, take up greater 
responsibilities, but I do not believe that they are equipped, 
trained, or otherwise, or should they be the primary outfit to 
tackle this question of the drug trade.
    Now, looking through the testimony of the Admiral here, the 
U.K. has the international lead. Where was that established? 
What is the documentation? My recollection is it goes back into 
some U.N.--where was the authority for that derived, Admiral?
    Admiral Clingan. Senator, the penultimate authority escapes 
me at this moment. I do know that we have an agreement at our 
level----
    Senator Warner. You mean CENTCOM?
    Admiral Clingan. CENTCOM.
    Senator Warner. Has an agreement with?
    Admiral Clingan. With regard to the U.K., signed by Mr. 
Rodman, that establishes our relationship in regard to the U.K. 
lead nation efforts in Afghanistan.
    Senator Warner. I think that is fine, and I am sure that 
they have learned by experience. One or two of the programs 
they have initiated, I mentioned are not working. They are 
ready to take new initiatives. But they will continue then in 
the lead, is that correct?
    Admiral Clingan. Yes, they will.
    Senator Warner. The $73 million which the Congress of the 
United States in its wisdom--and I think it was a very wise 
move--provided to fund this program, does that money flow then 
to the U.K. directly or how does it transfer?
    Admiral Clingan. No, sir. That money will be obligated in 
accordance with a plan CENTCOM has developed in concert with 
ASD-SOLIC, in concert with the U.K., DOS, and DEA.
    Senator Warner. So it will be controlled entirely by us. 
But if they are in command and given the magnitude of that 
money, they have to have a voice in this matter. Was their 
voice listened to as this structure which you outline in your 
testimony--were they involved in this?
    Admiral Clingan. Our plan has been coordinated with them, 
sir.
    Senator Warner. Coordinated.
    Admiral Clingan. As it has been with the other interagency 
initiatives, to make sure that we do not duplicate efforts and 
that we in fact are moving ahead in complementary fashion.
    Senator Warner. All right. I am not in any way being 
critical. I am just trying to get a grasp of it. The U.K. is in 
charge. We have this program which you have outlined here, and 
it is in coordination with their leadership, and we are in 
support or working directly--or just how does it----
    Admiral Clingan. Our support to the U.K. effort happens in 
some specific realms. For example, in the operational realm, we 
currently provide them intelligence support, we provide them en 
extremis close air support should some of their teams come into 
contact with an enemy force that exceeds their capabilities. We 
can extract them from that type of situation as well.
    Senator Warner. That is a good example. I want to press on. 
Do you know what budget they have allocated to their effort? Do 
you know, Mr. Secretary?
    Mr. O'Connell. Yes, sir, I can answer that. I believe I got 
these figures at the end of calendar year 2003. It was our 
estimate--and their records--that they allocated $114 million 
over the next 3 years for, among other things, alternative 
livelihoods, which we have already discussed, interdiction, 
institution building, and specific law enforcement.
    They have trained what we think and hope is going to be a 
fairly effective enforcement and interdiction unit. We are 
providing limited aircraft support to that unit. The U.K. has 
indicated that they will shift efforts in terms of helping 
support on the eradication side. Even though that is primarily 
an Afghan effort, they will be assisting the government in 
putting that program together.
    As I said, sir, I have met four times with British 
officials and I think we have a good way ahead in terms of 
intelligence sharing. I have reallocated funds from certain 
signals intelligence accounts and overhead imagery accounts 
that can assist the British as they are working against various 
labs.
    Senator Warner. But as old Harry Truman says, the buck 
stops on the British desk; is that correct?
    Mr. O'Connell. They are the lead agency.
    Senator Warner. They are accountable for the overall 
operation of this program, in which we have a very significant 
supporting role?
    Mr. O'Connell. Yes, sir.
    Senator Warner. Would you agree that that is correct?
    Admiral Clingan. Yes, sir.
    Senator Warner. Now, do they employ just military or a 
combination of military and civilians?
    Mr. O'Connell. A combination.
    Senator Warner. Since there is a reference in here to the 
DEA, which apparently are working with----
    Mr. O'Connell. Excuse me, sir?
    Senator Warner. I beg your pardon. DEA is working with--you 
enumerate in here: ``This will enhance operations by U.S. law 
enforcement officers, provincial reconstruction teams, law 
enforcement, coalition forces.'' Everybody is, fortunately, 
pulling together to make this work. But the DEA is working as a 
part of our program?
    Mr. O'Connell. Yes, sir, as part of our program. I met 
twice with DEA Administrator Karen Tandy and her intelligence 
operations and deputy chief specifically on operations in the 
Intelligence Fusion Center that we are setting up for better 
intelligence sharing. I wanted to give her complete visibility 
into our DOD intelligence capabilities that are going not only 
to support CENTCOM, but the British, to make sure she had full 
access.
    Additionally, they can bring a very large amount of 
information to the table on routes out of Afghanistan and how 
they go into Russia, as an example, through Iran, and into the 
U.K. Those three countries in particular are perhaps most 
affected by the poppy coming out of Afghanistan.
    So in terms of how the DEA works, they have been very 
forthcoming. I would also like to add, not only the DOS, but 
the Central Intelligence Agency's counternarcotics center has 
produced some very good products that I think will lay out for 
CENTCOM and the task force there the nature and scope of the 
problem, not only border issues, but cultivation issues, lab 
processing sites and terrorist financing.
    So I think we have a good effort under way, sir.
    Senator Warner. Well, when we were there we were briefed by 
General Hillier that just within 48 hours of our being there 
they rolled up a very significant plant which was refining the 
raw material before it was exported. Am I not correct in that?
    Mr. O'Connell. That is correct, sir, and we are hopeful for 
more in the future.
    Senator Warner. This momentum is now beginning to show 
clear results?
    Mr. O'Connell. I hope so, sir. I will defer to Admiral 
Clingan. I think the first eradication actually is starting 
today, according to statements that I have seen out of the 
Afghan government. They are actually on the ground in certain 
areas, I think particularly in the southeast, where eradication 
will start.
    Senator Warner. Admiral, this is your portfolio. Pick up.
    Admiral Clingan. Senator, momentum is building on two 
fronts. First is that the fielded forces have been given 
recently--as recently as early January and again this month--by 
CENTCOM clear direction on their role to play in regard to 
dealing with drugs, labs, and other things discovered in the 
course of their ongoing operations. So I think not only are 
they going to be unequivocally clear in their own mind what 
their obligations are when discovering those types of things, 
but we are going to enhance the reporting of it so that we get 
increased visibility. Specifically, discovery of drugs or a 
drug lab or paraphernalia associated with that drug trafficking 
trade is going to be a significant activity that gets reported 
immediately up the chain of command.
    So on the tactical level, momentum is building. On the 
programmatic level, we are excited by the $73 million made 
available to us by Congress and our efforts will span the eight 
items you have seen in my written testimony there. Importantly, 
those include stronger border control efforts and the 
Intelligence Fusion Center.
    Senator Warner. Any facts that you can share with us as to 
Osama bin Laden's linkage to this operation?
    Admiral Clingan. Sir, there is clearly linkage between 
terrorist organizations and the narcotics trade .
    Senator Warner. But he is just over the mountain, 
presumably, from where much of this is taking place.
    Admiral Clingan. Sir, there is no clear and specific 
linkage between bin Laden himself and the drug trade that I am 
aware of.
    His organization clearly benefits. One funding stream for 
al Qaeda is narcotics.
    Senator Warner. Well then, to me that is a linkage. I am 
not presuming that the dollars actually get into his pocket, 
but it gets into his organization's pocket.
    Admiral Clingan. Yes, sir.
    Senator Warner. That has been established?
    Admiral Clingan. Yes.
    Senator Warner. This is very helpful, Mr. Chairman. I just 
want to make certain that Great Britain understands that the 
buck stops there. We are giving them every conceivable support 
that we can to make this work, because in my judgment this drug 
situation is a serious roadblock to progress in moving forward 
with developing our goals in Afghanistan.
    To me, it could become a roadblock to further expansion of 
the NATO operation of responsibility. NATO envisions a plan 
where they are currently in that one quadrant up there, they 
are going to move to another quadrant and another and another, 
and perhaps in 18 months or so they will be taking over the 
majority of responsibility. Mr. Secretary, is that not the 
plan?
    Mr. O'Connell. Yes, sir. There was a meeting that I believe 
terminated in Berlin yesterday where many of the NATO nations 
in the donors conference offered up various types of support, 
various accounts, various amounts. As that is sorted out--I 
think Lieutenant General Barno was there--we will be able to 
look at how those amounts are coming in, and I am sure the 
Afghan Government will look at what amounts can we integrate 
into our total counternarcotics strategy and anti-poppy 
strategy in Afghanistan.
    So there are positive developments, sir.
    Senator Warner. Do you share my view that this is a 
roadblock?
    Mr. O'Connell. Absolutely, sir. A country--and I do not 
know that anybody has ever been able to pin down the GNP of 
Afghanistan. I think that would be an economist's nightmare, 
but it is someplace between $4 and $14 billion. Most experts 
agree that around 60 percent of that GNP has some way of being 
tied to narcotics cultivation, development, processing, sale, 
and transport.
    Senator Warner. The emerging Afghan Government, their 
security forces are taking up a responsible role in this?
    Mr. O'Connell. Yes, sir. In fact, when you go back to the 
British efforts, they are training what we hope to be an 
effective police force that can go around the country.
    Senator Warner. Good. I thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Roberts. Mr. Chairman, I want to thank you for 
paying tribute on behalf of the subcommittee and the full 
committee to those who went through that very barbarous attack 
and the families of those who lost loved ones. That was a 
terrible tragedy, and I would certainly agree with Ambassador 
Bremer when he was addressing those who were still in the 
police training, that there was a choice for Iraq between 
barbarism like that--which is hard to understand, because it is 
hard to understand why people perform in such a manner, man's 
inhumanity to man--and individual freedom and stability.
    But I want to thank you for those comments. Like yourself, 
I have no illusions. It was in 1921--I forced the chairman to 
watch ``Lawrence of Arabia'' on our way to Iraq.
    Senator Warner. On the way home, I think it was.
    We had finished our trip through Iraq and Afghanistan. We 
were on the way home and you played it on the airplane. I 
remember it very well.
    Senator Roberts. Three hours and 15 minutes.
    Senator Warner. Right, and what was the last scene?
    Senator Roberts. Well, they rode to Damascus to achieve 
PanArabia, and it did not work out very well.
    Senator Warner. They turned it over to the Arabs, their own 
lands.
    Senator Roberts. Basically, what happened was that the 
Brits sat there and the power went off and the water went off 
and the hospitals did not work, and the tribes got to arguing 
again, and they all got back on their camels and went back to 
their tribal lands, and everybody scratched their head and 
said: What the hell was that all about? Churchill said that the 
people of Mesopotamia, i.e., the new Iraq--the British do bear 
that responsibility for really creating that country--
represented ``an ungrateful volcano.'' If you carry it a little 
bit further and you read the remarks by King Faisal, who was 
the king for 10 years----
    Senator Warner. Of Iraq.
    Senator Roberts. --of Iraq, and you read his summation, 
which I will not because it is a rather negative summary of 
what he went through; it shows you the tremendous challenge 
that we have.
    Senator Warner. I just think that history should be the 
rear view mirror as we try and achieve our goals in both Iraq 
and Afghanistan. Remarkable chapters of history where these 
areas have been--people have tried to infuse some sort of 
democracy in them without success in years past.
    Senator Roberts. The fiscal year emergency supplemental for 
the $73 million, which has been referred to by the chairman and 
also by the Secretary, it is my understanding as of April 1 
that very little of that funding has been obligated. So we will 
have an opportunity to do the things that you have talked 
about, to study how best to spend those funds. You have already 
gone over your plan to ensure the money is obligated in a 
timely and effective manner in conjunction with the British, 
but I think that is very important.
    I just want to say one thing, and then I am going to turn 
it over to Senator Reed, and then we will go to the closed 
session. If you really look at SOUTHCOM and our neighbors to 
the south, the 31 nations under SOUTHCOM, if you look at how 
that area of the world affects our daily lives and pocketbooks 
in America; the immigration challenges that we have; the trade 
challenges that we have; the tremendous opportunity for bulk 
commodities and specialty crops here; the energy situation, 
with Mexico and Venezuela and people like Hugo Chavez--whose 
oil minister was the chairman of the Organization of Petroleum 
Exporting Countries two summers ago and turned the valve back 
and we got into increased gas prices--look at the terrorism 
funding; and then also look at the drugs--I do not think you 
can make a list any more important in terms of our national 
security and the well-being of our people.
    Yet it seems to me that, in an area with 360 million 
people, where the average age is 14, where the people are 
malnourished, that we were doing about the best job that we 
could. A lot of infrastructure was taken away during the Balkan 
conflicts, and then we have Afghanistan and Iraq and I do not 
think it has ever been put back. Talk about miles to cover and 
talk about things that we should be concerned with.
    There is assistance under the National Defense 
Authorization Act, Section 1021, that provides for the DOD to 
provide counternarcotics training, equipment, and assistance to 
seven additional countries in South America and South Central 
Asia, and also to renew the authority in Colombia which has 
been the subject of this hearing, and Peru.
    I just went down on a delegation with Senator Cochran and 
learned for the first time about the three-border area, what we 
call the wild, wild South or the wild, wild West or something, 
where there is virtually no law, and the proceeds of activities 
there obviously go straight to financing terrorism.
    I am still concerned that we--I do not want to call it 
benign neglect, but I think we ignore at our peril all of these 
problem areas that I have just gone into. I know all the rest 
of our missions around the world, more especially with the 
global war on terrorism, are extremely important and are of a 
high priority. But I worry about SOUTHCOM and what could 
develop.
    That is not in the form of a question. That is just an 
observation. If any of you would like to comment on that, why, 
feel perfectly free.
    Mr. O'Connell. I would agree, Senator.
    General Mixon. Yes, sir, I would comment on that if you 
would allow me, please. First of all, this was my first 
assignment as a member of SOUTHCOM in my 29 years of service in 
the United States Army, and I found it to be very interesting 
as I became a little smarter on the importance of the region. I 
was not aware of it myself, to be perfectly frank with you.
    Then as we did the analysis, as General Hill mentioned 
yesterday in his comments, we receive approximately 0.22 
percent of the DOD budget for operations in that region, and we 
currently have deployed in the region a little over 7,000 U.S. 
military throughout 29 countries. If you count that dollar 
investment, as well as the investment in numbers of U.S. 
military, from a military perspective that is a very small 
investment for a very big return on what is a very important 
region, as you point out.
    I have tried to study a little bit about Latin American 
history and what makes Latin America Latin America. It dawned 
on me as I studied that there are a lot of threats, and you 
mentioned them: the tri-border area, the financing of illegal 
groups, drugs, illegal gangs--you name it, they are all out 
there.
    But it became apparent to me that the biggest threat we 
have in this region is endemic poverty, and until we can deal 
with that and assist these countries in trying to deal with 
that particular situation, all these other problems have room 
to grow and fester like a sore wound. So that is an area that 
requires a multi-agency perspective and action.
    We focus on that in SOUTHCOM. We realize that there are not 
just military solutions to these challenges. It is an 
interagency effort. We work with the interagency group closely 
in all of these areas and see how we can best provide military 
support within our capabilities.
    So that would be my overall comment on the situation that 
you just mentioned, sir.
    Senator Roberts. Well, I point out that when General 
Wilhelm was the commander down there in SOUTHCOM, I think he 
counted Cuba and one other country, so maybe when I said 31 and 
you said 29 that there was some difference of opinion. But at 
that particular time they had just gone through a terrible 
hurricane and our National Guard folks were there in uniform 
building back bridges, building back infrastructure, helping to 
build schools, etcetera.
    I do not think we can do that now, with all the stress and 
strain on the National Guard and our Reserves. As you have 
indicated, with only 7,000 people we are going to pay the 
price. We have seen recent elections, and I am not going to get 
into any judgment on that other than the fact that President 
Lula and President Kirchner of Argentina and Brazil and then 
the lame duck situation in Uruguay--I do not think we can 
afford to go back to the Nicaragua days of the early 1980s and 
find ourselves in that kind of a situation.
    I see this thing tilting, for no better description, to not 
so much an anti-U.S. bias, but certainly a position independent 
of the United States. We see it in trade, where that whole 
trade round--why, Brazil and Argentina simply threw a monkey 
wrench into that. We have a lot of work to do. As I understand 
it, we have other priorities, but I worry about it.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Chairman Warner has raised the issue and has expressed all 
of our outrage about the ghastly attack upon the contractors. 
It raises some questions, Admiral. First, do we have an idea of 
how many of these type of security contractors there are? These 
are people who are armed and much different than someone going 
in to give advice about a project, like an engineer. But these 
are armed individuals whose job is to protect vehicles and 
properties and engage if they have to.
    Do we have an idea of how many of these we have in country?
    Admiral Clingan. Senator, thank you for the question. We do 
have an idea. In fact, I would hazard to say that we know 
specifically how many contract security detachment personnel we 
have. The precise number I am not aware of, but I can certainly 
find out.
    [The information referred to follows:]

    There are approximately 20,000 personnel employed by Private 
Security Companies (PSC) in Iraq and the number is expected to grow as 
reconstruction efforts accelerate. PSCs provide three distinct security 
services including personal security details for senior civilian 
officials, nonmilitary site security (buildings and infrastructure), 
and nonmilitary convoy security. These services are defensive in 
nature.
    The overwhelming majority of PSCs (approximately 60 PSCs employed 
in Iraq) are hired as subcontractors by companies engaged in the 
reconstruction efforts throughout Iraq. Each subcontracted PSC reports 
directly to their prime contractor, not the government. The prime 
contractors are directly responsible to the Chief of Mission for the 
performance of their contract. The exact number of PSC personnel is 
difficult to determine because such information is proprietary and may 
have privacy implications. Therefore, subcontracted PSCs and their 
parent companies generally do not make available details concerning the 
prices of their contracts, salaries, or number of employees.
    The DOD, DOS, and the Interim Iraqi Government continue to 
coordinate to issue uniform guidance regarding PSCs employed in Iraq in 
order to have a better accounting of the numbers of individuals 
undertaking the security mission for both the United States Government 
and the Interim Iraqi Government.

    Senator Reed. Your notion would be on the order of some 
thousands?
    Admiral Clingan. No, sir, significantly less. The contract 
Program Security Directive folks are primarily focused on 
providing security to the Coalition Provisional Authority and 
some other entities on a smaller scale than that.
    Senator Reed. The other issue the tragic incident this week 
raises is the coordination between military forces and these 
civilian security personnel, and also the standard operating 
procedures that both sides would follow. One of the questions 
that remains unanswered is that apparently this situation took 
several hours. It was an attack and then the crowd built up, 
etcetera. At no time did the American military units respond to 
try to recover the body or somehow disperse the crowds, or 
Iraqi security forces.
    This whole issue of operations I think is important. Can 
you comment upon that, Admiral?
    Admiral Clingan. Sir, in this forum I can say that we are 
continuing to investigate the circumstances surrounding that.
    Senator Reed. Thank you very much, Admiral.
    Let me raise two other countries----
    Senator Roberts. On that point, I had hoped we learned that 
lesson in Somalia.
    Senator Reed. I concur.
    Two other countries. First, Pakistan. According to the 
International Narcotics Control Strategy report, Pakistan 
showed a remarkable rebound, unfortunately, in opium 
production, and it is a transit site for some of the opium 
leaving Afghanistan. Secretary O'Connell and Admiral Clingan, 
can you comment upon the situation in Pakistan with respect to 
this increased production, because it conjures up also the 
destabilizing effects of drug money getting into the hands of 
insurgents.
    Admiral Clingan. Senator, thank you for the question. We 
are concerned in CENTCOM in regard to narcotrafficking 
throughout the AOR and particularly southern Asia, which 
includes Pakistan. Part of our plan addresses the bordering 
countries surrounding Afghanistan, and clearly watching the 
border area between Pakistan and Afghanistan is an area that we 
will pay attention to in regard to enhancing border controls. 
That and the Stans in the north, those two areas are of 
considerable interest to us because of the comment that you 
made.
    Senator Reed. Thank you.
    General Mixon, we have forces in Haiti today and apparently 
Haiti also is at least a transshipment point, if not a 
production point. Can you comment upon the situation in Haiti 
with respect to drugs?
    General Mixon. Yes, sir, I can. First of all, it is a 
transshipment point. We do not have any indicators of 
production in that area.
    I would just comment that at the present time we have 
approximately 3,700 total forces in there, including all the 
multinational forces in that area. During the first 30 days of 
the operations in Haiti, we saw absolutely no flights going 
into Haiti as we had tracked over the past. However, 
unfortunately, during the last week we have identified at least 
one unidentified flight going into the area, which indicates to 
us a resumption of it as a transshipment point.
    It is our intention, it is General Hill's guidance to the 
JTF, that we will monitor that, working closely with JIATF-S, 
and we will do everything that we can do to shut it down as a 
transshipment point, given the fact that we are on the ground 
and present in Haiti. We will do that in conjunction with the 
other agencies that are involved.
    It is important to note that as a part of the JTF in Haiti 
we have formed our naval component around the U.S. Coast Guard. 
As of about 3 days ago, they have done close to 100 boardings 
of private and small vessels to assure that Haiti does not 
operate again as an open transshipment point. So we are going 
to take aggressive action in that particular area, because it 
will destabilize our efforts.
    Senator Reed. I guess the question that that begs is, we 
can do that now with 3,000 international personnel on the 
ground and with the Coast Guard flotilla out. What happens or 
what are we going to do to ensure when we leave that it 
continues to not be a transshipment point?
    General Mixon. We will continue to do operations, as we 
have done, in coordination with the DEA. JIATF-S, that is one 
of the areas that they monitor. Ideally, as we begin to reform 
the Haitian national police we can work with them to make them 
more effective, because really that is where we need to put our 
focus. In the past that has been part of the problem and, as we 
saw over the last year, there were strong indicators of Haitian 
national police involvement in the drug trade.
    Senator Reed. Thank you very much.
    Now, let me follow up, General Mixon, because the request 
for increased personnel in Colombia raises some specific 
questions. I think you assured us that you will have sufficient 
support from DOD in terms of the individuals you need, so you 
are not going to be limited in terms of personnel available. 
That is correct, is it not?
    General Mixon. There will be a consideration, of course, as 
we request those additional personnel, but I think we will get 
their support when we do ask for those people.
    Senator Reed. How do you envision using these increased 
forces? Will they accompany units in the field? If they do, how 
far down? How far will they go into the areas of contact?
    General Mixon. Yes, sir. They will operate from secure 
bases. A specific level--the planning and assistance teams that 
we have operating in Colombia today, most of those team members 
came from within the components of SOUTHCOM that were not 
deployed and have not been deployed. In other words, we did not 
go out to the broader DOD.
    They operate at brigade level, with one exception. We have 
planning and assistance teams that operate in advice to the 
Lancero Battalion, which is a Ranger battalion equivalent. Even 
at that level, they stay in secure bases, providing planning 
and assistance.
    If those headquarters move into an area, it is the 
responsibility of the military group commander to ensure that 
they are moving to a secure base and through his approval is 
the point in time when the planning and assistance team can 
move to that base. But they are not allowed to leave the secure 
base. They are not allowed to go on combat patrols or 
participate in combat operations.
    Senator Reed. Thank you.
    Part of the dilemma in Colombia has been the size of the 
Colombian military force and its capabilities. Is this request 
made in recognition of the progress that the Colombians have 
made in terms of having effective units that can go out and 
essentially use the skill and the services of these planners?
    General Mixon. Sir, that is exactly the point. Their 
military has grown and they are doing larger scale operations 
where more units are put in the field. Therefore, we see it as 
important to provide them the advice and assistance.
    I would tell you, to echo what General Hill said yesterday, 
the Colombian military and the Colombian Government clearly see 
this as their war to win. Whenever we look at their units and 
how they are doing operations and the support they may need, we 
always go to them first and say: This is what we recommend 
where we can help you. Sometimes they say: Yes, we would like 
that help. Sometimes they say: No, give us some time until we 
are ready to receive that support.
    My point is that they do not always come to us and rarely 
do come to us for the types of support we offer, but it is an 
effort done in conjunction with them and their military 
operations.
    Senator Reed. We discussed the situation in Iraq with 
contractors and Secretary O'Connell pointed out that there are 
contractors in Colombia. I will raise the same general 
question. What are the operating procedures to support these 
contractors, to know where they are in country, and to prevent 
a situation in Colombia like we saw in Iraq?
    General Mixon. Yes, sir. They operate under similar rules 
of engagement. However, the contractors that work for the DOS, 
that actually participate in the flying of some of the spray 
aircraft, some of the intelligence aircraft that support 
military operations, obviously are flying over hostile 
territory. We have lost two aircraft in the last year, year and 
a half. One resulted in the capture of three Americans who are 
still held hostage by the FARC.
    Senator Reed. Thank you.
    Thank you.
    Senator Roberts. We thank you for your testimony and we 
will now, at your request, move to a closed session. Thank you 
very much.
    [Whereupon, at 11:18 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
